                              U
                              UNITED STATES DEPARTMENT OF DEFENSE




Agency Financcial Report
November 2011




OFFICE OF THE UNDER SECRETARY OF
                               F DEFENSE (COMPTROLLER) / CFO
FOREWORD
The Department of Defense Agency                      Agency Financial Report (AFR)
Financial Report (AFR) for Fiscal
Year 2011 provides an overview of the                 The AFR consists of the Management’s
Department’s financial information                    Discussion and Analysis that provides
and performance goals and objectives.                 executive-level information on the
It also describes our priorities in                   Department’s history, mission,
response to challenges encountered in                 organization, key performance
defense of our Nation.                                activities, analysis of the financial
                                                      statements, controls and legal
For FY 2011, the Department has                       compliance and other challenges
chosen to produce the Agency                          facing the Department.
Financial Report as an alternative to
the Performance and Accountability                    Additional information is available in
Report (PAR). The alternative report                  Addendum A, Other Accompanying
is intended to simplify and summarize                 Information of the AFR.
information to increase transparency                  Annual Performance Report (APR)
while utilizing the Internet for
                                                      The APR will be included in the
providing additional details. The
                                                      Congressional Budget Justification and
Department’s FY 2011 reporting
                                                      will provide the detailed performance
consist of three components:
                                                      information and description of results
•   Agency Financial Report –                         by performance measures.
    Published November 15, 2011
                                                      Summary of Performance and
•   Annual Performance Report –                       Financial Information
    Published by February 6, 2012
                                                      This document will summarize the
•   Summary of Performance and                        Department’s financial and
    Financial Information – Published                 performance information from the AFR
    by February 15, 2012                              and APR, making the information
                                                      more transparent and accessible to
All three reports will be available at                Congress, the public, and other key
the Comptroller’s website:                            constituents.
http://comptroller.defense.gov/




                              Preparation of this study/report cost the
                                 Department of Defense a total of
                                    approximately $107,000 in
                                     Fiscal Years 2011 – 2012.

                                      Generated on 20111110
                                        RefID: 8-C1D0E60
                                                          
Department of Defense Agency Financial Report for FY 2011


Table of Contents
Message from the Deputy Secretary of Defense ..........................................ii

Management’s Discussion and Analysis
   Fiscal Year 2011 Overview ....................................................................... 5
   Mission ................................................................................................. 7
   Organization .......................................................................................... 8
   Resources ............................................................................................12
   Performance Goals, Objectives, and Results ..............................................15
   Financial Performance ............................................................................24
   Management Assurances ........................................................................31
   Systems, Controls, and Legal Compliance .................................................32
   Management Challenges .........................................................................38
   Other Management Information and Initiatives ..........................................39
   Path Forward ........................................................................................43

Financial Section
    Message from the Chief Financial Officer ...................................................45
    Independent Auditor’s Report .................................................................46
    Principal Financial Statements and Notes ..................................................56
    Required Supplementary Stewardship Information ................................... 131
    Required Supplementary Information ..................................................... 134

Appendix A: Glossary ................................................................................ 140

Appendix B: Useful Web Sites .................................................................... 144

Addendum A: Other Accompanying Information
   IG-Identified Management and Performance Challenges ............................ A-1
   Managers’ Internal Control Program ..................................................... A-27
   Improper Payment and Payment Recapture Programs ............................. A-42

Addendum B: Defense Security Cooperation Agency
Financial Statements and Notes .............................................................. B-1




                                                                                         Table of Contents
                                                         i
MESSAGE FROM THE DEPUTY SECRETARY OF DEFENSE
 
It is a privilege for me to introduce the
Department of Defense (DoD) Agency Financial
Report (AFR) for Fiscal Year 2011. The AFR
contains the most complete information
available concerning the Department’s finances.
In these pages, the reader will find a summary
of how, over the past year, the men and
women of DoD managed the taxpayers’
resources. These resources have been put to
work in the fight against terrorist organizations
in Afghanistan and elsewhere, in the drawdown
of forces in Iraq, in providing relief to the
victims of natural disasters, and in support of
friends and allies around the world. The AFR
also details the actions we have taken to
provide for the needs of the All Volunteer Force
and to acquire the equipment and technology
that will be needed to provide for the nation’s security in the years ahead.
In Fiscal Year 2011, the Department carried out its work in the midst of a
challenging financial situation. Budgetary pressures, continuing resolutions, and
possible shutdowns of the Federal government added an element of uncertainty
through much of the fiscal year.
In recognition of the fiscal pressures the country is facing, the Department took the
initiative and launched its own comprehensive review of strategic needs and costs.
Across DoD, everyone understands that the measure of our success depends on
efficiency as well as effectiveness.
In August, Congress upped the ante by passing the Budget Control Act of 2011
(BCA), which mandates $1.1 trillion in cuts to the discretionary part of the Federal
budget over the next decade.          As a result, we are now preparing for
recommendations that could trim about $450 billion from the Defense budget.
Decisions have not been made, but it is clear that achieving these savings will be
difficult but manageable.    The challenge at Defense is to preserve essential
capabilities even as we look for ways to trim costs. Above all, we must avoid
hollowing out the force and breaking faith with the brave men and women who are
fighting for us.
The BCA also created the Congressional Joint          Select Committee on Deficit
Reduction (JSCDR), which must find more than $1.5     trillion in additional reductions.
If Congress fails to agree on the required savings,   the BCA will trigger automatic
cuts, half of which – roughly $600 billion over the   next 10 years – will be taken
                                           
Department of Defense Agency Financial Report for FY 2011




                         This Page Left Blank Intentionally




                                         iv
Department of Defense Agency Financial Report for FY 2011


MANAGEMENT’S DISCUSSION AND ANALYSIS

FISCAL YEAR 2011 OVERVIEW
The Fiscal Year (FY) 2011 Department of Defense
(DoD) budget was crafted to rebalance the
priorities of America’s defense establishment,
institutionalizing successful wartime innovations to
better enable success in today’s wars while
ensuring that our forces are prepared for a complex
future. The DoD’s budget in FY 2011 continued to
use the defense strategy expressed in the
2010 Quadrennial Defense Review (QDR) Report,
which contained four priority objectives:
•   Prevail in today’s wars,
•   Prevent and deter future conflict,
•   Prepare to defeat adversaries and succeed in a
    wide variety of contingencies, and
•   Preserve and enhance the All-Volunteer Force.
We remain committed to the goal of disrupting, dismantling, and defeating al-Qaeda. While
the strategic defeat of al-Qaeda is within reach, the broader challenge of combating terrorist
and insurgent threats at their source will remain. We also must ensure the success of our
forces fighting to bring stability and security to Afghanistan as we begin a process of
responsible transition, as well as completing the drawdown in Iraq.
The Department continues to emphasize rebalancing the Joint Force towards the key
mission areas articulated in the 2010 QDR:
•   Defend the U.S. and support civil authorities at home,
•   Succeed in counterinsurgency, stability and counterterrorism operations,
•   Build the security capacity of partner states,
•   Deter and defeat aggression in anti-access environments,
•   Prevent proliferation and counter weapons of mass destruction, and
•   Operate effectively in cyberspace.
We made adjustments in the Department’s FY 2011 budget in line with these six mission
areas, investing in the capabilities needed in current conflicts, including intelligence,
surveillance and reconnaissance platforms, special operations forces, and cyber capabilities
– including the stand-up of a new cyber command. Enhancements also were made to
prepare for future conflicts, including investments in items such as mobility aircraft and
space capabilities.



                                                       Management’s Discussion and Analysis
                                               5
Department of Defense Agency Financial Report for FY 2011

The FY 2011 budget also sought to advance reforms in the way we do business, to carve out
efficiencies to help preserve and enhance key military capabilities in the face of the Nation’s
fiscal predicament and declining rates of budget growth. The FY 2011 budget supported
initiatives to continue to reform the Department’s institutions and processes to better
support the urgent needs of the warfighter; buy weapons that are usable, affordable, and
truly needed; and ensure that taxpayer dollars are spent wisely and responsibly. United
States forces need the right mix of weapons and platforms to deal with the span of threats
we will likely face in the future. The goal of our acquisition programs is to develop a
mixture of capabilities with flexibility to allow us to respond to a spectrum of contingencies.
The QDR guides us toward the right mix, and the FY 2011 budget moved us closer to
achieving that mix.
During the formulation of the FY 2012 President’s Budget, then-Department of Defense
Secretary Gates directed a baseline review of how the Department was staffed, organized,
and operated as a whole. As part of this review, efficiency savings were realized for the
Defense-wide civilian workforce, service support contractors, and Departmental studies.
The freeze on the civilian workforce retained all FY 2011 to FY 2013 Defense Agency civilian
full-time equivalents at the same level as authorized in FY 2010. The Department’s reliance
on service support contractors was reduced by 10 percent per year from FY 2011 to
FY 2013, for a cumulative 30 percent reduction. The Department’s reliance on advisory
studies was reduced by 25 percent below the FY 2010 actual levels and eliminated all non-
essential, lesser-value reports, including all reports generated by DoD Issuances that were
five years or older.
As a result of our efforts to prevail in today’s conflicts and to prepare for the complex
challenges ahead, America has asked much
of its All-Volunteer Force and the civilians
who support that force.         Multiple and
extended deployments have taken a toll on
our people and their families. As a nation,
we are obligated to take care of our people
to the best of our ability. From wartime
force management issues, to recruiting,
retention, family support, and wounded
warrior care, we must continue to tend to
the health of the All-Volunteer Force.
In   summary,      during   FY    2011   the
Department sustained the military and               Athletes sprint across the finish line during
                                                    the 100 Meter Dash at the Warrior Gam es
provided necessary capabilities to prevail in       track and field events in Colorado Springs,
today’s conflicts and prepare for tomorrow’s        Colo., May 17, 2011. The track and field
challenges. Throughout, the Department              events are the first of the Warrior Gam es to
                                                    take place through out the week.
remained focused on taking care of its
people and their families, and ensuring the                                    U.S. Air Force photo
                                                                      Staff Sgt. Christopher Griffin
best use of taxpayer dollars.




                                                         Management’s Discussion and Analysis
                                                6
Department of Defense Agency Financial Report for FY 2011

MISSION
The mission of the Department of Defense is to protect the American people and advance
our national interests. Key among American interests are security, prosperity, broad
respect for universal values, and an international order that promotes cooperative action.
These interests are inextricably linked to the integrity and resilience of the international
system. Consistent with the President’s vision, the United States will advance these
interests by strengthening our domestic foundation and integrating all elements of national
power; engaging abroad, based on mutual interest and mutual respect; and promoting an
international order that reinforces the rights and responsibilities of all nations.
                                                       The U.S. faces a complex and uncertain
                                                       future security landscape in which the pace
                                                       of    change    continues     to   accelerate.
                                                       Terrorists continue to learn and adapt,
                                                       posing a continuing threat to the security of
                                                       the United States and to our allies and
                                                       partners.    In addition, the rise of new
                                                       powers, the growing influence of non-
                                                       sovereign entities that exercise significant
                                                       influence at a national or international level,
                                                       the spread of weapons of mass destruction
                                                       and other destructive enabling technologies,
  The soldiers m ove forward, alm ost shoulder
  to shoulder, with live am m unition while            and a series of enduring and emerging
  practicing team m ovement drills at an               trends pose profound challenges to the
  advanced m arksmanship course on Cam p               international order.
  Beuhring, Kuwait.
        U.S. Army photo by Sgt. Travis ZielinskiAmerica’s interests and role in the world
                                                require armed forces with unmatched
capabilities and a willingness on the part of the Nation to employ them in defense of our
interests and the common good. The United States remains the only nation able to project
and sustain large-scale operations over extended distances. This unique position generates
an obligation to be responsible stewards of the power and influence that history,
determination, and circumstance have provided.
The role of the Department of Defense is to field, sustain, and employ the military
capabilities needed to protect the United States and its allies and to advance our interests.
In order to fulfill this role, the Department must continually assess how America’s armed
forces are evolving in relation to the wartime demands of today and the expected character
of future challenges.




                                                             Management’s Discussion and Analysis
                                                   7
Department of Defense Agency Financial Report for FY 2011

ORGANIZATION
Since the creation of America’s first army in 1775, the Department and its predecessor
organizations have evolved into a global presence of more than 3 million individuals
stationed throughout the world, dedicated to defending the United States by deterring and
defeating aggression and coercion in critical regions. The Department embraces the core
values of leadership, professionalism, and technical knowledge; its employees are dedicated
to duty, integrity, ethics, honor, courage, and loyalty.
Under the President, who also is Commander in Chief, the Secretary of Defense exercises
authority, direction, and control over the Department.           The Department of Defense
(Figure 1-1) is composed of the Office of the Secretary of Defense; the separately organized
military departments of the Army, Navy, and Air Force; the Joint Chiefs of Staff; the unified
Combatant Commands; the Inspector General; the Defense Agencies; the DoD Field
Activities; and such other offices, agencies, activities, and commands as may be established
for specific purposes.
Figure 1-1. Department of Defense Organizational Structure

                                                         Secretary of Defense
                                                     Deputy Secretary of Defense

                                                                                                Office of the Inspector General
                                                                                                of the Department of Defense


     Office of the                                                                                            The Organization
                               Department                 Department                Department                of the Joint Chiefs
     Secretary of
       Defense                 of the Army                of the Navy             of the Air Force                  of Staff
  • Under Secretaries,          Secretary                  Secretary                  Secretary                Chairman of the
                               of the Army                of the Navy             of the Air Force              Joint Chiefs of
  • Assistant Secretaries,                                                                                            Staff
    and                       Office      The     Office Office of Headquarters   Office of     The
  • Other Specified           of the     Army      of the    the     Marine           the        Air                   The
    Officials                Secretary   Staff    Chief of Secretary  Corps       Secretary     Staff               Joint Staff
                              of the               Naval    of the                  of the
                               Army              Operations Navy                  Air Force
           Defense
           Agencies
                                          The     The                The Marine                  The
                                         Army     Navy                 Corps                  Air Force
           DoD Field
           Activities                                                                         Combatant Commanders
                                                                                          • US Africa Command
                                                                                          • US Central Command
                                                                                          • US European Command
                                                                                          • US Northern Command
                                                                                          • US Pacific Command
                                                                                          • US Southern Command
                                                                                          • US Special Operations Command
                                                                                          • US Strategic Command
                                                                                          • US Transportation Command
  B10-02




                                                                             Management’s Discussion and Analysis
                                                                 8
Department of Defense Agency Financial Report for FY 2011

THE OFFICE OF THE SECRETARY OF DEFENSE
The Secretary of Defense and his principal staff are responsible for the formulation and
oversight of defense strategy and policy.
The Office of the Secretary of Defense (OSD) supports the Secretary in policy development,
planning, resource management, acquisition, and fiscal and program evaluation. The
immediate OSD is comprised of several Under Secretaries of Defense (USD) and Assistant
Secretaries of Defense (ASD) for various functional areas. Select OSD Principals also
oversee the activities of various Defense Agencies and DoD Field Activities. The OSD
organization chart is available at http://www.defense.gov/orgchart/

MILITARY DEPARTMENTS                             Figure 1-2. DoD Military Services
The Military Departments consist of the
Army, the Navy (of which the Marine Corps       Department of Defense
is a component), and the Air Force              Service Components
(Figure 1-2). In wartime, the U.S. Coast
Guard becomes a special component of the
Navy; otherwise, it is part of the Department
of Homeland Security.            The Military
Departments organize, staff, train, equip,                                         B10-08


and sustain America’s military forces. When
the President and Secretary of Defense determine that military action is required, these
trained and ready forces are assigned to a Combatant Command responsible for conducting
military operations.
The Military Departments include Active Duty, Reserve, and National Guard forces. Active
Duty forces are full-time Military Service members. The National Guard has a unique dual
mission with both Federal and State responsibilities (see Figure 1-3).         The Guard,
commanded by the Governor of each state or territory, can be called into action during local
or statewide emergencies,
such as storms, drought, or Figure 1-3. Reserve Forces and National Guard
civil disturbances.     When
ordered to active duty for                           Federal Missions
mobilization or called into
Federal service for national
emergencies, units of the
Guard are placed under
operational control of the
appropriate        Combatant
Commanders.       The Guard
and Reserve forces are
recognized as indispensable                            Federal and
and integral parts of the                             State Missions
Nation’s defense.
                                                                                       B10-25




                                                      Management’s Discussion and Analysis
                                             9
Department of Defense Agency Financial Report for FY 2011

DEFENSE AGENCIES
Seventeen Defense Agencies have evolved over time as a result of DoD-wide functional
consolidation initiatives. Defense Agencies provide a variety of support services commonly
used throughout the Department. For instance, the Defense Logistics Agency provides
logistics support and supplies to all Department activities.

DEPARTMENT OF DEFENSE FIELD ACTIVITIES
Ten DoD Field Activities also have evolved over time as a result of DoD-wide functional
consolidation initiatives. The DoD Field Activities perform missions more limited in scope
than the Defense Agencies. For example, the Defense Media Activity serves as the DoD
focal point for all Armed Forces information programs.

THE JOINT STAFF (JS)
The Chairman of the Joint Chiefs of Staff is the principal military advisor to the President,
the National Security Staff, and the Secretary of Defense. The Chairman and his principal
staff assist the President and the Secretary in providing for the strategic direction of the
Armed Forces, including operations conducted by the Commanders of the Combatant
Commands.

COMBATANT COMMANDS
Nine Combatant Commands are responsible for conducting the Department’s military
operational missions around the world (Figure 1-4).
Six commands have specific military operational mission objectives for geographic areas of
responsibility:
•   U.S. Northern Command (USNORTHCOM) is responsible for North America, including
    Canada and Mexico.
•   U.S. Pacific Command (USPACOM) is responsible for China, South and Southeast Asia,
    Australia, and the Pacific Ocean.
•   U.S. European Command (USEUCOM) is responsible for activities in Europe, Greenland,
    and Russia.
•   U.S. Southern Command (USSOUTHCOM) is responsible for Central and South America
    and the Caribbean.
•   U.S. Africa Command (USAFRICOM) is responsible for the entire continent of Africa
    (except for Egypt).
•   U.S. Central Command (USCENTCOM) is responsible for the Middle East, Egypt, and
    several of the former Soviet republics. This Command is primarily responsible for
    conducting Operation Enduring Freedom in Afghanistan and Operation New Dawn in
    Iraq.




                                                      Management’s Discussion and Analysis
                                             10
Department of Defense Agency Financial Report for FY 2011

Three Commands            have      worldwide      mission         responsibilities         focused     on     a      particular
function(s):
•    U.S. Strategic Command (USSTRATCOM) provides global deterrence capabilities,
     direction of Global Information Grid operations, and synchronizes Department efforts to
     combat weapons of mass destruction worldwide.
•    U.S. Transportation Command (USTRANSCOM) moves military equipment, supplies, and
     personnel around the world in support of operations.
•    U.S. Special Operations Command (USSOCOM) leads, plans, synchronizes, and as
     directed, executes global operations against terrorist networks.
The Military Departments supply the necessary capabilities to these Commands. As such,
the operating costs of these commands (except the USSOCOM) are subsumed within each
Military Department’s budget. The USSOCOM is the only Combatant Command that has
budget authority that resides outside of the control of the Military Departments and is
reflected in the Department’s Defense-wide accounts.


Figure 1-4. Combatant Commands Geographic and Functional Areas

    Six commanders have specific mission objectives for their geographical areas of responsibility:




      United States     United States        United States          United States      United States       United States
    Northern Command   Pacific Command    European Command        Southern Command    Africa Command     Central Command



       USNORTHCOM


                                                         USEUCOM




                                                                                                       USPACOM


                                                                           USCENTCOM
                  USSOUTHCOM
                                                                                                                      B10-04
                                                      USAFRICOM


     Three commanders
     have worldwide mission
     responsibilities, each
     focused on a particular
     function:                                                                                     United States
                                            United States               United States            Special Operations
                                         Strategic Command         Transportation Command           Command



                                                                         Management’s Discussion and Analysis
                                                             11
Department of Defense Agency Financial Report for FY 2011

RESOURCES
The Department requires resources (personnel, facilities and infrastructure, and budget
authority) to carry out key missions and execute management reforms. The strategic
placement of our personnel, installations, and facilities are key for protecting our homeland
and national resources. These resources have never been more important than they are
today as the U.S. fights terrorists who plan and carry out attacks on our facilities and our
people.
                                                Figure 1-5. Staffing for FY 2011
Our workforce consists of more than
                                                (As of August 31, 2011)
three million employees, both afloat and
ashore, deployed throughout the world to                     National Guard
meet mission requirements. Nearly half of                       466,060
                                                  Reserve         15%
the Department’s workforce is comprised of        381,980                         Active Duty
                                                    12%                            1,431,400
men and women on Active Duty.             To                                          47%
provide Americans with the highest level of
national security, the Department consists
of approximately 1,431,400 men and
women on Active Duty, 848,040 Reserve
and National Guard, and 790,400 civilians
(Figure 1-5).                                         Civilians
                                                    790,400
During FY 2011, the Department mobilized             26%
                                              B10-27                Numbers are approximate
approximately 92,100 Reserve Component
members at any given time. The men and
women of the Reserve and National Guard provided security and assistance in both the
Afghanistan and Iraq theaters and maintained aircraft in the Horn of Africa, to name a few
of their many missions. The skills and capabilities of the Reserve Component members
match current and anticipated DoD requirements, thereby reducing the stress on the total
force while increasing the capacity.
All Military Services and five of the six Reserve Components met or exceeded their numeric
accession goals in FY 2011. The Army National Guard intentionally achieved 95 percent of
their goal to stay within its Congressionally-authorized end strength. All Military Services
and Reserve Components exceeded recruit quality benchmarks in FY 2011 – a remarkable
achievement. The Nation can be proud of these achievements as well as the commitment of
Service members and their families, as reflected in record high retention rates.
Throughout FY 2011, the civilian workforce continued to play a critical role in supporting the
accomplishment of DoD’s mission. In FY 2011, we witnessed their continued voluntary and
enthusiastic participation in new and challenging roles, especially in support of DoD’s
wartime efforts. The Civilian Expeditionary Workforce Program has deployed volunteers to
war zones to serve in career fields as far-reaching as intelligence, public affairs, policy
development, and logistics. Thousands of civilians with in-demand expertise volunteer each
year to support wartime missions in Afghanistan and Iraq.             Before their one-year
deployment begins, they first must undergo rigorous training on Muscatatuck Urban
Training Center and Camp Atterbury, Indiana, where they learn everything from cultural
sensitivities to military customs and courtesies – with a few live-fire exercises thrown into

                                                      Management’s Discussion and Analysis
                                             12
Department of Defense Agency Financial Report for FY 2011

the mix.   The remarkable people who comprise civilian and military teams are the
Department’s greatest asset in providing a strong and agile national security response.
The Department’s worldwide infrastructure includes nearly 542,000 facilities (buildings and
structures) located at more than 5,000 sites around the world on more than 28 million
acres. These sites vary greatly in size. They range from the very small (an unoccupied site
supporting a single navigational aid that sits on less than one-half acre of land) to the vast
and immense, such as the Army's White Sands Missile Range in New Mexico (with over
3.6 million acres) or the Navy’s large complex of installations in Norfolk, Virginia. To protect
the security of the U.S., the Department operates 14,668 aircraft and 586 ships.
To support mission requirements, the Department continues to focus on investing financial
resources effectively to meet the needs of the warfighter and the ever-changing battlefield.
We continue to invest in weapon systems
                                               Figure 1-6. Department of Defense
and capabilities to counter 21st Century
                                               FY 2011 Enacted Budget ($688.0B)
threats, support the workforce, and
accomplish mission requirements and                  OCO                         Base
                                                   $159.0B                      Budget
objectives. During FY 2011, DoD’s enacted           (23%)                      $529.0B
                                                                                (77%)
budget authority amounted to $688 billion.
Figure 1-6 depicts the composition of DoD’s
budget authority.
The Overseas Contingency Operations
(OCO) resources enable the Department to
support and to fund efforts primarily in
Afghanistan and Iraq.     The Department
                                                      Budget by Appropriation     $ in Billions
continued activities under Operation New              Military Personnel               154.0
Dawn as it works to complete the military             Operation and Maintenance        307.9
mission in Iraq.      In Afghanistan, U.S.            Procurem ent                     129.9
coalition and Afghan forces have arrested             RDT&E                             75.0
                                                      Military Construction             16.0
the Taliban’s momentum in much of the
                                                      Fam ily Housing                    1.8
country and reversed it in several key
                                                      Revolving Funds                    3.4
areas. U.S. troops continue to work with              Total                          $688.0
Afghan National Security Forces and                                                               B10-17


international partners and have begun the
process of transitioning the lead for security to    Afghanistan, which is scheduled to be
complete across the country by the end of 2014.
The Department’s funding levels ensure the Nation can meet all national security objectives.
Funding enabled the Department to maintain readiness to conduct missions abroad and a
full spectrum of training, combat training center rotations, and recruiting and retention
efforts. Modernization and recapitalization of equipment, focused on today’s threats, greatly
improved combat capabilities.        These new capabilities included procurement and
development of platforms, such as the fifth generation Joint Strike Fighter aircraft; the
Littoral Combat Ship; unmanned aircraft systems, such as Global Hawk and Reaper; new




                                                       Management’s Discussion and Analysis
                                              13
Department of Defense Agency Financial Report for FY 2011

generation ground vehicles, such as the Stryker; communications, navigation, missile
warning, space situational awareness, and environmental monitoring satellites; and missile
defense systems.
In FY 2011, resources funded the construction and maintenance of additional modernized
housing, both government-owned and privatized. These constructed housing units support
the Marine Corps’ growth in ground forces. In addition, the Department built wounded
warrior facilities and schools and recapitalized other medical facilities. The Department
funded the operation of 254 commissaries and education for over 87,000 students in
194 schools.
In addition, during the first quarter of
FY 2011, the Department completed its
portion of the U.S. Government’s
response     to     the    Government    of
Pakistan’s     call     for   humanitarian
assistance and disaster relief following
the flooding that started in July 2010.
In    March 2011,        the   Department
deployed personnel, ships, and aircraft
to augment the Government of Japan’s
disaster relief efforts in response to the
devastating magnitude 9.0 earthquake
that struck off Japan’s main island of
                                            U.S. Air Force Senior Airm an greets children
Honshu.      Also during FY 2011, the       during a security halt in Qalat City, Afghanistan,
Department       provided     humanitarian  Aug. 10, 2011. Assigned to the Provincial
assistance relief, forces, and capabilities Reconstruction Team Zabul's security force.
to augment and support coalition                                         U.S. Air Force photo by
partners in the North Atlantic Treaty                 Senior Airman   Grovert Fuentes-Contreras
Organization        (NATO)-led    military
operations to respond to Muammar Gaddafi’s brutal behavior against the people of Libya.
The Base Realignment and Closure (BRAC) initiative continued with $2.4 billion in funding,
which allowed the Department to satisfy its legal obligation to complete
220 recommendations before the September 15, 2011 statutory deadline.
To ensure the security of the U.S., the Department remains dedicated to obtaining the
required resources and making the best use of them. Taking care of our people, reshaping
and modernizing the force, and supporting our troops in the field also remains a high
priority for the Department, which is committed to spending funds carefully and effectively.




                                                        Management’s Discussion and Analysis
                                               14
Department of Defense Agency Financial Report for FY 2011

PERFORMANCE GOALS, OBJECTIVES, AND RESULTS

DEPARTMENT OF DEFENSE STRATEGIC PLAN
As discussed in the Overview section of this report, the Department examines America’s
defense needs by conducting the Quadrennial Defense Review. This review examines
national defense strategy, force structure, force modernization plans, infrastructure, budget
plans, and other elements of the defense program and policies of the United States,
consistent with the most recent National Security Strategy and National Military Strategy.
The 2010 Quadrennial Defense Review report (QDR) constitutes the DoD strategic plan.

In addition to the four QDR priorities, i.e., Prevail in today’s wars; Prevent and deter
conflict; Prepare to defeat adversaries
                                         Figure 1-7. DoD Strategic Goals
and succeed in a wide range of
contingencies;    and    Preserve  and
enhance the All-Volunteer Force, the                                    Goal 1
                                                               Prevail in Today’s Wars.
QDR acknowledged that increased
efficiency and effectiveness could be
                                           Warfighting                  Goal 2
achieved by implementing an agenda
                                              Goals          Prevent and Deter Conflict.
that reforms how the DoD does
business.     Consequently, these five
imperatives reflect the Department’s                                    Goal 3
                                                                  Prepare to Defeat
Strategic Goals.     Strategic goals 1
                                                               Adversaries and Succeed
through 3 reflect DoD core warfighting                           in a Wide Range of
missions and Strategic goals 4 and 5                               Contingencies.
focus on DoD infrastructure support
(Figure 1-7).                                                           Goal 4
                                                               Preserve and Enhance the
•   Strategic Goal 1, “Prevail in Today’s    Supporting           All-Volunteer Force.
    Wars,” focuses on the ongoing              Goals
                                                                         Goal 5
    conflict and extended stabilization
                                                                   Implement Reform
    campaigns in Afghanistan and Iraq.                                  Agenda.
                                            B10-24

•   Strategic Goal 2, “Prevent and
    Deter Conflict,” focuses on integrated security cooperation and reorienting the Armed
    Forces to deter and defend against transnational terrorists around the world.

•   Strategic Goal 3, “Prepare to Defeat Adversaries and Succeed in a Wide Range of
    Contingencies,” focuses on DoD’s contributions to homeland defense, natural disasters,
    and other contingencies.
•   Strategic Goal 4, “Preserve and Enhance the All-Volunteer Force,” focuses on DoD
    personnel management, healthcare, and military families.

•   Strategic Goal 5, “Implement Reform Agenda,” focuses on improving and integrating
    DoD business operations to better support the warfighter.




                                                      Management’s Discussion and Analysis
                                             15
Department of Defense Agency Financial Report for FY 2011

DEPARTMENT OF DEFENSE PERFORMANCE HIERARCHY
The DoD Strategic Plan (i.e., the 2010 QDR) forms the basis for development of the
Department’s Annual Performance Plan.           The FY 2011 Performance Plan reflects
5 overarching Department strategic goals, 20 strategic objectives, and 80 enterprise-level
or DoD-wide performance goal priorities that are included in DoD’s annual budget request.
The Department will address final year-end results for all 80 performance goals in the DoD
Annual Performance Report for FY 2011, which will be submitted with the FY 2013
Congressional Budget Justification on February 6, 2012.
Primary responsibility for performance improvement rests with the Deputy Secretary of
Defense in his role as the Chief Management Officer (CMO). The Deputy Secretary is
assisted by the Deputy CMO/DoD Performance Improvement Officer, who integrates
performance information across the Department. The Principal Staff Assistants within the
Office of the Secretary of Defense, in coordination with the Joint Staff, recommend the
strategic objectives and performance goals determined to be the most relevant for DoD-
wide management focus. The DoD strategic objectives and performance goals are subject
to annual refinement based on changes in missions and priorities. Figure 1-8 highlights that
every level within the Department is accountable for performance and delivering results.

FY 2011 DEPARTMENT OF DEFENSE KEY PERFORMANCE RESULTS
The following information, organized by DoD Strategic Goal and Objective, depicts 23 key
performance results for FY 2011. Unless otherwise stated, the tables report progress
through the third quarter of FY 2011. Based on third quarter data, the Department is on
track to meet 78 percent of these 23 performance goals.


Figure 1-8. Department of Defense Performance Budget Hierarchy


                      Mission Drivers


    National
    Security                                      Mission
    Strategy                                                                      DoD
                                                 Strategic        Elements
                                                                             Strategic Plan
                                                  Goals
                                                                                 (QDR)
          National                               Strategic
          Defense            Personnel
                           Accountability       Objectives
          Strategy                                                                     DoD
                                                                                    President’s     Annual
                                              DoD-wide-Level                          Budget      Performance
                                                                        Elements                      Plan
                National                     Performance Goals
                Military
                Strategy
                                            DoD Component-Level
                                             Performance Goals

                                               Program-Level
                                            Performance
                                             PerformanceTargets
                                                         Goals                                          B10-26




                                                                 Management’s Discussion and Analysis
                                                     16
Department of Defense Agency Financial Report for FY 2011

Strategic Goal 1: Prevail in Today’s Wars.
As depicted below, four key performance results under Strategic Goal 1, “Prevail in Today’s
Wars,” reflect that the Department is on track to meet its military operational objectives in
Afghanistan and Iraq in FY 2011. The Department increased the size and improved the
capability of Afghan forces and has begun the process of transferring responsibility of
security to a capable Afghan partner. There has been a successful transition of three
provinces and four municipalities to the Afghan National Security Force (ANSF) Lead in the
first of several areas of transition. The Department is well on track to achieve its FY 2011
ANSF total goal of 305,600 personnel [171,600 Afghan National Army (ANA) and
134,000 Afghan National Policy (ANP)], with 301,672 personnel at the end of the third
quarter, an increase of 30,826 since January 2011. As the ANSF develops, the Department
has worked with other U.S government agencies to lay the groundwork for its sustainable
future with a reduced U.S. presence (refer to Strategic Objective 1.1-OCO).
By the end of the third quarter, the Department also had exceeded its drawdown goals in
terms of reducing its military presence in Iraq (Strategic Objective 1.2-OCO). United States
Forces-Iraq will continue the directed drawdown in a manner that does not jeopardize our
U.S. forces as we reset and leave a stable, secure, sovereign and self-reliant Iraq as a long-
term strategic partner to the United States.

  STRATEGIC GOAL 1: PREVAIL IN TODAY’S WARS
                                                                             Annual Performance Goals/Results
                                        Strategic Plan Long-Term                                      FY 2011
     Performance Measures                                                    FY 2010     FY 2011
                                           Performance Goals                                           3 Qtr
                                                                             Results      Goals
                                                                                                      Results
 Strategic Objective 1.1-OCO: Degrade the Taliban to levels manageable by the Afghan National Security
 Force (ANSF), while increasing the size and capability of the ANSF.
 1.1.1-OCO: Cumulative number         1.1.1-OCO: By FY 2011, the
 of Afghan National Army (ANA)        ANA end strength will be
                                                                             144,000     171,600     171,050
 end strength                         171,600 with intent to train and
                                      equip forces.
 1.1.2-OCO: Cumulative number         1.1.2-OCO: By FY 2011, the
 of Afghan National Police (ANP)      ANP end strength will be
 end strength                         134,000 with intent to train and       115,000     134,000     130,622
                                      equip forces.
 Strategic Objective 1.2-OCO: Execute a responsible drawdown of the U.S. military presence in Iraq.
 1.2.1-OCO: Cumulative number         1.2.1-OCO: By the end of first
 of U.S. military troops in Iraq      quarter, FY 2012, the U.S.
                                      military presence in Iraq will be
                                                                             48,770       50,000      46,000
                                      zero troops (except for a small
                                      number under Chief of Mission
                                      authority).
 1.2.2-OCO: Cumulative number         1.2.2-OCO: By the end of first
 of pieces of rolling stock in Iraq   quarter, FY 2012, the number of
 supporting U.S. military troops      pieces of rolling stock in Iraq
                                      supporting U.S. military troops,
                                                                             16,500       16,500      12,569
                                      will be zero (except for a small
                                      number used by military
                                      personnel under Chief of
                                      Mission authority).


                                                                         Management’s Discussion and Analysis
                                                           17
Department of Defense Agency Financial Report for FY 2011

Strategic Goal 2: Prevent and Deter Conflict.
Five performance results are key to satisfying the Department’s deterrence missions and
achieving its national security objectives. Our deterrent remains grounded in land, air, and
naval forces capable of fighting limited and large-scale conflicts. As of third quarter, the
Department surpassed its annual goals to increase DoD Special Operations personnel and
rebalance Marine Corps Expeditionary Forces (Strategic Objective 2.1-1F1), equip ballistic
missile defense-capable ships (Strategic Objective 2.3-1F3), and increase intelligence,
surveillance, and reconnaissance (ISR) capacity (Strategic Objective 2.4-1X2). Increasing
the number of ISR orbits provides more capabilities for general purpose and special
operations forces and allows them to carry out their missions more effectively.
The Department did not achieve its FY 2011 nuclear safety inspection goal
(Strategic Objective 2.2-1F2A), though first-time passing rates have consistently improved
over the last three years. Maintaining a 100 percent passing rate on first-time Defense
Nuclear Surety Inspections (DNSIs) may appear to be a good standard, but it could
generate unrealistic expectations and a potential “zero tolerance” culture that is neither
sustainable nor appropriate for achieving long-term excellence in the nuclear enterprise.
The Department will re-examine this measure in FY 2012 to emphasize the value of
reducing DNSI repeat deficiencies (critical and significant only) as a better indicator of the
sustained Services’ excellence and senior leadership focus on the nuclear enterprise.

 STRATEGIC GOAL 2: PREVENT AND DETER CONFLICT
                                                                    Annual Performance Goals/Results
                                 Strategic Plan Long-Term                                      FY 2011
   Performance Measures                                           FY 2010       FY 2011
                                    Performance Goals                                            3 Qtr
                                                                  Results        Goals
                                                                                                Results
Strategic Objective 2.1-1F1: Extend a global posture to prevail across all domains by increasing capacity
in general purpose forces and by enhancing stability operations and foreign security force competency.
2.1.3-1F1: Cumulative          2.1.3-1F1: By FY 2012, the
percent increase in DoD        DoD will increase its Special
                                                                    27%           28%            35%
Special Forces and Navy        Forces and Navy SEAL
SEAL personnel achieved        personnel by 32 percent.
2.1.6-1F1: Cumulative          2.1.6-1F1: By FY 2012, the
percent of unit initiatives    DoD will have completed 100
completed to balance three     percent of unit initiatives          84%           92%            95%
Marine Corps Expeditionary     required to have balanced
Forces (MEFs)                  three MEFs.

Strategic Objective 2.2-1F2A: Maintain a safe, secure, and effective nuclear arsenal to deter attack on the
U.S. and on our allies and partners.
2.2.2-1F2A: Passing            2.2.2-1F2A: Beginning in FY
percentage rate for Defense    2011, the DoD will maintain a
Nuclear Surety Inspections     passing rate of 100 percent for      73%          100%             85.7%
                               all regular Defense Nuclear
                               Surety Inspections.
Strategic Objective 2.3-1F3: Strengthen cooperation with allies and partners to develop and field robust,
pragmatic, and cost-effective missile defense capabilities.
2.3.1-1F3: Cumulative          2.3.1-1F3: By FY 2018, the
number of Aegis Ballistic      DoD will have 43 Aegis ships         Not
                                                                                   23              23
Missile Defense (BMD)-         that are BMD-capable.              available
capable ships



                                                               Management’s Discussion and Analysis
                                                    18
Department of Defense Agency Financial Report for FY 2011

 STRATEGIC GOAL 2: PREVENT AND DETER CONFLICT
 Strategic Objective 2.4-1X2: Ensure sufficient Intelligence, Surveillance, and Reconnaissance (ISR)
 collection and analysis capacity for full spectrum operations and ensure resiliency of ISR operations.
 2.4.1-1X2: Cumulative           2.4.1-1X2: By FY 2013, the
 number of MQ-1 (Predator)       DoD will achieve and maintain
 and MQ-9 (Reaper)               65 MQ-1 (Predator) and MQ-9           45           50             55
 intelligence, surveillance, and (Reaper) orbits of ISR.
 reconnaissance (ISR) orbits

Strategic Goal 3: Prepare to Defeat Adversaries and Succeed in a
Wide Range of Contingencies.
The potential spread of weapons of mass destruction (WMD) poses a grave threat and
continues to undermine global security, complicating efforts to sustain peace and prevent
harmful arms races. As the ability to create and employ WMD spreads globally, so must our
efforts to detect, interdict, and contain the effects of these weapons. As of third quarter,
the Department is well on its way to achieve its annual goal of destroying treaty-declared
category 1 chemical weapons. Deterrence of such threats and defense against them can be
enhanced by securing and reducing dangerous materials, positioning forces to track lethal
agents, and defeating the agents themselves.

STRATEGIC GOAL 3: PREPARE TO DEFEAT ADVERSARIES AND SUCCEED IN A
WIDE RANGE OF CONTINGENCIES
                                                                      Annual Performance Goals/Results
                                  Strategic Plan Long-Term                                        FY 2011
   Performance Measures                                             FY 2010       FY 2011
                                     Performance Goals                                             3 Qtr
                                                                    Results        Goals
                                                                                                  Results
Strategic Objective 3.2-1F2C: Enhance capacity to locate, secure, or neutralize weapons of mass
destruction, key materials, and related facilities.
3.2.1-1F2C: Cumulative          3.2.1-1F2: By FY 2021, DoD
percent of treaty-declared      will have destroyed 100 percent
category 1 chemical weapons     of treaty-declared category 1        79.8%         88.3%          87.6%
destroyed                       chemical weapons.


Strategic Goal 4: Preserve and Enhance the All-Volunteer Force.
The Department is on track to achieve five of six key performance goals that affect its
ability to maintain an "All Volunteer” military. The Services continue to meet their end-
strength goals for both Active and Reserve components, and both recruiting and retention
programs continue to succeed.         End strength goals are critical to meeting mission
requirements, maintaining national security, and retaining the skills necessary for future
requirements. In addition, the Army has been able to eliminate the use of Stop Loss for
deploying units well ahead of its goal (refer to Strategic Objective 4.2-2P).
Managing the deployment tempo remains among the most tangible demonstrations of
commitment to our Service members and their families, and all Services have shown
improvement in complying with the Department’s planning objectives for time deployed and
time at home.     In particular, Army and Reserve Component members have shown
substantive improvement for time deployed and time at home.

                                                                  Management’s Discussion and Analysis
                                                     19
Department of Defense Agency Financial Report for FY 2011

The only goal not achieved is in the area of civilian personnel management, where the
Department is exceeding the cycle time for delegating examination of external civilian hires
by 5 days (five percent) (Performance Measure 4.2.5-2P). Continued training of DoD
managers to increase adoption and familiarity with automated staffing tools will allow the
Department to achieve its long-term civilian hiring goal of 80 days by FY 2012.

 STRATEGIC GOAL 4. PRESERVE AND ENHANCE THE ALL-VOLUNTEER FORCE.
                                                                              Annual Performance Goals/Results
                                       Strategic Plan Long-Term                                 FY 2011
   Performance Measures                                                    FY 2010      FY 2011
                                          Performance Goals                                      3 Qtr
                                                                           Results       Goals
                                                                                                Results
Strategic Objective 4.2-2P: Ensure the Department has the right workforce size and mix, manage the
deployment tempo with greater predictability, and ensure the long-term viability of the Reserve
Component.
 4.2.1-2P: Percent variance in       4.2.1-2P: For each fiscal year,
 Active component end                the DoD Active component end
 strength                            strength must be maintained at
                                     or not to exceed (NTE) three            0.4%         0-3%          0%
                                     percent above the
                                     SECDEF/NDAA-prescribed end
                                     strength for that fiscal year.
 4.2.2-2P: Percent variance in       4.2.2-2P: For each fiscal year,
 Reserve component end               the DoD Reserve component
 strength                            end strength will not vary by
                                                                             0.6%         +/-3%         0.2%
                                     more than three percent from
                                     the SECDEF/NDAA-prescribed
                                     end strength for that fiscal year.
 4.2.3-2P: Number of soldiers        4.2.3-2P: By FY 2011, the
 under stop loss                     Department will reduce the
                                     number of soldiers under stop           3,198         0             0
                                     loss to zero.
 4.2.5-2P: Number of days for        4.2.5-2P: By FY 2012, the
 external civilian hiring (end-to-   Department will improve its
 end timeline)                       external civilian hiring end-to-        116          101           106
                                     end timeline to 80 days.

 4.2.6-2P: Percentage of the         4.2.6-2P: By FY 2015, 95
 Department’s active duty            percent of active duty Army
 Army who meet the planning          personnel will meet the
                                                                             Not
 objectives for time deployed        deployment to dwell objective                        75%          86.9%
                                                                           available
 in support of combat                of 1:2.
 operations versus time at
 home
 4.2.10-2P: Percent of               4.2.10-2P: By FY 2012, 68
 Reserve Component (RC)              percent of the RC Service
 Service members mobilized in        members undergoing
                                                                            64.8%         60%          71.4%
 the evaluation period that          mobilization will have a dwell
 have dwell ratios greater than      ratio of 1:5 or greater.
 or equal to 1:5




                                                                          Management’s Discussion and Analysis
                                                             20
Department of Defense Agency Financial Report for FY 2011

Strategic Goal 5: Implement Reform Agenda.
The Department is on track to achieve four of seven key performance goals in other
infrastructure areas, as reflected in Table 5. As of third quarter, the Department is on track
to meet its mission assurance goal by having 90 percent of its information technology and
National Security Systems certified and accredited (Strategic Objective 5.2-2C).            In
addition, the Department is exceeding its Perfect Order fulfillment goal in providing critical
logistics support to forces abroad (Strategic Objective 5.4-2L), and as of third quarter, has
met the FY 2011 goal to validate 9 percent of DoD’s Fund Balance with Treasury (Strategic
Objective 5.5-2U/V).
While the Department did not achieve its third quarter goal with regard to validating DoD
appropriations received, this goal was subsequently met in August 2011 (Strategic
Objective 5.5.1-2U), when the Army, Navy, and Air Force received unqualified opinions on
their “Appropriations Received” audit readiness assertions based on Independent Public
Accounting (IPA) firms’ examinations.       Specifically, the IPAs reported that the audit
readiness assertions were fairly stated in all material respects. The Military Services
continue to face significant challenges relative to overall audit readiness, as most business
and financial legacy systems do not record
all financial transactions at the transaction
level and do not have the capability of
system-to-system interface.       In addition,
supporting documentation for financial
transactions is either not acceptable or not
readily available to auditors; therefore,
manual interfaces and “work-arounds”
between systems are required to provide the
entire transactions cycle from origination to
financial reporting.
While the Department is meeting its goal
concerning     Major  Defense     Acquisition    A U.S. Air Force F-22 Raptor fighter jet
                                                 assigned to the 90th Fighter Squadron from
Programs (MDAPs) cycle time (refer to
                                                 Elm endorf Air Force Base, Alaska, approaches
Strategic Objective 5.3-2E), less progress       a KC-135 Stratotanker aircraft assigned to
has been made in the number of MDAP cost         the 465th Air Refueling Squadron from Tinker
                                                 Air Force Base, Okla., for aerial refueling.
breaches and the percentage of contract
obligations that are competitively awarded.                             (U.S. Air Force photo by
                                                                      Staff Sgt. Jacob N. Bailey)
By the third quarter, the Department had
exceeded the projected number of MDAP
cost breaches by 40 percent (from five to seven breaches) and is executing eight percent
fewer competitively-awarded contracts than projected. Several events, including awards of
legacy major weapon systems and Congressional Continuing Resolutions through
April 2011, which fund Federal agencies when a formal appropriations bill has not been
signed into law, adversely affected competition plans; however, the Department continues
to stress the importance of competition through its policies such as the “Better Buying
Power Initiative.”


                                                        Management’s Discussion and Analysis
                                               21
Department of Defense Agency Financial Report for FY 2011

In addition, the Department is working to match requirements with mature technologies,
maintain disciplined system engineering approaches, institutionalize rapid acquisition
capabilities, and implement comprehensive testing.     Several initiatives are underway to
strengthen DoD’s acquisition workforce, improve upfront cost estimates, prevent frequent
changes in system requirements, and ensure proper contract oversight and program execution.

  STRATEGIC GOAL 5: IMPLEMENT REFORM AGENDA
                                                                        Annual Performance Goals/Results
                                      Strategic Plan Long-Term                                        FY 2011
     Performance Measures                                               FY 2010       FY 2011
                                         Performance Goals                                              3 Qtr
                                                                         Results        Goals
                                                                                                       Results
 Strategic Objective 5.2-2C: Protect critical DoD infrastructure and partner with other critical infrastructure
 owners in government and the private sector to increase mission assurance.
 5.2.1-2C: Percent of applicable  5.2.1-2C: By FY 2013, 95 percent
 IT and National Security         of applicable IT and National
 Systems (NSS) that are           Security Systems (NSS) will be           90%         =/>90%           90%
 Certification and Accreditation  Certification and Accreditation
 (C&A)-compliant                  (C&A) compliant.
 Strategic Objective 5.3-2E: Improve acquisition processes, from requirements definition to the execution
 phase, to acquire military-unique and commercial items.
 5.3.1-2E: Number of Major        5.3.1-2E: Beginning in FY 2010,
 Defense Acquisition Programs     the DoD will ensure the number of
 (MDAPs) breaches equal to or     breaches (significant cost
 greater than 15 percent of       overruns) for Major Defense
                                                                            8           </=5           7
 current Acquisition Program      Acquisition Programs (MDAPs) is
 Baseline (APB) unit cost or      equal to or less than the previous
 equal or greater than 30 percent fiscal year.
 of original APB unit cost
 5.3.2-2E: Percentage of          5.3.2-2E: Beginning in FY 2010,
 contract obligations that are    the DoD will increase, by one
 competitively awarded            percent annually, the amount of         62.5%         65%           56.7%
                                  contract obligations that are
                                  competitively awarded.
 5.3.3-2E: Average percent        5.3.3-2E: Beginning in FY 2011,
 increase from the Approved       the DoD will not increase by more
 Program Baseline (APB) cycle     than five percent from the
 time for Major Defense           Approved Program Baseline (APB)         4.4%         </=5%           5%
 Acquisition Programs (MDAPs)     cycle time for Major Defense
 starting in FY 2002 and after    Acquisition Programs (MDAPs)
                                  starting in FY 2002 and after.
 Strategic Objective 5.4-2L: Provide more effective and efficient logistical support to forces abroad.
 5.4.1-2L: Perfect Order           5.4.1-2L: Beginning in FY 2012,
 Fulfillment (POF) rate for        the DoD will maintain the DLA’s
 Defense Logistics Agency          (POF) rate for stock items at or       84.8%         84.9%         86.1%
 (DLA) stock items                 above 85.4 percent.




                                                                  Management’s Discussion and Analysis
                                                       22
Department of Defense Agency Financial Report for FY 2011

 STRATEGIC GOAL 5: IMPLEMENT REFORM AGENDA
Strategic Objective 5.5-2U/V: Improve financial management and increase efficiencies in headquarters and
administrative functions, support activities, and other overhead accounts.
5.5.1-2U: Percent of            5.5.1-2U: By FY 2013, 100
“Appropriations Received”, as   percent of “Appropriations
reported on DoD’s Statement of  Received,” reported on DoD’s
Budgetary Resources, which      Statement of Budgetary, will be        19%         80%         19%
are validated                   reviewed, verified for accuracy,
                                and validated or approved as audit-
                                ready.
5.5.2-2U: Percent of DoD Fund     5.5.2-2U: By FY 2016, 100
Balance with Treasury validated   percent of DoD Fund Balance with
                                                                         9%         9%          9%
                                  Treasury will be validated as audit-
                                  ready.




                                                                  Management’s Discussion and Analysis
                                                       23
Department of Defense Agency Financial Report for FY 2011

FINANCIAL PERFORMANCE

OVERVIEW
In FY 2011, the Department effectively invested over $688 billion in financial resources to
meet the needs of the warfighter and the ever-changing battlefield.         Our dedicated
professional workforce of more than 60,000 financial management personnel, working with
other DoD functional managers, accomplished this critical goal despite some daunting
obstacles, including financing the war in Afghanistan, completing the military mission in
Iraq, supporting operations in Libya, and maintaining a military that can meet future
national security requirements.     Their task was made much more difficult by late
appropriations, especially the six-month continuing resolution that we experienced in
FY 2011.
Although the Department cannot yet produce consolidated auditable financial statements,
Defense financial managers maintained effective financial processes and controls in many
areas. For example, DoD’s payment processes continue to successfully ensure timely and
accurate payments in a very high percentage of cases, including military and civilian payroll
disbursement with a greater than 99 percent degree of accuracy. We have greatly reduced
the number of abnormal balances beneath the appropriation detail level. In 2005, the
Department had over 3,200 such abnormal balances; as of 2011, we’ve reduced these
conditions by 99 percent to just 40 cases. The hands-free payment processing of invoices,
receiving reports, contracts and modifications through the legacy systems increased from
18 percent in FY 2009 to 38 percent as of September 2011.
The Department is committed to attaining audit readiness by September 30, 2017, as
mandated by Congress. In October 2011, Secretary Panetta directed the Under Secretary
of Defense (Comptroller)/Chief Financial Officer (USD(C)/CFO)) to provide a revised plan,
before the end of calendar year 2011, that accelerates audit readiness for the Statement of
Budgetary Resources by the end of 2014, well before the Congressionally-mandated date of
2017.
Over the past year, the Department pursued its plan to meet audit goals. In August 2009,
the Department instituted a new approach to audit readiness that emphasizes
improvements in the quality, accuracy, and reliability of the information we use every day to
manage the Department; specifically, budgetary information and existence and
completeness of mission-critical assets. The budgetary information is critical to leadership
at all levels, as people make operational and resource allocation decisions. Improving
budgetary information will lead to audit readiness for the Department’s Statements of
Budgetary Resources (SBR). We also are focusing on the accuracy in the numbers and
locations of our mission-critical assets. The financial audit elements of “existence and
completeness” translate directly into knowing “what we have” and “where it is,” so it is
available for use when needed, and to ensure that our acquisition organizations are buying
only what the Department needs.
We already have seen significant progress in implementing this new strategy. For example,
Independent Public Auditors recently examined and issued unqualified opinions on the
Army, Navy, and Air Force assertions of audit readiness for “Appropriations Received,” a key

                                                      Management’s Discussion and Analysis
                                             24
Department of Defense Agency Financial Report for FY 2011




  Aircraft carrier USS Ronald Reagan.
                                        U.S. Navy photo by Petty Officer 3rd Class Dylan McCord

element in the SBR. The Department has sustained unqualified audit opinions on the
financial statements of the U.S. Army Corps of Engineers (Civil Works), Defense Contract
Audit Agency, Defense Commissary Agency, Defense Finance and Accounting Service, Office
of the Inspector General (OIG), and the Military Retirement Fund. The Defense Information
Systems Agency’s FY 2011 Working Capital Fund financial statements are under audit. In
addition, the U.S. Marine Corps (USMC), the first Military Component to undergo an audit of
its SBR, is making significant progress. The audits of the USMC’s SBR in FYs 2010 and 2011
are providing important “lessons learned” to the other Military Services.
At the same time, it is clear that major challenges remain, particularly the challenge of
moving the Military Services toward auditability and resolving enterprise-wide weaknesses
in DoD’s financial management, which demand an enterprise-wide business response.
These challenges are especially complex considering DoD’s geographical dispersion and
enormous size. Every business day, we obligate an average of $2 billion to $3 billion and
handle hundreds of thousands of payment transactions in thousands of locations worldwide,
including war zones. Given our size and mission requirements, we are not able to deploy
the vast numbers of accountants that would be required to reconcile our books manually.
We recognize that the Department’s policies and systems used to prepare its consolidated
financial statements does not always allow for the achievement of reliable information. The


                                                      Management’s Discussion and Analysis
                                             25
Department of Defense Agency Financial Report for FY 2011

Financial Improvement and Audit Readiness Plan Status Report details the Department’s
financial improvement priorities, milestones, and measures of success that apply to the
preparation of the financial statements, detail the planned improvements in the process,
and provide an estimate of when each financial statement will convey reliable information.
We are committed to improving defense financial management as part of our overall
commitment to providing the financial resources and business operations necessary to meet
our national security objectives. Toward that end, we have developed a workable and
promising partnership with the Deputy Chief Management Officer and her staff that will help
with implementing necessary changes.       The Department’s new, focused approach to
financial improvement and audit readiness has put us on the path to auditability.

LIMITATIONS OF THE FY 2011 FINANCIAL STATEMENTS
The Department’s FY 2011 financial statements are presented in the Financial Information
section of this report. The DoD management is responsible for the integrity of the financial
information presented in these financial statements. At this time, management cannot
provide reasonable assurance of effective internal management controls over financial
reporting; however, DoD’s financial improvement initiatives and systems modernization
efforts continue to demonstrate progress. The Department’s leadership is committed to
improving internal controls and safeguarding the resources entrusted to us.

FINANCIAL HIGHLIGHTS AND ANALYSIS
For FY 2011, the financial statements for seven of the 33 reporting entities within the
Department received unqualified audit opinions (see Figure 1-9).

FINANCIAL ANALYSIS
The Defense Finance and Accounting Service (DFAS) prepared the accompanying
consolidated financial statements to
                                          Figure 1-9. Audit Opinions
report   the    financial position   and
operational results for the Department.         DoD Reporting Entity      Audit Opinions
The statements were prepared from the     U.S.  Army  Corps of Engineers    Unqualified
books and records of the Department in    Military Retirement Fund          Unqualified
accordance with U.S. generally accepted   Defense Commissary Agency         Unqualified
accounting principles (USGAAP), when      Defense   Finance  and
                                                                            Unqualified
                                          Accounting Service
possible, the OMB Circular No. A-136,
                                          Defense Contract Audit Agency     Unqualified
entitled       “Financial       Reporting
                                          Office of the Inspector General   Unqualified
Requirements,” and the DoD Financial
                                          TRICARE Management Activity
Management Regulation.                                                      Unqualified
                                          – Contract Resource Mgmt




                                                     Management’s Discussion and Analysis
                                            26
Department of Defense Agency Financial Report for FY 2011

The financial statements have been prepared to report
DoD’s financial position and results of operations, and
include the:
•      Statement of Budgetary Resources
•      Statement of Net Cost
•      Balance Sheet
•      Statement of Changes in Net Position
Budgetary Resources.         In accordance with Federal
statutes and implementing regulations, obligations may be
incurred and payments made only to the extent that
budgetary resources are available to cover such items. The
Statement of Budgetary Resources presents the DoD’s total
budgetary resources, their status at the end of the year,                        Ms. Teresa McKay,
and the relationship between the budgetary resources and                         Director, Defense Finance
the outlays made against them.                                                   and Accounting Service

The Department’s FY 2011 enacted appropriations total $688 billion, as depicted in
Figure 1-6 in the Resources section of this report. The Department also received resources
from the U.S. Treasury for retirement and health benefits and appropriations in support of
civil work projects executed by the U.S. Army Corps of Engineers. In total, the Department
received $768 billion in FY 2011 resources, as shown in Figure 1-10. Additional budgetary
resources for the year include $209 billion (net of FY 2011 cancelled authority) for
outstanding requirements carried forward from FY 2010, $196 billion in collections related to

Figure 1-10. FY 2011 Total Budgetary Resources
                                                                                                              B10-12



                 $ in Billions                                                 $768B                  $ in Billions
                                      $1.2T                                 Operations,      Procurement
                                                                Family      Readiness &
                                                               Housing &                        $130
           Contract Authority                                                 Support            17%
                                                               Facilities      $311
                    $76 (6%)                                     $18            40%                  Civil Works
       Reimbursed Collections                                    2%
                 $196 (15%)                                                                               $4
                                                                                                         1%
    Brought Forward Authority *
                   $209 (17%)
            Civil Work Projects                  Breakout
                      $ 4 (1%)
                                                FY 2011
           Trust Fund Receipts                Appropriations
                     $ 76 (6%)                  Received

                                                               Military                            Employer
       Enacted Appropriations                                   Pay &                             Contribution to
                 $688 (55%)                                    Benefits      Research    Military   Military
                                                                $122        Development Retirement Retirement
                                                                 16%           & Test    Benefits   Benefits
                                                                                $75         $76       $32
       * Net of cancelled authority                                             10%        10%         4%




                                                                  Management’s Discussion and Analysis
                                                     27
Department of Defense Agency Financial Report for FY 2011

reimbursed activity, and $76 billion in contract authority.                      In total, the Department had
$1.2 trillion in available budgetary resources.
Of the $1.2 trillion in total budgetary resources, $1.069 trillion were obligated and
$1.017 trillion of obligations were disbursed. The remaining balance of unobligated budgetary
resources relates to appropriations that are available to cover multi-year modernization
projects, which require additional time to procure. Additionally, appropriations that are
expired for purposes of new obligations must still remain available for valid upward
adjustments to prior year obligations.
The Department obligated much of its FY 2011 resources to maintain readiness to conduct
missions abroad as well as to modernize and recapitalize equipment that greatly improve
combat capabilities. In addition, the Department used resources to responsibly draw down
the military forces in Iraq. In Afghanistan, U.S. forces worked with Afghan Security Forces
and international partners to build a country that will not be a safe haven for terrorists.
Net Cost of Operations. The Statement of Net Cost presents the net cost of all the
Department’s programs, including military retirement benefits. The statement reports total
expenses incurred less the revenues earned from external sources to finance those
expenses. Generally, the resulting balance of net cost is equivalent to the outlays reported
on the Statement of Budgetary Resources, plus accrued liabilities, less the assets purchased
and capitalized on the balance sheet. Differences between outlays of budgetary resources
and net cost generally arise from the timing of expense recognition.

Figure 1-11. FY 2011 Net Cost of Operations

  $ in Billions                                                                                 Civil Works         $ in Billions
  Net Cost of     $601.4   $670.2    $651.5    $819.8    $684.2                  Health Care       $11.2
  Operations                                                                       $36.6             2%     Family Housing
                                                                                     5%                       & Facilities
                                                                                                                 $6.5
                                                                        RDT&E                                     1%
                                                                         $70.0
                                                                          10%                                      Military Pay
                                                                                                                   & Benefits
                                                                                                                      $153.0
                                                            Breakout                                                    22%

                                                             $684.2B


                                                                                                                   Military
                                                                         Procurement                              Retirement
                                                                                     Operations, Readiness         Benefits
                                                                            $122.0
                                                                             18%          & Support                 $68.9
             FY07           FY08     FY09      FY10      FY11                               $216.0
  Military                                                                                                           10%
  Retirement $73.9         $136.2    $79.6    $204.8     $68.9                               32%
  DoD Costs $527.5         $534.0   $571.9    $615.0    $615.3
                                                                                         $684.2B                           B10-28




The Department’s costs incurred relate primarily to operations, readiness, and support
activities and military personnel cost. These costs were offset with investment earnings and
contributions to support retirement and health benefit requirements, as well as earnings
from reimbursed activities. This activity resulted in $684.2 billion in net costs of operations
during the fiscal year.



                                                                       Management’s Discussion and Analysis
                                                          28
Department of Defense Agency Financial Report for FY 2011

As depicted in Figure 1-11, the $684.2 billion represents a $135.6 billion decrease
(17 percent) since FY 2010.        The change is largely attributable to the $130.5 billion
reduction in the losses realized due to changes in the discount rate and demographic
assumptions used to calculate the military retiree health benefits. During FY 2011, the
Department implemented SFFAS No. 33,
                                                 Figure 1-12. Net Assets and Liabilities
Pensions, Other Retirement Benefits, and
Other Postemployment Benefits: Reporting                            Balance Sheet
                                                                                    $ in Billions
the Gains and Losses from Changes in
Assumptions and Selecting Discount Rates          Total Assets                    $   2,031.5
and Valuation Dates, which reduced the            Total Liabilities               $   2,351.5
actuarial liability and significantly impacted    Total Net Position              $    (320.0)
the net cost.
Balance Sheet. The Balance Sheet, which reflects the Department’s financial condition as
of September 30, 2011 (Figure 1-12), reports the DoD’s resources (Assets), the amounts
owed requiring use of assets available (Liabilities), and the difference between them (Net
Position).
The $2.0 trillion in assets shown in (Figure 1-13) represents amounts the Department owns
and manages. Fund Balance with Treasury, Investments, and General Property, Plant, and
Equipment represent 84 percent of the Department’s assets. General Property, Plant, and
Equipment is largely comprised of military equipment, buildings, structures, and general
equipment used to support the department’s mission requirements.

Figure 1-13. Assets and Liabilities
      Property, Plant                                     Military Retirement and                $ in Billions
      and Equipment                  Fund Balance          Employment Benefits
          $608.3                     with Treasury                $2,212.4
           30%                          $523.4                      94%
                                          26%




                                                                                                  Accounts
 Inventory                                                                                         Payable
   $242.6                                                     Other Liabilities                     $28.0
    12%    Other                       Investments
                         Accounts         $572.5
                                                                  $46.3             Environmental 1%
           Assets       Receivable                                  2%              and Disposal
            $73.0                          28%
                           $11.7                                                      Liabilities
             3%             1%                                                          $64.8
                                                                                         3%
                    Assets $2.0T                                 Liabilities $2.4T                      B10-15



Assets increased $115.6 billion (6 percent) since FY 2010, largely due to increases in
Investments in U.S. Treasury securities and General Property, Plant, and Equipment.
The $72.9 billion net increase in investments relate to the requirement to cover                           the
expected normal growth of future military retirement and health benefits. Funds that                       are
not needed to cover current benefits are invested in U. S. Treasury Securities. Under                      the
Department’s current strategy, invested balances will continue growing to cover                            the
unfunded portions of future benefits.

                                                              Management’s Discussion and Analysis
                                                     29
Department of Defense Agency Financial Report for FY 2011

The $27.0 billion increase in the Department’s General Property, Plant, and Equipment is
largely the result of the ongoing efforts to validate existence and completeness, and
improve the valuation of its assets. In addition, the Department acquired additional Military
Equipment to improve combat capabilities.
The Department’s liabilities increased $29.1 billion (1 percent) primarily from growth in
actuarial liabilities (Figure 1-14) related to the military retirement pension. The Department
is confident in its ability to meet its financial obligations for the $2.4 trillion in liabilities it
currently has. The U.S. Treasury is responsible for funding the actuarial liability that existed
at the inception of the Military Retirement and Health programs, approximately $1.3 trillion
(77 percent) of the total liabilities not covered by budgetary resources. Additionally, the
Department has resources to cover approximately $615.0 billion (26 percent) of the
remaining liabilities, including funds currently invested in U.S. Treasury securities to cover
future military retirement pension and health care benefits. Figure 1-14 identifies the major
categories of unfunded liabilities that will require future resources.

Figure 1-14. Unfunded Liabilities

         Liabilities Covered by                                                                     $ in Billions
         Budgetary Resources                            All Other Unfunded Liabilities $20.0 (1%)
                  $615.0
                                                        Unfunded Environmental Liabilities $60.6 (4%)
                                                        DoD Unfunded Military Retirement Benefits
         26%                                            $315.0 (18%)
                                  Breakout
                          74%
                                                        Unfunded Military Retirement and Health
                                                        Benefits funded by Treasury
                                                        $1,341.4 (77%)
             Liabilities
          Not Covered by
        Budgetary Resources
             $1,737.0
                                                                                                            B10-29




SUMMARY
Although the financial statements are not auditable for FY 2011, the Department’s financial
managers are meeting warfighter needs for resources and financial services.              The
Department continues to resolve its financial management challenges by moving away from
“stove-piped” financial and accounting systems and toward end-to-end business processes
that cross multiple disciplines. The Department’s top priority is to achieve audit readiness
of the Statement of Budgetary Resources (SBR). Focusing on the financial information
people use to manage and make day to day decisions, DoD can lay the groundwork for the
broad business management requirements necessary for financial reform. This approach
improves business operations, the quality and integrity of financial information, and
ultimately allows DoD’s financial statements to be reliable and auditable.




                                                          Management’s Discussion and Analysis
                                                 30
Department of Defense Agency Financial Report for FY 2011

MANAGEMENT ASSURANCES




                                              Management’s Discussion and Analysis
                                      31
Department of Defense Agency Financial Report for FY 2011

SYSTEMS, CONTROLS, AND LEGAL COMPLIANCE

MANAGERS’ INTERNAL CONTROL PROGRAM
The Department is entrusted with great resources and even greater responsibilities in our
mission to protect the American people and advance our Nation’s interests. Federal
managers play a key role in assuring that high standards of business and ethical practices
permeate the organization and that effective internal controls are in place to ensure mission
success, accurate financial reporting, and legal and regulatory compliance.
Effective internal controls are the foundation of an organizational framework predicated on
accuracy and accountability. The Department is responsible for establishing, maintaining,
and assessing internal controls in order to provide reasonable insurance that it meets the
objectives of the Federal Managers’ Financial Integrity Act (FMFIA), PL 97-255,
sections 2 and 4; the Federal Financial Management Improvement Act (FFMIA),
PL 104-208; and the Office of Management and Budget’s Circular (OMB) No. A-127
“Financial Management Systems.”
The OMB Circular No. A-123, “Management’s Responsibility for Internal Control in the
Federal Government,” requires agencies and individual Federal managers to take systematic
and proactive measures to:
•   Develop and implement appropriate, cost-effective internal controls,
•   Assess the adequacy of internal controls in Federal programs and operations,
•   Assess and document       internal   controls   over   financial   reporting   and   financial
    management systems,
•   Identify deficiencies and necessary improvements,
•   Take corresponding corrective actions, and
•   Report annually on internal controls through management assurance statements.
The Department developed and has oversight of a Managers’ Internal Control Program
(MICP), led by the OUSD (Comptroller) (OUSD(C)), to adhere to the responsibilities and
requirements described above. The MICP is led by the Financial Improvement and Audit
Readiness (FIAR) Directorate. Under this program, the OUSD(C) provides instructions,
guidance, training, and annual conferences to:
•   Share knowledge and insight to the Components on how to effectively execute an
    internal control program,
•   Enhance the Department’s knowledge and understanding of its audit readiness goals and
    priorities, and
•   Disseminate best practices and lessons learned.




                                                       Management’s Discussion and Analysis
                                              32
Department of Defense Agency Financial Report for FY 2011

ACCOMPLISHMENTS
The following examples reflect just a few of the many improvements brought about through
enhanced communication and improvement of the MICP along with monitoring and
instituting strong and effective controls:
•   Communication. Established a blog and
    monthly conference calls to open critical
    dialogue within and outside the FM
    community to share information and
    facilitate an understanding of the
    Department’s FY 2017 audit readiness
    goals, along with discussing successes
    and impediments within internal control
    programs.
•   Aircraft Efficiencies. Reassigned (rather
    than retired) the T-38 Talon adversary
    trainers when the Lockheed F-117               An F-22 Raptor aircraft, foreground, and a
    Nighthawk retired from service in 2008,        T-38 Talon aircraft taxi on the flight line as
                                                   they arrive at Joint Base Langley-Eustis, Va.,
    based on reviewing the aircraft use            April 1, 2011. The T-38 is tem porarily
    opportunities. The Air Force’s decision to     assigned to the 1st Fighter Wing to support
    retain and reassign its fleet to train with    com bat readiness training.
    the Lockheed F-22 Raptors resulted in                               (U.S. Air Force photo by
    approximately $72,000 in savings per                   Senior Airman Brian Ybarbo/Released)
    flying hour.
•   Onsite Validations. Assessed selected Components’ internal control programs to identify
    best practices for Department-wide dissemination and evaluate the strength of the
    program’s self-reporting of internal control weaknesses, prioritization of risk, and timely
    communication of issues to leadership.
•   Army Banking Program. Streamlined business practices to increase the use of Stored
    Value Cards and Electronic Funds Transfers, decreasing the amount of US Dollar cash
    shipments into theater from an annual average of $1.9 billion to approximately
    $17 million and reducing the amount of US cash held in theatre from $272 million to
    $123 million. These changes immediately improved the Department's ability to track
    payments, reduced opportunities for illicit or terrorist financing, improved force
    protection, and improved the host countries' economy and banking infrastructure.
•   Realigned Efforts. Merged the MICP and FIAR programs to align resources, improve
    effectiveness and efficiencies in the Internal Control Over Financial Reporting (ICOFR)
    reporting process, eliminate redundancies, and facilitate compliance with OMB
    Circular A-123, Appendix A.
•   Government Purchase Card.       Utilized preventive and detective controls over the
    Government Purchase Card to increase the use of mandated supply sources to
    99 percent, resulting in lower cost to the government and streamlined processing of
    transactions.


                                                       Management’s Discussion and Analysis
                                              33
Department of Defense Agency Financial Report for FY 2011

•   Lease Payment Reduction. Used controls to monitor vacancy rates at a leased property
    in the District of Washington resulted in the Air Force identifying high vacancy rates,
    leading directly to a negotiated lease-back agreement with the property owner and
    potential savings of approximately $40 million.
•   Recovery of Funds. During 2011, an enterprise level project with the Army and several
    other Components found that funds recovered by the Courts and Department of Justice
    were being forwarded to DFAS without a case identifier, resulting in the funds placed in
    a suspense account pending further review. On average, unidentifiable funds remained
    in the suspense account for an average of 912 days before being resolved. The project
    established strong controls through a tracking mechanism from case creation through
    the Court to DFAS. To date, the project has returned over $14 million in funds to Army
    commands, collected $44 million in canceled funds from another court settlement, and
    DFAS has resolved over $92 million in the suspense accounts.

ASSESSMENT
The Department’s management uses the following criteria to classify conditions as material
weaknesses:
•   Merits the attention of the Executive Office of the President and the relevant
    Congressional oversight committees;
•   Impairs fulfillment of essential operations or mission;
•   Significantly weakens established safeguards against waste, loss, unauthorized use or
    misappropriation of funds, property, other assets, or conflicts of interest;
•   Constitutes substantial noncompliance with laws and regulations; or
•   Nonconformance with government-wide, financial management system requirements.
Individual Component assurance statements serve as the primary basis for the Deputy
Secretary’s assurance statements. Information gathered from various sources including,
but not limited to management initiated internal control testing, program reviews, and
evaluations, are the basis for the assurance statements. In addition, the DoD OIG and the
Government Accountability Office (GAO) conduct reviews, audits, inspections, and
investigations, which are considered in the individual Component’s assurance statements
and provide the foundation for their individual assessments.
The Department has effective processes in many key areas. As a result, there has been
significant progress toward improving both financial and operation internal controls;
however, it remains clear that the most daunting of challenges remain ahead, and that
more emphasis on effective and efficient operations are critical. In the upcoming fiscal
year, the Department will continue to provide best practices and facilitate more validation
assessments in order to meet the challenge.
In FY 2012, the Department plans to:
•   Continue onsite validations;




                                                       Management’s Discussion and Analysis
                                              34
Department of Defense Agency Financial Report for FY 2011

•        Develop and distribute a best practices guide for the development and implementation
         of risk assessments and assessable unit identifications; and
•        Conduct evaluations to continue to improve on the successes of the past performance of
         the program.

MATERIAL WEAKNESSES
Listed in Figure 1-15 below is a summary of the outstanding material weakness for FY 2011.
Additional details related to the material weaknesses reported in the table, such as
corrective action plans and timelines, are included in Addendum A, “Managers’ Internal
Control Program” section of this report.
Figure 1-15. Department of Defense Outstanding Material Weaknesses FY 2011
                                          Number of
              Areas of Material                         Year                               Target
                                           Material                   Component
                 Weakness                             Identified                       Correction Year
                                         Weaknesses
    1     Financial Reporting                18        FY 2001       Department-wide       FY 2017
          Financial Management
    2                                        1         FY 2001       Department-wide       FY 2017
          Systems
                                                                                          Reassessed
                                                                                       annually based on
    3     Major Systems Acquisition          1         FY 2011       Department-wide
                                                                                          incremental
                                                                                         improvements

          Communications, Intelligence                                OSD; Navy; Air
    4                                        4         FY 2006                             FY 2013
          and/or Security                                           Force; USAFRICOM

          Comptroller and/or Resource
    5                                        2         FY 2011       Department-wide       FY 2017
          Management
                                                                                          Reassessed
                                                                                       annually based on
    6     Contract Administration            1         FY 2006       Department-wide
                                                                                          incremental
                                                                                         improvements

    7     Force Readiness                    2         FY 2011          Air Force          FY 2012

          Personnel and/or
    8                                        3         FY 2009       Department-wide       FY 2014
          Organizational Management
                                                                                          Reassessed
                                                                                       annually based on
    9     Property Management                1         FY 2010       Department-wide
                                                                                          incremental
                                                                                         improvements
                                                                                          Reassessed
                                                                                       annually based on
    10    Supply Operations                  1         FY 2011       Department-wide
                                                                                          incremental
                                                                                         improvements
          Total Material Weaknesses          34


FINANCIAL MANAGEMENT SYSTEMS
The Department of Defense recognizes that improving its business systems, particularly its
financial management systems, is an important component to successfully meeting its goal
of achieving and sustaining auditable financial statements. Our goal is to deliver a

                                                                 Management’s Discussion and Analysis
                                                      35
Department of Defense Agency Financial Report for FY 2011

streamlined, 21st-century systems environment comprised of Information Technology
capabilities that seamlessly work together to support effective and efficient business
processes and operations. Our current business environment does not always meet these
objectives. Many of our systems are old and handle or exchange information in ways that
do not readily support current audit standards. The systems were designed decades ago to
meet budgetary rather than proprietary accounting standards, and they tend to be non-
standard and sometimes do not include strong financial controls. Many of the legacy
systems also do not record data at the transaction level, a capability essential to audit
success.
To improve our financial systems, we have oriented them around end-to-end business
processes that support audit goals, including Procure-to-Pay, Budget-to-Report, Order-to-
Cash, Hire-to-Retire, Plan-to-Stock, and Acquire-to-Retire. Using this framework of end-to-
end business processes, rather than an organizationally or functionally stovepiped approach,
ensures that we think about our business in a holistic way, recognizing the connections and
dependencies that each individual business area has on the others. Each of our end-to-end
processes have been identified and documented in our Business Enterprise Architecture,
which we are using to guide and constrain our investments in Defense Business Systems
(DBS). These DBS include investments in new, modern systems, such as Enterprise
Resource Planning (ERP) systems, include modernizing legacy systems, when necessary
and supported by a business case, and aggressively sunsetting legacy systems that are
obsolete, redundant, or not aligned with our business processes. This last point is critical,
as it means replacing systems that do not support commercial audit standards with those
that will enable Military Services and Defense Agencies to meet clean audit goals. This also
will minimize the number of required data exchanges and system-to-system interfaces, thus
reducing the potential for error, increasing the degree of process standardization, increasing
process efficiency, and providing greater visibility of accurate financial information to make
informed timely business decisions.
The Department also has taken steps to improve its acquisition process for DBS by
streamlining the process and speeding delivery of capability to the users through
incremental delivery. These important revisions were formally established as DoD policy on
June 23, 2011, when the Principal Deputy Under Secretary of Defense for Acquisition,
Technology & Logistics issued Directive-Type Memorandum 11-009, “Acquisition Policy for
Defense Business Systems.” These revisions will be included in an update to DoD's
standard acquisition process for IT systems, DoD Instruction 5000.02, “Operation of the
Defense Acquisition System,” for IT systems. In addition to improving acquisition policy, the
Department is working to improve specific acquisition outcomes of its business Major
Automated Information System (MAIS) programs through more rigorous acquisition
oversight and investment review. The Department is tying business outcomes to acquisition
milestones and specifically requiring that individual programs, such as Army’s General Fund
Enterprise Business System and the Navy’s ERP, define the role that they play in their
organization’s auditability efforts and end-to-end processes. Additional MAIS programs that
are important to DoD audit efforts are the Air Force’s Defense Enterprise Accounting and
Management System and the Defense Agencies Initiative.



                                                      Management’s Discussion and Analysis
                                             36
Department of Defense Agency Financial Report for FY 2011

Improved systems alone, however, will not
eliminate our weaknesses or guarantee auditable
statements. Achieving auditability requires that
we apply a consistent level of process controls that
cross organizations and functional areas. Business
and financial information that is passed from
system to system also must be subject to a control
environment to ensure that only authorized
personnel are using the system, protect data
quality and integrity, and maintain a compliant
audit trail within the end-to-end business process.
Controls within each process should begin at the
transaction level and flow from source documents
to general ledger postings, to produce accurate
trial balances for proper period closeouts. Only by
completing these steps can we prepare financial
statements that an auditor can cost-effectively
review and verify.
Additional information about the Department’s DBS, including the plans for acquiring new
systems and modernizing or retiring legacy systems, can be found in the statutorily
mandated Enterprise Transition Plan.




                                                       Management’s Discussion and Analysis
                                             37
Department of Defense Agency Financial Report for FY 2011

MANAGEMENT CHALLENGES
The Office of Inspector General works to
promote efficiency, effectiveness, and
integrity in the programs and operations
of the Department.         The Reports
Consolidation Act of 2000 requires the
Inspector General (IG) summarize what
he believes to be the most serious
management          and     performance
challenges facing the Department along
with a brief assessment of the
Department’s progress in addressing
these challenges.
This year, the IG removed the               A U.S. Air Force Major, an Inspector General team
                                            m ember, takes notes during a m ajor accident
previously-cited management challenge       response exercise at Keesler Air Force Base,
related to the American Recovery and        Biloxi, Mississippi, Oct. 26, 2010. During the
Reinvestment Act (ARRA), often referred     exercise a C-130J Super Hercules aircraft m ade a
                                            hard landing, lost engine power and crashed into a
to as “The Recovery Act,” based on the
                                            six-passenger van, com ing to rest on the triangle
Department’s performance and progress       track north of Alho Manor. The scenario also
in addressing this challenge.               included a spill from chem icals on the aircraft,
                                            hydraulic fluid and JP-8 fuel.
The    IG   identified the    following
                                                                      (U.S. Air Force photo by
management         and    performance                               Kemberly Groue/Released)
challenges, which were previously cited
in FY 2010:
•   Financial Management
•   Acquisition Processes and Contract Management
•   Joint Warfighting and Readiness
•   Information Assurance, Security, and Privacy
•   Health Care
•   Equipping and Training Iraq and Afghan Security Forces
•   Nuclear Enterprise
Detailed information regarding these challenges, along with the Department’s management
response, is included in the Other Accompanying Information (Addendum A) section of this
report. The IG-identified challenges are in addition to those identified in the Government
Accountability Office report, entitled “High-Risk Series, An Update,” issued February 2011.




                                                     Management’s Discussion and Analysis
                                            38
Department of Defense Agency Financial Report for FY 2011

OTHER MANAGEMENT INFORMATION AND INITIATIVES

AMERICAN RECOVERY AND
REINVESTMENT ACT                                    Figure 1-16. Recovery Act Funds for
On February 17, 2009, the Congress                  the Department of Defense
passed the American Recovery and
Reinvestment Act (ARRA), commonly
known as “The Recovery Act,” and
appropriated $7.4 billion to the Department
for military construction, facility repair,
energy efficiency investments, near-term
energy research, and assistance to certain
military members and civilians, who
experienced financial losses during the U.S.
housing market downturn. In addition, the
U.S. Army Corps of Engineers (USACE)
received $4.6 billion for its civil works
program, separate from DoD’s $7.4 billion
in ARRA funds.
In Public Law 111-226, the Congress rescinded $0.26 billion of the $7.4 billion appropriated
ARRA funds, reducing DoD’s Recovery Act funding to $7.2 billion (Figure 1-16). The
purpose of the DoD ARRA investments was to preserve and create American jobs, care for
U.S. Service members and their families, and improve the Department's energy efficiency.
As of September 30, 2011, the Department obligated $6.8 billion (95 percent) and
disbursed $5.1 billion (72 percent) of the $7.2 billion (Figure 1-17) in authorized ARRA
funds that accounted for over 4,500 projects at over 400 sites. The contract bidding climate
was very competitive, resulting in $480 million in savings that the Department used to
award over 330 additional construction and maintenance projects. Figure 1-17 describes
the breakout of obligation and disbursements by major programs. Funds for Military
Construction and Energy Conservation Investment Projects are available for obligation until
FY 2013. The DoD OIG received $15 million in budget authority, which is included in the $4
billion of budget authority reported in Figure 1-17 for Facilities Sustainment, Restoration,
and Modernization. The DoD OIG’s obligations and expenditures as of September 30, 2011,

Figure 1-17. ARRA Program Obligations and Expenditures

 PROGRAM                                               For Period Ended September 30, 2011
 Dollars in Billions                                Authority      Obligations    Expenditures
 Facilities Sustainment, Restoration, and
                                                       $ 4.01          $ 3.97           $ 3.47
 Modernization
 Military Construction                                 $ 2.18          $ 1.86           $ 0.76
 Energy Conservation Investment                        $ 0.12          $ 0.12           $ 0.08
 Near Term Energy-Efficient Technologies               $ 0.30          $ 0.29           $ 0.26
 Home Owners Assistance Program                        $ 0.56          $ 0.56           $ 0.56
 TOTAL                                                 $ 7.17          $ 6.80           $ 5.13


                                                         Management’s Discussion and Analysis
                                               39
Department of Defense Agency Financial Report for FY 2011

which are reported separately per ARRA requirements and therefore are not included in the
respective columns above, are $14.9 million and $14.9 million, respectively.
For details regarding the Department’s recovery act implementation and accountability,
refer to the DoD website at http://www.defense.gov/recovery.

FINANCIAL FLEXIBILITY FOR WARFIGHTERS
The experience of war has taught us that new, unanticipated enemy weapons and tactics
will emerge in times of conflict. In the traditional risk areas of cost, schedule, and
performance, “schedule” often becomes the least acceptable risk. The speed at which
something can be fielded, even if it is only a mitigating capability, is often the most relevant
factor in reducing the Commander’s operational risk and maintaining the tactical advantage.
The Department recognized the need for agility, for a flexible structure capable of quickly
identifying emerging joint urgent operational needs (JUONS) and to rapidly adjust program
and budgetary priorities to fill those needs within a tactically relevant timeframe. In
June 2011, the Secretary established the Senior Integration Group (SIG), with the authority
to prioritize and direct actions and resources to fill all JUONS. The SIG has successfully
exercised available financial flexibilities to provide our forces with the best force protection,
command and control, counter improvised explosive devices (IED), and intelligence,
surveillance and reconnaissance (ISR) capabilities available.
                                                    Among the most responsive financial
                                                    flexibilities available to the Department are
                                                    the accounts appropriated for the Joint
                                                    Improvised Explosive Device Defeat Fund,
                                                    the      Mine-Resistant,     Ambush-Protected
                                                    Vehicle Fund, and the Commander’s
                                                    Emergency Response Program. For urgent
                                                    needs outside the scope of these
                                                    appropriations, the Department exercises
                                                    additional authorities granted by Congress,
                                                    such as the Rapid Acquisition Authority
                                                    provided under Public Law 108-375, entitled
  U.S. Sailors drive a m ine-resistant, am bush-
                                                    the “Ronald W. Reagan National Defense
  protected vehicle during an individual
  augm entee combat training course at Joint        Authorization Act for Fiscal Year 2005.” In
  Base McGuire-Dix-Lakehurst, N.J.                  FY 2011, the Secretary delegated “Rapid
    (U.S. Mass Communication Specialist 3rd Class   Acquisition Authority” to senior officials in
                       Jonathan Chandler/Released)  the military services, enabling them to
                                                    immediately execute six urgent projects.
Among these was a forward Operating Base Counter Sniper System, “Boomerang,” that gives
early warning of sniper activity and enables our forces to rapidly engage and effectively counter
enemy action. Using Rapid Acquisition Authority, funds were made immediately available and a
contract executed to field these systems within two weeks of the funding decision. In addition
to these authorities, the Congress also authorized the use of Contingency Construction
Authority to enable flexible use of military construction funds to build wartime facilities at
combat outposts, forward operating bases, and airfields.

                                                        Management’s Discussion and Analysis
                                               40
Department of Defense Agency Financial Report for FY 2011

Even with these flexibilities, however, the Department remains heavily dependent upon the
transfer authorities contained within the annual appropriations act to fund urgent
operational needs. In 2011, the Department fully exercised the $4 billion Special Transfer
Authority authorized by Congress in the appropriations act for FY 2011. This transfer
authority, with prior approval by the congressional defense committees, allowed the
department to fund and deliver multiple force protection, ISR and counter-IED capabilities.
These latter capabilities include the Persistent Surveillance System, a family of tethered
aerostats that provide sophisticated day and night camera systems which detect enemy
activity and are deployed at coalition force forward operating bases throughout Afghanistan.

Financial Management Workforce Improvement Initiative
The Department has initiated a multi-year effort to ensure it meets DoD-wide civilian
financial management workforce and lifecycle management needs.           The DoD Civilian
Strategic Human Capital Plan process, which will be applied across the Department’s
financial management civilian community, involves both manpower and job requirements
analysis. As part of this effort, the Department will establish common competencies within
each financial management occupation, develop career paths, and identify training and
education requirements.
The DoD Components are developing and supporting a functional community human capital
plan that will ensure the right number of skilled employees is in the right place at the right
time to meet mission requirements. Elements of this human capital plan will develop and
institute ideas that will enhance the professional development of the financial management
staff and provide intern opportunities for junior staff, mentoring and coaching, and a one-
stop DoD financial management website for all financial management professional
development opportunities.
Members of the financial management workforce have the responsibility to hone their skills
throughout their careers and to embrace a culture of continuous improvement. The civilian
financial management workforce improvement plan, coupled with a well-developed and
trained workforce, will improve cost estimating and financial analysis throughout the
Department and enable the Department to pursue new systems and innovations with
confidence.

Financial Improvement and Audit Readiness (FIAR) Initiative
The Department is aggressively working to improve its business and financial processes,
controls,   and   systems   to   achieve   financial  statement    audit   readiness  by
September 30, 2017, as required by Congress. In October 2011, Secretary Panetta directed
the USD(C)/CFO to provide a revised plan to achieve audit readiness for the Statement of
Budgetary Resources by the end of 2014.        Due to the size and complexity of the
Department and its many challenges to becoming auditable, the DoD’s strategy employs an
incremental approach that focuses first on improving the information most often used to
manage the Department:        Budgetary and Mission Critical Asset information.      The
USD(C)/CFO established these two priorities, which were incorporated in the Department’s
FIAR Plan in 2009 and were approved, endorsed, and/or acknowledged by the Inspector
General of the Department of Defense, OMB, GAO, and Congress.

                                                      Management’s Discussion and Analysis
                                             41
Department of Defense Agency Financial Report for FY 2011

The goals of the Department’s FIAR Plan are to:
•   Improve the accuracy, reliability, and usefulness of business and financial information
    used for decision making, and
•   Achieve an unqualified audit opinion on the Department’s financial statements.
The Department is committed to achieving these goals by September 30, 2017, and has
taken the following significant steps to ensure success:
•   Visible Leadership and Department-wide Audit Readiness Goal.
•   Accountability and Incentives.
•   Broader Functional Community Support and Participation.
•   Senior Leadership Oversight and Involvement.
•   Resources to Accomplish FIAR Goals and Objectives.
The FIAR Plan Status Report (“FIAR Report”), a semi-annual report prepared in accordance
with Section 1003 of the NDAA for FY 2010, addresses the issues affecting the reliability of
Department of Defense (DoD) financial statements. The FIAR Report also serves as the
Department’s annual Financial Management Improvement Plan, required by Section 1008(a)
of the NDAA for FY 2002.




                                                     Management’s Discussion and Analysis
                                             42
Department of Defense Agency Financial Report for FY 2011

PATH FORWARD
These are challenging times for our Nation. For decades, American leadership has been
unwavering and indispensible in a changing world. For more than 70 years, the United
States has taken a proactive approach to confronting threats from abroad, in support of the
primary responsibility of any Administration: To provide the security and safety of the
American people. Doing so requires our government to deter and defeat threats at home
and abroad; to build alliances and coalitions aimed at promoting common interests; and to
help create a safer, more stable international environment. America’s military continues to
play a critical role in global security and securing our country. In this era of increasing
global interdependence, there remains no substitute for American leadership.
Moreover, we remain a nation at war. Terrorists continue to learn and adapt, posing an
ongoing threat to the security of the United States and to our allies and partners. Efforts to
disrupt, dismantle, and defeat al Qaeda and its extremist affiliates continue around the
world, with the epicenter rooted in Afghanistan and Pakistan. We are on a path towards a
responsible transition in Afghanistan and completing the drawdown in Iraq, but these efforts




  U.S. Arm y soldiers air assault from a CH-47 Chinook helicopter into a village inside Jowlzak
  valley in Afghanistan's Parwan province, Feb. 3, 2011. The soldiers, assigned to the 101st
  Division's Special Troop Battalion, Com pany A, and Afghan police searched the village while
  soldiers provided security and m et with leaders.
                                                               U.S. Army photo by Spc. Scott Davis




                                                            Management’s Discussion and Analysis
                                                  43
Department of Defense Agency Financial Report for FY 2011

continue to require our resources and place continued strain on our most precious asset –
our people.
We must ensure that our military has what
it needs to protect our national security at a
time of considerable fiscal challenge in our
country. We cannot choose between fiscal
discipline and national security – they are
inter-connected. Our growing national debt,
if not addressed, will imperil our prosperity,
hurt our credibility and influence around the
world, and ultimately put our national
security at risk. As the Nation takes steps
to get its finances in order, defense
spending will be part of the solution.                A U.S. Arm y Sergeant assigned to the 86th
Achieving savings based on sound national             Special Troops Battalion, 86th Infantry
                                                      Brigade Com bat Team , plays with an Afghan
security policy will serve our Nation's
                                                      child while visiting Durani, Afghanistan, Nov.
interests and will also prove more                    1, 2010. Soldiers visited the village to
enforceable and sustainable over the long-            dism antle an old Russian tank, which the
                                                      villagers will sell for scrap m etal to buy food
term.
                                                      to get through the winter.
Spending choices must be based on sound              U.S. Army photo by Spc. Kristina L. Gupton
strategy and policy. In the past, such as
after the Vietnam War, our Government applied cuts to defense across the board, resulting
in a force that was undersized and underfunded relative to its missions and responsibilities.
This approach historically has led to outcomes that weaken rather than strengthen our
national security – and which ultimately cost our Nation more when it must quickly
reconstitute to confront new threats. Going forward, the Department will ensure that
reductions in defense spending are not pursued in a hasty, ill-conceived way that would
undermine the military’s ability to protect America and its vital interests around the globe.
In order to help defend and advance our national interests in the face of the fiscal
challenges ahead, the Department will continue to balance resources and risks. To create
and maintain the right mix of forces and military capabilities, the Department must make
hard, strategy-informed choices. We must maintain a broad portfolio of military capabilities
with maximum versatility across a wide spectrum of potential conflict, while at the same
time ensuring that we do not break faith with our All-Volunteer Force and with their
families. We have a volunteer force that is the heart of our military strength, and we must
protect that volunteer force.
The Department’s established priorities, along with both the FY 2011 and FY 2012 budgets,
reflect the Secretary’s consistent emphasis on ensuring the Department does everything
possible to enable success in today’s wars while preparing for a complex and uncertain
future.




                                                           Management’s Discussion and Analysis
                                                 44
                               U
                               UNITED STATES DEPARTMENT OF DEFENSE




Agency Financcial Report
November 2011

Financial Information


 OFFICE OF THE UNDER SECRETARY OF
                                F DEFENSE (COMPTROLLER) / CFO
                                        
Department of Defense Agency Financial Report for FY 2011




                                                                                

                                                            Financial Information
                                      45
Department of Defense Agency Financial Report for FY 2011



FINANCIAL INFORMATION

INDEPENDENT AUDITOR’S REPORT




                                                            Financial Information
                                      46
Department of Defense Agency Financial Report for FY 2011




                                                            Financial Information
                                      47
Department of Defense Agency Financial Report for FY 2011




                                                            Financial Information
                                      48
Department of Defense Agency Financial Report for FY 2011




                                                            Financial Information
                                      49
Department of Defense Agency Financial Report for FY 2011




                                                            Financial Information
                                      50
Department of Defense Agency Financial Report for FY 2011




                                                            Financial Information
                                      51
Department of Defense Agency Financial Report for FY 2011




                                                            Financial Information
                                      52
Department of Defense Agency Financial Report for FY 2011




                                                            Financial Information
                                      53
Department of Defense Agency Financial Report for FY 2011




                                                            Financial Information
                                      54
Department of Defense Agency Financial Report for FY 2011




                                                            Financial Information
                                      55
Department of Defense Agency Financial Report for FY 2011


PRINCIPAL FINANCIAL STATEMENTS AND NOTES

LIMITATIONS OF THE FINANCIAL STATEMENTS
The principal financial statements have been prepared to report the financial position and
results of operations of the Department, pursuant to the requirements of 31 U.S.C. 3515(b).
The statements are prepared from accounting records of the Department in accordance with
OMB Circular No. A-136 and, to the extent possible, U.S. generally accepted accounting
principles (USGAAP). The statements, in addition to the financial reports, are used to
monitor and control budgetary resources, which are prepared from the same records. The
statements should be read with the realization that they are for a component of the U.S.
Government, a sovereign entity.
The financial statements of the Department include four principal statements listed in
Figure 2-1.
The financial statements reflect the aggregate financial posture of the Department and include
both the proprietary (federal accounting standards) and budgetary resources of the
Department. The Department is large and complex with an asset base of $2.0 trillion, and
more than 3 million military and civilian employees on installations in every state and around
the world.

 Figure 2-1. Four Principal Financial Statements

 Statement             What Information It Provides

 Balance Sheet         Reflects the Department’s financial position as of the statement date
                       (September 30, 2011). The assets are the amount of future economic benefits owned or
                       managed by the Department. The liabilities are amounts owed by the Department. The
                       net position is the difference between the assets and liabilities.
 Statement of Net      Shows separately the components of the net cost of the Department’s operations for the
 Cost                  period. Net cost is equal to the gross cost incurred by the Department less any exchange
                       revenue earned from it’s activities.
 Statement of          Presents the sum of the cumulative results of operations since inception and unexpended
 Changes in Net        appropriations provided to the Department that remain unused at the end of the fiscal
 Position              year. The statement focuses on how the net cost of operations is financed. The resulting
                       financial position represents the difference between assets and liabilities as shown on the
                       consolidated balance sheet.
 Statement of          Provides information about how budgetary resources were made available as well as
 Budgetary Resources   their status at the end of the period. It is the only financial statement exclusively derived
                       from the Department’s budgetary general ledger in accordance with budgetary accounting
                       rules.




                                                                                         Financial Information
                                                       56
Department of Defense Agency Financial Report for FY 2011


 Department of Defense Consolidated Balance Sheet
 Agency Wide                                                                                    Dollars in Millions

                                                                                                 Restated
                                                                                2011              2010
                                                                             Consolidated      Consolidated
 ASSETS (Note 2)
 Intragovernmental:
   Fund Balance with Treasury (Note 3)                                       $   523,441.6      $   521,641.7
   Investments (Note 4)                                                          569,342.2          497,136.9
   Accounts Receivable (Note 5)                                                    1,726.9            1,249.2
   Other Assets (Note 6)                                                           1,760.3            1,874.7
   Total Intragovernmental Assets                                            $ 1,096,271.0      $ 1,021,902.5
 Cash and Other Monetary Assets (Note 7)                                           1,720.3            2,066.7
 Accounts Receivable, Net (Note 5)                                                 9,961.4            9,756.2
 Loans Receivable (Note 8)                                                           814.4              522.3
 Inventory and Related Property, Net (Note 9)                                    242,582.0          232,234.3
 General Property, Plant and Equipment, Net (Note 10)                            608,292.8          581,255.8
 Investments (Note 4)                                                              3,185.0            2,489.7
 Other Assets (Note 6)                                                            68,669.5           65,635.1
 Stewardship Property, Plant & Equipment (Note 10)
 TOTAL ASSETS                                                                $ 2,031,496.4      $ 1,915,862.6

  LIABILITIES (Note 11)
  Intragovernmental:
    Accounts Payable (Note 12)                                               $     1,893.1      $     1,754.5
    Debt (Note 13)                                                                   783.4              518.3
    Other Liabilities (Note 15)                                                   14,231.7           13,781.4
    Total Intragovernmental Liabilities                                      $    16,908.2      $    16,054.2
  Accounts Payable (Note 12)                                                      26,103.9           31,135.4
  Military Retirement and Other Federal Employment Benefits (Note 17)          2,212,359.6        2,176,698.9
  Environmental and Disposal Liabilities (Note 14)                                64,823.1           62,902.2
 Loan Guarantee Liability (Note 8)                                                     13.9                 19.8
 Other Liabilities (Note 15)                                                       31,308.1             35,563.5
 Commitments & Contingencies (Note 16)
 TOTAL LIABILITIES                                                           $ 2,351,516.8      $ 2,322,374.0

  NET POSITION
  Unexpended Appropriations - Earmarked Funds (Note 23)                       $        134.6     $        304.8
  Unexpended Appropriations - Other Funds                                          541,194.6          528,499.8
  Cumulative Results of Operations - Earmarked Funds                           (1,430,273.8)      (1,440,006.0)
  Cumulative Results of Operations - Other Funds                                   568,924.2          504,690.0
  TOTAL NET POSITION                                                          $ (320,020.4)      $ (406,511.4)

  TOTAL LIABILITIES AND NET POSITION                                          $ 2,031,496.4      $ 1,915,862.6




The accompanying notes are an integral part of these financial statements.


                                                                                        Financial Information
                                                                        57
Department of Defense Agency Financial Report for FY 2011


 Department of Defense Consolidated Statement of Net Cost
 Agency Wide                                                                                   Dollars in Millions

                                                                                                Restated
                                                                                2011             2010
                                                                             Consolidated     Consolidated
 Program Costs
 Gross Costs                                                                   $ 759,884.5       $ 718,947.7
           Military Retirement Benefits                                            57,033.8          56,741.5
           Civil Works                                                             13,530.1          13,300.4
           Military Personnel                                                     153,881.4        154,374.9
           Operations, Readiness & Support                                        313,367.5        276,976.4
           Procurement                                                            128,572.8        124,567.7
           Research, Development, Test & Evaluation                                79,158.7          82,877.5
           Family Housing & Military Construction                                  14,340.2          10,109.3
           (Less: Earned Revenue)                                               (115,039.9)        (63,242.2)
 Net Cost before Losses/(Gains) from Actuarial Assumption Changes
 for Military Retirement Benefits                                              $ 644,844.6       $ 655,705.5
           Losses/(Gains) from Actuarial Assumption Changes for Military
           Retirement Benefits                                                    39,308.7         164,089.0
  Net Cost of Operations                                                       $ 684,153.3       $ 819,794.5




The accompanying notes are an integral part of these financial statements.


                                                                                       Financial Information
                                                                        58
Department of Defense Agency Financial Report for FY 2011


 Department of Defense Consolidated Statement of Changes in Net Position
 Agency Wide                                                                                                                                                                                                                Dollars in Millions

                                                                                                                                                                                        Restated                                 Restated
                                                                                  2011                  2011                 2011               2011                2010                                       2010
                                                                                                                                                                                          2010                                    2010
                                                                             Earmarked Funds      All Other Funds        Eliminations        Consolidated      Earmarked Funds                             Eliminations
                                                                                                                                                                                    All Other Funds                            Consolidated

   Cumulative Results Of Operations
   Beginning Balances                                                         $   (1,338,741.2)   $     417,826.0    $              0.0      $   (920,915.2)    $   (1,252,265.5)   $     385,526.0    $              0.0     $      (866,739.5)
   Prior Period Adjustments:
      Changes in accounting principles                                                     0.0                 0.0                  0.0                  0.0                 0.0                 0.0                  0.0                    0.0
      Corrections of errors                                                                0.0          (14,400.8)                  0.0           (14,400.8)              (276.3)           1,722.7                   0.0               1,446.4
   Beginning balances, as adjusted                                            $   (1,338,741.2)   $     403,425.2    $              0.0      $   (935,316.0)    $   (1,252,541.8)   $     387,248.7    $              0.0     $      (865,293.1)


   Budgetary Financing Sources:
      Appropriations used                                                                206.9          747,758.5                   0.0           747,965.4                 23.9          738,746.2                   0.0             738,770.1
      Nonexchange revenue                                                              2,764.4              (24.3)                  0.0             2,740.1              2,960.9              (15.0)                  0.0               2,945.9
      Donations and forfeitures of cash and cash equivalents                              30.3                 0.1                  0.0                30.4                 46.3                 0.0                  0.0                  46.3
      Transfers(in/out without reimbursement)                                           (874.8)             964.0                   0.0                89.2               (780.1)             983.2                   0.0                 203.1
      Other                                                                               (1.8)                0.0                  0.0                (1.8)                 1.4             (810.5)                  0.0                (809.1)
   Other Financing Sources (Non-Exchange)
      Donations and forfeitures of property                                                0.3                 7.3                  0.0                  7.6                 0.0                 6.4                  0.0                    6.4
      Transfers(in/out without reimbursement )                                           (71.7)             (75.7)                  0.0              (147.4)              (244.3)             810.5                   0.0                 566.2
      Imputed financing                                                                    2.2           19,698.3              14,076.6             5,623.9                  0.6           18,507.2              12,911.6               5,596.2
      Other                                                                               12.7             1,799.6                  0.0             1,812.3                 29.0            2,417.5                   0.0               2,446.5
   Total Financing Sources                                                    $        2,068.5    $     770,127.8    $         14,076.6      $    758,119.7     $        2,037.7    $     760,645.5    $         12,911.6     $       749,771.6
   Net Cost of Operations                                                            (11,025.6)         709,255.5              14,076.6           684,153.3             88,237.1          744,467.9              12,910.5             819,794.5
   Net Change                                                                 $       13,094.1    $      60,872.3    $              0.0      $     73,966.4     $      (86,199.4)   $      16,177.6    $              1.1     $       (70,022.9)
   Cumulative Results of Operations                                           $   (1,325,647.1)   $     464,297.5    $              0.0      $   (861,349.6)    $   (1,338,741.2    $     403,426.3    $              1.1     $      (935,316.0)


   Unexpended Appropriations
   Beginning Balances                                                                    325.2          528,479.4                   0.0           528,804.6                  5.6          504,339.3                   0.0             504,344.9
   Prior Period Adjustments:
      Correction of Error                                                                  0.0                 0.0                  0.0                  0.0                 0.0             (945.0)                  0.0                (945.0)
   Beginning balances, as adjusted                                            $          325.2    $     528,479.4    $              0.0      $    528,804.6     $            5.6    $     503,394.3    $              0.0     $       503,399.9


   Budgetary Financing Sources:
      Appropriations received                                                             16.5          775,450.0                   0.0           775,466.5                323.2          775,081.9                   0.0             775,405.1
      Appropriations transferred (in/out)                                                  0.0             (781.2)                  0.0              (781.2)                20.2              608.6                   0.0                 628.8
      Other adjustments                                                                   (0.2)         (14,195.1)                  0.0           (14,195.3)                 0.1          (11,859.2)                  0.0             (11,859.1)
      Appropriations used                                                               (206.9)        (747,758.5)                  0.0          (747,965.4)               (23.9)        (738,746.2)                  0.0            (738,770.1)
   Total Budgetary Financing Sources                                          $         (190.6)   $      12,715.2    $              0.0      $     12,524.6     $          319.6    $      25,085.1    $              0.0     $        25,404.7
   Unexpended Appropriations                                                  $          134.6    $     541,194.6    $              0.0      $    541,329.2     $          325.2    $     528,479.4    $              0.0     $       528,804.6
   Net Position                                                               $   (1,325,512.5)   $    1,005,492.1   $              0.0      $   (320,020.4)    $   (1,338,416.0)   $     931,905.7    $              1.1     $      (406,511.4)




The accompanying notes are an integral part of these financial statements.


                                                                                                                                                                                                                                  Financial Information
                                                                                                                                        59
Department of Defense Agency Financial Report for FY 2011


Department of Defense Combined                                             Budgetary                           Nonbudgetary
Statement Of Budgetary Resources                                       Financing Accounts                   Financing Accounts
Agency Wide                                                                        Restated
Page 1 of 2                                                             2011         2010                    2011          2010
Dollars in Millions                                                   Combined    Combined                 Combined      Combined
Budgetary Resources
Unobligated balance, brought forward,
                                                                      $      160,032.1 $      146,116.6 $         24.9   $    23.6
October 1
Recoveries of prior year unpaid obligations                                    56,015.4        54,701.2            0.0         0.0
Budget authority
 Appropriation                                                               913,129.4        899,278.4            0.0         0.0
 Borrowing authority                                                               0.0              0.0          229.8        26.8
 Contract authority                                                           75,760.9         73,059.7            0.0         0.0
Spending authority from offsetting collections
 Earned:
   Collected                                                                 189,639.2        184,468.6          102.6        69.6
   Change in receivables from federal sources                                  2,113.5          (350.9)            0.1         0.0
  Change in unfilled customer orders:
    Advance received                                                          385.0         (81.9)                 0.0          0.0
    Without advance from federal sources                                    3,304.0       2,415.7                  2.5       (34.9)
  Expenditure transfers from trust funds                                      881.9         851.0                  0.0          0.0
  Subtotal                                                            $ 1,185,213.9 $ 1,159,640.6 $              335.0   $     61.5
Nonexpenditure transfers, net, anticipated
                                                                                (604.8)           803.3            0.0         0.0
and actual
Temporarily not available pursuant to
                                                                             (75,282.7)       (60,328.7)           0.0         0.0
Public Law
Permanently not available                                                 (93,883.2)    (87,872.7)              (16.9)       (13.9)
Total Budgetary Resources                                             $ 1,231,490.7 $ 1,213,060.3 $             343.0    $     71.2
Status of Budgetary Resources
Obligations incurred:
 Direct                                                                   874,213.8           857,647.6          326.8        46.3
 Reimbursable                                                             195,004.4           195,380.6            0.0         0.0
 Subtotal                                                             $ 1,069,218.2       $ 1,053,028.2 $        326.8   $    46.3
Unobligated balance:
 Apportioned                                                              137,148.5           137,738.3            0.1        24.8
 Exempt from apportionment                                                  4,180.4             6,106.9            0.0         0.0
 Subtotal                                                             $ 141,328.9         $ 143,845.2     $        0.1   $    24.8
Unobligated balance not available                                          20,943.6            16,186.9           16.1         0.1
Total status of budgetary resources                                   $ 1,231,490.7       $ 1,213,060.3 $        343.0   $    71.2




The accompanying notes are an integral part of these financial statements.



                                                                                                              Financial Information
                                                                          60
Department of Defense Agency Financial Report for FY 2011


Department of Defense Combined                                             Budgetary                    Nonbudgetary Financing
Statement of Budgetary Resources                                       Financing Accounts                     Accounts
Agency Wide                                                                       Restated
Page 2 of 2                                                             2011        2010                  2011           2010
Dollars in Millions                                                   Combined Combined                 Combined       Combined
Change in Obligated Balance:
Obligated balance, net
 Unpaid obligations, brought forward,
 October 1                                                                   458,620.6     453,958.7          619.4         770.4
 Less: Uncollected customer payments from
                                                                         (69,766.8)        (67,702.3)         (97.3)       (132.2)
 federal sources, brought forward, October 1
 Total unpaid obligated balance                                      $ 388,853.8         $ 386,256.4    $      522.1   $     638.2
Obligations incurred net                                               1,069,218.2        1,053,028.2          326.8          46.3
Less: Gross outlays                                                  (1,016,898.9)        (993,664.7)        (375.3)       (197.3)
Less: Recoveries of prior year unpaid
                                                                         (56,015.1)        (54,701.2)           0.0           0.0
obligations, actual
Change in uncollected customer payments
                                                                              (5,417.5      (2,064.7)          (2.6)         34.9
from federal sources
Obligated balance, net, end of period
 Unpaid obligations                                                          454,924.8     458,621.0          570.9         619.4
  Less: Uncollected customer payments
                                                                         (75,184.3)        (69,767.0)         (99.9)        (97.3)
  from federal sources
 Total, unpaid obligated balance, net,
                                                                      $ 379,740.5        $ 388,854.0    $     471.0    $    522.1
 end of period
Net Outlays
Net Outlays:
 Gross outlays                                                         1,016,898.9          993,664.7          375.3        197.3
 Less: Offsetting collections                                          (190,906.1)        (185,237.8)        (102.6)        (69.6)
 Less: Distributed offsetting receipts                                   (83,198.6)        (77,722.2)            0.0           0.0
 Net Outlays                                                          $ 742,794.2        $ 730,704.7    $      272.7   $    127.7




The accompanying notes are an integral part of these financial statements.



                                                                                                            Financial Information
                                                                        61
Department of Defense Agency Financial Report for FY 2011


NOTE 1. SIGNIFICANT ACCOUNTING POLICIES
1.A. Basis of Presentation
These financial statements have been prepared to report the financial position and results of
operations of the Department of Defense (DoD), as required by the Chief Financial Officers
Act of 1990, expanded by the Government Management Reform Act of 1994, and other
appropriate legislation. The financial statements have been prepared from the books and
records of the Department in accordance with, to the extent possible, U.S. generally
accepted accounting principles (USGAAP) promulgated by the Federal Accounting Standards
Advisory Board; the Office of Management and Budget (OMB) Circular No. A-136, Financial
Reporting Requirements; and the DoD Financial Management Regulation (DoD FMR). The
accompanying financial statements account for all resources for which the Department is
responsible unless otherwise noted. Information relative to classified assets, programs, and
operations is excluded from the statements or otherwise aggregated and reported in such a
manner that it is not discernable.
The Department is unable to fully implement all elements of USGAAP and OMB
Circular No. A-136, due to limitations of financial and nonfinancial management processes
and systems that support the financial statements. The Department derives reported values
and information for major asset and liability categories largely from nonfinancial systems,
such as inventory and logistics systems. These systems were designed to support reporting
requirements for maintaining accountability over assets and reporting the status of federal
appropriations rather than preparing financial statements in accordance with USGAAP. The
Department continues to implement process and system improvements addressing these
limitations.
The Department has 13 auditor-identified material weaknesses: (1) Financial Management
Systems; (2) Fund Balance with Treasury; (3) Accounts Receivable; (4) Inventory;
(5) Operating Materials [sic] and Supplies; (6) General Property, Plant, and Equipment;
(7) Government-Furnished Materials and Contractor-Acquired Materials; (8) Accounts
Payable; (9) Environmental Liabilities; (10) Statement of Net Cost; (11) Intragovernmental
Eliminations; (12) Other Accounting Entries; and (13) Reconciliation of Net Cost of
Operations to Budget.

1.B. Mission of the Reporting Entity
The Department was established by the National Security Act of 1947. The Department
provides the military forces needed to deter war and protect the security of our country.
Since the creation of America’s first army in 1775, the Department and predecessor
organizations have evolved into a global presence with a worldwide infrastructure dedicated
to defending the United States by deterring and defeating aggression and coercion in critical
regions.
The Department includes the Military Departments and the Defense Agencies. The Military
Departments consist of the Army, the Navy (of which the Marine Corps is a component),
and the Air Force.    The Defense Agencies provide support services commonly used
throughout the Department.



                                                                       Financial Information
                                             62
Department of Defense Agency Financial Report for FY 2011

1.C. Appropriations and Funds
The Department receives appropriations and funds as general, working capital (revolving),
trust, special, and deposit funds. The Department uses these appropriations and funds to
execute missions and subsequently report on resource usage.
General Funds are used for financial transactions funded by congressional appropriations,
including personnel, operation and maintenance, research and development, procurement,
and military construction. These general funds also include supplemental funds enacted by
the American Recovery and Reinvestment Act (Recovery Act) of 2009. Details relating to
Recovery Act appropriated funds are available on line at DoD Information Related to the
American Recovery and Reinvestment Act of 2009.
Working Capital Funds (WCF) received funding to establish an initial corpus through an
appropriation or a transfer of resources from existing appropriations or funds. The corpus
finances operations and transactions that flow through the fund. The WCF resources the
goods and services sold to customers on a reimbursable basis and maintains the corpus.
Reimbursable receipts fund future operations and generally are available in their entirety for
use without further congressional action. At various times, Congress provides additional
appropriations to supplement WCF as an infusion of cash when revenues are inadequate to
cover costs within the corpus.
Trust funds contain receipts and expenditures of funds held in trust by the government for
use in carrying out specific purposes or programs in accordance with the terms of the donor,
trust agreement, or statute. Special fund accounts are used to record government receipts
reserved for a specific purpose. Certain trust and special funds may be designated as
earmarked funds.      Earmarked funds are financed by specifically identified revenues,
required by statute to be used for designated activities, benefits or purposes, and remain
available over time. The Department is required to separately account for and report on the
receipt, use and retention of revenues and other financing sources for earmarked funds.
Deposit funds are used to record amounts held temporarily until paid to the appropriate
government or public entity. They are not Department funds, and as such, are not available
for the Department’s operations. The Department is acting as an agent or custodian for
funds awaiting distribution.
The Department is a party to allocation transfers with other federal agencies as a
transferring (parent) entity or receiving (child) entity. An allocation transfer is an entity’s
legal delegation of authority to obligate budget authority and outlay funds on its behalf.
Generally, all financial activity related to allocation transfers (e.g., budget authority,
obligations, outlays) is reported in the financial statements of the parent entity. Exceptions
to this general rule apply to specific funds for which OMB has directed that all activity be
reported in the financial statements of the child entity. These exceptions include U.S.
Treasury-Managed Trust Funds, Executive Office of the President (EOP), and all other funds
specifically designated by OMB. Based on an agreement with OMB, funds for Security
Assistance programs are reported separately from the Department's financial statements
and notes.




                                                                         Financial Information
                                              63
Department of Defense Agency Financial Report for FY 2011

The Department receives allocation transfers from the following agencies: Departments of
Agriculture, Interior, Energy, and Transportation; the Appalachian Regional Commission;
and the Federal Highway Administration.
Additionally, the Department receives allocation transfers from certain funds meeting the
OMB exception and all related activity is included in the Department’s financial statements.
The exceptions reported by the Department include South Dakota Terrestrial Wildlife Habitat
Restoration, Inland Waterways and Harbor Maintenance, and the EOP other than funds
executed by Defense Security Cooperation Agency for Security Assistance.
As a parent, the Department allocates funds to the Departments of Transportation and
Agriculture, and reports all related activity in these financial statements.

1.D. Basis of Accounting
The Department’s financial management systems are unable to meet all full accrual
accounting requirements. Many of the Department’s financial and nonfinancial feeder
systems and processes were designed and implemented prior to the issuance of USGAAP.
These systems were not designed to collect and record financial information on the full
accrual accounting basis as required by USGAAP. Most of the Department’s financial and
nonfinancial legacy systems were designed to record information on a budgetary basis.
The Department’s financial statements and supporting trial balances are compiled from the
underlying financial data and trial balances of the Military Services and Defense Agencies
and their sub-entities. The underlying data is largely derived from budgetary transactions
(obligations, disbursements, and collections), from nonfinancial feeder systems, and
accruals made for major items such as payroll expenses, accounts payable, and
environmental liabilities. Some of the sub-entity level trial balances may reflect known
abnormal balances resulting largely from business and system processes.            At the
consolidated level, these abnormal balances may not be evident. Disclosures of abnormal
balances are made in the applicable footnotes, but only to the extent that the abnormal
balances are evident at the consolidated level.
The Department is determining the actions required to bring financial and nonfinancial
feeder systems and processes into compliance with USGAAP. One such action is the current
revision of accounting systems to record transactions based on the U.S. Standard General
Ledger (USSGL). Until all of the Department’s financial and nonfinancial feeder systems and
processes are able to collect and report financial information as required by USGAAP, the
Department’s financial data will be derived from budgetary transactions, data from
nonfinancial feeder systems, and accruals.

1.E. Revenues and Other Financing Sources
The Department receives congressional appropriations as financing sources for general
funds that expire annually, on a multi-year basis, or do not expire. When authorized by
legislation, these appropriations are supplemented by revenues generated by sales of goods
or services. The Department recognizes revenue as a result of costs incurred for goods and
services provided to other federal agencies and the public.       Full-cost pricing is the
Department’s standard policy for services provided as required by OMB Circular No. A-25,
User Charges. The Department recognizes revenue when earned within the constraints of

                                                                       Financial Information
                                            64
Department of Defense Agency Financial Report for FY 2011

its current system capabilities.   In some instances, revenue is recognized when bills are
issued.
Depot Maintenance and Ordnance WCF activities recognize revenue according to the
percentage of completion method. Supply Management WCF activities recognize revenue
from the sale of inventory items.
The Department does not include nonmonetary support provided by U.S. allies for common
defense and mutual security in amounts reported in the Statement of Net Cost and Note 21,
Reconciliation of Net Cost of Operations to Budget. The U.S. has cost sharing agreements
with countries having a mutual or reciprocal defense agreement, where U.S. troops are
stationed, or where the U.S. Fleet is in a port.

1.F. Recognition of Expenses
For financial reporting purposes, the Department’s policy requires the recognition of
operating expenses in the period incurred. Current financial and nonfinancial feeder
systems were not designed to collect and record financial information on the full accrual
accounting basis. Estimates are made for major items such as payroll expenses, accounts
payable, environmental liabilities, and unbilled revenue. In the case of Operating Materiel
and Supplies (OM&S), operating expenses are generally recognized when the items are
purchased. Efforts are underway to transition to the consumption method for recognizing
OM&S expenses.      Under the consumption method, OM&S would be expensed when
consumed. Due to system limitations, in some instances expenditures for capital and other
long-term assets may be recognized as operating expenses. The Department continues to
implement process and system improvements to address these limitations.

1.G. Accounting for Intragovernmental Activities
Accounting standards require that an entity eliminate intraentity activity and balances from
consolidated financial statements in order to prevent overstatement for business with itself.
However, the Department cannot accurately identify intragovernmental transactions by
customer because the Department’s systems do not track buyer and seller data at the
transaction level. Generally, seller entities within the Department provide summary seller-
side balances for revenue, accounts receivable, and unearned revenue to the buyer-side
internal accounting offices. In most cases, the buyer-side records are adjusted to agree
with the Department’s seller-side balances and are then eliminated. The Department is
implementing replacement systems and a standard financial information structure which will
incorporate the necessary elements that will enable the Department to correctly report,
reconcile, and eliminate intragovernmental balances.
The Treasury Financial Manual Part 2 – Chapter 4700, “Agency Reporting Requirements for the
Financial Report of the United States Government,” provides guidance for reporting and
reconciling intragovernmental balances. While the Department is unable to fully reconcile
intragovernmental transactions with all federal agencies, the Department is able to reconcile
balances pertaining to investments in federal securities, borrowings from the U.S. Treasury and
the Federal Financing Bank, Federal Employees’ Compensation Act transactions with the
Department of Labor, and benefit program transactions with the Office of Personnel Management.



                                                                         Financial Information
                                              65
Department of Defense Agency Financial Report for FY 2011

The Department’s proportionate share of public debt and related expenses of the Federal
government is not included. The Federal government does not apportion debt and related
costs to federal agencies. The Department’s financial statements do not report any public
debt, interest, or source of public financing, whether from issuance of debt or tax revenues.
Generally, financing for the construction of the Department’s facilities is obtained through
appropriations. To the extent this financing ultimately may have been obtained through the
issuance of public debt, interest costs have not been capitalized since the U.S. Treasury
does not allocate such costs to the Department.

1.H. Transactions with Foreign Governments and International
Organizations
Each year, the Department sells defense articles and services to foreign governments and
international organizations under the provisions of the Arms Export Control Act of 1976.
Under the provisions of the Act, the Department has authority to sell defense articles and
services to foreign countries and international organizations generally at no profit or loss to
the Federal Government. Payment in U.S. dollars is required in advance.

1.I. Funds with the U.S. Treasury
The Department’s monetary resources are maintained in U.S. Treasury accounts. The
disbursing offices of Defense Finance and Accounting Service (DFAS), the Military
Departments, the U.S. Army Corps of Engineers (USACE), and the Department of State’s
financial service centers process the majority of the Department’s cash collections,
disbursements, and adjustments worldwide. Each disbursing station prepares monthly
reports to the U.S. Treasury on checks issued, electronic fund transfers, interagency
transfers, and deposits.
In addition, DFAS sites and USACE Finance Center submit reports to the U.S. Treasury by
appropriation on interagency transfers, collections received, and disbursements issued. The
U.S. Treasury records these transactions to the applicable Fund Balance with Treasury
(FBWT) account. On a monthly basis, the Department's FBWT is adjusted to agree with the
U.S. Treasury's accounts.

1.J. Cash and Other Monetary Assets
Cash is the total of cash resources under the control of the Department, which includes coin,
paper currency, negotiable instruments, and amounts held for deposit in banks and other
financial institutions. Foreign currency consists of the total U.S. dollar equivalent of both
purchased and nonpurchased foreign currencies held in foreign currency fund accounts.
Foreign currency is valued using the U.S. Treasury prevailing rate of exchange.
The majority of cash and all foreign currency is classified as “nonentity” and is restricted.
Amounts reported consist primarily of cash and foreign currency held by disbursing officers
to carry out their paying, collecting, and foreign currency accommodation exchange
missions.
The Department conducts a significant portion of operations overseas. Congress established
a special account to handle the gains and losses from foreign currency transactions for five
general fund appropriations: (1) operations and maintenance; (2) military personnel;

                                                                         Financial Information
                                              66
Department of Defense Agency Financial Report for FY 2011

(3) military construction; (4) family housing operation and maintenance; and (5) family
housing construction. The gains and losses are calculated as the variance between the
exchange rate current at the date of payment and a budget rate established at the
beginning of each fiscal year. Foreign currency fluctuations related to other appropriations
require adjustments to the original obligation amount at the time of payment. The
Department does not separately identify foreign currency fluctuation transactions.

1.K. Accounts Receivable
Accounts receivable from other federal entities or the public include: accounts receivable,
claims receivable, and refunds receivable. Allowances for uncollectible accounts due from
the public are based upon an analysis of collection experience. The Department does not
recognize an allowance for estimated uncollectible amounts from other federal agencies.
Claims against other federal agencies are to be resolved between the agencies in
accordance with dispute resolution procedures defined in the Intragovernmental Business
Rules published in the Treasury Financial Manual.

1.L. Direct Loans and Loan Guarantees
The Department operates a direct loan and loan guarantee program authorized by the
National Defense Authorization Act for FY 1996 (Public Law (PL) 104-106, Section 2801).
The Act includes a series of authorities that allow the Department to work with the private
sector to renovate military housing. The Department’s goals are to obtain private capital to
leverage government dollars, make efficient use of limited resources, and use a variety of
private sector approaches to build and renovate military housing faster and at a lower cost
to the American taxpayers.
The Act also provides the Department with a variety of authorities to obtain private sector
financing and expertise to improve military housing. The Department uses these authorities
individually or in combination.      They include guarantees (both loan and rental),
conveyance/leasing of existing property and facilities, differential lease payments,
investments (both limited partnerships and stock/bond ownership), and direct loans.
The National Defense Authorization Act for FY 2005 (PL 108-375, Section 2805) provided
permanent authorities to the Military Housing Privatization Initiative (MHPI).
The Department operates the Armament Retooling and Manufacturing Support Initiative
under Title 10 United States Code 4551-4555. This loan guarantee program is designed to
encourage commercial use of inactive government facilities. The revenue generated from
property rental offsets the cost of maintaining these facilities.
The Department administers the Foreign Military Financing program on behalf of the EOP.
This program is authorized by sections 23 and 24 of the Arms Export Control Act of 1976, as
amended, PL 90-629, as amended, and Section 503(a). This program provides loans to
help countries purchase U.S. produced weapons, defense equipment, services, or military
training. The direct loans and loan guarantees related to Foreign Military Sales are not
included in these financial statements, per the Department’s agreement with OMB; this
information is provided separately as other accompanying information.




                                                                       Financial Information
                                            67
Department of Defense Agency Financial Report for FY 2011

The Federal Credit Reform Act of 1990 governs all amended direct loan obligations and loan
guarantee commitments made after FY 1991.

1.M. Inventories and Related Property
The Department values approximately 87 percent of resale inventory using the moving
average cost method. An additional 9 percent (fuel inventory) is reported using the first-in-
first-out method. The Department reports the remaining 4 percent of resale inventories at
an approximation of historical cost using latest acquisition cost adjusted for holding gains
and losses. The latest acquisition cost method is used because legacy inventory systems
were designed for materiel management rather than accounting. Although these systems
provide visibility and accountability over inventory items, they do not maintain historical
cost data necessary to comply with Statement of Federal Financial Accounting Standards
(SFFAS) No. 3, Accounting for Inventory and Related Property. Additionally, these systems
cannot produce financial transactions using the USSGL, as required by the Federal Financial
Management Improvement Act of 1996 (PL 104-208). The Department is continuing to
transition the balance of the inventories to the moving average cost method through the
use of new inventory systems. Most transitioned balances, however, were not baselined to
auditable historical cost and remain noncompliant with SFFAS No. 3.
The Department manages only military or government-specific materiel under normal
conditions. Materiel is a unique term that relates to military force management, and
includes items such as ships, tanks, self-propelled weapons, aircraft, etc., and related
spares, repair parts, and support equipment. Items commonly used in and available from
the commercial sector are not managed in the Department’s materiel management
activities. Operational cycles are irregular, and the military risks associated with stock-out
positions have no commercial parallel. The Department holds materiel based on military
need and support for contingencies. The Department is currently developing a methodology
to be used to account for “inventory held for sale” and “inventory held in reserve for future
sale.”
Related property includes OM&S and stockpile materiel. The OM&S, including munitions not
held for sale, are valued at standard purchase price. The Department uses both the
consumption method and the purchase method of accounting for OM&S. Items that are
centrally managed and stored, such as ammunition and engines, are generally recorded
using the consumption method and are reported on the Balance Sheet as OM&S. When
current systems cannot fully support the consumption method, the Department uses the
purchase method. Under this method, materiel and supplies are expensed when purchased.
During FY 2011 and FY 2010, the Department expensed significant amounts using the
purchase method because the systems could not support the consumption method or
management deemed that the item was in the hands of the end user. This is a material
weakness for the Department and long-term system corrections are in process. Once the
proper systems are in place, these items will be accounted for under the consumption
method of accounting.
The Department determined that the recurring high dollar-value of OM&S in need of repair is
material to the financial statements and requires a separate reporting category. Many high-dollar
items, such as aircraft engines, are categorized as OM&S rather than military equipment.


                                                                          Financial Information
                                               68
Department of Defense Agency Financial Report for FY 2011

The Department recognizes excess, obsolete, and unserviceable inventory and OM&S at a
net realizable value of $0 pending development of an effective means of valuing such
materiel.
Inventory available and purchased for resale includes consumable spare and repair parts,
and repairable items owned and managed by the Department. This inventory is retained to
support military or national contingencies. Inventory held for repair is damaged inventory
that requires repair to make it suitable for sale. Often, it is more economical to repair these
items rather than to procure them. The Department often relies on weapon systems and
machinery no longer in production. As a result, the Department supports a process that
encourages the repair and rebuilding of certain items. This repair cycle is essential to
maintaining a ready, mobile, and armed military force. Work in process balances include:
(1) costs related to the production or servicing of items, including direct material, labor, and
applied overhead; (2) the value of finished products or completed services that are yet to
be placed in service; and (3) munitions in production and depot maintenance work with
associated costs incurred in the delivery of maintenance services.

1.N. Investments in U.S. Treasury Securities
The Department reports investments in U.S. Treasury securities at cost, net of amortized
premiums or discounts. Premiums or discounts are amortized over the term of the
investments using the effective interest rate method or another method that yields similar
results. The Department’s intent is to hold investments to maturity unless they are needed
to finance claims or otherwise sustain operations. Consequently, a provision is not made for
unrealized gains or losses on these securities.
The Department invests in nonmarketable, market-based U.S. Treasury securities, which
are issued to federal agencies by the U. S. Treasury’s Bureau of the Public Debt. They are
not traded on any securities exchange but mirror the prices of particular U.S. Treasury
securities traded in the government securities market.
The Department’s net investments are held by various trust and special funds. These funds
include the Military Retirement Fund; Medicare-Eligible Retiree Health Care Fund; Other
Defense Organizations General Fund trust and special funds; donations (gift funds); and the
U. S. Treasury managed trust funds reported by USACE including the South Dakota
Terrestrial Habitat Restoration, Inland Waterways, and Harbor Maintenance Trust Funds.
Other investments represent joint ventures with private developers constructing or
improving military housing on behalf of the Department under the authority of the MHPI,
authorized by PL 104-106, Section 2801.
These investments do not require market value disclosure.         The Department’s potential
losses on these ventures are limited to the amounts invested.

1.O. General Property, Plant and Equipment
The Department uses the estimated historical cost for valuing military equipment. The
Department identified the universe of military equipment by accumulating information
relating to program funding and associated military equipment, equipment useful life,



                                                                          Financial Information
                                              69
Department of Defense Agency Financial Report for FY 2011

program acquisitions, and disposals to establish a baseline. The military equipment baseline
is updated using expenditure, acquisition, and disposal information.
The Department’s General Property, Plant, and Equipment (PP&E) capitalization threshold is
$100 thousand except for real property, which is $20 thousand. The Department has not
fully implemented the threshold for real property; therefore, the Department is primarily
using the capitalization threshold of $100 thousand for General PP&E, and most real
property.
With the exception of USACE Civil Works and WCF, General PP&E assets are capitalized at
historical acquisition cost when an asset has a useful life of two or more years and when the
acquisition cost equals or exceeds the Department’s capitalization threshold.            The
Department also requires the capitalization of improvements to existing General PP&E
assets if the improvements equal or exceed the capitalization threshold and extend the
useful life or increase the size, efficiency, or capacity of the asset. The Department
depreciates all General PP&E, other than land, on a straight-line basis.
The WCFs capitalize all PP&E used in the performance of their mission. These assets are
capitalized as General PP&E, whether or not they meet the definition of any other PP&E
category.
The USACE Civil Works General PP&E is capitalized at acquisition cost plus capitalized
improvements when an asset has a useful life of two or more years and the acquisition cost
exceeds $25 thousand. The exception is buildings and structures related to hydropower
projects, which are capitalized regardless of cost.
When it is in the best interest of the government, the Department provides government
property to contractors to complete contract work. The Department either owns or leases
such property, or it is purchased directly by the contractor for the government based on
contract terms. When the value of contractor-procured General PP&E meets or exceeds the
Department’s capitalization threshold, federal accounting standards require that it be
reported on the Department’s Balance Sheet.
The Department developed policy and a reporting process for contractors with government
furnished equipment that provides appropriate General PP&E information for financial
statement reporting. The Department requires that entities maintain, in their property
systems, information on all property furnished to contractors. These actions are structured
to capture and report the information necessary for compliance with federal accounting
standards. The Department has not fully implemented this policy primarily due to system
limitations.

1.P. Advances and Prepayments
When advances are permitted by law, legislative action, or presidential authorization, the
Department’s policy is to record advances or prepayments in accordance with USGAAP. As
such, payments made in advance of the receipt of goods and services should be reported as
an asset on the Balance Sheet. The Department’s policy is to expense and/or properly
classify assets when the related goods and services are received. The Department has not
fully implemented this policy primarily due to system limitations.



                                                                       Financial Information
                                             70
Department of Defense Agency Financial Report for FY 2011

1.Q. Leases
Lease payments for the rental of equipment and operating facilities are classified as either
capital or operating leases. When a lease is essentially equivalent to an installment
purchase of property (a capital lease), and the value equals or exceeds the current
capitalization threshold, the Department records the applicable asset as though purchased,
with an offsetting liability, and depreciates it. The Department records the asset and
liability at the lesser of the present value of the rental and other lease payments during the
lease term (excluding portions representing executory costs paid to the lessor) or the
asset’s fair market value. The discount rate for the present value calculation is either the
lessor’s implicit interest rate or the government’s incremental borrowing rate at the
inception of the lease. The Department, as the lessee, receives the use and possession of
leased property, for example real estate or equipment, from a lessor in exchange for a
payment of funds. An operating lease does not substantially transfer all the benefits and
risks of ownership. Payments for operating leases are expensed over the lease term as
they become payable.
Office space and leases entered into by the Department are the largest component of
operating leases and are based on costs gathered from existing leases, General Services
Administration bills, and interservice support agreements. Future year projections use the
Consumer Price Index.

1.R. Other Assets
Other assets include those assets, such as military and civil service employee pay advances,
travel advances, and certain contract financing payments that are not reported elsewhere
on the Department’s Balance Sheet.
The Department conducts business with commercial contractors under two primary types of
contracts: fixed price and cost reimbursable. To alleviate the potential financial burden on
the contractor that long-term contracts can cause, the Department may provide financing
payments. Contract financing payments are defined in the Federal Acquisition Regulation
(FAR), Part 32, as authorized disbursements to a contractor prior to acceptance of supplies
or services by the government. Contract financing payment clauses are incorporated in the
contract terms and conditions and may include advance payments, performance-based
payments, commercial advances and interim payments, progress payments based on cost,
and interim payments under certain cost reimbursement contracts. It is the Department’s
policy to record certain contract financing payments as other assets. The Department has
not fully implemented this policy primarily due to system limitations.
Contract financing payments do not include invoice payments, payments for partial
deliveries, lease and rental payments, or progress payments based on a percentage or
stage of completion. The Defense Federal Acquisition Regulation Supplement authorizes
progress payments based on a percentage or stage of completion only for construction of
real property, shipbuilding and ship conversion, alteration, or repair. Progress payments
based on percentage or stage of completion are reported as Construction in Progress.




                                                                        Financial Information
                                             71
Department of Defense Agency Financial Report for FY 2011

1.S. Contingencies and Other Liabilities
The SFFAS No. 5, Accounting for Liabilities of the Federal Government, as amended by
SFFAS No. 12, Recognition of Contingent Liabilities Arising from Litigation, defines a
contingency as an existing condition, situation, or set of circumstances that involves an
uncertainty as to possible gain or loss. The uncertainty will be resolved when one or more
future events occur or fail to occur. The Department recognizes contingent liabilities when
past events or exchange transactions occur, a future loss is probable, and the loss amount
can be reasonably estimated.
Financial statement reporting is limited to disclosure when conditions for liability recognition
do not exist, but there is at least a reasonable possibility of incurring a loss or additional
losses. The Department’s risk of loss and resultant contingent liabilities arise from pending
or threatened litigation or claims and assessments due to events such as aircraft, ship and
vehicle accidents; medical malpractice; property or environmental damages; and contract
disputes.
Other liabilities also arise as a result of anticipated disposal costs for the Department’s
assets. Consistent with SFFAS No. 6, Accounting for Property, Plant, and Equipment,
recognition of an anticipated environmental disposal liability begins when the asset is placed
into service. Based on the Department’s policy, which is consistent with SFFAS No. 5,
Accounting for Liabilities of the Federal Government, nonenvironmental disposal liabilities
are recognized when management decides to dispose of an asset. The Department
recognizes nonenvironmental disposal liabilities for military equipment nuclear-powered
assets when placed into service. These amounts are not easily distinguishable and are
developed in conjunction with environmental disposal costs.

1.T. Accrued Leave
The Department reports liabilities for military leave and accrued compensatory and annual
leave for civilians. Sick leave for civilians is expensed when taken. The liabilities are based
on current pay rates.

1.U. Net Position
Net position consists of unexpended appropriations and cumulative results of operations.
Unexpended appropriations represent the amounts of budget authority that are unobligated
and have not been rescinded or withdrawn. Unexpended appropriations also represent
amounts obligated for which legal liabilities for payments have not been incurred.
Cumulative results of operations represent the net difference between expenses and losses,
and financing sources (including appropriations, revenue, and gains) since inception. The
cumulative results of operations also include donations and transfers in and out of assets
that were not reimbursed.

1.V. Treaties for Use of Foreign Bases
The Department has the use of land, buildings, and other overseas facilities that are
obtained through various international treaties and agreements negotiated by the
Department of State. The Department purchases capital assets overseas with appropriated

                                                                          Financial Information
                                              72
Department of Defense Agency Financial Report for FY 2011

funds, however, the host country retains title to the land and capital improvements. Treaty
terms generally allow the Department continued use of these properties until the treaties
expire. In the event treaties or other agreements are terminated, use of the foreign bases
is prohibited and losses are recorded for the value of any nonretrievable capital assets. The
settlement due to the U.S. or host nation is negotiated and takes into account the value of
capital investments and may be offset by the cost of environmental cleanup.

1.W. Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the difference between
disbursements and collections matched at the transaction level to specific obligations,
payables, or receivables in the source systems and those reported by the U.S. Treasury.
Supported disbursements and collections are evidenced by corroborating documentation.
Unsupported disbursements and collections do not have supporting documentation for the
transaction and most likely would not meet audit scrutiny.
The Department’s policy is to allocate supported undistributed disbursements and
collections between federal and nonfederal categories based on the percentage of
distributed federal and nonfederal accounts payable and accounts receivable. Supported
undistributed disbursements and collections are then applied to reduce accounts payable
and receivable accordingly. Unsupported, undistributed disbursements are recorded as
disbursements in transit and reduce nonfederal accounts payable. Unsupported,
undistributed collections are recorded in nonfederal other liabilities.

1.X. Fiduciary Activities
Fiduciary cash and other assets are not assets of the Department and are not recognized on
the balance sheet.    Fiduciary activities are reported in the financial statement note
schedules.

1.Y. Military Retirement and Other Federal Employment Benefits
The Department applies SFFAS No. 33, “Pensions, Other Retirement Benefits, and Other
Postemployment Benefits: Reporting the Gains and Losses from Changes in Assumptions
and Selecting Discount Rates and Valuation Dates”, in selecting the discount rate and
valuation date used in estimating actuarial liabilities. In addition, gains and losses from
changes in long-term assumptions used to estimate the actuarial liability are presented
separately on the Statement of Net Cost. Refer to Note 17, Military Retirement and Other
Federal Employment Benefits and Note 18, General Disclosures Related to the Statement of
Net Cost, for additional information.

1.Z. Significant Events
None.




                                                                       Financial Information
                                             73
Department of Defense Agency Financial Report for FY 2011


NOTE 2. NONENTITY ASSETS
 Nonentity Assets                                                               Dollars in Millions

                                                                              Restated
 As of September 30                                   2011
                                                                               2010
 Intragovernmental Assets
      Fund Balance with Treasury                  $           988.6       $                 620.5
      Accounts Receivable                                        0.0                           0.5
      Total Intragovernmental Assets              $           988.6       $                 621.0
 Nonfederal Assets
      Cash and Other Monetary Assets              $          1,643.2      $              2,001.0
      Accounts Receivable                                    6,490.7                     6,412.3
      Other Assets                                            184.8                         184.8
      Total Nonfederal Assets                     $          8,318.7      $              8,598.1
 Total Nonentity Assets                           $          9,307.3      $              9,219.1
 Total Entity Assets                              $      2,022,189.1      $         1,906,643.5
 Total Assets                                     $      2,031,496.4      $         1,915,862.6


Nonentity assets are assets for which the Department maintains stewardship accountability
and reporting responsibility but are not available for the Department’s normal operations.

Restatements
The Department corrected a $14.4 billion overstatement of General Property, Plant and
Equipment to align the accounting records to the property accountability system. This is
reflected in the Total Entity Assets balance. Refer to Note 26, Restatements, for further
information.

Other Disclosures
Intragovernmental Fund Balance with Treasury (FBWT) consists of deposit funds. Deposit
funds are generally used to record amounts held temporarily until paid to the appropriate
party.
Intragovernmental Accounts Receivable consists of amounts associated with cancelled
appropriations. Generally, the Department cannot use the collections related to cancelled
appropriation and must return them to the U.S. Treasury.
Non-Federal Cash and Other Monetary Assets primarily consists of cash held by Disbursing
Officers to carry out payment, collection, and foreign currency accommodation exchange
missions.
Non-Federal Accounts Receivable consists of amounts due from canceled year
appropriations; and interest, fines, and penalties due on debt. Generally, the Department
cannot use the collections and must return them to the U.S. Treasury. Non-Federal Other
Assets consists of an Advance Payment Pool Agreement with a nonprofit educational
institution to finance research and development projects.


                                                                       Financial Information
                                           74
Department of Defense Agency Financial Report for FY 2011


NOTE 3. FUND BALANCE WITH TREASURY
 Fund Balance with Treasury                                                            Dollars in Millions

 As of September 30                                        2011                        2010
 Fund Balance
      Appropriated Funds                              $        509,337.0      $              507,886.2
      Revolving Funds                                             9,887.2                       9,965.4
      Trust Funds                                                 2,494.4                       2,400.9
      Special Funds                                                 697.7                          716.3
      Other Fund Types                                            1,025.3                          672.9
      Total Fund Balance                              $        523,441.6       $             521,641.7
 Fund Balance Per Treasury Versus Agency
      Fund Balance per Treasury                       $        530,849.7       $             528,003.5
      Fund Balance per Agency                                  523,441.6                     521,641.7
 Reconciling Amount                                   $           7,408.1      $                6,361.8


Other Fund Types primarily consists of deposit funds and receipt.
The Department shows a reconciling net difference of $7.4 billion with the U.S. Treasury.
This includes canceling year authority of $6.5 billion, unavailable receipts of $599.7 million,
and fiduciary activities of $234.9 million.

 Status of Fund Balance with Treasury                                                  Dollars in Millions

 As of September 30
                                                                                      Restated
                                                           2011                        2010
 Unobligated Balances
    Available                                          $       141,171.4          $          143,816.8
    Unavailable                                                583,913.4                     503,114.4
 Obligated Balance not yet Disbursed                           455,495.4                     459,240.3
 Nonbudgetary FBWT                                                1,966.0                          807.8
 NonFBWT Budgetary Accounts                                   (659,104.6)                  (585,337.6)
 Total Fund Balance                                    $       523,441.6          $          521,641.7



Restatements
The Department corrected an $83.5 million understatement of Unobligated Balances:
Apportioned due to improper recording of the liquidation of contract authority. This is
reflected in the Unobligated Balances, Available and NonFBWT Budgetary Accounts
balances. Refer to Note 26, Restatements, for further information.

Other Disclosures
The Status of Fund Balance with Treasury (FBWT) reflects the budgetary resources to
support the FBWT and is a reconciliation between budgetary and proprietary accounts. It




                                                                            Financial Information
                                              75
Department of Defense Agency Financial Report for FY 2011

primarily consists of unobligated and obligated balances.       The balances reflect the
budgetary authority remaining for disbursement against current or future obligations.
Unobligated Balance is classified as available or unavailable and represents the cumulative
amount of budgetary authority that has not been set aside to cover outstanding obligations.
The unavailable balance consists primarily of funds invested in U.S. Treasury securities that
are temporarily precluded from obligation by law.          Certain unobligated balances are
restricted for future use and are not apportioned for current use. Unobligated balances for
trust fund accounts are restricted for use by the public law that established the funds.
Obligated Balance not yet Disbursed represents funds that have been obligated for goods
and services not received and those received, but not paid.
Nonbudgetary FBWT includes accounts that do not have budgetary authority, such as
deposit funds, unavailable receipt accounts, clearing accounts, and nonentity FBWT.
NonFBWT Budgetary Accounts reduces the Status of FBWT and consists of investments in
U.S. Treasury securities, unfilled customer orders without advance, contract and borrowing
authority, and receivables.

NOTE 4. INVESTMENTS AND RELATED INTEREST
Investments and Related Interest                                                                       Dollars in Millions
                                                                          2011
                                                                       Amortized
                                                         Amortization             Investments, Market Value
                                           Cost                       (Premium) /
                                                           Method                     Net       Disclosure
As of September 30                                                     Discount
Intragovernmental Securities
Nonmarketable, Market-Based
      Military Retirement Fund        $   376,420.2       See Below   $    (8,209.2)   $   368,211.0      $ 432,741.4
      Medicare-Eligible Retiree
                                          191,058.7       See Below        (5,136.4)       185,922.3          221,620.5
      Health Care Fund
      US Army Corps of
                                               6,495.1    See Below           (37.3)         6,457.8             6,171.8
      Engineers
      Other Funds                              3,448.3    See Below           (57.9)         3,390.4             3,611.4
Total Nonmarketable, Market-
                                      $   577,422.3                   $   (13,440.8)   $   563,981.5      $ 664,145.1
Based
Accrued Interest                               5,360.7                                       5,360.7             5,360.7
Total Intragovernmental
                                      $   582,783.0                   $   (13,440.8)   $   569,342.2      $ 669,505.8
Securities
Other Investments
Total Other Investments               $        3,185.0    See Below   $          0.0   $     3,185.0                  N/A
Amortization Method Used: Effective Interest




                                                                                            Financial Information
                                                             76
Department of Defense Agency Financial Report for FY 2011

 Investments and Related Interest                                                               Dollars in Millions
                                                                  2010
                                                                Amortized                           Market
                                                Amortization                    Investments,
                                  Cost                         (Premium) /                          Value
                                                  Method                            Net
 As of September 30                                             Discount                          Disclosure
 Intragovernmental Securities
 Nonmarketable,
 Market-Based
 Military Retirement Fund     $    325,124.5     See Below     $    (6,559.6)   $   318,564.9    $    351,050.7
 Medicare-Eligible Retiree
                                   168,568.9     See Below          (4,134.2)       164,434.7         182,212.1
 Health Care Fund
 US Army Corps of
                                      5,716.8    See Below             (11.2)         5,705.6            5,987.4
 Engineers
 Other Funds                          3,525.3    See Below             (39.3)         3,486.0            3,670.9
 Total Nonmarketable,
                              $    502,935.5                   $   (10,744.3)   $   492,191.2    $    542.921.1
  Market-Based
 Accrued Interest                     4,945.7                                         4,945.7            4,945.7
  Total Intragovernmental
                              $    507,881.2                   $   (10,744.3)   $   497,136.9    $    547,866.8
  Securities
 Other Investments
  Total Other Investments     $       2,489.7    See Below     $         0.0    $     2,489.7    $            N/A
 Amortization Method Used: Effective Interest

The Department invests primarily in non-marketable, market-based securities. The value of
these securities fluctuates in tandem with the selling price of the equivalent marketable
security. The securities are purchased with the intent to hold until maturity, thus balances
are not adjusted to market value.
The U.S. Treasury securities are issued to the earmarked funds as evidence of its receipts
and are an asset to the Department and a liability to the U.S. Treasury. The Federal
Government does not set aside assets to pay future benefits or other expenditures
associated with earmarked funds. The cash generated from earmarked funds is deposited
in the U.S. Treasury, which uses the cash for general government purposes. Since the
Department and the U.S. Treasury are both part of the Federal Government, these assets
and liabilities offset each other from the standpoint of the Federal Government as a whole.
For this reason, they do not represent an asset or a liability in the U.S. Governmentwide
financial statements.
The U.S. Treasury securities provide the Department with authority to draw upon the U.S.
Treasury to make future benefit payments or other expenditures. When the Department
requires redemption of these securities to make expenditures, the Government will finance
them from accumulated cash balances, by raising taxes or other receipts, borrowing from
the public or repaying less debt, or curtailing other expenditures. The Federal Government
uses the same method to finance all other expenditures.
Other Funds consists of $2.2 billion in investments of the DoD Education Benefits Trust
Fund, $841.7 million in investments of the Host Nation Support for U.S. Relocation Activities
Trust Fund, and $363.9 million in investments of the Voluntary Separation Incentive Trust
Fund.



                                                                                    Financial Information
                                                     77
Department of Defense Agency Financial Report for FY 2011


NOTE 5. ACCOUNTS RECEIVABLE
Accounts Receivable                                                                             Dollars in Millions

                                                                    2011
                                                                Allowance For
                                                                                               Accounts
                                       Gross Amount Due           Estimated
                                                                                             Receivable, Net
 As of September 30                                             Uncollectibles
   Intragovernmental Receivables            $     1,726.9                        N/A            $           1,726.9
   Nonfederal Receivables
                                                 10,644.6                    (683.2)                        9,961.4
   (From the Public)
Total Accounts Receivable                   $    12,371.5            $       (683.2)            $          11,688.3


Accounts Receivable                                                                             Dollars in Millions

                                                                     2010
                                                                Allowance For
                                                                                               Accounts
                                       Gross Amount Due           Estimated
                                                                                             Receivable, Net
 As of September 30                                             Uncollectibles
   Intragovernmental Receivables            $     1,249.2                        N/A            $           1,249.2
   Nonfederal Receivables
                                                 10,411.4                    (655.2)                        9,756.2
   (From the Public)
Total Accounts Receivable                    $   11,660.6            $       (655.2)            $          11,005.4


Accounts receivable represent the Department’s claim for payment from other entities. The
Department only recognizes an allowance for uncollectible amounts from the public. Claims
with other federal agencies are resolved in accordance with the Intragovernmental Business
Rules.

NOTE 6. OTHER ASSETS
 Other Assets                                                                                    Dollars in Millions

 As of September 30                                                 2011                            2010
 Intragovernmental Other Assets
      Advances and Prepayments                              $               1,634.2      $                  1,749.8
      Other Assets                                                           126.1                            124.9
      Total Intragovernmental Other Assets                  $               1,760.3      $                  1,874.7
 Nonfederal Other Assets
      Outstanding Contract Financing Payments               $              66,713.5      $                 63,420.7
      Advances and Prepayments                                              1,756.4                         1,810.7
      Other Assets (With the Public)                                         199.6                            403.7
      Total Nonfederal Other Assets                         $              68,669.5      $                 65,635.1
 Total Other Assets                                         $              70,429.8      $                 67,509.8

Intragovernmental Other Assets represents the Department’s right to approximately
6.4 million barrels of crude oil held by the Department of Energy.


                                                                                       Financial Information
                                                    78
Department of Defense Agency Financial Report for FY 2011

The balance of Other Assets (With the Public) includes an Advance Payment Pool Agreement
with a nonprofit institution.
Contract terms and conditions for certain types of contract financing payments convey
rights to the Government that protect the contract work from state or local taxation, liens or
attachment by contractor's creditors, transfer of property, or disposition in bankruptcy.
However, these rights should not be misconstrued to mean that ownership of contractor’s
work has transferred to the Federal Government. The Federal Government does not have
the right to take the work, except as provided for in contract clauses related to termination
or acceptance, and the Department is not obligated to make payment to contractors until
delivery and acceptance.
The balance of Outstanding Contract Financing Payments includes $64.5 billion in contract
financing payments and an additional $2.2 billion in estimated future payments to
contractors upon delivery and government acceptance of satisfactory product. (See
additional discussion in Note 15, Other Liabilities).

NOTE 7. CASH AND OTHER MONETARY ASSETS
    Cash and Other Monetary Assets                                                    Dollars in Millions

    As of September 30                                             2011                  2010
    Cash                                                       $          472.9   $               634.8
    Foreign Currency                                                  1,247.4                  1,431.9

    Other Monetary Assets                                                   0.0                      0.0
    Total Cash, Foreign Currency, and Other Monetary Assets    $      1,720.3     $            2,066.7


Cash (except for $77.0 million in undeposited collections and imprest funds) and Foreign
Currency represent nonentity assets and are restricted and unavailable to fund the
Department's mission.

NOTE 8. DIRECT LOAN AND LOAN GUARANTEES
Direct Loan and Loan Guarantee Programs
The Department operates the following direct loan and/or loan guarantee programs:
•      Military Housing Privatization Initiative (MHPI) and
•      Armament Retooling and Manufacturing Support Initiative (ARMS)
The Federal Credit Reform Act of 1990 governs all new and amended direct loan obligations
and loan guarantee commitments made after FY 1991.
Direct loans are reported at the net present value of the following projected cash flows:
•      Loan disbursements;
•      Repayments of principal; and
•      Payments of interest and other payments over the life of the loan after adjusting for
       estimated defaults, prepayments, fees, penalties, and other recoveries.


                                                                            Financial Information
                                                     79
Department of Defense Agency Financial Report for FY 2011

Loan guarantee liabilities are reported at the net present value. The cost of the loan
guarantee is the net present value of the following estimated projected cash flows:
•   Payments by the Department to cover defaults and delinquencies, interest subsidies, or
    other payments; offset by payments to the Department including origination and other
    fees, penalties, and recoveries.

Military Housing Privatization Initiative
The MHPI includes both direct loan and loan guarantee programs. The programs are
authorized by the National Defense Authorization Act for FY 1996 (PL 104-106,
Section 2801) and includes a series of authorities that allow the Department to work with
the private sector to renovate and build military family housing. The MHPI accelerates the
construction of new housing built to market standards and leverages private sector capital.
One of the goals of the Department is to obtain private sector capital to leverage
government dollars. The Department provides protection to the private sector partner
against specific risks, such as base closure or member deployment.

Armament Retooling and Manufacturing Support Initiative
The ARMS Initiative, Title 10 United States. Code 4551-4555, is a loan guarantee program
designed to encourage commercial use of the Army's inactive ammunition plants through
incentives for businesses willing to locate to a government ammunition production facility.
The production capacity of these facilities is greater than current military requirements,
however; this capacity may be needed by the military in the future. Revenues from
property rentals are used to help offset the overhead costs for the operation, maintenance
and environmental cleanup at the facilities.
In an effort to preclude any additional loan liability, the Army instituted an ARMS loan
guarantee moratorium in FY 2004. The Army continues to operate under the moratorium
and does not anticipate new loans.




                                                                      Financial Information
                                            80
Department of Defense Agency Financial Report for FY 2011


 Summary of Direct Loans and Loan Guarantees                                                       Dollars in Millions

                                                                          2011                     2010
 Loans Receivable
 Direct Loans:
 Military Housing Privatization Initiative                                        814.4                        522.3
   Total Direct Loans                                             $               814.4        $               522.3
 Defaulted Loan Guarantees:
 Military Housing Privatization Initiative                                          0.0                           0.0
 Armament Retooling & Manufacturing Support Initiative                              0.0                           0.0
   Total Default Loan Guarantees                                                    0.0                           0.0
 Total Loans Receivable                                           $               814.4        $               522.3
 Loan Guarantee Liability
 Military Housing Privatization Initiative                                         13.7                         16.2
 Armament Retooling & Manufacturing Support Initiative                              0.2                           3.6
 Total Loan Guarantee Liability                                   $                13.9        $                19.8


 Direct Loans Obligated                                                                            Dollars in Millions

                                                                          2011                     2010
 Direct Loans Obligated After FY 1991
 (Present Value Method):
    Military Housing Privatization Initiative
    Loans Receivable Gross                                            $           953.8        $               651.5
    Interest Receivable                                                             0.0                           0.0
    Foreclosed Property                                                             0.0                           0.0
    Allowance for Subsidy Cost (Present Value)                                   (139.4)                     (129.2)
      Value of Assets Related to Direct Loans                                     814.4                        522.3
    Total Direct Loans Receivable                                     $           814.4        $               522.3


Loans receivable, net, or value of assets related to loans, is not the same as the proceeds
the Department would expect to receive from selling the loans.
Interest receivable is calculated using the interest earned method.

 Total Amount of Direct Loans Disbursed                                                            Dollars in Millions

                                                                          2011                     2010
 Direct Loan Programs
    Military Housing Privatization Initiative                 $                    304.8   $                   151.0
    Total                                                     $                    304.8   $                   151.0




                                                                                           Financial Information
                                                         81
Department of Defense Agency Financial Report for FY 2011

Subsidy Expense for Direct Loan by Program                                                                          Dollars in Millions

                                             Interest
                  2011                                             Defaults            Fees              Other                 Total
                                            Differential
New Direct Loans Disbursed:
Military Housing Privatization Initiative   $       30.3       $         27.3     $           0.0    $            0.0          $     57.6

  Total                                     $       30.3       $         27.3     $           0.0    $            0.0          $     57.6
                                             Interest
                  2010                                             Defaults            Fees              Other                 Total
                                            Differential
New Direct Loans Disbursed:
Military Housing Privatization Initiative   $       18.7       $         16.2     $           0.0    $           0.0           $     34.9
 Total                                      $       18.7       $         16.2     $           0.0    $           0.0           $     34.9
                                            Modifica-         Interest Rate Technical                  Total
                  2011                                                                                                         Total
                                             tions            Reestimates Reestimates               Reestimates
Direct Loan Modifications and Reestimates:
Military Housing Privatization Initiative   $           0.0   $          (5.5)    $      (30.8)       $     (36.3)              $ (36.3)
 Total                                      $           0.0   $          (5.5)    $      (30.8)       $     (36.3)              $ (36.3)
                                            Modifica-         Interest Rate       Technical            Total
                  2010                                                                                                         Total
                                             tions            Reestimates        Reestimates        Reestimates
Direct Loan Modifications and Reestimates:
Military Housing Privatization Initiative   $           0.0   $          (4.0)     $      (7.7)       $     (11.7)              $ (11.7)
 Total                                      $           0.0   $          (4.0)     $      (7.7)       $     (11.7)              $ (11.7)
                                                 2011                 2010
Total Direct Loan Subsidy Expense:
Military Housing Privatization Initiative    $      21.3          $      23.2
 Total                                       $      21.3          $      23.2


Subsidy Rate for Direct Loans by Program                                                                                Dollars in Millions

                                                                                   Fees and
                                             Interest
As of September 30                                                 Defaults          other                Other                 Total
                                            Differential
                                                                                  Collections
Budget Subsidy Rates for Direct Loans
Military Housing Privatization Initiative          4.11%               12.55%            0.00%              0.00%                  16.66%

Subsidy rates pertain to the loan agreements contracted during the current fiscal year.
These rates cannot be applied to the direct loans disbursed during the current reporting
year to yield the subsidy expense. The subsidy expense for new loans disbursed in the
current year results from disbursements of loans from current and prior year loan
agreements. The subsidy expense reported in the current year also includes reestimates.




                                                                                                         Financial Information
                                                              82
Department of Defense Agency Financial Report for FY 2011

Schedule for Reconciling Subsidy Cost Allowance Balances
for Post FY 1991 Direct Loans                                                             Dollars in Millions

                                                                 2011                      2010
Beginning Balance, Changes, and Ending Balance:
Beginning Balance of the Subsidy Cost Allowance          $              129.2     $                    112.5
Add: Subsidy Expense for Direct Loans Disbursed during the Reporting Years by Component
Interest Rate Differential Costs                                          30.3                          18.7
Default Costs (Net of Recoveries)                                         27.3                          16.2
Fees and Other Collections                                                 0.0                           0.0
Other Subsidy Costs                                                        0.0                           0.0
Total of the above Subsidy Expense Components            $                57.6   $                      34.9
Adjustments
Loan Modifications                                       $                 0.0   $                        0.0
Fees Received                                                              0.0                            0.0
Foreclosed Property Acquired                                               0.0                            0.0
Loans Written Off                                                          0.0                            0.0
Subsidy Allowance Amortization                                          (11.1)                          (6.5)
Other                                                                      0.0                            0.0
Total of the above Adjustment Components                 $              (11.1)   $                      (6.5)
Ending Balance of the Subsidy Cost Allowance before
                                                         $              175.7    $                     140.9
Reestimates
Add or Subtract Subsidy Reestimates by Component
    Interest Rate Reestimates                                            (5.5)                         (4.0)
    Technical/Default Reestimate                                        (30.8)                         (7.7)
 Total of the above Reestimate Components                $              (36.3)                        (11.7)
 Ending Balance of the Subsidy Cost Allowance           $               139.4     $                    129.2

Defaulted Guaranteed Loans                                                                 Dollars in Millions

As of September 30                                               2011                      2010
Defaulted Guaranteed Loans from Post-FY 1991 Guarantees (Present Value Method):
Military Housing Privatization Initiative
   Defaulted Guaranteed Loans Receivable, Gross          $                00          $                   0.0
   Interest Receivable                                                    0.0                             0.0
   Foreclosed Property                                                    0.0                             0.0
   Allowance for Subsidy Cost (Present Value)                             0.0                             0.0
   Value of Assets Related to Defaulted Guaranteed
                                                         $                0.0         $                   0.0
   Loans Receivable, Net
Armament Retooling & Manufacturing Support Initiative
   Defaulted Guaranteed Loans Receivable, Gross          $                0.7         $                   0.7
   Interest Receivable                                                    0.0                             0.0
   Foreclosed Property                                                    0.0                             0.0
   Allowance for Subsidy Cost (Present Value)                           (0.7)                           (0.7)
   Value of Assets Related to Defaulted Guaranteed
                                                             $            0.0         $                   0.0
   Loans Receivable, Net
Total Value of Assets Related to Defaulted
                                                             $            0.0         $                   0.0
Guaranteed Loans Receivable


                                                                                Financial Information
                                                  83
Department of Defense Agency Financial Report for FY 2011

Guaranteed Loans Outstanding                                                                 Dollars in Millions

                                                        Outstanding Principal
                                                                                 Amount of Outstanding
                                                        of Guaranteed Loans,
                                                                                  Principal Guaranteed
As of September 30                                           Face Value
                  2011
Guaranteed Loans Outstanding
Military Housing Privatization Initiative                $               464.7      $                    464.7
Armament Retooling & Manufacturing Support
                                                                           2.4                              2.1
Initiative
Total                                                    $               467.1      $                    466.8


                2010
Guaranteed Loans Outstanding
Military Housing Privatization Initiative                $               461.6      $                    461.6
Armament Retooling & Manufacturing Support
                                                                           2.7                              2.3
Initiative
Total                                                    $               464.3      $                    463.9


                  2011
New Guaranteed Loans Disbursed
Military Housing Privatization Initiative               $                  0.0      $                       0.0
Armament Retooling & Manufacturing Support
                                                                           0.0                              0.0
Initiative
Total                                                   $                  0.0      $                       0.0


                  2010
New Guaranteed Loans Disbursed
Military Housing Privatization Initiative               $                  0.0      $                       0.0
Armament Retooling & Manufacturing Support
                                                                           0.0                              0.0
Initiative
Total                                                   $                  0.0      $                       0.0


Liabilities for Loan Guarantees                                                              Dollars in Millions

As of September 30                                                       2011                  2010
Liabilities for Loan Guarantee from Post 1991
(Present Value)
Military Housing Privatization Initiative                            $           13.7    $                16.2
Armament Retooling & Manufacturing Support Initiative                             0.2                       3.6
  Total Loan Guarantee Liability (Post FY 1991)                      $           13.9    $                19.8
Total Loan Guarantee Liability                                       $           13.9    $                19.8




                                                                                    Financial Information
                                                        84
Department of Defense Agency Financial Report for FY 2011

 Subsidy Expense for Loan Guarantees by Program
 As of September 30                                                                                          Dollars in Millions
                                      Interest
                2011                 Differential
                                                           Defaults              Fees              Other               Total

 New Loan Guarantees Disbursed
 Military Housing Privatization
                                      $          0.0        $         0.0    $          0.0    $           0.0    $            0.0
 Initiative
 Armament Retooling &
                                                  0.0                 0.0               0.0                0.0                 0.0
 Manufacturing Support Initiative
    Total                              $          0.0      $          0.0    $          0.0    $           0.0    $             .0
                                      Interest
                2010                 Differential
                                                           Defaults              Fees              Other               Total

 New Loan Guarantees Disbursed
 Military Housing Privatization
                                      $          0.0       $          0.0    $          0.0    $           0.0     $           0.0
 Initiative
 Armament Retooling &
                                                  0.0                 0.0               0.0                0.0                 0.0
 Manufacturing Support Initiative
    Total                              $          0.0      $          0.0    $          0.0    $           0.0     $           0.0
                                                         Interest Rate       Technical           Total
                2011                Modifications
                                                         Reestimates        Reestimates       Reestimates
                                                                                                                       Total

 Modifications and Reestimates:
 Military Housing Privatization
                                      $          0.0       $      (1.1)     $       (2.2)     $        (3.3)        $      (3.3)
 Initiative
 Armament Retooling &
                                                  0.0                 0.0           (3.6)              (3.6)               (3.6)
 Manufacturing Support Initiative
    Total                              $          0.0      $      (1.1)     $       (5.8)     $        (6.9)        $      (6.9)
                                                         Interest Rate       Technical           Total
                2010                Modifications
                                                         Reestimates        Reestimates       Reestimates
                                                                                                                       Total

 Modifications and Reestimates:
 Military Housing Privatization
                                      $          0.0       $      (1.1)     $       (2.4)      $       (3.5)        $      (3.5)
 Initiative
 Armament Retooling &
                                                  0.0                 0.0               0.0                0.0                 0.0
 Manufacturing Support Initiative
    Total                              $          0.0      $      (1.1)     $       (2.4)     $        (3.5)        $      (3.5)
                                          2011                 2010
 Total Loan Guarantee:
 Military Housing Privatization
                                       $         (3.3)     $      (3.5)
 Initiative
 Armament Retooling &
                                                                      0.0
 Manufacturing Support Initiative            (3.6)
    Total                             $      (6.9)         $      (3.5)




                                                                                                   Financial Information
                                                          85
Department of Defense Agency Financial Report for FY 2011

There are no new loan guarantees in FY 2011.


 Subsidy Rates for Loan Guarantees by Program
                                                                       Fees and
                                          Interest
 As of September 30
                                        Supplements
                                                          Defaults       other             Other           Total
                                                                       Collections
 Budget Subsidy Rates for Loan Guarantees
  Military Housing Privatization
                                        0.00%                  0.00%          0.00%           0.00%          0.00%
  Initiative
    Armament Retooling &
                                                  0.00%        0.00%          0.00%           0.00%          0.00%
    Manufacturing Support Initiative


There are no new loan guarantees in FY 2011.


 Schedule for Reconciling Loan Guarantee Liability Balances
 for Post-FY 1991 Loan Guarantees                                                                  Dollars in Millions

 As of September 30                                                    2011                        2010
 Beginning Balance, Changes, and Ending Balance:
 Beginning Balance of the Loan Guarantee Liability               $               19.8         $                 21.1
 Add: Subsidy Expense for Guaranteed Loans Disbursed during the Reporting Years by Component
 Interest Supplement Costs                                       $                   0.0      $                    0.0
 Default Costs (Net of Recoveries)                                                   0.0                           0.0
 Fees and Other Collections                                                          0.0                           0.0
 Other Subsidy Costs                                                                 0.0                           0.0
 Total of the above Subsidy Expense Components                   $                   0.0      $                    0.0
 Adjustments
 Loan Guarantee Modifications                                    $                   0.0      $                    0.0
 Fees Received                                                                       0.0                           0.0
 Interest Supplements Paid                                                           0.0                           0.0
 Foreclosed Property and Loans Acquired                                              0.0                           0.0
 Claim Payments to Lenders                                                           0.0                           0.0
 Interest Accumulation on the Liability Balance                                      1.0                           1.1
 Other                                                                               0.0                           1.1
 Total of the above Adjustments                                  $                   1.0      $                    2.2
 Ending Balance of the Loan Guarantee Liability before
 Reestimates                                                     $               20.8          $                23.3
 Add or Subtract Subsidy Reestimates by Component
 Interest Rate Reestimate                                        $               (1.1)        $                 (1.1)
 Technical/Default Reestimate                                                    (5.8)                          (2.4)
 Total of the above Reestimate Components                        $               (6.9)        $                 (3.5)
 Ending Balance of the Loan Guarantee Liability                  $               13.9          $                19.8




                                                                                           Financial Information
                                                          86
Department of Defense Agency Financial Report for FY 2011

Administrative Expenses
Administrative Expenses are limited to separately identified expenses for administering pre-
FY 1992 and post-FY 1991 Direct Loans and Loan Guarantee Programs. The Department
does not maintain a separate program to capture the expenses related to direct loans and
loan guarantees for MHPI. Administrative expenses for the ARMS Initiative represent a fee
paid to the U.S. Department of Agriculture, Rural Business Cooperative Service for servicing
the loan guarantee program.

NOTE 9. INVENTORY AND RELATED PROPERTY
 Inventory and Related Property                                                                               Dollars in Millions

 As of September 30                                                              2011                          2010
 Inventory, Net                                                           $             94,280.2         $            84,625.0
 Operating Materiel & Supplies, Net                                                 147,731.5                        147,011.2
 Stockpile Materiel, Net                                                                  570.3                           598.1
 Total Inventory and Related Property                                     $         242,582.0            $           232,234.3


 Inventory, Net                                                                                               Dollars in Millions

                                                                  2011
                                       Inventory,           Revaluation                                       Valuation
                                                                                 Inventory, Net
As of September 30                    Gross Value           Allowance                                          Method
Inventory Categories
   Available and Purchased
                                         $    65,084.4       $           590.1      $     65,674.5            LAC,MAC
   for Resale
   Held for Repair                            30,748.1              (3,805.1)             26,943.0            LAC,MAC
   Excess, Obsolete, and
                                               7,776.0              (7,776.0)                      0.0          NRV
   Unserviceable
   Raw Materiel                                1,373.7                     0.0              1,373.7          MAC,SP,LAC
   Work in Process                               289.0                     0.0               289.0               AC
Total Inventory, Net                     $ 105,271.2          $    (10,991.0)        $    94,280.2
 Legend for Valuation Methods:

 Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses    NRV = Net Realizable Value
 SP = Standard Price                                                              MAC = Moving Average Cost
 AC = Actual Cost




                                                                                                    Financial Information
                                                              87
Department of Defense Agency Financial Report for FY 2011

    Inventory, Net                                                                                           Dollars in Millions

                                                                     2010
                                           Inventory,            Revaluation                                 Valuation
                                                                                      Inventory, Net
    As of September 30                    Gross Value             Allowance                                   Method
    Inventory Categories
       Available and Purchased
                                             $    81,226.4          $   (18,648.9)       $   62,577.5        LAC,MAC
       for Resale
       Held for Repair                            28,950.1                (7,947.2)          21,002.9        LAC,MAC
       Excess, Obsolete, and
                                                    8,443.0               (8,443.0)               0.0              NRV
       Unserviceable
       Raw Materiel                                   710.6                     0.0             710.6      MAC,SP,LAC
       Work in Process                                334.0                     0.0             334.0              AC
Total Inventory, Net                          $ 119,664.1           $   (35,039.1)       $ 84,625.0
    Legend for Valuation Methods:
    Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses     NRV = Net Realizable Value
    SP = Standard Price                                                               MAC = Moving Average Cost
    AC = Actual Cost


Abnormal Balances
The Revaluation Allowance for Inventory Available and Purchased for Resale includes an
abnormal balance of $590.1 million. The inventory allowance includes losses incurred as a
result of converting inventory carried at Latest Acquisition Cost (LAC) to Moving Average
Cost (MAC). The Department will address these abnormal balances in FY 2012 during the
conversion of retail inventory from LAC to MAC.

Restrictions
The following are restrictions on the use, sale, or disposition of inventory.
•      War reserve materiel valued at $532.3 million;
•      Commissary items valued at $399.7 million held for purchase by authorized patrons;
       and
•      Dispositions pending litigation or negotiation valued at $67.7 million.
There are no known restrictions on inventory disposition related to environmental or other
liabilities.

General Composition of Inventory
Inventory includes spare and repair parts, clothing and textiles, and fuels held for sale.
Inventory is tangible personal property that is:
•      Held for sale, or held for repair and eventual sale;
•      In the process of production for sale; or
•      To be consumed in the production of goods for sale or in the provision of service for a
       fee.


                                                                                                    Financial Information
                                                                 88
Department of Defense Agency Financial Report for FY 2011

The Department assigns inventory items to a category based upon the type and condition of
the asset.

Operating Materiel and Supplies, Net                                                                           Dollars in Millions

                                                                       2011
                                      OM&S, Gross               Revaluation                                         Valuation
                                                                                           OM&S, Net
As of September 30                      Value                    Allowance                                           Method
OM&S Categories
    Held for Use                         $     131,405.5           $             0.0        $    131,405.5     SP, LAC, MAC
    Held for Repair                             17,561.7                 (1,235.7)               16,326.0      SP, LAC, MAC
    Excess, Obsolete, and
                                                 2,225.1                 (2,225.1)                      0.0           NRV
    Unserviceable
 Total OM&S                              $     151,192.3           $     (3,460.8)          $    147,731.5
 Legend for Valuation Methods:
 Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses         NRV = Net Realizable Value
 SP = Standard Price                                                                   MAC = Moving Average Cost


Operating Materiel and Supplies, Net                                                                           Dollars in Millions

                                                                       2010
                                      OM&S, Gross               Revaluation                                         Valuation
                                                                                           OM&S, Net
As of September 30                      Value                    Allowance                                           Method
OM&S Categories
    Held for Use                         $     131,524.9           $             0.0        $    131,524.9     SP, LAC, MAC
    Held for Repair                             17,532.2                 (2,045.9)                 15,486.3    SP, LAC, MAC
    Excess, Obsolete, and
                                                 2,631.6                 (2,631.6)                      0.0           NRV
    Unserviceable
 Total OM&S                             $      151,688.7           $     (4,677.5)          $    147,011.2
 Legend for Valuation Methods:
 Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses         NRV = Net Realizable Value
 SP = Standard Price                                                                   MAC = Moving Average Cost



Restrictions
Some munitions included in Operating Materiel and Supplies (OM&S) are restricted due to
condition. Restricted munitions are considered obsolete or unserviceable when they cannot
meet performance requirements. However, obsolete and unserviceable OM&S may be used
in emergency combat situations in which no other suitable munitions are immediately
available.

General Composition of OM&S
OM&S includes spare and repair parts, ammunition, tactical missiles, aircraft configuration
pods, and centrally-managed aircraft engines held for consumption. The Department
assigns OM&S items into a category based upon the type and condition of the asset.




                                                                                                     Financial Information
                                                              89
Department of Defense Agency Financial Report for FY 2011

Stockpile Materiel, Net                                                                           Dollars in Millions

                                                              2011
                                  Stockpile,                                   Stockpile
                                                       Allowance for
                                   Materiel                                    Materiel,           Valuation
                                                       Gains (Losses)
As of September 30                 Amount                                         Net               Method
Stockpile Material Categories
    Held for Sale                    $       541.0        $          0.0          $       541.0       AC, LCM
    Held in Reserve for Future
                                              29.3                   0.0                   29.3       AC, LCM
    Sale
 Total Stockpile Material            $       570.3        $          0.0          $       570.3
 Legend for Valuation Methods:
 AC = Actual Cost                                       LCM = Lower of Cost or Market


Stockpile Materiel, Net                                                                           Dollars in Millions
                                                              2010
                                                          Allowance            Stockpile
                                   Stockpile,
                                                          for Gains            Materiel,           Valuation
                                 Materiel Amount
As of September 30                                         (Losses)               Net               Method
Stockpile Material Categories
    Held for Sale                        $     568.8      $          0.0          $       568.8       AC, LCM
    Held in Reserve for Future
                                                29.3                 0.0                   29.3       AC, LCM
    Sale
 Total Stockpile Material                $     598.1      $          0.0          $       598.1
 Legend for Valuation Methods:
 AC = Actual Cost                                         LCM = Lower of Cost or Market


Restrictions
Materiel held by the National Defense Stockpile (NDS) is restricted unless released by
congressional action and made available for sale on the open market. Stockpile materiel
may not be disposed except for: (1) necessary upgrading, refining, or processing;
(2) necessary rotation to prevent deterioration; (3) determination as excess with potential
financial loss if retained; or (4) authorization by law.
Before selling any materiel, Congress must enact specific enabling legislation (e.g., the
National Defense Authorization Act). When authorized to offer materiel for sale, NDS
removes the materiel from Materiel Held in Reserve and reclassifies these items as Materiel
Held for Sale. The estimated market price of the stockpile materiel held for sale as of
4th Quarter, FY 2011, is $1.4 billion

General Composition of Stockpile Materiel
Due to statutory requirements, the Department holds strategic and critical stockpile
materiel for use in national defense, conservation, or national emergencies.




                                                                                           Financial Information
                                                        90
Department of Defense Agency Financial Report for FY 2011


NOTE 10. GENERAL PP&E, NET
General PP&E, Net                                                              2011                        Dollars in Millions
                         Depreciation/                                                  (Accumulated
                                                 Service          Acquisition                                Net Book
                         Amortization                                                   Depreciation/
                                                  Life              Value                                     Value
As of September 30         Method                                                       Amortization)
Major Asset Classes
Land                            N/A                 N/A               $     10,577.1                N/A     $       10,577.1
Buildings, Structures,
                                S/L              20 or 40                  230,160.8         (118,526.4)          111,634.4
and Facilities
Leasehold
                                S/L             Lease term                    1,032.2            (452.7)                579.5
Improvements
Software                        S/L              2-5 or 10                  10,027.4           (6,932.4)             3,095.0
General Equipment               S/L               5 or 10                   92,368.7          (64,943.0)            27,425.7
Military Equipment              S/L              Various                   852,735.0         (445,894.4)          406,840.6
Assets Under Capital
     1                          S/L             Lease term                    1,182.3            (748.6)                433.7
Lease
Construction-in-
                                N/A                 N/A                     46,507.2                N/A             46,507.2
Progress
Other                                                                         1,201.4              (1.8)             1,199.6
Total General PP&E                                                $       1,245,792.1    $   (637,499.3)    $     608,292.8
 1
  Note 15 for additional information on Capital Leases
Legend for Valuation Methods: S/L = Straight Line N/A = Not Applicable


General PP&E, Net                                                         Restated 2010                    Dollars in Millions
                          Depreciation/                                                 (Accumulated
                                                 Service           Acquisition                               Net Book
                          Amortization                                                  Depreciation/
                                                  Life               Value                                    Value
As of September 30          Method                                                      Amortization)
Major Asset Classes
Land                            N/A                 N/A            $        10,502.8                N/A      $      10,502.8
Buildings, Structures,
                                S/L              20 or 40                  207,363.3         (111,929.1)            95,434.2
and Facilities
Leasehold
                                S/L             Lease term                     976.0             (402.2)                573.8
Improvements
Software                        S/L              2-5 or 10                    9,440.1          (6,148.3)             3,291.8
General Equipment               S/L               5 or 10                   91,773.8          (58,654.1)            33,119.7
Military Equipment              S/L               Various                  813,621.5         (415,431.7)          398,189.8
Assets Under Capital
     1                          S/L             Lease term                     957.0             (642.2)                314.8
Lease
Construction-in-
                                N/A                 N/A                     38,604.1                N/A             38,604.1
Progress
Other                                                                         1,226.0              (1.2)             1,224.8
Total General PP&E                                                $       1,174,464.6    $   (593,208.8)     $    581,255.8
 1
  Note 15 for additional information on Capital Leases
Legend for Valuation Methods: S/L = Straight Line N/A = Not Applicable




                                                                                                 Financial Information
                                                             91
Department of Defense Agency Financial Report for FY 2011

Restatements
The Department corrected a $14.4 billion overstatement of General Property, Plant and
Equipment to align the accounting records to the property accountability system. Refer to
Note 26, Restatements, for further information.

Other Disclosures
The Department has use of overseas land, buildings, and other facilities obtained through
international treaties and agreements negotiated by the Department of State. Treaty
covenants restrict the Department’s use and disposal of real property (land and buildings)
located outside the United States.
The Department does not have the acquisition value for all General PP&E and uses several
cost methodologies to provide General PP&E values for financial statement reporting
purposes.
Other consists of assets awaiting disposal.

Heritage Assets and Stewardship Land
The Department’s policy is to preserve its heritage assets, which are items of historical,
cultural, educational, or artistic importance.
The mission of the Department is to provide the military forces necessary to deter war and
protect the security of the United States. In that mission, the Department, with minor
exceptions, uses most of the buildings and stewardship land in its daily activities and
includes the buildings on the Balance Sheet as multi-use heritage assets (capitalized and
depreciated).
Differences in the heritage assets and stewardship land quantities from the FY 2010 ending
to the FY 2011 beginning unit counts resulted from efforts to improve quality of reported
data.
Heritage assets within the Department consist of buildings and structures, archeological
sites, and museum collections. The Department defines these as follows:
•   Buildings and Structures. Buildings and structures that are listed, or eligible for listing,
    on the National Register of Historic Places, including Multi-Use Heritage Assets.
•   Archeological Sites. Sites that have been identified, evaluated, and determined to be
    eligible for or are listed on the National Register of Historic Places in accordance with
    Section 110 National Historic Preservation Act.
•   Museum Collection Items. Items which are unique for one or more of the following
    reasons: historical or natural significance; cultural, educational, or artistic importance;
    or significant technical or architectural characteristics.
The Department is unable to identify all quantities of heritage assets and stewardship land
added through donation or devise in FY 2011 due to limitations of the Department’s financial
and nonfinancial management processes and systems that feed the financial statements.
Currently, the Department has identified 3,899 Objects, not including Fine Art and 108 Fine
Art Objects acquired through donation FY 2011.

                                                                          Financial Information
                                              92
Department of Defense Agency Financial Report for FY 2011

                                       Measure        As of                                                    As of
 Categories                                                           Additions         Deletions
                                       Quantity      9/30/10                                                  9/30/11
 Buildings and Structures                Each           72,754              470               14,621              58,603
 Archeological Sites                     Each           28,581             3,500               1,444              30,637
 Museum Collection Items
                                         Each        1,341,538            30,798               2,723          1,369,613
 (Objects, not including fine art)
 Museum Collection Items
                                         Each           44,100              876                   21              44,955
 (Objects, fine art)


Stewardship land is land and land rights owned by the Department, but not acquired for, or
in connection with, items of General Property, Plant, and Equipment. All land provided to
the Department from the public domain or at no cost, regardless of its use, is classified as
Stewardship Land.
Stewardship land is presented in context of all categories of the Department’s lands and
reported in acres based on the predominant use of the land. The three categories of
Stewardship land held in public trust are: State-Owned Land, Withdrawn Public-Land, and
Public Land.
The Department’s stewardship land consists mainly of mission essential land.
The Department held the following acres of land as of September 30, 2011.

                                                    As of
 Facility         Predominant Land Use             9/30/10                                                      As of
                                                                  Additions             Deletions
  Code                 Categories                  (Acres in                                                   9/30/11
                                                  Thousands)
 9110          Government Owned Land                    6,590               400                  485               6,505
 9111          State Owned Land                              12                 7                    12                  7
 9120          Withdrawn Public Land                   16,140               108                  113              16,135
 9130          Licensed and Permitted Land              2,349               446                  434               2,361
 9140          Public Land                                 203               11                      12               202
 9210          Land Easement                               377               28                      29               376
 9220          In-leased Land                              270               62                  106                  226
 9230          Foreign Land                                479                  0                    25               454
               Grand Total                                                                                        26,266
               Total – All Other Lands                                                                             9,922
               Total – Stewardship Lands                                                                          16,344


 Assets Under Capital Lease                                                                               Dollars in Millions

 As of September 30                                                      2011                             2010
 Entity as Lessee, Assets Under Capital Lease
      Land and Buildings                                          $                  538.8       $                    759.8
      Equipment                                                                      643.5                            197.2
      Accumulated Amortization                                                      (748.6)                         (642.2)
      Total Capital Leases                                        $                  433.7       $                    314.8



                                                                                              Financial Information
                                                      93
Department of Defense Agency Financial Report for FY 2011


NOTE 11. LIABILITIES NOT COVERED BY BUDGETARY RESOURCES
 Liabilities Not Covered by Budgetary Resources                                            Dollars in Millions

 As of September 30                                                   2011                   2010
 Intragovernmental Liabilities
      Accounts Payable                                            $              9.2   $                13.2
      Debt                                                                       5.1                      5.6
      Other                                                                  2,142.1                2,184.4
      Total Intragovernmental Liabilities                         $          2,156.4   $            2,203.2
 Nonfederal Liabilities
      Accounts Payable                                            $           692.2    $            1,057.1
      Military Retirement and Other Federal Employment Benefits        1,656,021.3             1,691,538.8
      Environmental Liabilities                                          60,567.0                  58,671.4
      Other Liabilities                                                  17,186.6                  16,493.5
      Total Nonfederal Liabilities                                $    1,734,467.1     $       1,767,760.8
 Total Liabilities Not Covered by Budgetary Resources             $    1,736,623.5     $       1,769,964.0
 Total Liabilities Covered by Budgetary Resources                 $     614,893.3      $         552,410.0
 Total Liabilities                                                $    2,351,516.8     $       2,322,374.0


Liabilities Not Covered by Budgetary Resources includes liabilities for which congressional
action is needed before budgetary resources can be provided.
Intragovernmental Accounts Payable represents subsidy payments for the Military Housing
Privatization Initiative and liabilities in canceled appropriations that, if paid, will be
disbursed using current year funds.
Nonfederal Accounts Payable primarily represents liabilities in canceled appropriations that,
if paid, will be disbursed using current year funds.
Debt consists primarily of borrowing from the U.S. Treasury for capital improvements to the
Washington Aqueduct Project. Arlington County and Falls Church, Virginia, will complete
reimbursement to the Department by 2023.
Environmental Liabilities represents the Department’s liability for existing and anticipated
environmental clean up and disposal.
Intragovernmental Liabilities Other primarily consists of unfunded Federal Employees
Compensation Act liabilities, unfunded unemployment liabilities, and unfunded Judgment
Fund liabilities.
Nonfederal Liabilities, Other primarily consists of unfunded annual leave, contingent
liabilities, and expected expenditures for disposal of conventional munitions.
Military Retirement and Other Federal Employment Benefits consists of various employee
actuarial liabilities not due and payable during the current fiscal year. These liabilities
primarily consist of pension liabilities and health benefit liabilities. Refer to Note 17, Military
Retirement and Other Federal Employment Benefits, for additional details and disclosures.



                                                                                   Financial Information
                                                      94
Department of Defense Agency Financial Report for FY 2011


NOTE 12. ACCOUNTS PAYABLE
 Accounts Payable                                                                    Dollars in Millions

                                                               2011
As of September 30
                                                      Interest, Penalties,
                               Accounts Payable       and Administrative             Total
                                                             Fees

Intragovernmental Payables             $    1,893.1                   N/A             $      1,893.1
Nonfederal Payables
(To the Public)                            26,102.4                    1.5                 26,103.9
Total Accounts Payable                 $   27,995.5        $           1.5            $    27,997.0


Accounts Payable                                                                     Dollars in Millions

                                                               2010
As of September 30                                    Interest, Penalties,
                               Accounts Payable       and Administrative             Total
                                                             Fees
Intragovernmental Payables             $    1,754.5                   N/A             $      1,754.5
Nonfederal Payables
(To the Public)                            31,129.0                    6.4                 31,135.4
Total Accounts Payable                 $   32,883.5        $           6.4            $    32,889.9


Accounts Payable includes amounts owed to federal and nonfederal entities for goods and
services received by the Department. The Department’s systems do not track
intragovernmental transactions by customer at the transaction level. Buyer-side accounts
payable are adjusted to agree with interagency seller-side accounts receivable. Accounts
Payable was adjusted by (1) reclassifying amounts between federal and nonfederal accounts
payable or (2) accruing additional accounts payable and expenses.




                                                                             Financial Information
                                            95
Department of Defense Agency Financial Report for FY 2011


NOTE 13. DEBT
 Debt                                                                           Dollars in Millions

                                                        2011
 As of September 30        Beginning Balance       Net Borrowing           Ending Balance
Agency Debt
(Intragovernmental)
    Debt to the Treasury            $     518.3          $      265.1              $         783.4
    Debt to the Federal
                                            0.0                    0.0                          0.0
    Financing Bank
Total Agency Debt                   $     518.3          $      265.1              $         783.4


 Debt                                                                           Dollars in Millions

                                                        2010
 As of September 30        Beginning Balance       Net Borrowing           Ending Balance
Agency Debt
(Intragovernmental)
    Debt to the Treasury            $     391.7          $      126.6              $         518.3
    Debt to the Federal
                                            0.0                    0.0                          0.0
    Financing Bank
Total Agency Debt                   $     391.7          $      126.6              $         518.3


The Department’s debt consists of interest and principal payments due to the U.S. Treasury.
The Department borrows funds for the Military Housing Privatization Initiative and the
Washington Aqueduct Project.
The Department must pay the debt on direct loans if borrowers (e.g. county or city
governments, or housing builders) default. For loan guarantees, the Department must pay
the amount of outstanding principal guaranteed.




                                                                         Financial Information
                                            96
Department of Defense Agency Financial Report for FY 2011


NOTE 14. ENVIRONMENTAL LIABILITIES AND DISPOSAL LIABILITIES
 Environmental Liabilities and Disposal Liabilities                                   Dollars in Millions

 As of September 30                                          2011                      2010
 Environmental Liabilities–Nonfederal
  Accrued Environmental Restoration Liabilities
    Active Installations—Installation Restoration Program
    (IRP) and Building Demolition and Debris Removal         $      11,043.3            $       8,065.3
    (BD/DR)
    Active Installations—Military Munitions
                                                                     4,120.0                    4,646.6
    Response Program (MMRP)

    Formerly Used Defense Sites-IRP & BD/DR                          3,295.4                    3,426.3

    Formerly Used Defense Sites--MMRP                               10,990.0                   11,811.9
  Other Accrued Environmental Liabilities—Non-BRAC
   Environmental Corrective Action                                    500.2                       429.2
   Environmental Closure Requirements                                1,968.6                    2,162.5
    Environmental Response at Operational Ranges                        95.2                      127.2
   Asbestos                                                          1,485.0                    1,335.8
   Non-Military Equipment                                             548.2                       113.5
   Other                                                             1,079.9                    1,201.6
  Base Realignment and Closure Installations (BRAC)
    Installation Restoration Program                                 3,743.0                    3,936.4
    Military Munitions Response Program                               707.3                     1,015.5
    Environmental Corrective Action / Closure Requirements            309.9                       329.5
  Environmental Disposal for Military Equipment /
  Weapons Programs
    Nuclear Powered Military Equipment /
                                                                    13,637.3                   13,290.9
    Spent Nuclear Fuel
    Non-Nuclear Powered Military Equipment                              36.4                        36.4
    Other Weapons Systems                                             161.0                       183.6
  Chemical Weapons Disposal Program
    Chemical Demilitarization – Chemical Materials Agency
                                                                     4,592.0                    5,286.9
    (CMA)
    CAMD Demilitarization – Assembled Chemical Weapons
                                                                     6,510.4                    5,503.1
    Alternatives (ACWA)
 Total Environmental Liabilities                             $      64,823.1           $       62,902.2


Other Accrued Environmental Liabilities, Non-Base Realignment and Closure (BRAC), Other
primarily consists of remediation related to Formerly Utilized Sites Remedial Action Program
(FUSRAP). The Department is responsible for FUSRAP, which remediates radiological
contamination from the Department of Energy’s U.S. Atomic Energy and Weapons Program.
The unrecognized portion of the estimated total cleanup costs associated with General
Property, Plant & Equipment (PP&E) is $2.9 billion for FY 2011. Not all Components of the

                                                                               Financial Information
                                                        97
Department of Defense Agency Financial Report for FY 2011

Department are able to compile the necessary information for this disclosure, thus the
amount reported may not accurately reflect the Department’s total unrecognized costs
associated with General PP&E. The Department is implementing procedures to address
these deficiencies.

OTHER DISCLOSURES
Types of Environmental Liabilities and Disposal Liabilities Identified
The Department has cleanup requirements for Defense Environmental Restoration Program
(DERP) sites at active installations, BRAC installations, Formerly Used Defense Sites, sites at
active installations that are not covered by DERP, weapons systems programs, and chemical
weapons disposal programs. The weapons systems programs consist of chemical weapons
disposal, nuclear-powered aircraft carriers, nuclear-powered submarines, and other nuclear
ships. All clean-up is performed in coordination with regulatory agencies, other responsible
parties, and current property owners.

Applicable Laws and Regulations for Cleanup Requirements
The Department is required to clean up contamination resulting from past waste disposal
practices, leaks, spills, and other past activity that created a public health or environmental
risk. The Department accomplishes this effort in coordination with regulatory agencies and,
if applicable, other responsible parties and current property owners. The Department is also
required to recognize closure and post-closure costs for its General PP&E and environmental
corrective action costs for current operations. Each of the Department’s major reporting
entities is responsible for tracking and reporting all required environmental information
related to environmental restoration costs, other accrued environmental costs, disposal
costs of weapons systems, and environmental costs related to BRAC actions that have taken
place.
The Department follows the Comprehensive Environmental Response, Compensation, and
Liability Act (CERCLA), Superfund Amendment and Reauthorization Act, Resource
Conservation and Recovery Act (RCRA) or other applicable federal or state laws to clean up
contamination. The CERCLA and RCRA require the Department to clean up contamination in
coordination with regulatory agencies, current owners of property damaged by the
Department, and third parties that have a partial responsibility for the environmental
restoration. Failure to comply with agreements and legal mandates puts the Department at
risk of incurring fines and penalties.
The clean-up requirements for nuclear-powered aircraft carriers, submarines, and other
nuclear ships are based on laws that affect the Department’s conduct of environmental
policy and regulations. The Atomic Energy Act of 1954, as amended, assures the proper
management of source, special nuclear, and byproduct materiel.
As in all cases with nuclear power, the Department coordinates actions with the Department
of Energy. The Nuclear Waste Policy Act of 1982 requires all owners and generators of
high-level nuclear waste and spent nuclear fuel to pay their respective shares of the full cost
of the program.



                                                                         Financial Information
                                              98
Department of Defense Agency Financial Report for FY 2011

Finally, the Low-Level Radioactive Waste Policy Amendments Act of 1986 provides for the
safe and efficient management of low-level radioactive waste.
The Chemical Weapons Disposal Program is based on FY 1986 National Defense
Authorization Act (PL 99-145, as amended) that directed the Department to destroy the
unitary chemical stockpile in accordance with the requirements of the Chemical Weapons
Convention Treaty.

Methods for Assigning Total Cleanup Costs to Current Operating
Periods
The Department uses engineering estimates and independently validated models to
estimate environmental costs. The models include the Remedial Action Cost Engineering
Requirements application and the Normalization of Data System. The Department validates
the models in accordance with DoD Instruction 5000.61 and uses the models to estimate
the liabilities based on data received during a preliminary assessment and initial site
investigation.    The Department primarily uses engineering estimates after obtaining
extensive data during the remedial investigation/feasibility phase of the environmental
project.
Once the environmental cost estimates are complete, the Department complies with
accounting standards to assign costs to current operating periods. The Department has
already expensed the costs for cleanup associated with General PP&E placed into service
before October 1, 1997, unless the costs are intended to be recovered through user
charges. If the costs are to be recovered through user charges, the Department expenses
cleanup costs associated with that portion of the asset life that has passed since the General
PP&E was placed into service. The Department systematically recognizes the remaining cost
over the remaining life of the asset.
For General PP&E placed into service after September 30, 1997, the Department expenses
associated environmental costs systematically over the life of the asset using two methods:
physical capacity for operating landfills and life expectancy in years for all other assets. The
Department expenses the full cost to clean up contamination for Stewardship PP&E at the
time the asset is placed into service.

Nature of Estimates and the Disclosure of Information Regarding
Possible Changes Due to Inflation, Deflation, Technology, or
Applicable Laws and Regulations
The Department had changes in estimates resulting from overlooked or previously unknown
contaminants, reestimation based on different assumptions, and other changes in project
scope. Environmental liabilities may change in the future due to changes in laws and
regulation, changes in agreements with regulatory agencies, and advances in technology.

Uncertainty Regarding the Accounting Estimates Used to Calculate
the Reported Environmental Liabilities
The environmental liabilities for the Department are based on accounting estimates, which
require certain judgments and assumptions that are reasonable based upon information


                                                                          Financial Information
                                              99
Department of Defense Agency Financial Report for FY 2011

available at the time the estimates are calculated. The actual results may materially vary
from the accounting estimates if agreements with regulatory agencies require remediation
to a different degree than anticipated when calculating the estimates. Liabilities can be
further affected if investigation of the environmental sites reveals contamination levels that
differ from the estimate parameters.
The Department has a liability to take environmental restoration and corrective action for
buried chemical munitions and agents; however, it is unable to estimate at this time
because the extent of the buried chemical munitions and agents is unknown.            The
Department is also unable to provide a complete estimate for FUSRAP. The Department has
ongoing studies and will update its estimate as additional liabilities are identified. In
addition, not all components of the Department recognize environmental liabilities
associated with General PP&E due to process and system limitations.
The Department has the potential to incur costs for restoration initiatives in conjunction with
returning overseas Defense facilities to host nations. The Department is unable to provide a
reasonable estimate at this time because the extent of required restoration is unknown.

NOTE 15. OTHER LIABILITIES
 Other Liabilities                                                                    Dollars in Millions

                                                                     2011
                                                                   Noncurrent
                                             Current Liability                             Total
 As of September 30                                                 Liability
 Intragovernmental
   Advances from Others                           $      1,548.6      $         0.0       $       1,548.6
   Deposit Funds and Suspense Account
                                                         1,799.8                0.0               1,799.8
   Liabilities
   Disbursing Officer Cash                               1,828.9                0.0               1,828.9
   Judgment Fund Liabilities                              260.6                 0.0                  260.6
   FECA Reimbursement to the Department of
                                                          607.1              776.4                1,383.5
   Labor
   Custodial Liabilities                                 3,949.3            2,533.8               6,483.1
   Employer Contribution and
                                                          352.2                 0.0                  352.2
      Payroll Taxes Payable
   Other Liabilities                                      575.0                 0.0                  575.0
   Total Intragovernmental Other
                                                  $     10,921.5     $      3,310.2       $      14,231.7
              Liabilities
 Nonfederal
   Accrued Funded Payroll and Benefits            $      5,703.1     $          0.0       $       5,703.1
   Advances from Others                                  4,279.2                0.0               4,279.2
   Deferred Credits                                        0.00                 0.0                     0.0
   Deposit Funds and Suspense Accounts                    164.8                 0.0                  164.8
   Temporary Early Retirement Authority                      0.0                0.0                     0.0
   Nonenvironmental Disposal Liabilities
       Military Equipment (Nonnuclear)                     12.8              207.6                   220.4
       Excess/Obsolete Structures                            3.2             535.4                   538.6


                                                                                Financial Information
                                                  100
Department of Defense Agency Financial Report for FY 2011


 Other Liabilities                                                                   Dollars in Millions

                                                                    2011
                                                                  Noncurrent
                                            Current Liability                             Total
 As of September 30                                                Liability
       Conventional Munitions Disposal                      0.0            2,752.4               2,752.4
  Accrued Unfunded Annual Leave                        10,211.5                0.0              10,211.5
  Capital Lease Liability                                208.1               29.6                   237.7
  Contract Holdbacks                                     806.2                 0.3                  806.5
  Employer Contribution and Payroll Taxes
                                                         373.9                  0                   373.9
  Payable
  Contingent Liabilities                                1,581.1            4,288.3               5,869.4
  Other Liabilities                                      150.1                 0.5                  150.6
  Total Nonfederal Other Liabilities             $     23,494.0     $      7,814.1       $      31,308.1
Total Other Liabilities                          $     34,415.5     $   11,124.3         $      45,539.8




                                                                               Financial Information
                                                 101
Department of Defense Agency Financial Report for FY 2011

Other Liabilities                                                                       Dollars in Millions

                                                                       2010
                                                                  Noncurrent
                                            Current Liability                                Total
As of September 30                                                 Liability
Intragovernmental
  Advances from Others                           $      1,473.1    $              0.0       $        1,473.1
  Deposit Funds and Suspense Account
                                                         906.0                    0.0                  906.0
  Liabilities
  Disbursing Officer Cash                               2,190.3                   0.0                2,190.3
  Judgment Fund Liabilities                              261.2                    0.0                  261.2
  FECA Reimbursement to the Department of
                                                         621.4                 780.9                 1,402.3
  Labor
  Custodial Liabilities                                 3,806.2               2,595.4                6,401.6
  Employer Contribution and
                                                         530.1                    0.0                  530.1
  Payroll Taxes Payable
  Other Liabilities                                      616.8                    0.0                  616.8
   Total Intragovernmental Other
                                                 $     10,405.1     $         3,376.3       $      13,781.4
   Liabilities
Nonfederal
  Accrued Funded Payroll and Benefits            $     10,375.8     $             0.0       $      10,375.8
  Advances from Others                                  4,498.7                   0.0                4,498.7
  Deferred Credits                                         0.00                   0.0                     0.0
  Deposit Funds and Suspense Accounts                    430.1                    0.0                  430.1
  Nonenvironmental Disposal Liabilities
      Military Equipment (Nonnuclear)                       8.8                245.2                   254.0
      Excess/Obsolete Structures                         105.8                 131.3                   237.1
      Conventional Munitions Disposal                       0.0               2,072.3                2,072.3
  Accrued Unfunded Annual Leave                        10,977.1                   0.0              10,977.1
  Capital Lease Liability                                  12.1                 63.4                     75.5
  Contract Holdbacks                                     733.6                    0.2                  733.8
  Employer Contribution and Payroll
                                                         588.5                     0                   588.5
  Taxes Payable
  Contingent Liabilities                                1,255.6               3,793.2                5,048.8
  Other Liabilities                                      271.3                    0.5                  271.8
  Total Nonfederal Other Liabilities             $     29,257.4     $         6,306.1       $      35,563.5
Total Other Liabilities                          $     39,662.5        $      9,682.4       $      49,344.9




                                                                                  Financial Information
                                                 102
Department of Defense Agency Financial Report for FY 2011

 Capital Lease Liability                                                                        Dollars in Millions

                                                                  2011 — Asset Category
                                                Land and
                                                                 Equipment        Other               Total
 As of September 30                             Buildings
Future Payments Due
   2012                                     $         46.2   $          0.1   $           9.7   $           56.0
   2013                                               22.8              0.1            2.8                  25.7
   2014                                               18.9              0.0               2.6               21.5
   2015                                               18.9              0.0               0.0               18.9
   2016                                               19.1              0.0               0.0               19.1
   After 5 Years                                     138.6              0.0               0.0             138.6
   Total Future Lease Payments Due          $        264.5   $          0.2   $       15.1      $         279.8
   Less: Imputed Interest Executory Costs             42.1              0.0               0.0               42.1
Net Capital Lease Liability                 $        222.4   $          0.2   $       15.1      $         237.7
Capital Lease Liabilities Covered by Budgetary Resources                                                  237.7
Capital Lease Liabilities Not Covered by Budgetary Resources                                                  0.0
 Capital Lease Liability                                                                        Dollars in Millions

                                                                  2010 — Asset Category
                                                Land and
                                                                 Equipment        Other               Total
 As of September 30                             Buildings
Future Payments Due
   2011                                     $         41.3   $          0.1   $           0.0   $           41.4
   2012                                               15.5              0.1               0.0               15.6
   2013                                               11.1              0.0               0.0               11.1
   2014                                                8.8              0.0               0.0                 8.8
   2015                                                8.7              0.0               0.0                 8.7
   After 5 Years                                       0.0              0.0               0.0                 0.0
   Total Future Lease Payments Due          $         85.4   $          0.2   $           0.0   $           85.6
   Less: Imputed Interest Executory Costs             10.1              0.0               0.0               10.1
Net Capital Lease Liability                 $         75.3   $          0.2   $           0.0   $           75.5
Capital Lease Liabilities Covered by Budgetary Resources                                                    70.4
Capital Lease Liabilities Not Covered by Budgetary Resources                                                  5.1


Intragovernmental Other Liabilities primarily consists of unemployment compensation
liabilities.
Nonfederal Other Liabilities primarily consist of accrued estimates for repairs; accrued
moving allowance and miscellaneous expenses; and accrued liabilities for inventory owned
and managed on behalf of foreign governments.
The Department has two delinquent Federal Employees’ Compensation Act bills in the
amount of $1.4 million.



                                                                                    Financial Information
                                                      103
Department of Defense Agency Financial Report for FY 2011

Contingent Liabilities includes $2.2 billion related to contracts authorizing progress
payments based on cost as defined in the Federal Acquisition Regulation (FAR). In
accordance with contract terms, specific rights to contractors’ work vests with the Federal
Government when a specific type of contract financing payment is made. This action
protects taxpayer funds in the event of contract nonperformance. These rights should not
be misconstrued as rights of ownership. The Department is under no obligation to pay
contractors for amounts greater than the amounts authorized in contracts until delivery and
government acceptance. Due to the probability the contractors will complete their efforts
and deliver satisfactory products, and because the amount of potential future payments are
estimable, the Department has recognized a contingent liability for estimated future
payments which are conditional pending delivery and government acceptance.
Total contingent liabilities for progress payments based on cost represent the difference
between the estimated costs incurred to date by contractors and amounts authorized to be
paid under progress payments based on cost provisions within the FAR.           Estimated
contractor-incurred costs are calculated by dividing the cumulative unliquidated progress
payments based on cost by the contract-authorized progress payment rate. The balance of
unliquidated progress payments based on cost is deducted from the estimated total
contractor-incurred costs to determine the contingency amount.

NOTE 16. COMMITMENTS AND CONTINGENCIES
Legal Contingencies
The Department is a party in various administrative proceedings and legal actions related to
claims for environmental damage, equal opportunity matters, and contractual bid protests.
The Department has accrued contingent liabilities for legal actions where the Office of
General Counsel (OGC) considers an adverse decision probable and the amount of loss is
measurable. In the event of an adverse judgment against the Government, some of the
liabilities may be payable from the U.S. Treasury Judgment Fund.
The Department has 44 legal actions with individual claims greater than the Department’s
FY 2011 materiality threshold of $136.3 million. The total of the 44 actions is approximately
$12.4 trillion. Of this amount, the OGC determined that claims totaling approximately
$7.6 billion are classified “reasonably possible,” $59.3 billion are classified “remote,” and
$12.3 trillion are classified “unable to determine the probability of loss.” The Department
also had a number of potential claims that individually did not meet the Department's
materiality threshold but did meet the individual Components' thresholds. These claims are
disclosed in the Components' financial statements.

Other Commitments and Contingencies
The Department is a party in numerous individual contracts that contain clauses, such as
price escalation, award fee payments, or dispute resolution, that may result in a future
outflow of expenditures.      Currently, the Department has limited automated system
processes by which it captures or assesses these potential contingent liabilities, therefore,
the amounts reported may not fairly present the Department’s contingent liabilities.
Contingencies considered both measurable and probable have been recognized as liabilities.
Refer to Note 15, Other Liabilities, for further information.

                                                                       Financial Information
                                            104
Department of Defense Agency Financial Report for FY 2011


NOTE 17. MILITARY RETIREMENT AND OTHER FEDERAL EMPLOYMENT
BENEFITS
Military Retirement and Other Federal Employment Benefits                                                  Dollars in Millions

                                                                               2011
                                                                      (Less: Assets Available
As of September 30                            Liabilities                                            Unfunded Liabilities
                                                                         to Pay Benefits)
Pension and Health Actuarial Benefits
  Military Retirement Pensions                   $   1,360,922.5               $    (368,236.0)              $    992,686.5
  Military Retirement Health
                                                       305,985.0                             0.0                  305,985.0
  Benefits
  Military Medicare-Eligible
                                                       533,667.7                    (184,914.3)                   348,753.4
  Retiree Benefits
Total Pension and Health
                                                 $   2,200,575.2               $    (553,150.3)             $    1,647,424.9
Actuarial Benefits


Military Retirement and Other Federal Employment Benefits                                                  Dollars in Millions

                                                                               2011
                                                                      (Less: Assets Available
As of September 30                            Liabilities                                            Unfunded Liabilities
                                                                         to Pay Benefits)
Other Actuarial Benefits
  FECA                                           $          6,366.4            $             0.0            $        6,366.4
  Voluntary Separation Incentive
                                                             770.1                       (348.6)                        421.5
  Programs
  DoD Education Benefits Fund                               1,773.6                     (1,773.6)                        0.0
  Other                                                     2,874.3                     (1,065.8)                    1,808.5
  Total Other Actuarial
                                                 $      11,784.4               $        (3,188.0)           $        8,596.4
  Benefits
Total Military Retirement and
Other Federal Employment                         $   2,212,359.6               $    (556,338.3)             $    1,656,021.3
Benefits
Actuarial Cost Method Used: Aggregate Entry-Age Method
Assumptions: Effective Interest
Market Value of Investments in Market-based and Marketable Securities: $662.4 billion


Military Retirement and Other Federal Employment Benefits                                                  Dollars in Millions

                                                                               2010
                                                                      (Less: Assets Available
As of September 30                            Liabilities                                            Unfunded Liabilities
                                                                         to Pay Benefits)
Pension and Health Actuarial Benefits
  Military Retirement Pensions                   $   1,258,463.1               $    (314,380.5)              $    944,082.6
  Military Retirement Health
                                                       329,492.1                             0.0                  329,492.1
  Benefits
  Military Medicare-Eligible
                                                       572,995.2                    (163,587.6)                   409,407.6
  Retiree Benefits
Total Pension and Health
                                                 $   2,160,950.4               $    (477,968.1)             $    1,682,982.3
Actuarial Benefits



                                                                                                    Financial Information
                                                             105
Department of Defense Agency Financial Report for FY 2011


Military Retirement and Other Federal Employment Benefits                                                         Dollars in Millions

                                                                                  2010
                                                                       (Less: Assets Available
As of September 30                             Liabilities                                                 Unfunded Liabilities
                                                                          to Pay Benefits)
Other Actuarial Benefits
      FECA                                      $          6,418.7           $                   0.0          $               6,418.7
      Voluntary Separation
                                                             959.3                          (397.0)                             562.3
      Incentive Programs
      DoD Education Benefits
                                                           1,900.5                        (1,900.5)                                0.0
      Fund
      Other                                                6,470.0                        (4,894.4)                           1,575.6
      Total Other Actuarial
                                                $        15,748.5            $            (7,191.9)           $               8,556.6
      Benefits
Total Military Retirement and
Other Federal Employment                        $      2,176,698.9           $          (485,160.0)           $         1,691,538.9
Benefits
Actuarial Cost Method Used: Aggregate Entry-Age Method
Assumptions: Effective Interest
Market Value of Investments in Market-based and Marketable Securities: $541.0 billion


Military Retirement and Other Federal Employment Benefits                                                           Dollars in Millions

                                                                                        2011
                                                                 Military Pre-     Military
                                                                  Medicare        Medicare –           Voluntary           DoD
                                                     Military
                                                                   Eligible        Eligible            Separation        Education
                                                   Retirement
                                                                   Retiree         Retiree              Incentive         Benefits
                                                    Pensions
                                                                    Health          Health             Programs            Fund
As of September 30                                                Benefits         Benefits
Beginning Actuarial Liability                  $ 1,258,463.1     $ 329,492.1      $ 572,995.2          $     959.3      $    1,900.5
Normal Cost Liability                                 28,780.5        11,616.2          12,127.5               0.0              436.4
Plan Amendment Liability                                   0.0        (3,168.4)    (12,807.9)                  0.0                 0.0
Assumption Change Liability                           61,970.0         6,170.6                 0.0            10.8            (112.9)
Benefit Outlays                                     (51,012.4)       (11,717.2)         (9,455.7)           (136.2)           (441.2)
Interest Cost                                         62,587.4        16,766.0          29,022.6              36.6               85.4
Actuarial (gains)/losses due to changes in
                                                         133.9       (14,660.7)      (8,890.0)              (100.4)            (92.0)
experience
Actuarial (gains)/losses due to changes in
                                                           0.0       (31,084.1)    (68,961.1)                  0.0                 0.0
trend assumptions
Actuarial (gains)/losses due to other
                                                           0.0         2,570.5          19,637.1               0.0               (2.6)
factors
Ending Actuarial Liability                     $ 1,360,922.5     $ 305,985.0      $ 533,667.7          $     770.1      $    1,773.6
Change in Actuarial Liability                  $     102,459.4 $ (23,507.1)       $ (39,327.5)         $    (189.2)     $     (126.9)

The Department complies with SFFAS No. 33, “Pensions, Other Retirement Benefits, and
Other Postemployment Benefits: Reporting the Gains and Losses from Changes in
Assumptions and Selecting Discount Rates and Valuation Dates.” The standard requires the
separate presentation of gains and losses from changes in long-term assumptions used to
estimate liabilities associated with pensions, other retirement and postemployment benefits.



                                                                                                        Financial Information
                                                                106
Department of Defense Agency Financial Report for FY 2011

The SFFAS No. 33 also provides a standard for selecting the discount rate and valuation
date used in estimating these liabilities.

Military Retirement Pensions
The Military Retirement Fund is a defined benefit plan authorized by Public Law (PL) 98-94
to provide funds used to pay annuities and pensions to retired military personnel and their
survivors. The Department of Defense (DoD) Board of Actuaries approves the long-term
economic assumptions for inflation, salary, and interest. The actuaries calculate the
actuarial liabilities annually using economic assumptions and actual experience
(e.g., mortality and retirement rates). Due to reporting deadlines, the current year
actuarial present value of projected plan benefits rolls forward from the prior year’s
valuation results. The actuaries used the following assumptions to calculate the FY 2011
roll-forward amount:

     Military Retirement Pensions                        Inflation                  Salary            Interest
 Fiscal Year 2011                                 0.0% (actual)             1.4% (actual)               4.8%
 Fiscal Year 2012                                 2.8% (estimated)          1.6% (estimated)            4.8%
 Long Term                                        2.5%                      3.3%                        4.8%
 Actuarial Cost Method Used: Aggregate Entry-Age Normal Method
 Market Value of Investments in Market-Based and Marketable Securities: $436.1 billion
 Assumed Interest Rate: 4.8 percent


Historically, the initial unfunded liability of the program was amortized over a 50-year
period. Effective FY 2008, the initial unfunded liability is amortized over a 42-year period to
ensure the annual payments cover the interest on the unfunded actuarial liability, with the
last payment expected to be made October 1, 2025. All subsequent gains and losses
experienced are amortized over a 30-year period.
Actuarial Cost Method Used: Aggregate Entry-Age Normal Cost Method
Market Value of Investments in Market-Based and Marketable Securities: $436.1 billion
Assumed Interest Rate: 4.8 percent.

MILITARY RETIREMENT HEALTH BENEFITS (MRHB)
The MRHB are post-retirement benefits the Department provides to non-Medicare-eligible
military retirees and other eligible beneficiaries through private sector health care providers
and the Department’s medical treatment facilities. The actuaries calculate the actuarial
liabilities annually using assumptions and actual experience. For the FY 2011 actuarial
liability calculation, the actuaries used the following assumptions:




                                                                                               Financial Information
                                                             107
Department of Defense Agency Financial Report for FY 2011

                                                                                                     Ultimate Rate
 MRHB Medical Trend                                                     FY 2010 – FY 2011
                                                                                                        FY 2035
 Medicare Inpatient (Direct Care)                                                        3.38%               5.25%
 Medicare Outpatient (Direct Care)                                                       3.26%               5.25%
 Medicare Prescriptions (Direct Care)                                                    2.00%               5.25%
 Non-Medicare Inpatient (Direct Care)                                                    4.00%               5.25%
 Non-Medicare Outpatient (Direct Care)                                                   4.00%               5.25%
 Non-Medicare Prescriptions (Direct Care)                                                1.00%               5.25%
 Non-Medicare Inpatient (Purchased Care)                                                 7.27%               5.25%
 Non-Medicare Outpatient (Purchased Care)                                                5.99%               5.25%
 Non-Medicare Prescriptions (Purchased Care)                                             6.13%               5.25%
 U.S. Family Health Plan (USFHP) (Purchased Care)                                        5.67%               5.25%
Actuarial Cost Method Used: Aggregate Entry-Age Normal Method
Assumed Interest Rate: 4.9 percent


Actuarial Cost Method Used: Aggregate Entry-Age Normal Cost Method
Assumed Interest Rate: 4.9 percent

Medicare-Eligible Retiree Health Care Fund (MERHCF) Benefits
In accordance with PL 106-398, MERHCF accumulates funds to finance the health care
program liabilities of Medicare-eligible retirees for all the Uniformed Services and specific
Medicare-eligible beneficiaries. The DoD Board of Actuaries approves the long-term
assumptions for medical trends and interest. The actuaries calculate the actuarial liabilities
annually using actual experience (e.g., mortality and retirement rates, direct care costs,
purchased care). Due to reporting deadlines, the current year actuarial present value of
projected plan benefits rolls forward from the prior year’s results. The actuaries used the
following assumptions to calculate the FY 2011 roll-forward amount:

                                                                                                     Ultimate Rate
 MERHCF Benefits — Medical Trend                                         FY 2010 – FY 2011
                                                                                                        FY 2035
 Medicare Inpatient (Direct Care)                                                        3.38%               5.25%
 Medicare Inpatient (Purchased Care)                                                     4.38%               5.25%
 Medicare Outpatient (Direct Care)                                                       3.26%               5.25%
 Medicare Outpatient (Purchased Care)                                                    4.26%               5.25%
 Medicare Prescriptions (Direct Care)                                                    2.00%               5.25%
 Medicare Prescriptions (Purchased Care)                                                 5.82%               5.25%
 Medicare USFHP (Purchased Care)                                                         5.67%               5.25%
 Actuarial Cost Method Used: Aggregate Entry-Age Normal Method
 Market Value of Investments in Market-Based and Marketable Securities: $223.5 billion
 Assumed Interest Rate: 4.9 percent




                                                                                                 Financial Information
                                                             108
Department of Defense Agency Financial Report for FY 2011

The MERHCF liability includes Medicare liabilities for all Uniformed Services.              The
$533.7 billion liability includes $521.8 billion for the Department, $10.7 billion for the Coast
Guard, $1.1 billion for the Public Health Service, and $76.9 million for National Oceanic and
Atmospheric Administration (NOAA). The FY 2011 contributions from each of the Uniformed
Services were $11.0 billion from the Department, $265.3 million from the Coast Guard,
$38.1 million from the Public Health Service, and $1.8 million from NOAA.
Actuarial Cost Method Used: Aggregate Entry-Age Normal Cost Method
Market Value of Investments in Market-Based and Marketable Securities: $223.5 billion
Assumed Interest Rate: 4.9 percent

Federal Employees Compensation Act (FECA)
The Department of Labor (DOL) annually determines the liability for future workers’
compensation benefits, which includes the expected liability for death, disability, medical,
and miscellaneous costs for approved compensation cases, plus a component for incurred-
but-not-reported claims.    The liability is determined using historical benefit payment
patterns related to a specific incurred period to predict the final payment related to that
period. Consistent with past practice, these projected annual benefit payments have been
discounted to present value using the Office of Management and Budget’s economic
assumptions for 10-year U.S. Treasury notes and bonds. A 3.54 percent interest rate was
assumed for year one and 4.03 percent was assumed for year two and thereafter.
The DOL calculates this liability using wage inflation factors (cost of living adjustments or
COLAs) and medical inflation factors (consumer price index medical or CPIM). The actual
rates for these factors for charge back year (CBY) 2011 were also used to adjust the
methodology’s historical payments to current year constant dollars. The compensation
COLAs and CPIMs used in the projections for various charge back years were as follows:

                        Federal Employees — Compensation Act (FECA)
             CBY                            COLA                             CPIM
             2012                            2.10%                           3.07%
             2013                            2.53%                           3.62%
             2014                            1.83%                           3.66%
             2015                            1.93%                           3.73%
             2016+                           2.00%                           3.73%

The model’s resulting projections were analyzed by DOL to ensure the estimates were
reliable. The analysis was based on four tests: (1) a sensitivity analysis of the model of
economic assumptions, (2) a comparison of the percentage change in the liability amount to
the percentage change in the actual incremental payments, (3) a comparison of the
incremental paid losses per case (a measure of case-severity) in CBY 2011 to the average
pattern observed during the prior three charge back years, and (4) a comparison of the
estimated liability per case in the 2011 projection to the average pattern for the projections
for the most recent three years.




                                                                          Financial Information
                                              109
Department of Defense Agency Financial Report for FY 2011

Voluntary Separation Incentive (VSI) Program
The VSI Program was established by PL 102-190 to reduce the number of military personnel
on active duty. The DoD Board of Actuaries approved the assumed annual interest rate of
3.8 percent used to calculate the actuarial liability. Since the VSI Program is no longer
offered, the actuarial liability calculated annually is expected to continue to decrease with
benefit outlays and increase with interest cost.
Market Value of Investments in Market-based and Marketable Securities: $387.5 million

DoD Education Benefits Fund (EBF)
The EBF program was established by PL 98-525 to recruit and retain military members and
aid in the readjustment of military members to civilian life. The actuaries calculate the
actuarial liability annually based on the assumed interest rate of 4.5 percent that was
approved by the DoD Board of Actuaries.
Market Value of Investments in Market-based and Marketable Securities: $2.4 billion

Other Federal Employment Benefits
Other Federal Employment Benefits primarily consists of accrued pensions and annuities,
and an estimated liability for incurred-but-not-reported medical claims not processed prior
to fiscal year end.

NOTE 18. GENERAL DISCLOSURES RELATED TO THE STATEMENT OF NET
COST
 Costs and Exchange Revenue                                                      Dollars in Millions

                                                                                  Restated
 As of September 30                                           2011
                                                                                    2010
Military Retirement Benefits
1. Gross Cost
     A. Intragovernmental Cost                            $           0.0    $                  0.0
     B. Nonfederal Cost                                   $      57,033.8    $           56,741.5
     C. Total Cost                                        $      57,033.8    $           56,741.5
2. Earned Revenue
     A. Intragovernmental Revenue                         $     (27,456.7)   $         (16,037.8)
     B. Nonfederal Revenue                                $           0.0    $                  0.0
     C. Total Revenue                                     $     (27,456.7)   $         (16,037.8)
3. Losses/(Gains) from Actuarial Assumption Changes for
Military Retirement Benefits                              $      63,132.0    $         148,535.6
Total Net Cost                                            $      92,709.1    $         189,239.3
 Civil Works
1. Gross Cost
     A. Intragovernmental Cost                            $       1,466.4    $            1,399.4
     B. Nonfederal Cost                                   $      12,063.7    $           11,901.0
     C. Total Cost                                        $      13,530.1    $           13,300.4


                                                                         Financial Information
                                                    110
Department of Defense Agency Financial Report for FY 2011

Costs and Exchange Revenue                                                        Dollars in Millions

                                                                                   Restated
As of September 30                                            2011
                                                                                     2010
2. Earned Revenue
    A. Intragovernmental Revenue                          $     (1,623.6)     $           (1,082.6)
    B. Nonfederal Revenue                                 $       (694.6)     $             (715.4)
    C. Total Revenue                                      $     (2,318.2)     $           (1,798.0)
3. Losses/(Gains) from Actuarial Assumption Changes for
Military Retirement Benefits                              $            0.0    $                  0.0
Total Net Cost                                            $     11,211.9      $           11,502.4
Military Personnel
1. Gross Cost
    A. Intragovernmental Cost                             $     35,115.5      $           31,171.8
    B. Nonfederal Cost                                    $    118,765.9      $         123,203.1
    C. Total Cost                                         $    153,881.4      $         154,374.9
2. Earned Revenue
    A. Intragovernmental Revenue                          $       (804.3)     $             (998.0)
    B. Nonfederal Revenue                                 $          (77.3)   $              (25.1)
    C. Total Revenue                                      $       (881.6)     $           (1,023.1)
3. Losses/(Gains) from Actuarial Assumption Changes for
Military Retirement Benefits                              $            0.0    $                  0.0
Total Net Cost                                            $    152,999.8      $         153,351.8
Operations, Readiness & Support
1. Gross Cost
    A. Intragovernmental Cost                             $    (55,748.9)     $         (50,243.5)
    B. Nonfederal Cost                                    $    369,116.4      $         327,219.9
    C. Total Cost                                         $    313,367.5      $         276,976.4
2. Earned Revenue
    A. Intragovernmental Revenue                          $     11,470.3      $           12,607.3
    B. Nonfederal Revenue                                 $    (73,595.3)     $         (36,841.4)
    C. Total Revenue                                      $    (62,125.0)     $         (24,234.1)
3. Losses/(Gains) from Actuarial Assumption Changes for
Military Retirement Benefits                              $    (23,823.3)     $           15,553.4
Total Net Cost                                            $    227,419.2      $         268,295.7
Procurement
1. Gross Cost
    A. Intragovernmental Cost                             $     29,956.9      $           29,727.8
    B. Nonfederal Cost                                    $     98,615.9      $           94,839.9
    C. Total Cost                                         $    128,572.8      $         124,567.7
2. Earned Revenue
    A. Intragovernmental Revenue                          $     (3,150.6)     $           (2,646.3)
    B. Nonfederal Revenue                                 $     (3,015.0)     $           (1,380.3)


                                                                          Financial Information
                                                    111
Department of Defense Agency Financial Report for FY 2011

Costs and Exchange Revenue                                                      Dollars in Millions

                                                                                 Restated
As of September 30                                            2011
                                                                                   2010
    C. Total Revenue                                      $     (6,165.6)   $           (4,026.6)
3. Losses/(Gains) from Actuarial Assumption Changes for
Military Retirement Benefits                              $           0.0   $                  0.0
Total Net Cost                                            $    122,407.2    $         120,541.1
Research, Development, Test & Evaluation
1. Gross Cost
    A. Intragovernmental Cost                             $     22,993.7    $           22,770.5
    B. Nonfederal Cost                                    $     56,165.0    $           60,107.0
    C. Total Cost                                         $     79,158.7    $           82,877.5
2. Earned Revenue
    A. Intragovernmental Revenue                          $     (7,916.6)   $           (8,163.8)
    B. Nonfederal Revenue                                 $       (251.7)   $             (212.9)
    C. Total Revenue                                      $     (8,168.3)   $           (8,376.7)
3. Losses/(Gains) from Actuarial Assumption Changes for
Military Retirement Benefits                              $           0.0   $                  0.0
Total Net Cost                                            $     70,990.4    $           74,500.8
Family Housing & Military Construction
1. Gross Cost
    A. Intragovernmental Cost                             $      1,734.3    $            1,071.0
    B. Nonfederal Cost                                    $     12,605.9    $            9,038.3
    C. Total Cost                                         $     14,340.2    $           10,109.3
2. Earned Revenue
    A. Intragovernmental Revenue                          $     (7,547.4)   $           (7,152.1)
    B. Nonfederal Revenue                                 $       (377.1)   $             (593.8)
    C. Total Revenue                                      $     (7,924.5)   $           (7,745.9)
3. Losses/(Gains) from Actuarial Assumption Changes for
Military Retirement Benefits                              $           0.0   $                  0.0
Total Net Cost                                            $      6,415.7    $            2,363.4
Consolidated
1. Gross Cost
    A. Intragovernmental Cost                             $     35,517.9    $           35,897.0
    B. Nonfederal Cost                                    $    724,366.6    $         683,050.7
    C. Total Cost                                         $    759,884.5    $         718,947.7
2. Earned Revenue
    A. Intragovernmental Revenue                          $    (37,028.9)   $         (23,473.3)
    B. Nonfederal Revenue                                 $    (78,011.0)   $         (39,768.9)
    C. Total Revenue                                      $   (115,039.9)   $         (63,242.2)
3. Losses/(Gains) from Actuarial Assumption Changes for
Military Retirement Benefits                              $     39,308.7    $         164,089.0



                                                                        Financial Information
                                                    112
Department of Defense Agency Financial Report for FY 2011

 Costs and Exchange Revenue                                                    Dollars in Millions

                                                                                Restated
 As of September 30                                           2011
                                                                                  2010
4. Costs Not Assigned to Programs                         $          0.0   $                  0.0
5. (Less: Earned Revenues) Not Attributed to Programs     $          0.0   $                  0.0
Total Net Cost                                            $    684,153.3   $         819,794.5



Abnormal Balances
Nonfederal Earned Revenue on the Statement of Net Cost (SNC) includes an abnormal
balance of $243.9 million in USSGL account 5909 (Contra Revenue for Other Revenue). In
September 2010, the Department recorded transactions in this account for work along the
Louisiana coast. After completion of the financial statements, it was determined that the
transactions should not have been processed. The abnormal balance reflects the reversal
entry to correct the transaction.
Operations, Readiness & Support Intragovernmental Gross Cost on the SNC has an
abnormal balance of $55.7 billion. The current business practice is to include elimination
reporting in this program group.
Operations, Readiness & Support Intragovernmental Earned Revenue on the SNC has an
abnormal balance of $11.5 billion. The current business practice is to include elimination
reporting in this program group.

Restatements
The Department identified an overstatement of General Property, Plant and Equipment.
This correction increased the FY 2010 net cost by $17.0 billion.      This prior period
adjustment is reflected in the schedule above as Nonfederal Gross Cost in Procurement;
Research, Development, Test and Evaluation; and Operations, Readiness and Support. See
Note 26, Restatements, for additional information.

Other Disclosures
The SNC represents the net cost of programs and organizations of the Department that are
supported by appropriations or other means. The intent of the SNC is to provide gross and
net cost information related to the amount of output or outcome for a given program or
organization administered by a responsible reporting entity. The Department’s current
processes and systems capture costs based on appropriation groups as presented in the
schedule above. The lower level costs for major programs are not presented as required by
the Government Performance and Results Act. The Department is in the process of
reviewing available data and developing a cost reporting methodology as required by the
SFFAS No. 4, “Managerial Cost Accounting Concepts and Standards for the Federal
Government”, as amended by SFFAS No. 30, “Interentity Cost Implementation”.
Intragovernmental costs and revenue represent transactions made between two reporting
entities within the Federal Government.       Public costs and revenues are exchange
transactions made between the reporting entity and a nonfederal entity.


                                                                       Financial Information
                                                    113
Department of Defense Agency Financial Report for FY 2011

The Department’s systems do not track intragovernmental transactions by customer at the
transaction level. Buyer side expenses are adjusted to agree with internal seller side
revenues. Expenses are generally adjusted by reclassifying amounts between federal and
nonfederal expenses. Intradepartmental revenues and expenses are then eliminated.
The SNC presents information based on budgetary obligation, disbursement, and collection
transactions, as well as data from nonfinancial feeder systems. Amounts are adjusted for
accruals, such as payroll expenses, accounts payable, and environmental liabilities. The
General Fund data is primarily derived from budgetary transactions (obligations,
disbursements, and collections), data from nonfinancial feeder systems, and accruals made
for major items. While Working Capital Funds primarily record transactions on an accrual
basis, the systems do not always capture actual costs in a timely manner.
The Department’s accounting systems generally do not capture information relative to
heritage assets separately and distinctly from normal operations.
The Department implemented SFFAS No. 33, “Pensions, Other Retirement Benefits, and
Other Postemployment Benefits:        Reporting the Gains and Losses from Changes in
Assumptions and Selecting Discount Rates and Valuation Dates”. The standard requires the
separate presentation of gains and losses from changes in long term assumptions used to
estimate liabilities associated with pensions, other retirement benefits, and other
postemployment benefits on the SNC. The SFFAS No. 33 also provides a standard for
selecting the discount rate and valuation date used in estimating these liabilities.

NOTE 19. DISCLOSURES RELATED TO THE STATEMENT OF CHANGES IN NET
POSITION
Abnormal Balance
Earned Revenue on the Statement of Net Cost includes an abnormal balance of
$243.9 million in USSGL account 5909 (Contra Revenue for Other Revenue).               In
September 2010, the Department recorded transactions in this account for work along the
Louisiana coast. After completion of the financial statements, it was determined that the
transactions should not have been processed. The abnormal balance reflects the reversal
entry to correct the transactions.

Restatements
The Department corrected a $14.4 billion overstatement of General Property, Plant and
Equipment to align the accounting records to the property accountability system. Refer to
Note 26, Restatements, for further information.

Other Disclosures
Other Financing Sources, Other consists primarily of nonexchange gains and losses
necessary to reconcile the proprietary and budgetary amounts, as well as gains and losses
on disposition of assets. Due to financial system limitations, the Department adjusts for
these unreconciled differences.




                                                                    Financial Information
                                          114
Department of Defense Agency Financial Report for FY 2011

Earmarked Cumulative Results of Operations ending balance on the Statement of Changes
in Net Position (SCNP) does not agree with the Earmarked Cumulative Results reported on
the Balance Sheet because the cumulative results on the Balance Sheet are presented net
of eliminations. In the SCNP, all offsetting balances (e.g. transfers-in and transfers-out,
revenue, and expenses) for intraentity activity between Earmarked Funds and All Other
Funds are reported on the same lines. The Eliminations column contains all appropriate
elimination entries, which net to zero within each respective line, except for intraentity
imputed financing costs.
Appropriations Received on the SCNP does not agree with Appropriations on the Statement
of Budgetary Resources (SBR). The difference of $137.7 billion is primarily related to the
Military Retirement Fund and the Medicare-Eligible Retiree Health Care Fund appropriations.
In order to preserve visibility with the President’s Budget, these appropriations are
effectively reported twice on the SBR. They are reported once by the Military Departments
and Defense Agencies as appropriated and once by the individual trust funds as receipts.
Refer to Note 20, Disclosures Related to the SBR, for further information.

NOTE 20. DISCLOSURES RELATED TO THE STATEMENT OF BUDGETARY
RESOURCES
 Disclosures Related to the Statement of Budgetary Resources                               Dollars in Millions

                                                                                             Restated
 As of September 30                                                          2011
                                                                                              2010
 Net Amount of Budgetary Resources Obligated for Undelivered Orders at
                                                                         $   478,054.4      $    467,972.2
 the End of the Period.

Restatements
The Department corrected $83.5 million in misstated contract authority, impacting the
Unobligated Balance, Brought Forward, 1 October, on the Statement of Budgetary
Resources (SBR). Refer to Note 26, Restatements, for further information.

Reconciliation Differences
Appropriations on the SBR exceeds Appropriations Received on the Statement of Changes in
Net Position by $137.7 billion. This difference represents trust and special fund receipts
reported as exchange revenue on the Statement of Net Cost and included in appropriations
on the SBR. In accordance with Office of Management and Budget (OMB) guidance,
$108.5 billion of General Fund appropriations received by the Department are also
recognized on the SBR as appropriations received for trust and special funds.         The
difference is primarily due to duplicate reporting in the SBR of the Military Services’
contributions and U.S. Treasury’s payments to the Military Retirement Trust Fund and the
Department of Defense Medicare-Eligible Retiree Health Care Fund.
The SBR FY 2010 column includes $104.9 billion more in budget authority than reported in
the 2010 actual column of the President's FY 2012 Budget. The difference is primarily due
to duplicate reporting in the SBR of the Military Services' contributions and U.S. Treasury's
payments to the Military Retirement Trust Fund and the Department of Defense Medicare-
Eligible Retiree Health Care Fund.


                                                                                    Financial Information
                                                    115
Department of Defense Agency Financial Report for FY 2011

The SBR FY 2010 column includes $19.8 million less in obligations than reported in the 2010
actual column of the President's FY 2012 Budget. The difference is primarily due to the
timing of the recognition of obligations.
The SBR FY 2010 column includes $77.7 billion less in net outlays than reported in the 2010
actual column of the President's FY 2012 Budget. The SBR reduces net outlays by the
distributed offsetting receipts. The President's Budget does not reduce the Department's
outlays by the distributed offsetting receipts.

Permanent Indefinite Appropriations
The Department      of   Defense   (DoD)   received   the   following   permanent   indefinite
appropriations:
•   Department of the Army General Gift Fund (10 USC 2601(C)(1))
•   Department of the Navy General Gift Fund (10 USC 2601(C)(2))
•   Department of the Air Force General Gift Fund (10 USC 2601 (C)(3))
•   Department of Defense General Gift Fund (10 USC 2601)
•   Disposal of Department of Defense Real Property (40 USC 485(h)(2)(A)(B))
•   Lease of Department of Defense Real Property (40 USC 485(h)(2)(A)(B))
•   Foreign National Employees Separation Pay Account, Defense (10 USC 1581)
•   United States Naval Academy Gift and Museum Fund (10 USC 6973-4)
•   Ship Stores Profits, Navy (10 USC 7220, 31 USC 1321)
•   Burdensharing Contributions (10 USC 2350j)
•   Forest Program (10 USC 2665)
•   Medicare Eligible Retiree Health Care Fund (10 USC 1111)
•   Military Retirement Fund (10 USC 1461)
•   Education Benefits Fund (10 USC 2006)
•   Host Nation Support for U.S. Relocation Activities (10 USC 2350k)
•   Hydraulic Mining Debris Reservoir (33 USC 683)
•   Maintenance and Operation of Dams and Other Improvements of Navigable Waters
    (16 USC 810(a))
•   Payments to States (33 USC 701c-3)
•   Wildlife Conservation (16 USC 670-670(f))
•   Ainsworth Bequest (31 USC 1321)
•   DoD Family Housing Improvement Fund (10 USC 2883 (a))
•   DoD Military Unaccompanied Housing Improvement Fund (10 USC 2883 (a))
•   Voluntary Separation Incentive Fund (10 USC 1175(h))


                                                                         Financial Information
                                             116
Department of Defense Agency Financial Report for FY 2011

•   Rivers & Harbors Contributed Funds (33 USC 560, 701h)
•   Concurrent  Receipt      Accrual    Payments      to    the     Military     Retirement     Fund
    10 USC 1466(b)(1)
•   Rocky Mountain Arsenal, Restoration (100 Statute, 4003 SEC 1367)
•   DoD Family Housing Improvement Fund, Direct Loan, Financing Account (2 USC 661d)
•   DoD Family Housing       Improvement      Fund,    Guaranteed     Loan,     Financing     Account
    (2 USC 661d)
•   Homeowners Assistance Fund (10 USC 4551-4555; 42 USC 3374(d), Title United States
    Code; Public Law 111-5)
•   Payments to Military Retirement Fund, Defense (10 USC, 1466)
•   Payment to Department of Defense Medicare-Eligible Retiree Health Care Fund
    (10 USC 1116(a))
•   ARMS Initiative, Guaranteed Loan Financing Account, Army (10 USC 2501, 10 USC
    4551-4555)
•   Medicare-Eligible Retiree Health Fund Contribution, Navy (10 USC 1116)
•   Medicare-Eligible Retiree Health Fund Contribution, Marine Corps (10 USC 1116)
•   Medicare-Eligible   Retiree   Health   Fund     Contribution,    Reserve      Personnel,    Navy
    (10 USC 1116)
•   Medicare-Eligible Retiree Health Fund Contribution, Reserve Personnel, Marine Corps
    (10 USC 1116)
•   Medicare-Eligible Retiree Health Fund Contribution, Army (10 USC 1116)
•   Medicare-Eligible   Retiree   Health   Fund     Contribution,    Reserve     Personnel,     Army
    (10 USC 1116)
•   Medicare-Eligible Retiree Health Fund Contribution, National Guard Personnel, Army
    (10 USC 1116)
•   Medicare-Eligible Retiree Health Fund Contribution, Air Force (10 USC 1116)
•   Medicare-Eligible Retiree Health Fund Contribution, Reserve Personnel, Air Force
    (10 USC 1116)
•   Medicare-Eligible Retiree Health Fund Contribution, National Guard Personnel, Air Force
    (10 USC 1116)
•   Department of Defense Vietnam War Commemoration Fund, Defense (P.L. 110-181, 122
    Stat. 141 (Sec. 598))
The above permanent indefinite appropriations cover a wide variety of purposes to help the
Department accomplish its missions. These purposes include: (1) military retirees’ health care
benefits, retirement and survivor pay, and education benefits for veterans; (2) wildlife habitat
restoration and water resources maintenance; (3) relocation of armed forces within a host nation;
(4) separation payments for foreign nationals; and (5) upkeep of libraries and museums.


                                                                               Financial Information
                                              117
Department of Defense Agency Financial Report for FY 2011

Apportionment Categories for Obligations incurred
The Department reported the following amounts of direct obligations: (1) $520.0 billion in
category A, (2) $225.4 billion in category B, and (3) $128.6 billion in exempt from
apportionment. The Department reported reimbursable obligations of (1) $22.7 billion in
category A, (2) $173.1 billion in category B, and (3) $190.0 thousand in exempt from
apportionment.      Category A relates to appropriations for a specific period of time
(e.g., Military Personnel appropriation), and category B relates to appropriations for a
specific project (e.g., Military Construction appropriation).

Legal Arrangements Affecting the Use of Unobligated Balances
A portion of the Department’s unobligated balances represent trust fund receipts collected in
the current fiscal year that exceed the amount needed to pay benefits or other valid
obligations. These receipts are temporarily precluded from obligation by law due to a
benefit formula or other limitation. The receipts, however, are assets of the funds and are
available for obligation as needed in the future. The Department operates within the
constraints of fiscal law and has no additional legal arrangements affecting the use of
unobligated balances.

Other Disclosures
The SBR includes intraentity transactions because the statements are presented as
combined.
The Department utilizes borrowing authority for the Military Housing Privatization Initiative
and the Armament Retooling and Manufacturing Support Initiative. Borrowing authority is
used in accordance with OMB Circular No. A-129, “Managing Federal Credit Programs.”
The Department received additional funding of $159.0 billion to cover obligations incurred
above baseline operations in support of contingency operations.

NOTE 21. RECONCILIATION OF NET COST OF OPERATIONS TO BUDGET
 Reconciliation of Net Cost of Operations to Budget                                            Dollars in Millions

                                                                                                   Restated
 As of September 30                                                              2011
                                                                                                    2010
 Resources Used to Finance Activities
 Budgetary Resources Obligated:
   Obligations incurred                                                      $   1,069,545.0   $    1,053,074.5
   Less: Spending authority from offsetting collections and recoveries (-)       (252,444.2)         (242,038.4)
   Obligations net of offsetting collections and recoveries                  $    817,100.8    $      811,036.1
   Less: Offsetting receipts (-)                                                  (83,198.6)          (77,722.2)
   Net obligations                                                           $    733,902.2    $      733,313.9
 Other Resources:
   Donations and forfeitures of property                                     $           7.6   $              6.4
   Transfers in/out without reimbursement (+/-)                                      (147.4)               566.2
   Imputed financing from costs absorbed by others                                   5,623.9            5,596.2


                                                                                        Financial Information
                                                        118
Department of Defense Agency Financial Report for FY 2011

Reconciliation of Net Cost of Operations to Budget                                                     Dollars in Millions

                                                                                                           Restated
As of September 30                                                                  2011
                                                                                                            2010
  Other (+/-)                                                                          1,812.3                  2,446.5
  Net other resources used to finance activities                                $      7,296.4         $        8,615.3
Total resources used to finance activities                                      $    741,198.6         $      741,929.2
Resources Used to Finance Items not Part of the Net Cost of
Operations
Change in budgetary resources obligated for goods, services and
benefits ordered but not yet provided:
   Undelivered Orders (-)                                                   $        (10,081.1)        $      (17,234.8)
   Unfilled Customer Orders                                                            3,691.4                  2,298.9
Resources that fund expenses recognized in prior
                                                                                     (74,469.2)                (7,004.9)
Periods (-)
Budgetary offsetting collections and receipts that do not affect Net Cost
                                                                                       2,507.9                  2,599.2
of Operations
Resources that finance the acquisition of assets (-)                        $       (127,712.0)    $         (125,255.3)
Other resources or adjustments to net obligated resources that do not
affect Net Cost of Operations:
     Less: Trust or Special Fund Receipts Related to exchange in the
                                                                            $                0.0   $                  0.0
     Entity’s Budget (-)
     Other (+/-)                                                                      (1,672.7)                (3,008.2)
Total resources used to finance items not part of the Net Cost of
                                                                            $       (207,735.7)    $         (147,605.1)
Operations
Total resources used to finance the Net Cost of Operations                  $        533,462.9     $          594,324.1
Components of the Net Cost of Operations that will not Require or
Generate Resources in the Current Period
Components Requiring or Generating Resources in Future Period:
      Increase in annual leave liability                                    $              363.7   $            2,688.6
      Increase in environmental and disposal liability                                 3,667.8                     873.4
      Upward/Downward reestimates of credit subsidy
                                                                                             8.3                      4.7
      expense (+/-)
      Increase in exchange revenue receivable from the public (-)                       (552.3)                  (295.0)
      Other (+/-)                                                                    112,105.1                166,438.4
Total components of Net Cost of Operations that will Require or
                                                                            $        115,592.6     $          169,710.1
Generate Resources in future periods
Components not Requiring or Generating Resources:
Depreciation and amortization                                               $         55,865.2     $           39,672.7
Revaluation of assets or liabilities (+/-)                                            (8,286.9)                 4,119.3
Other (+/-)
     Trust Fund Exchange Revenue                                                     (55,336.7)               (46,694.0)
     Cost of Goods Sold                                                               72,938.9                 67,434.1
     Operating Materiel and Supplies Used                                             33,442.2                 28,690.0
     Other                                                                           (63,524.9)               (37,461.8)


                                                                                            Financial Information
                                                         119
Department of Defense Agency Financial Report for FY 2011

    Reconciliation of Net Cost of Operations to Budget                                        Dollars in Millions

                                                                                               Restated
    As of September 30                                                      2011
                                                                                                2010
    Total Components of Net Cost of Operations that will not Require
                                                                        $     35,097.8    $            55,760.3
    or Generate Resources
    Total components of Net Cost of Operations that will not Require
                                                                        $    150,690.4    $         225,470.4
    or Generate Resources in the current period
    Net Cost of Operations                                              $    684,153.3    $         819,794.5



Restatements
The Department corrected an overstatement of General Property, Plant and Equipment to
align the accounting records to the property accountability system.    This correction
increased the FY 2010 Gross Costs on the Statement of Net Costs by $17.0 billion. See
Note 26, Restatements, for further information.

Other Disclosures
Due to the Department’s financial system limitations,              budgetary data does not agree with
proprietary expenses and capitalized assets.        The            difference between budgetary and
proprietary data is a previously identified deficiency.            The following adjustments (absolute
value) were made to balance the Reconciliation of Net              Cost of Operations to the Statement
of Net Cost:

                                                                                         (Amounts in millions)

    Resources that Finance the Acquisition of Assets                                               $ 11,658.8
    Other Components not Requiring or Generating Resources                                         $    2,691.7
    Total Amount                                                                                   $ 14,350.5


The following Reconciliation of Net Cost of Operations to Budget lines are presented as
combined instead of consolidated due to intraagency budgetary transactions not being
eliminated:
•      Obligations Incurred
•      Less: Spending Authority from Offsetting Collections and Recoveries
•      Obligations Net of Offsetting Collections and Recoveries
•      Less: Offsetting Receipts
•      Net Obligations
•      Undelivered Orders
•      Unfilled Customer Orders
Other Resources, Other primarily consists of nonexchange gains and losses necessary to
reconcile the proprietary and budgetary amounts, as well as gains and losses on disposition
of assets.



                                                                                   Financial Information
                                                       120
Department of Defense Agency Financial Report for FY 2011

Other Resources or Adjustments to Net Obligated Resources that Do Not Affect Net Cost of
Operations, Other primarily consists of nonexchange gains and losses necessary to reconcile
the proprietary and budgetary amounts, financing sources transferred in and out without
reimbursement, and gains and losses from disposition of assets.
Components Requiring or Generating Resources in Future Period, Other consists primarily of
future funded expenses for other federal employment benefits.
Components not Requiring or Generating Resources, Other primarily consists of cost
capitalization offsets and other expenses not requiring budgetary resources.

NOTE 22. DISCLOSURES RELATED TO INCIDENTAL CUSTODIAL
COLLECTIONS
The Department collected $15.0 million of incidental custodial revenues generated primarily
from forfeitures of unclaimed money and property. These funds are not available for use by
the Department. At the end of each fiscal year, the accounts are closed and the balances
rendered to the U.S. Treasury.




                                                                      Financial Information
                                           121
Department of Defense Agency Financial Report for FY 2011


NOTE 23. EARMARKED FUNDS
Earmarked Funds                                                                                             Dollars in Millions

                                                                            2011
                                                      Medicare-
                                  Military             Eligible           Other
                                 Retirement            Retiree          Earmarked        Eliminations              Total
                                   Fund              Health Care          Funds
As of September 30                                      Fund
Balance Sheet
Assets
 Fund balance with Treasury      $         370.3     $        227.2     $    2,730.6     $            0.0     $      3,328.1
 Investments                           371,616.3          187,826.1          9,899.7                  0.0         569,342.1
 Accounts and Interest
                                           233.5              498.0          1,415.6              (201.5)            1,945.6
 Receivable
 Other Assets                                 0.0                0.0         1,398.9                  0.0            1,398.9
Total Assets                         $ 372,220.1     $ 188,551.3        $   15,444.8     $        (201.5)     $ 576,014.7
Liabilities and Net Position
 Military Retirement Benefits
 and Other Federal               $ 1,361,267.8       $ 534,379.7        $    2,543.7     $            0.0     $1,898,191.2
 Employment Benefits
 Other Liabilities                            1.9             422.9          3,112.6              (120.6)            3,416.8
Total Liabilities                $ 1,361,269.7       $    534,802.6     $    5,656.3     $        (120.6)     $1,901,608.0
 Unexpended Appropriations       $            0.0    $           0.0    $      134.6     $            0.0     $         134.6
 Cumulative Results of
                                      (989,049.6)        (346,251.3)         9,653.9          (104,626.8)      (1,430,273.8)
 Operations
Total Liabilities and Net
                                 $     372,220.1     $    188,551.3     $   15,444.8     $ (104,747.4)        $   471,468.8
Position


Statement of Net Cost
 Program Costs                   $     153,446.3 $        (30,507.5)    $    2,939.4     $      (2,863.1) $       123,015.1
 Less Earned Revenue                  (105,322.4)         (30,253.8)        (1,327.8)          108,427.4          (28,476.6)
 Net Program Costs                      48,123.9          (60,761.3)         1,611.6           105,564.3            94,538.5
Net Cost of Operations           $      48,123.9 $        (60,761.3)    $    1,611.6         $ 105,564.3      $     94,538.5


Statement of Changes in Net Position
 Net Position Beginning of the
                                 $     (940,925.7) $ (407,012.6))       $     9,522.3 $                0.0 $(1,338,416.0)
 Period
 Net Cost of Operations                  48,123.9          (60,761.3)         1,611.6           105,564.3            94,538.5
 Budgetary Financing Sources                   0.0                0.0         1,934.4               922.7              2,857.1
 Other Financing Sources                       0.0                0.0           (56.6)               14.8                (41.8)
Change in Net Position           $      (48,123.9) $       (60,761.3)   $       266.2    $ (104,626.8) $           (91,723.2)
Net Position End of Period       $     (989,049.6) $ (346,251.3)        $     9,788.5    $ (104,626.8) $(1,430,139.2)




                                                                                                Financial Information
                                                          122
Department of Defense Agency Financial Report for FY 2011


 Earmarked Funds                                                                                                  Dollars in Millions

                                                                                  2010
                                                        Medicare-
                                  Military               Eligible           Other
                                 Retirement              Retiree          Earmarked           Eliminations               Total
                                   Fund                Health Care          Funds
 As of September 30                                       Fund
 Balance Sheet
 Assets
  Fund balance with Treasury         $        25.4     $        196.0         $    3,181.0     $           0.0      $       3,402.4
  Investments                            321,686.8          166,203.5              9,246.4                 0.0           497,136.7
  Accounts and Interest
                                              37.0              562.9              1,107.8              (42.5)              1,665.2
  Receivable
  Other Assets                                  0.0                0.0             1,441.1                 0.0              1,441.1
 Total Assets                        $ 321,749.2       $ 166,962.4            $ 14,976.3       $        (42.5)      $ 503,645.4
 Liabilities and Net Position
  Military Retirement Benefits
  and Other Federal              $ 1,262,672.9         $ 573,671.3        $        2,859.8    $            0.0      $1,839,204.0
  Employment Benefits
  Other Liabilities                            2.0              303.7              2,594.2             (118.3)              2,781.6
  Total Liabilities              $ 1,262,674.9         $    573,975.0     $        5,454.0    $        (118.3)      $1,841,985.6
  Unexpended Appropriations      $             0.0     $           0.0    $          325.2    $         (20.4)      $         304.8
  Cumulative Results of
                                     (940,925.7)           (407,012.6)             9,197.1         (101,264.8)         (1,440,006.0)
  Operations
 Total Liabilities and Net
                                 $       321,749.2     $    166,962.4     $       14,976.3    $ (101,403.5)            $ 402,284.4
 Position


Statement of Net Cost
 Program Costs                   $       136,098.0     $     71,579.4     $        2,302.9    $      (2,497.6)     $     207,482.7
 Less Earned Revenue                     (93,929.7)         (26,420.1)            (1,393.4)         104,871.0            (16,872.3)
 Net Program Costs                        42,168.3           45,159.3                909.5          102,373.4            190,610.4
Net Cost of Operations           $        42,168.3     $     45,159.3     $          909.5    $ 102,373.4          $     190,610.4


Statement of Changes in Net Position
 Net Position Beginning of the
                                 $       (898,757.4)   $ (361,576.6)      $         8,074.1 $               0.0     $(1,252,259.9)
 Period
 Net Cost of Operations                    42,168.3           45,159.3                909.5          102,373.4            190,610.5
 Budgetary Financing Sources                     0.0                0.0             2,572.0            1,088.2               3,660.2
 Other Financing Sources                         0.0            (276.7)             (214.3)                 0.0              (491.0)
Change in Net Position           $        (42,168.3)   $      45,436.0    $         1,448.2 $ (101,285.2)           $ (187,441.3)
Net Position End of Period       $       (940,925.7)   $ (407,012.6)      $         9,522.3 $ (101,285.2)           $(1,439,701.2)




                                                                                                     Financial Information
                                                             123
Department of Defense Agency Financial Report for FY 2011

Abnormal Balances
Earned Revenue on the Statement of Net Cost, Net Cost of Operations on the Statement of
Changes in Net Position, and Cumulative Results of Operation on the Balance Sheet includes
abnormal balances of $243.9 million in USSGL account 5909 (Contra Revenue for Other
Revenue). In September 2010, the Department recorded transactions in the accounts for
work along the Louisiana coast. After completion of the financial statements, it was
determined that the transactions should not have been processed. The abnormal balances
reflect the reversal entry.

Other Disclosures
The SFFAS No. 27, “Identifying and Reporting Earmarked Funds,” requires the disclosure of
Earmarked Funds separate from All Other Funds on the Statement of Changes in Net
Position (SCNP) and Balance Sheet. Funds must meet three criteria to be classified as
earmarked: (1) a statute committing use of specifically-identified revenues for designated
purposes, (2) explicit authority to retain the revenues, and (3) a requirement to account
and report on the revenues. The Department’s earmarked funds are either special or trust
funds and use both receipt and expenditure accounts to report activity to the U.S. Treasury.
There have been no changes in legislation that significantly changed the purposes of the
funds.
The SFFAS No. 27 also requires the presentation of gross amounts of Earmarked Funds
separate from All Other (nonearmarked) Funds. Cumulative Results of Operations ending
balances for Earmarked Funds on the SCNP do not agree with the Cumulative Results of
Operations for Earmarked Funds reported on the Balance Sheet because the Cumulative
Results of Operations on the Balance Sheet are presented net of eliminations, whereas the
SCNP presents gross Cumulative Results of Operations.
The Total column is shown as consolidated and relates only to Earmarked Funds. The
Eliminations column includes eliminations associated with Earmarked Funds and excludes
the offsetting eliminations from All Other Funds. This exclusion causes assets to not equal
liabilities and net position in the note. However, the amounts in the Total column equal the
amounts reported for Earmarked Funds on the Balance Sheet.
Military Retirement Fund (MRF), 10 United States Code (USC) 1461. The MRF
accumulates funds in order to finance, on an actuarially sound basis, the liabilities of the
Department’s military retirement and survivor benefit programs. Financing sources for the
MRF are interest earnings on Fund assets, monthly Department contributions, and annual
contributions from the U.S. Treasury. The monthly Department contributions are calculated
as a percentage of basic pay. The contribution from the U.S. Treasury represents the
amortization of the unfunded liability for service performed prior to October 1, 1984, plus
the amortization of actuarial gains and losses that have arisen since then. The U.S.
Treasury annual contribution also includes the normal cost amount for the concurrent
receipt provisions of the FY 2004 National Defense Authorization Act.
Medicare-Eligible Retiree Health Care Fund (MERHCF), 10 USC 1111. The MERHCF
accumulates funds to finance, on an actuarially sound basis, liabilities of the Department
and the uniformed services health care programs for qualified Medicare-eligible


                                                                       Financial Information
                                            124
Department of Defense Agency Financial Report for FY 2011

beneficiaries. Financing sources for MERHCF are provided primarily through an annual
actuarial liability payment from the U.S. Treasury, annual contributions from each
Uniformed Service (Army, Navy, Air Force, Marine Corps, U.S. Coast Guard, National
Oceanic and Atmospheric Administration, and U.S. Public Health Service) and interest
earned from the Fund's investments.

Other Earmarked Funds
Special Recreation Use Fees, 16 USC 4061-6a note. The United States Army Corps of
Engineers (USACE) is granted the authority to charge and collect fair and equitable Special
Recreation Use Fees at campgrounds located at lakes or reservoirs that are under the
jurisdiction of USACE. Types of allowable fees include daily use fees, admission fees,
recreational fees, annual pass fees, and other permit type fees. The receipts are used for
the operation and maintenance of the recreational sites.
Hydraulic Mining in California, Debris, 33 USC 683. Operators of hydraulic mines
through which debris flows in part or in whole to a body restrained by a dam or other work
erected by the California Debris Commission are required to pay an annual tax as
determined by the Commission. Taxes imposed under this code are collected and expended
under the supervision of USACE and the direction of the Department of the Army. The
funds are used for repayment of funds advanced by the Federal government or other
agencies for construction, restraining works, settling reservoirs, and maintenance.
Payments to States, Flood Control Act of 1954, 33 USC 701c-3. Seventy-five percent
of all funds received and deposited from the leasing of lands acquired by the United States
for flood control, navigation, and allied purposes (including the development of hydroelectric
power) are returned to the state in which the property is located. USACE collects lease
receipts into a receipt account. Funds are appropriated for the amount of receipts the
following fiscal year. The funds may be expended by the states for the benefit of public
schools and public roads of the counties in which such property is situated, or for defraying
any of the expenses of county government.
Maintenance and Operation of Dams and Other Improvements of Navigable
Waters, 16 USC 803(f) and 810. When a reservoir or other improvement is constructed
by the U.S., the Federal Energy Regulatory Commission (FERC) assesses charges against
licensees directly benefited. The statute requires all proceeds from any Indian reservation
be placed to the credit of the Indians of the reservation. All other charges arising from
licenses, except those charges established by the FERC for administrative reimbursement,
are paid to the U.S. Treasury and allocated for specific uses. The Army is allocated 50
percent of charges from all licenses, except licenses for the occupancy and use of public
lands and national forests. These funds are deposited in a special fund and used for
maintenance, operation, and improvement of dams and other navigation structures that are
owned by the United States, or in construction, maintenance, or operation of headwater, or
other improvements to navigable waters of the United States.
Fund for NonFederal Use of Disposal Facilities (for dredged material), 33 USC 2326.
Any dredged material disposal facility under the jurisdiction of, or managed by, the
Secretary of the Army may be used by a nonfederal interest if the Secretary determines
that such use will not reduce the availability of the facility for project purposes. Fees may

                                                                        Financial Information
                                             125
Department of Defense Agency Financial Report for FY 2011

be imposed to recover capital, operation, and maintenance costs associated with such use.
Any monies received through collection of fees under this law shall be available to, and used
by, the Secretary of the Army for the operation and maintenance of the disposal facility
from which the fees were collected.
South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund, Public Law 106-53
Sec. 603. Yearly transfers are made from the General Fund of the U.S. Treasury to the
Trust Fund for investment purposes. Investment activity is managed by the Bureau of the
Public Debt (BPD).     The BPD purchases and redeems nonmarketable market-based
securities. Investments include one-day certificates, bonds, and notes. When the fund
reaches the aggregate amount of $108 million, withdrawals may be made by USACE for
payment to the State of South Dakota. The state uses the payments to fund annually-
scheduled work for wildlife habitat restoration.
Costal Wetlands Restoration Trust Fund and Costal Wetlands Planning, Protection,
and Restoration Act, 16 USC 3951-3956.             USACE (along with the Environmental
Protection Agency, and the Fish and Wildlife Service) is granted the authority to work with
the State of Louisiana to develop, review, evaluate, and approve a plan to achieve a goal of
“no net loss of wetlands” in coastal Louisiana. USACE is also responsible for allocating funds
among the named task force members. Federal contributions are established at 75 percent
of project costs or 85 percent if the state has an approved Coastal Wetlands Conservation
Plan.
Rivers and Harbors Contributed and Advance Funds, 33 USC 701h, 702f, and 703.
Whenever any state or political subdivision offers to advance funds for a flood control
project duly adopted and authorized by law, the Secretary of the Army may, in his
discretion, receive such funds and expend them in the immediate prosecution of such work.
The funding may be used to construct, improve, and maintain levees, water outlets, flood
control, debris removal, rectification and enlargement of river channels, etc. in the course of
flood control and river and harbor maintenance.
Inland Waterways Trust Fund, 26 USC 9506. This law made the Inland Waterways
Trust Fund available for USACE expenditures for navigation, construction, and rehabilitation
projects on inland waterways. Collections for excise taxes from the public are made into the
Trust Fund. The collections are invested and investment activity is managed by the BPD.
The BPD purchases and redeems nonmarketable market-based securities. Investments
include one-day certificates, bonds, and notes.
Harbor Maintenance Trust Fund, 26 USC 9505. The USACE Civil Works mission is
funded by the Energy and Water Development Appropriations Act. The Water Resources
Development Act of 1986 covers a portion of USACE operations and maintenance costs for
deep draft navigation.     The Harbor Maintenance Trust Fund is available for making
expenditures to carry out the functions specified in the Act and for the payment of all
expenses of administration incurred by the U.S. Treasury, USACE, and the Department of
Commerce. Collections are made into the Trust Fund from taxes collected from imports,
domestics, passengers, and foreign trade. The collections are invested and investment
activity is managed by the BPD.




                                                                         Financial Information
                                             126
Department of Defense Agency Financial Report for FY 2011

Foreign National Employees Separation Pay Account Trust Fund, 10 USC 1581. This
fund makes payments from amounts obligated by the Secretary of Defense that remain
unexpended for separation pay for foreign national employees of the Department. The
foreign national employees’ separation pay funded by Foreign Military Sales administrative
funds is maintained as a separate fund.
Defense Commissary Agency Surcharge Trust Fund, 10 USC 2685. This fund was
established as the repository for the surcharge on sales of commissary goods paid for by
authorized patrons to finance certain operating expenses and capital purchases of the
Commissary System, which are precluded by law from being paid with appropriated funds.
Most surcharge revenue is generated by the 5 percent surcharge applied to each sale.
These funds may be used to pay for commissary store-related information technology
investments, to purchase commissary equipment, to finance advance design modifications
to prior year projects, for both minor and major construction projects, and to maintain and
repair commissary facilities and equipment.
Education Benefit Fund, 10 USC 2006. This fund was established to finance, on an
actuarially sound basis, the liabilities of the Department’s education benefit programs for
current and former active duty, guard, and reserve members of the armed forces, and
members of the Coast Guard. Financing sources for the Education Benefit Fund are interest
earnings on Fund assets and monthly Department contributions.
Voluntary Separation Incentive Fund, 10 USC 1175. This fund was established to
finance, on an actuarially sound basis, the liabilities of the Department’s incentive program
for early separation from military service. Financing sources for the Voluntary Separation
Incentive Fund are interest earnings on Fund assets and annual Department contributions
Military Housing Privatization Initiative, Public Law 104-106, Section 2801. The
MHPI includes both direct loan and loan guarantee programs, is authorized by the National
Defense Authorization Act for FY 1996, and includes a series of authorities that allow the
Department to work with the private sector to renovate and build military family housing.
The MHPI accelerates the construction of new housing built to market standard and
leverages private sector capital with government dollars.       The Department provides
protection to the private sector partner against specific risks, such as base closure or
member deployment.
Armament Retooling and Manufacturing Support Initiative, 10 USC 4551-4555.
The Armament Retooling and Manufacturing Support Initiative is a loan guarantee program
designed to incentivize commercial use of the Army's inactive ammunition plants for
businesses willing to locate to a government ammunition production facility. The production
capacity of these facilities is greater than current military requirements, however, this
capacity may be needed in the future. Revenue from property rentals are used to pay for
the operation, maintenance and environmental cleanup at the facilities.




                                                                       Financial Information
                                            127
Department of Defense Agency Financial Report for FY 2011


NOTE 24. FIDUCIARY ACTIVITIES
 Schedule of Fiduciary Activity                                                                    Dollars in Millions

 As of September 30                                                       2011                         2010
 Fiduciary net assets, beginning of year                             $            178.9            $           187.4
 Contributions                                                                    282.5                        256.7
 Investment earnings                                                 $             18.0            $               17.2
 Distributions to and on behalf of beneficiaries                                 (279.9)                      (282.4)
 Increase/(Decrease) in fiduciary net assets                                       20.6                            (8.5)
 Fiduciary net assets, end of period                                  $           199.5            $           178.9


 Schedule of Fiduciary Net Assets                                                                  Dollars in Millions

 As of September 30                                                       2011                         2010
 Fiduciary Assets
  Cash and cash equivalents                                           $           199.5            $           178.9
 Total Fiduciary Net Assets                                           $           199.5            $           178.9


Fiduciary activities exist when the Department has collected, received, held, or made
disposition of assets on behalf of an individual or nonfederal entity. Fiduciary assets are
not recognized on the Balance Sheet.
Public Law 89-538 authorized the Department, through the Savings Deposit Program, to
collect voluntary contributions from members of the Armed Forces serving outside the
United States or its possessions in designated areas. These contributions and earned
interest are deposited in the U.S. Treasury on behalf of the members.

NOTE 25. OTHER DISCLOSURES
Other Disclosures                                                                                  Dollars in Millions

                                                              2011— Asset Category
                                               Land and
                                                             Equipment            Other                    Total
As of September 30                             Buildings
Entity as Lessee – Operating Leases
    Future Payments Due
       Fiscal Year 2012                        $     539.8    $     22.6     $             140.7       $       703.1
       Fiscal Year 2013                              522.2          22.4                   147.5               692.1
       Fiscal Year 2014                              551.4          22.5                   143.6               717.5
       Fiscal Year 2015                              560.9          22.3                   144.9               728.1
       Fiscal Year 2016                              576.2          22.3                   146.2               744.7
       After 5 Years                               1,039.5           0.3                   139.8              1,179.6
    Total Future Lease Payments Due            $   3,790.0    $    112.4     $             862.7       $      4,765.1




                                                                                       Financial Information
                                                       128
Department of Defense Agency Financial Report for FY 2011

Operating leases are leases that do not transfer all the benefits and risks of ownership of
capital leases. Payments are charged as expenses over the lease term. Office space is the
largest component of land and building leases. Other leases are generally one-year leases
that are not building or equipment leases. Future year cost projections use the Consumer
Price Index.

NOTE 26. RESTATEMENTS
The Department restated its financial statements as of September 30, 2010 to correct
errors in assets, gross costs, and net position identified during ongoing audit readiness
efforts.
Adjustment #1: The Department corrected a $14.4 billion overstatement of General
Property, Plant and Equipment to align the accounting records to the property accountability
system. This correction decreased General Property, Plant and Equipment, Net; and
Cumulative Results of Operations on the Balance Sheet and Cumulative Results of
Operations on the Statement of Changes in Net Position; while increasing Gross Costs on
the Statement of Net Costs. Note 2, Nonentity Assets; Note 10, General Property, Plant and
Equipment; Note 18, General Disclosures Related to the Statement of Net Cost; Note 19,
Disclosures Related to the Statement of Changes in Net Position; and Note 21,
Reconciliation of Net Cost of Operations to Budget were restated.
Adjustment #2:        The Department corrected an $83.5 million understatement of
Unobligated Balances: Apportioned due to improper recording of the liquidation of contract
authority. This correction decreased Unobligated Balance, Brought Forward, October 1,
Budgetary Resources Permanently Not Available, and Unobligated Balances: Apportioned on
the Statement of Budgetary Resources. Note 3, Fund Balance with Treasury; and Note 20,
Disclosures Related to the Statement of Budgetary Resources were restated.
Effect on FY 2011 beginning Comparative Results and Unexpended Appropriations
 FY 2011 Statement of Changes in Net Position                                Dollars in Billions

 Cumulative Results of Operations
 Correction of Errors (+/-) Adjustment #1                          $                    (14.4)

 Beginning balance adjustments                                     $                    (14.4)


 FY 2011 Statement of Budgetary Resources                                    Dollars in Millions

 Budgetary Resources
 Unobligated Balance, Brought Forward, October 1 - Adjustment #2   $                    (83.5)

 Beginning balance adjustments                                     $                    (83.5)




                                                                       Financial Information
                                                     129
Department of Defense Agency Financial Report for FY 2011

Effect on Comparative Balances
FY 2010 Balance Sheet                                                       Dollars in Billions

General Property, Plant and Equipment, Net – Adjustment #1        $                    (14.4)
Total Assets                                                      $                    (14.4)


Cumulative Results of Operations – Other – Adjustment #1          $                    (14.4)
Net Position                                                      $                    (14.4)
Total Liabilities and Net Position                                $                    (14.4)
FY 2010 Statement of Net Cost                                               Dollars in Billions

Gross Costs – Adjustment #1                                       $                      17.0
Net Cost of Operations                                            $                      17.0
FY 2010 Statement of Changes in Net Position                                Dollars in Billions

Cumulative Results of Operations
Correction of Errors (+/-) Adjustment #1                          $                        2.6
Beginning balance adjustments                                     $                        2.6
Other Financing Sources:
   Net Cost of Operations – Adjustment #1                         $                      17.0
   Net Change                                                     $                    (17.0)
   Cumulative Results of Operations                               $                    (14.4)



FY 2010 Statement of Budgetary Resources                                     Dollars in Millions

Budgetary Resources:
Unobligated Balance, brought forward, October 1 – Adjustment #2   $                    (75.6)
Permanently Not Available – Adjustment #2                         $                      (7.9)
Total Budgetary Resources                                         $                    (83.5)


Status of Budgetary Resources
Unobligated Balance: Apportioned – Adjustment #2                  $                    (83.5)
Total Status of Budgetary Resources                               $                    (83.5)
   Net Position                                                   $                    (14.4)




                                                                      Financial Information
                                                    130
Department of Defense Agency Financial Report for FY 2011


REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION
Federal financial reporting requires DoD to report on its stewardship over certain resources
that cannot be measured in traditional financial reports. These resources do not meet the
criteria for assets and liabilities required to be reported in the financial statements, but are
important to understand the operations and financial condition of DoD at the date of the
financial statements and in subsequent periods.
The Department’s stewardship investments are comprised of, and are measured in terms of,
expenses incurred for: 1) Nonfederal Physical Property (federally-financed, but not federally
owned), and 2) federally-financed Research and Development (R&D). Information on
additional reporting requirements for Nonfederal Physical Property and R&D follows.

NONFEDERAL PHYSICAL PROPERTY
The Nonfederal Physical Property investments support the purchase, construction, or major
renovation of physical property owned by state and local governments. In addition,
Nonfederal Physical Property investments include federally-owned physical property
transferred to state and local governments. The Department participates in cost-sharing
agreements with nonfederal sponsors which are governed under numerous Water Resources
Development Acts. The Department’s transferred assets include expenditures supporting
the design, build, and construction services/management for the missions of commercial
navigation, flood/storm damage reduction, hydropower, regulatory, environmental,
recreation and water supply.

 Nonfederal Physical Property
 Department of Defense Consolidated – Nonfederal Physical Property
 Yearly Investments in State and Local Governments
 For Fiscal Years 2011 through 2007                                                               Dollars in Millions

                 Categories                            2011        2010        2009        2008            2007
 Transferred Assets:
      National Defense Mission Related               $ 2,304.5   $ 2,126.2   $ 1,224.7   $ 1,169.2       $ 1,051.0
 Funded Assets:
      National Defense Mission Related                    12.0         0.0        26.7       19.6                2.8
 Total                                               $ 2,316.5   $ 2,126.2   $ 1,251.4   $ 1,188.8       $ 1,053.8


INVESTMENTS IN RESEARCH AND DEVELOPMENT
Investment values included in this report are based on R&D expenses. The R&D programs
are classified in the following categories:      Basic Research, Applied Research, and
Development. The amounts reported in the Investments in R&D table show outlays from
FY 2007 – FY 2011 for all DoD Components. The definition for each type of R&D Category
and Subcategories are explained below.
Basic Research is the systematic study to gain knowledge or understanding of the
fundamental aspects of phenomena and of observable facts without specific applications,
processes, or products in mind. Basic Research involves the gathering of a fuller knowledge


                                                                                         Financial Information
                                                           131
Department of Defense Agency Financial Report for FY 2011

or understanding of the subject under study.      Major outputs are scientific studies and
research papers.
Applied Research is the systematic study to gain knowledge or understanding necessary for
determining the means by which a recognized and specific need may be met. It is the
practical application of such knowledge or understanding for the purpose of meeting a
recognized need. This research points toward specific military needs with a view toward
developing and evaluating the feasibility and practicability of proposed solutions and
determining their parameters. Major outputs are scientific studies, investigations, research
papers, hardware components, software codes, or limited construction of a weapon system
component, to include non-system-specific development efforts. Development takes what
has been discovered or learned from basic and applied research and uses it to establish
technological feasibility, assessment of operability, and production capability. Development
consists of the five stages defined in the Investments in R&D table.
Advanced Technology Development is the systematic use of the knowledge or
understanding gained from research and directed toward proof of concept and feasibility
rather than directed toward the development of hardware for service use. It employs
demonstration activities intended to test a technology or method.
Advanced Component Development and Prototypes evaluates integrated technologies in an
operating environment as realistic as possible to assess the performance or cost reduction
potential of advanced technology. Programs in this phase are generally system specific.
Major outputs of Advanced Component Development and Prototypes are hardware and
software components and complete weapon systems ready for operational and
developmental testing and field use.
System Development and Demonstration concludes the program or project and prepares it
for production. It consists primarily of preproduction efforts, such as logistics and repair
studies. Major outputs are weapons systems finalized for complete operational and
developmental testing.
Research, Development, Test, and Evaluation Management Support bolsters installations
and operations for general research and development use. This category includes costs
associated with test ranges, military construction maintenance support for laboratories,
operation and maintenance of test aircraft and ships, and studies and analyses furthering
the Research and Development program.
Operational Systems Development finances projects, programs or upgrades in engineering
and manufacturing development stages which have received approval for production,
including production funds that have been budgeted in subsequent fiscal years.




                                                                       Financial Information
                                            132
Department of Defense Agency Financial Report for FY 2011

Investments in Research and Development (R&D)
Department of Defense Consolidated
Yearly Investments in Research and Development
For the Current and Four Preceding Fiscal Years                                            Dollars in Millions

       Categories                   2011           2010         2009          2008               2007
Basic Research                     $ 1,816.6      $ 1,805.5     $    821.0    $ 1,346.4           $ 1,445.7
Applied Research                      4,875.7       4,927.0         1,944.0     3,812.3              4,647.1
Development
  Advanced Technology
                                      6,024.3       6,353.4         2,263.2     5,977.9              6,019.7
  Development
  Advanced Component
  Development and                    13,964.2      14,304.6     12,148.3       15,410.6             14,109.6
  Prototypes
  System Development
                                     13,882.0      15,156.7     21,501.9       18,052.9             16,737.8
  and Demonstration
  Research, Development,
  Test and Evaluation                 5,659.2       5,503.6         5,141.3     5,471.0              4,705.4
  Management Support
  Operational Systems
                                     23,861.3      23,986.2     42,450.6       20,246.7             13,535.1
  Development
Totals:                            $ 70,083.4     $ 72,037.0   $ 86,270.3     $ 70,317.8         $ 61,200.4




                                                                                  Financial Information
                                                      133
Department of Defense Agency Financial Report for FY 2011


REQUIRED SUPPLEMENTARY INFORMATION

REAL PROPERTY DEFERRED MAINTENANCE AND REPAIRS
This section includes the deferred maintenance and repairs information and Statement of
Disaggregated Budgetary Resources.

    Real Property Deferred Maintenance and Repairs
    For Fiscal Year Ended September 30, 2011                                               Dollars in Millions
                                                               Current Fiscal Year (CFY)
               Property Type                     1. Plant        2. Required Work        3. Percentage
                                               Replacement     (Deferred Maintenance
                                                  Value               & Repair)
        1. Category 1                              $ 600,007                 $ 95,031                   16%
        2. Category 2                              $ 30,731                  $ 6,176                    20%
        3. Category 3                              $ 19,430                  $ 1,118                      6%

The deferred maintenance and repairs amount is based on facility Q-ratings found in the
Department’s real property inventory. Q-ratings represent work needed to bring a facility to
a fully serviceable condition with no repair needs. The reported deferred maintenance is the
difference between the facility Q-rating and the target Q-rating that represents the
acceptable operating condition established by each Component within the Department. The
percentage column reflects the percent of total plant replacement value for each category
represented by deferred maintenance.
Facility Categories are as follows:
•      Category 1: Buildings, Structures, and Utilities that are enduring and required to
       support an ongoing mission, including multi-use Heritage Assets.
•      Category 2: Buildings, Structures, and Utilities that are excess to requirements or
       planned for replacement or disposal, including multi-use Heritage Assets.
•      Category 3: Buildings, Structures, and Utilities that are Heritage Assets.

MILITARY EQUIPMENT DEFERRED MAINTENANCE AND REPAIRS
Depot maintenance requirements for military equipment are developed during the annual
budget process. The table below shows the deferred unfunded requirements for the depot
maintenance program.




                                                                                   Financial Information
                                                       134
Department of Defense Agency Financial Report for FY 2011


Military Equipment Deferred Maintenance and Repairs
For Fiscal Year Ended September 30, 2011                             Dollars in Millions

Major Categories                                                   Amounts
1. Aircraft                                                        $ 1,017.8
2. Automotive Equipment                                            $ 140.0
3. Combat Vehicles                                                 $ 154.4
4. Construction Equipment                                          $    37.2
5. Electronics and Communications Systems                          $ 494.5
6. Missiles                                                        $ 160.1
7. Ships                                                           $    14.3
8. Ordnance Weapons and Munitions                                  $ 158.3
9. General Purpose Equipment                                       $    79.5
10. All Other Items Not Identified to above Categories             $ 193.5
Total                                                              $ 2,449.6




                                                               Financial Information
                                                         135
Department of Defense Agency Financial Report for FY 2011

                                                                                                                                                2011
Statement Of Disaggregated Budgetary Resources
                                                                                                      Research,
For the Years Ended September 30                                                                     Development,     Family Housing           Military                             Operations,                                  Restated
Dollars in Millions                                              Military                              Test and          /Military            Retirement                            Readiness, &             2011                  2010
                                                                Personnel         Procurement         Evaluation       Construction            Benefits            Civil Works        Support              Combined              Combined
Budgetary Financing Account
Budgetary Resources
Unobligated balance, brought forward, October 1         $             1,730.4 $         79,290.0 $         15,951.4 $        15,693.5     $             0.0    $        11,069.2    $     36,297.6     $      160,032.1      $     146,116.6
Recoveries of prior year unpaid obligations                          10,776.3           10,398.1             952.5            2,736.7                   0.0                117.2         31,034.6,             56,015.4             54,701.2
Budget authority

 Appropriation                                                      154,001.3          125,273.8           72,235.2          13,396.1             134,971.6              5,218.9         408,032.5            913,129.4            899,278.4
 Contract authority                                                         0.0              0.0                0.0                0.0                  0.0                  0.0          75,760.9             75,760.9             73,059.7
 Spending authority from offsetting collections

   Earned

    Collected                                                         1,172.4            3,309.8            8,924.5           8,038.5                   0.0             11,087.2         157,106.7            189,639.2            184,468.6
    Change in receivables from Federal sources                           29.0              172.7             113.5               (55.2)                 0.0                 96.0           1,757.5               2,113.5              (350.9)
   Change in unfilled customer orders

     Advance received                                                       0.1             77.0            (116.3)           (240.5)                   0.0              (104.7)             769.4                385.0                (81.9)
     Without advance from Federal sources                                18.1            (273.9)             140.0            1,420.4                   0.0                (63.7)          2,063.1               3,304.0              2,415.7
   Expenditure transfers from trust funds                                   0.0              0.0                0.0                0.0                  0.0                881.9               0.0                881.9                851.0
   Subtotal                                                         155,220.9          128,559.5           81,296.9          22,559.3             134,971.6             17,115.6         645,490.1           1,185,213.9          1,159,640.6
Nonexpenditure transfers, net, anticipated and actual                 (358.1)            4,314.3            1,800.1           (539.9)                   0.0                173.9          (5,995.1)              (604.8)               803.3
Temporarily not available pursuant to Public Law                            0.0              0.0                0.0                0.0            (75,218.3)                 0.0             (64.4)           (75,282.7)           (60,328.7)
Permanently not available                                             (935.7)           (3,115.4)         (1,615.0)           (623.3)                   0.0              (206.9)         (87,386.9)           (93,883.2)           (87,872.7)
Total Budgetary Resources                                   $       166,433.8 $        219,446.5 $         98,385.9 $        39,826.3     $        59,753.3    $        28,269.0    $    619,375.9 $         1,231,490.7 $        1,213,060.3




                                                                                                                                                                                                                                         Financial Information
                                                                                                                           136
Department of Defense Agency Financial Report for FY 2011


                                                                                                                                   2011
Status Of Budgetary Resources
                                                                                          Research,           Family
For the Years Ended September 30                                                                                                                                                                                  Restated
                                                                                         Development,        Housing              Military                             Operations,
                         Dollars in Millions           Military                            Test and          /Military           Retirement                            Readiness &             2011                 2010
                                                      Personnel        Procurement        Evaluation       Construction           Benefits            Civil Works        Support             Combined             Combined
Obligations incurred:
 Direct                                           $      163,551.5 $       140,553.8 $         72,615.1    $     12,751.2    $        59,753.3    $         8,943.9    $    416,045.0    $       874,213.8    $      857,647.6

 Reimbursable                                              1,240.8            3,313.1           7,757.9          11,257.8                   0.0            10,796.6         160,638.2            195,004.4           195,380.6

 Subtotal                                                164,792.3         143,866.9           80,373.0          24,009.0             59,753.3             19,740.5         576,683.2          1,069,218.2          1,053,028.2

Unobligated balance:

 Apportioned                                                 375.7          72,512.6           16,392.5          14,964.1                   0.0             7,632.9          25,270.7            137,148.5           137,738.3

 Exempt from apportionment                                      0.0               0.0               0.0               0.0                   0.0               844.1           3,336.3              4,180.4              6,106.9

 Subtotal                                                    375.7          72,512.6           16,392.5          14,964.1                   0.0             8,477.0          28,607.0            141,328.9           143,845.2

Unobligated balance not available                          1,265.8            3,067.0           1,620.4             853.2                   0.0                51.5          14,085.7             20,943.6            16,186.9

Total status of budgetary resources                      166,433.8        219,446.5.6          98,385.9          39,826.3             59,753.3             28,269.0         619,375.9          1,231,490.7          1,213,060.3

Change in Obligated Balance:

Obligated balance, net

 Unpaid obligations, brought forward, October 1   $       11,462.7 $       141,340.2 $         44,135.7    $     27,963.3    $         4,576.9    $        13,134.6    $    216,007.2    $       458,620.6    $      453,958.6
 Less: Uncollected customer payments from
                                                            (107.9)         (4,365.8)          (4,873.1)        (10,446.4)                  0.0            (3,065.4)        (46,908.2)           (69,766.8)          (67,702.3)
 Federal sources, brought forward, October 1
 Total unpaid obligated balance                   $       11,354.8 $       136,974.4 $         39,262.6    $     17,516.9    $         4,576.9    $        10,069.2    $    169,099.2    $       388,853.8    $      386,256.4
Obligations incurred net                                 164,792.3         143,866.9           80,373.0          24,009.0             59,753.3             19,740.5         576,683.2          1,069,218.2          1,053,028.2
Less: Gross outlays                                     (157,830.5)       (127,670.3)         (80,102.6)        (19,991.0)           (63,462.0)           (22,352.4)       (545,490.1)        (1,016,898.9)         (993,664.7)
Obligated balance transferred, net                              0.0               0.0               0.0               0.0                   0.0                 0.0                0.0                 0.0                  0.0
Less: Recoveries of prior year unpaid
                                                         (10,776.3)        (10,398.1)            (952.5)         (2,736.7)                  0.0              (117.2)        (31,034.3)           (56,015.1)          (54,701.2)
obligations, actual
Change in uncollected customer payments
                                                             (47.1)            101.2             (253.5)         (1,365.2)                  0.0               (32.3)         (3,820.6)            (5,417.5)           (2,064.7)
from Federal sources
Obligated balance, net, end of period
 Unpaid obligations                                        7,648.2         147,138.7           43,453.6          29,244.6                 868.2            10,405.5         216,166.0            454,924.8           458,621.0

 Less: Uncollected customer payments
                                                            (155.0)         (4,264.6)          (5,126.6)        (11,811.6)                  0.0                             (50,728.8)           (75,184.3)          (69,767.0)
 (+/-) from Federal sources                                                                                                                                (3,097.7)
 Total, unpaid obligated balance, net,
                                                  $        7,493.2 $       142,874.1 $         38,327.0    $     17,433.0    $            868.2   $         7,307.8    $    165,437.2    $       379,740.5    $      388,854.0
 end of period
Net
Net Outlays:
 Gross outlays                                    $      157,830.5 $       127,670.3 $         80,102.6    $     19,991.0    $        63,462.0    $        22,352.4    $    545,490.1    $     1,016,898.9    $      993,664.7
 Less: Offsetting collections                             (1,172.4)         (3,386.8)          (8,808.1)         (7,798.1)                  0.0           (11,864.4)       (157,876.3)         (190,906.1)          (185,237.8)
 Less: Distributed Offsetting receipts                          0.0               0.0               0.0               0.0            (80,207.4)              (333.5)         (2,657.7)           (83,198.6)          (77,722.2)
 Net Outlays                                      $      156,658.1 $       124,283.5 $         71,294.5    $     12,192.9    $       (16,745.4)   $        10,154.5    $    384,956.1    $       742,794.2    $      730,704.7




                                                                                                                                                                                                                           Financial Information
                                                                                                                137
Department of Defense Agency Financial Report for FY 2011


Combined Statement Of Budgetary                                      Non Budgetary
Resources
For the Years Ended September 30
Dollars in Millions                               Other              2011 Combined      2010 Combined
Non Budgetary Financing Accounts
Budgetary Resources
Unobligated balance, brought forward, October 1         $    24.9          $    24.9          $     23.6
Recoveries of prior year unpaid obligations                   0.0                0.0                 0.0
Budget authority
 Borrowing authority                                        229.8              229.8                26.8
 Spending authority from offsetting collections
  Earned
   Collected                                                102.6              102.6                69.6
  Change in receivables from Federal sources                  0.1                0.1                 0.0
  Change in unfilled customer orders
    Without advance from Federal sources                      2.5                2.5               (34.9)
   Subtotal                                                 335.0              335.0                61.5
Permanently not available                                   (16.9)             (16.9)              (13.9)
Total Budgetary Resources                           $       343.0          $   343.0           $    71.2




                                                                                  Financial Information
                                                  138
Department of Defense Agency Financial Report for FY 2011

Statement of Disaggregated
                                                               Non Budgetary
Budgetary Resources
For the Years Ended September 30
                                                   Other       2011 Combined       2010 Combined
Dollars in Millions
Non Budgetary Financing Accounts
Obligations incurred:
 Direct                                        $    326.8       $     326.8           $      46.3
 Subtotal                                      $    326.8        $    326.8            $     46.3
Unobligated balance:
 Apportioned                                             0.1            0.1                  24.8
 Subtotal                                                0.1            0.1                  24.8
Unobligated balance not available                    16.1              16.1                    0.1
Total status of budgetary resources            $    343.0        $    343.0                $ 71.2
Change in Obligated Balance:
Obligated balance, net
 Unpaid obligations, brought forward,
                                               $    619.4        $    619.4               $ 770.4
 October 1
 Less: Uncollected customer payments from
                                                    (97.3)            (97.3)               (132.2)
 Federal sources, brought forward, October 1
 Total unpaid obligated balance                $    522.1        $    522.1                $ 638.2
Obligations incurred net                            326.8             326.8                  46.3
Less: Gross outlays                                (375.3)           (375.3)               (197.3)
Less: Recoveries of prior year unpaid
                                                         0.0            0.0                    0.0
obligations, actual
Change in uncollected customer payments
                                                     (2.6)             (2.6)                 34.9
from Federal sources
Obligated balance, net, end of period
 Unpaid obligations                                 570.9             570.9                 619.4
 Less: Uncollected customer payments
                                                    (99.9)            (99.9)                (97.3)
 (+/-) from Federal sources
 Total, unpaid obligated balance, net, end
                                               $    471.0        $    471.0            $ 522.1
 of period
Net
Net Outlays:
 Gross outlays                                 $    375.3        $    375.3               $ 197.7
 Less: Offsetting collections                      (102.6)           (102.6)                (69.6)
 Net Outlays                                   $    272.7        $    272.7            $ 127.7




                                                                               Financial Information
                                                   139
                                        
Department of Defense Agency Financial Report for FY 2011


      APPENDIX A: Glossary of Acronyms and Abbreviations
Acronym           Definition
AFB               Air Force Base
AFPC              Air Force Personnel Center
AFR               Agency Financial Report
ANA               Afghan National Army
ANP               Afghan National Police
ANSF              Afghan National Security Forces
APB               Acquisition Program Baseline
APR               Annual Performance Report
ARRA              American Recovery and Reinvestment Act of 2009 (Recovery
                  Act)
ASD               Assistant Secretary of Defense
BAMC              Brooke Army Medical Center
BCA               Budget Control Act of 2011
BCL               Business Capability Lifecycle
BMD               Ballistic Missile Defense
BRAC              Base Realignment and Closure
CAPS-Windows      Computerized Accounts Payable System-Windows
CDS               Contract Debt System
CEFMS             Corps of Engineers Financial Management System
CFO               Chief Financial Officer
CMO               Chief Management Officer
COR               Contracting Officer Representative
DBS               Defense Business Systems
DBSMC             Defense Business Systems Management Committee
DCMO              Deputy Chief Management Officer
DFAS              Defense Finance and Accounting Service
DIRSSP            Director, Strategic Systems programs
DLA               Defense Logistics Agency
DNSI              Defense Nuclear Surety Inspection
DoD               Department of Defense
DSB               Defense Science Board
DSS               Defense Security Service
DTM               Directive-type Memorandum
DTS               Defense Travel System
EBF               Education Benefits Fund
EHR               Electronic Health Record
EOP               Executive Office of the President
ERP               Enterprise Resource Planning
FAR               Federal Acquisition Regulations
FASAB             Federal Accounting Standards Advisory Board

                                                                   Appendix A
                                      140
                                        
Department of Defense Agency Financial Report for FY 2011

Acronym           Definition
FBWT              Fund Balance With Treasury
FFMIA             Federal Financial Management Improvement Act of 1996
FIAR              Financial Improvement and Audit Readiness
FMFIA             Federal Managers’ Financial Integrity Act of 1982
FMS               Foreign Military Sales
FTE               Full Time Equivalent
FY                Fiscal Year
GAO               Government Accountability Office
GPRA              Government Performance and Results Act of 1993
HIDS              Host-based Intrusion Detection System
IAPS              Integrated Accounts Payable System
ICBM              Intercontinental Ballistic Missile
ICOFR             Internal Control Over Financial Reporting
IDES              Integrated Disability Evaluation System
IED               Improvised Explosive Devices
IG                Inspector General
IJC               ISAF Joint Command
IPA               Independent Public Accounting
IPERA             Improper Payments Elimination and Recovery Act
IPIA              Improper Payment Information Act of 2002
IPOD              Improper Payment On-Line Database
ISAF              International Security Assistance Force
ISF               Iraq Security Forces
ISR               Intelligence, Surveillance and Reconnaissance
IT                Information Technology
JROC              Joint Requirements Oversight Council
JSCDR             Joint Select Committee on Deficit Reduction
JTF-CAPMED        Joint Task Force Capital Area, Medical
JUONS             Joint Urgent Operational Needs
LEP               Life Extension Program
M&IE              Meals & Incidental Expenses
MAIS              Major Automated Information System
MDAP              Major Defense Acquisition Program
MEF               Marine Corps Expeditionary Force
METC              Medical Enlisted Training Center
MHPI              Military Housing Privatization Initiative
MHS               Military Health System
MICP              Managers’ Internal Control Program
MOCAS             Mechanization of Contract Administrative Services
MRC               Marine Corps Casualty Branch
MRF               Military Retirement Fund


                                                                   Appendix A
                                      141
                                         
Department of Defense Agency Financial Report for FY 2011

Acronym           Definition
MTF               Military Treatment Facility
NATO              North Atlantic Treaty Organization
NDAA              National Defense Authorization Act
NDS               National Defense Stockpile
NGA               National Geospatial-Intelligence Agency
NMPC              Naval Military Personnel Command
NNMC              National Naval Medical Center
NSS               National Security Systems
NTM-A/CSTC-A      NATO Training Mission – Afghanistan /
                  Combined Security Transition Command – Afghanistan
OCO               Overseas Contingency Operations
OEF               Operation Enduring Freedom
OGC               Office of General Counsel
OIF               Operation Iraqi Freedom
OIG               Office of the Inspector General
OM&S              Operating Materiel and Supplies
OMB               Office of Management and Budget
OND               Operation New Dawn
OSC-I             Office of Security Cooperation – Iraq
OSD               Office of the Secretary of Defense
OUSD              Office of the Under Secretary of Defense
OUSD(C)           Office of the Under Secretary of Defense (Comptroller)
PAR               Performance and Accountability Report
PCMH              Patient Centered Medical Home
PCS               Permanent Change of Station
POF               Perfect Order Fulfillment
PP&E              Property, Plant, and Equipment
PSC               Private Sector Care
PTSD              Post Traumatic Stress Disorder
PWS               Performance Work Statement
QASP              Quality Assurance Surveillance Plan
QDR               Quadrennial Defense Review
R&D               Research and Development
RFP               Request for Proposal
rIDES             Remodeled Integrated Disability Evaluation System
SBR               Statement of Budgetary Resources
SEAL              Sea, Air, and Land Teams
SECDEF            Secretary of Defense
SFFAS             Statement of Federal Financial Accounting Standards
SIG               Senior Integration Group
SNC               Statement of Net Cost


                                                                       Appendix A
                                      142
                                         
Department of Defense Agency Financial Report for FY 2011

Acronym           Definition
START             Strategic Arms Reduction Treaty
TDY               Temporary Duty
TRICARE           Triple option benefit health care plan for military families
U.S.              United States
USACE             U.S. Army Corps of Engineers
USAFRICOM         United States African Command
USC               United States Code
USCENTCOM         United States Central Command
USD               Under Secretary of Defense
USD(AT&L)         Under Secretary of Defense for Acquisition, Technology and
                  Logistics
USD(C)/CFO        Under Secretary of Defense (Comptroller)/Chief Financial
                  Officer
USEUCOM           United States European Command
USF-I             United States Forces – Iraq
USGAAP            U.S. Generally Accepted Accounting Principles
USMC              United States Marine Corps
USNORTHCOM        United States Northern Command
USPACOM           United States Pacific Command
USSGL             U.S. Standard General Ledger
USSOCOM           United States Special Operations Command
USSOUTHCOM        United States Southern Command
USSTRATCOM        United States Strategic Command
USTRANSCOM        United States Transportation Command
VA                Department of Veterans Affairs
VLER              Virtual Lifetime Electronic Record
VSI               Voluntary Separation Incentive
WAWF              Wide Area Work Flow
WII               Wounded, Ill, and Injured Service Members
WinIATS           Windows Integrated Automated Travel System
WMD               Weapons of Mass Destruction
WRAMC             Walter Reed Army Medical Center
WRNMMC            Walter Reed National Military Medical Center




                                                                        Appendix A
                                      143
Department of Defense Agency Financial Report for FY 2011


APPENDIX B: USEFUL WEB SITES FOR RELEVANT INFORMATION
                      Web Address and Report Description
http://www.defense.gov/
   •   Main DoD Web site, and links to other DoD Web sites.
http://comptroller.defense.gov/
   The DoD Comptroller Web site includes:
   •   Agency Financial Report
       Reports DoD’s financial condition, financial execution, plans, and accomplishments.
   •   Annual Performance Plan
       Describes DoD’s strategic goals and objectives and the respective performance
       measures and targets used to assess progress.
   •   Annual Performance Report
       Contains details of DoD’s performance results and progress in achieving its
       strategic goals as required by the Government Performance and Results Act
       (GPRA).
   •   Summary of Performance and Financial Information / Citizen’s Report
       Summarizes DoD’s mission, key goals, budget allocation, and progress on key
       performance goals linking to the strategic goals.
   •   Congressional Budget Justification
       The Department of Defense’s budget request to the Congress.
   •   Financial Improvement and Audit Readiness Plan
       Describes DoD’s strategy for improving financial management and reports
       progress in achieving financial statement audit readiness.

http://dcmo.defense.gov/
   The Office of the Deputy Chief Management Officer Web site includes:
   •   Business Enterprise Architecture
       Blueprints DoD standard process, data, data standards, business rules, operating
       requirements, and information exchanges for the Department’s business and
       financial management activities.
   •   Enterprise Transition Plan
       Sets the defense business systems modernization strategy and defines the target
       systems environment.

http://www.defense.gov/qdr
   •   Quadrennial Defense Review
       Dated February 2010, provides DoD’s strategic plan.




                                                                               Appendix B
                                            144
                              U
                              UNITED STATES DEPARTMENT OF DEFENSE




Agency Financcial Report
November 2011

Addendum A


OFFICE OF THE UNDER SECRETARY OF
                               F DEFENSE (COMPTROLLER) / CFO
Department of Defense Agency Financial Report for FY 2011


ADDENDUM A, OTHER ACCOMPANYING INFORMATION
Other Accompanying Information provides additional details that support the Fiscal Year
(FY) 2011 Department of Defense (DoD) Agency Financial Report (AFR). This addendum
includes the following sections:
•   Inspector General’s (IG) summary of the most significant management and
    performance challenges facing the Department, its assessment of the Department’s
    progress in addressing these challenges, and the Department’s response to the IG’s
    assessments.
•   Managers’ Internal   Control   Program   and   Financial   Statement   Audit   Material
    Weaknesses;
•   Improper Payment and Payment Recapture Programs Reporting

IG-IDENTIFIED MANAGEMENT AND PERFORMANCE
CHALLENGES
As discussed in the Management Discussion and Analysis section of this Report, the
Reports Consolidation Act of 2000 requires that the Agency Financial Report include a
statement, prepared by the Department’s Inspector General (IG) that summarizes what
he considers to be the most serious management and performance challenges facing the
Department, along with a brief assessment of the Department’s progress made in
addressing those challenges. The DoD IG identified the following seven management
and performance challenges facing the Department in FY 2011:
1. Financial Management
2. Acquisition Processes and Contract Management
3. Joint Warfighting and Readiness
4. Information Assurance, Security, and Privacy
5. Health Care
6. Equipping and Training Iraq and Afghan Security Forces
7. The Nuclear Enterprise
The IG no longer cites the American Recovery and Reinvestment Act (ARRA) of 2009 as
a serious management challenge due to the Department’s performance and progress in
addressing this challenge.
The following is a summary of the seven challenges, the IG’s assessment of the
Department’s progress in addressing these challenges, and the Department’s
management response.        The Department has opted to provide a summary-level
response for the challenges related to Acquisition Processes and Contract Management
and the Nuclear Enterprise.




                                                                             Addendum A
                                         A-1
Department of Defense Agency Financial Report for FY 2011

1. IG-Identified Challenge: Financial Management
1-1A. Financial Management                          IG Summary of Challenge
The Department continues to face financial management challenges that adversely affect its ability
to provide reliable, timely, and useful financial and managerial data needed to support operating,
budgeting, and policy decisions. Gaps in the financial framework impact the accuracy, reliability
and timeliness of budgetary and accounting data and financial reporting, thereby reducing the
effectiveness of decision making by leaders at all levels.
Congress requires the Department ensure that the DoD financial statements are validated as audit
ready by September 30, 2017. The most significant challenge for the Department will be in meeting
that date. Further, Public Law 111-383, entitled the “Ike Skelton National Defense Authorization Act
for Fiscal Year 2011,” Section 881, dated January 7, 2011, requires the Department to establish
interim milestones to achieve audit readiness of its financial statements by September 30, 2017.
These interim milestones for Military Departments and Defense Components call for the
achievement of audit readiness for each major element of the Statements of Budgetary Resources
(SBR), such as civilian pay, military pay, supply orders, contracts, and the entity’s Funds Balance
with the Treasury. Also, the interim milestones must address the existence and completeness of
each major category of DoD assets, which includes military equipment, real property, inventory, and
operating material and supplies. Additionally, Section 881 requires the Department examine the
costs and benefits of alternative approaches to valuing its assets, develop remediation plans when
interim milestones cannot be met, and identify incentives to achieve auditability by
September 30, 2017.       The Department must aggressively pursue the development and
implementation of comprehensive improvement initiatives and monitor progress according to
interim milestones. The Department may need to revise these initiatives and milestones as
additional deficiencies and corrective actions identified as a result of DoD’s Financial Improvement
and Audit Readiness (FIAR) process.
In an attempt to standardize and develop an effective financial management process throughout the
Department, DoD embarked on various efforts to implement new financial management systems
and associated business processes. These efforts involved implementing new commercial off-the-
shelf Enterprise Resource Planning (ERP) systems that were capable of handling financial
transactions throughout an event’s life cycle. These ERP systems should provide the integration
needed to minimize system interface problems and provide greater DoD financial visibility.

1-1B. Financial Management                          IG Assessment of Progress
A significant measure of DoD’s ongoing progress in the area of financial management is the ability
to obtain an unqualified opinion on its financial statements. The Defense Commissary Agency,
Defense Contract Audit Agency, Defense Finance and Accounting Service, Military Retirement
Fund, U.S. Army Corps of Engineers, and DoD IG financial statements all have received unqualified
audit opinions. However, in the FY 2010 audit opinion on DoD’s consolidated financial statements,
the DoD IG reported the same 13 material internal control weaknesses as the previous year. These
pervasive and longstanding financial management issues directly affect DoD’s ability to obtain an
unqualified opinion on its financial statements. These weaknesses affect the safeguarding of
assets, proper use of funds, and impair the prevention and identification of fraud, waste, and abuse.
Although DoD is far from reaching an unqualified opinion on its consolidated financial statements,
the Department has demonstrated improvement. In FY 2010, the DoD IG audited the SBR for the
U.S. Marine Corps (USMC), the first Military Component to undergo such an audit. The USMC
encountered many challenges during this first-time audit, which resulted in a disclaimer of opinion;
however, the USMC and the Department are learning from this audit experience. The FY 2011
USMC SBR is again under audit in FY 2011, and the USMC is working to provide auditable data to
support its financial transactions. While some improvements have occurred, many of the same
challenges encountered during the FY 2010 audit have affected the FY 2011 audit.


                                                                                       Addendum A
                                                A-2
Department of Defense Agency Financial Report for FY 2011

The Department must continue to conduct comprehensive reviews of its business processes. The
DoD IG recently identified deficiencies in DoD’s estimate of high-dollar overpayments that caused it
to under-report the amount of improper payments made. Further, DoD’s controls over the
acquisition and development of systems are crucial to providing accurate, timely, and meaningful
financial management information. The Department continues to implement ERP systems in the
effort to modernize the business and financial systems; however, systems implementation has
resulted in incurred cost and schedule growth and has lacked appropriate senior level governance
over their development, test, and implementation. The Department will continue to struggle to
improve its processes to ensure accurate, timely, and meaningful financial management information
for the users, both internally and externally, and long-term sustainability of the financial
management improvements.

1-1C. Financial Management                          Department Response
With the exception of the IG’s assertion that the Department has deficiencies in its estimate of high-
dollar overpayments, which resulted in under-reporting the amount of improper payments, for the
most part the Department agrees with the DoD IG’s assessment of progress to improve financial
management and resolve the DoD IG-identified 13 material weaknesses. Although the Department
has struggled for many years to improve its business and financial processes, controls, and
systems that prevent it from producing auditable financial statements; the Department’s
commitment to resolve these problems and produce auditable financial statements is stronger than
ever. Our commitment is backed by recent significant actions that enable meaningful progress, to
include the ability to achieve the goal of auditable financial statements.
These actions are:
•   Visible Leadership and Department-wide Audit Readiness Goal. Secretary Panetta directed
    the Under Secretary of Defense (Comptroller) to provide a revised plan to achieve audit
    readiness for the Statement of Budgetary Resources by the end of 2014. The Secretary
    informed all DoD employees that the lack of auditable financial statements is unacceptable.
•   Accountability and Incentives. Senior executives across the Department, both financial and
    functional, are held accountable for meeting audit readiness milestones and outcomes through
    organizational and individual performance plans and evaluations.
•   Broad Functional Community Support and Participation. A streamlined approach, with well-
    defined, short- and long-term milestones that focus first on the information most often used to
    manage the Department (budgetary and mission-critical asset information), has better engaged
    the functional community.
•   Senior Leadership Oversight and Involvement. Progress is reported and monitored by a formal
    and regularly scheduled FIAR governance process that involves the Deputy Secretary of
    Defense/Chief Management Officer (CMO), USD(Comptroller), DoD Deputy CMO, Military
    Department CMOs and Financial Management/Comptrollers, and senior leaders from the
    functional communities.
•   Integrated, Audit Ready Systems Environment Work. The modernization of the Department’s
    business and financial systems through the deployment of ERP systems that utilize process
    reengineering and business best practices is taking place concurrently with the FIAR Plan and
    has been integrated into the Components’ financial improvement plans.
•   Resources to Accomplish FIAR Goals and Objectives.             Resources of approximately
    $300 million are being applied annually on Component FIAR activity (excludes ERP resources).
The above actions clearly are impacting the Department’s progress, as evidenced by the following:
While the Department did not achieve its third quarter goal with regard to validating DoD
appropriations received, this goal subsequently was met in August 2011 (Strategic


                                                                                       Addendum A
                                                A-3
Department of Defense Agency Financial Report for FY 2011

Objective 5.5.1-2U), when the Army, Navy, and Air Force received unqualified opinions on their
“Appropriations Received” audit readiness assertions based on Independent Public Accounting
(IPA) firms’ examinations. Specifically, the IPAs reported that the audit readiness assertions were
fairly stated in all material respects.
Audit readiness assertions by the Navy and the Air Force on key elements of the SBR;
Audit readiness assertion by the Air Force on the existence and completeness of its military
equipment assets; the Navy has asserted audit readiness on certain classes of military equipment;
Significant progress made by the U.S. Marine Corps toward an auditable SBR that also is providing
important lessons learned to the other Military Services; and
Sustainment of unqualified audit opinions by Independent Public Auditors on the financial
statements of the U.S. Army Corps of Engineers, Defense Contract Audit Agency, Defense
Commissary Agency, Defense Finance and Accounting Service, Office of the Inspector General,
and the Military Retirement Fund.
Unqualified audit opinion on the FY 2011 financial statements for TRICARE Management Activity –
Contract Resource Management.
Additional information regarding the DoD FIAR Plan can be found in the semi-annual FIAR Plan
Status Report.
The Department does not agree that deficiencies in the methods used to estimate high dollar
overpayments resulted in under-reporting the amount of improper payments. The IG’s conclusion
is based, in part, on its claim that the Department did not review approximately $167.5 billion in
quarterly disbursements for Quarter 1, FY 2010. Our review disclosed that more than two thirds of
these disbursements either were not subject to review or public reporting, per OMB guidance, or
were not individually material in amount. The Department continues to work closely with the IG to
ensure accurate reporting of improper payments.

2. IG-Identified Challenge: Acquisition Processes and Contract Management
The Department’s summary-level response to the IG’s challenge and its assessment of the
Department’s progress on acquisition processes and contract management is reported in
paragraph 2-3C of this section.

2-1A. Acquisition Workforce                         IG Summary of Challenge
The Department continues to struggle with its efforts to rebuild an acquisition workforce that is
sufficient in size and adequately trained and equipped to oversee DoD acquisitions. The DoD
acquisition workforce has not kept pace with DoD’s increased contracting requirements.
Throughout the 1990s, the Department reduced its acquisition workforce by about 50 percent, but
the workload was not proportionately reduced. To the contrary, DoD’s spending on goods and
services since 2001 has more than doubled, from approximately $145.2 billion to $367.3 billion in
FY 2010. To further complicate matters, the Department challenged its workforce when the wars in
Afghanistan and Iraq began and the workload and responsibilities placed on them significantly
increased. Although the Defense budget is declining, with the budget request of $670.9 billion in
FY 2012 compared to the $708.2 billon requested in FY 2011, it is not likely that the vital role the
acquisition workforce plays in providing the warfighters with new capabilities will decrease.

2-1B. Acquisition Workforce                         IG Assessment of Progress
The Department continues to recognize the importance of a workforce sufficient to manage and
oversee DoD acquisition and contracting. To successfully accomplish the acquisition mission, DoD
is placing greater emphasis on developing a higher-quality workforce that has the right
competencies and skill sets at the right place at the right time. The Department’s hiring initiatives


                                                                                       Addendum A
                                                A-4
Department of Defense Agency Financial Report for FY 2011

appear to be on track, as efforts were made to continue to grow the workforce to a desired level of
147,000 by 2015. The Defense Acquisition Workforce Development Fund budget estimate of
$305.5 million in FY 2012 further demonstrates DoD’s sustained commitment to increase the end
strength and quality of the acquisition workforce; however, current budget constraints raise
questions as to whether the department will be able to sustain this projected growth and support
related initiatives.
The Defense Acquisition Strategic Workforce Plan, dated April 2010, outlines additional strategies
the Department is employing to support an acquisition workforce that has the capacity and ability to
appropriately manage and oversee acquisitions. Specifically, the Department is working to improve
the certification process, placing greater emphasis on qualifications and experience, and assessing
the critical skills and competencies of the acquisition workforce to identify gaps and improve
training. They are closely partnering with the Defense Acquisition University to expand the training
available to acquisition professionals so that forecasted demand is met.

2-1C. Acquisition Workforce                         Department Response
The Department’s summary-level response to the IG’s challenge and its assessment of the
Department’s progress may be found in paragraph 2-3C of this section.

2-2A. Weapon System Acquisition                     IG Summary of Challenge
The Department remains challenged in its management of major acquisition programs. In FY 2012
the Department requested $553.1 billion in base and $117.8 billion in Overseas Contingency
Operations (OCO) funding to ensure warfighters have weapon systems that provide the best
capabilities. The number of Major Defense Acquisition Programs (MDAPs), now at 111 in FY 2011,
has increased despite the prospects of a flat or slowly decreasing defense budget. While the
performance of no two acquisition programs is the same and a good number of them operate within
their cost and schedule constraints, there are still too many programs that are experiencing
significant cost growth and delay in delivering capabilities. DoD needs to continue to look for a
better balance between its limited resources and the capabilities needed to be successful in current
conflicts and to prepare for possible future conflict. As budgets come under increasing scrutiny, the
Department will be challenged to evaluate the merits of all programs as to their usefulness versus
cost.

2-2B. Weapon System Acquisition                     IG Assessment of Progress
Through leadership at the highest levels, the Department has demonstrated its commitment to
addressing shortcomings identified in the management of weapon system acquisitions. The
Department has begun to reprioritize and rebalance its investments in weapon systems and has
made strides towards improving efficiency. Over the last two to three years, the Department has
cancelled more than $300 billion in acquisition programs, some of which were not performing, were
too costly, or were duplicative of capabilities DoD already had.
The Department continues its efforts to implement changes resulting from the passage of Weapon
Systems Acquisition Reform Act of 2009 and is still revamping the bureaucracy of DoD acquisition,
as well as making process and oversight changes that will aid the Department in achieving better
outcomes.
On September 14, 2010, the Under Secretary of Defense for Acquisition, Technology and Logistics
(USD(AT&L)) issued a directive geared at obtaining better buying power through greater
efficiencies and productivity in defense spending. This objective will be accomplished by pursuing
initiatives in targeting affordability and controlling cost growth; incentivizing productivity and
innovation in industry; promoting competition; improving tradecraft in services acquisition; and
reducing non-productive processes and bureaucracy.




                                                                                       Addendum A
                                                A-5
Department of Defense Agency Financial Report for FY 2011

Most recently, the USD(AT&L), as part of his Better Buying Power initiative to buy more for less
money, established a new position focused on defense pricing. Specifically, with the establishing of
this position, the Department will concentrate on how much it pays for the things it buys, looking
beyond program cost estimates and determining what a program should cost. In an attempt to
become better at buying, emphasis will be placed on developing the workforce so it has better
negotiating skills when dealing with a company on a contract’s pricing strategy.
Audits continue to identify oversight and pricing problems that show the Department’s need to
prudently evaluate contractors in the fast-paced environment of war. The Department is beginning
to apply extra scrutiny to weapon systems that are behind schedule and over cost as it continues
the process of making the hard decisions about what is and is not affordable.

2-2C. Weapon System Acquisition                     Department Response
The Department’s summary-level response to the IG’s challenge and its assessment of the
Department’s progress may be found in paragraph 2-3C of this section.

2-3A. Contract Management                           IG Summary of Challenge
The Department continues to experience inefficiencies and wasteful use of funds in its contracting
efforts. The DoD’s continuing contracting challenges include obtaining adequate competition in
contracts, defining contract requirements, overseeing contract performance, creating and
maintaining adequate contract documentation files for critical contract decisions, and recurring
validation of contract requirements.
The Department continues to face challenges when it comes to contract oversight and
administration. These challenges are significant, and the impact is heightened by the need to
support contingency operations in Iraq and Afghanistan. In FY 2010, the Department obligated
approximately $367.3 billion for contracts for goods and services, yet despite the billions spent, the
Department managed these contracts without sufficient resources.
With a smaller, less experienced, and insufficiently trained workforce, the Department has
experienced problems in managing the complexities of its acquisitions and the increasing volume of
business. Consequently, the Department continues to rely heavily on contractors to provide
acquisition management and contract support functions, which oftentimes includes acquisition
planning, requirement determinations, contract award, performance review, bid analysis, cost
assessment, and contract monitoring functions. The Department’s increased use of contractors as
acquisition support highlights DoD’s shortcomings. Our audits continue to identify that without
proper oversight, the Department cannot be certain that contractors are performing in accordance
with contract requirements, cannot support payments of award or incentive fees, cannot support the
certification of invoices for services performed, and cannot ensure that services are performed, thus
leaving the Department vulnerable to increased fraud, waste, abuse and misuse of taxpayer
monies.

2-3B. Contract Management                           IG Assessment of Progress
At the direction of Congress, the Department stood up the Panel on Contracting Integrity comprised
of senior leaders from a cross section of DoD for the purpose of reviewing its progress in
eliminating high-risk areas and vulnerabilities in defense contracting. In its fourth annual report to
Congress, the Panel identified 25 actions for implementation in FY 2010 and additional actions for
consideration and implementation in FY 2011. During 2010, the Panel developed policy directives
and memoranda, published articles, case studies, and training guides, all related to improving
DoD’s contracting system. Some of the work that the Panel accomplished included developing
recommendations for a standardized contracting officer warranting program, a “back-to-basics,” on-
the-job-training for new contracting workforce members, and tools that contracting officers could




                                                                                       Addendum A
                                                A-6
Department of Defense Agency Financial Report for FY 2011

use in determining fair and reasonable prices. The Panel specifically addressed requirements
imposed by the Weapons Systems Acquisition Reform Act of 2009.
As a follow on to his June 28, 2010 memorandum, entitled “Better Buying Power: Mandate for
Restoring Affordability and Productivity in Defense Spending,” the USD(AT&L) released another
memorandum on September 14, 2010, entitled “Better Buying Power: Guidance for Obtaining
Greater Efficiency and Productivity in Defense Spending.” This memorandum outlined 23 principal
actions to improve efficiencies in five major areas, in which the panel assessed how to contribute
and support these areas in potential actions for FY 2011.
The Department continues its work to improve contingency contracting. Some initiatives include:
•   Developing joint contingency contracting doctrine;
•   Improving DoD business processes;
•   Formulating a single training plan for contingency contracting operations;
•   Creating a Contingency Contracting Corps; and
•   Maintaining an open, user-friendly source for studies, reports, and lessons learned.
Additionally, during the past year the Department has pressed forward in its effort to strengthen
DoD contracting and has issued policy, procedures, and guidance addressing defense acquisition
workforce improvement initiatives, source selection procedures, and improving competition in
defense procurements.

2-3C. Acquisition Processes and Contract
                                                    Department Summary-Level response
Management
The Department agrees with the IG’s summary of challenges and assessment of progress and
continues to work aggressively to resolve the long-standing material weaknesses.
The Secretary of Defense established a 23-point plan of action to improve acquisition efficiency in
five areas: Target Affordability and Control Cost Growth; Incentivize Productivity and Innovation in
Industry; Promote Real Competition; Improve Tradecraft in Services Acquisition; and Reduce Non-
Productive Processes and Bureaucracy. The Department is institutionalizing these initiatives and
policy implementation. The Department’s Senior Integration Group (SIG) tracks the implementation
and progress of these initiatives.
Between 1998 and 2008, the core acquisition workforce size fluctuated from approximately 146,000
to a low of 125,879, respectively. Since 2009, DoD leadership has reversed this decline by hiring
and filling over 9,000 “new capacity” positions under a DoD-wide initiative. As supported by the
President’s FY 2012 budget request to Congress, the Department is continuing targeted growth as
an exception to DoD constraints on overall civilian budgeted full-time equivalents (FTE) levels. The
DoD’s progress has helped rebuild capacity in contracting, pricing, engineering, program
management, contract management (Defense Contract Management Agency), and audit (Defense
Contract Audit Agency) capability. The Department also is bolstering acquisition workforce
capability through increased training, development, and performance support tools.
Consistent with the plan of action, the Department has implemented a number of policies designed
to improve weapons systems cost, schedule and performance outcomes.
Key policies include:
•   Mandating affordability as a requirement: We will set dollar limits for our programs to ensure
    they are constrained by the resources the department can afford to allocate to the capability.
    The approved affordability requirement will not be exceeded without formal executive review.




                                                                                       Addendum A
                                                A-7
Department of Defense Agency Financial Report for FY 2011

    Conducting a systems engineering tradeoff analysis before program initiation: The purpose of
    the analysis is to determine how cost varies as major design parameters and time to complete
    are varied. The intent is to determine how systems can be made less expensive without loss of
    important capability.
•   Implementing “Should-Cost” Management: The “Should Cost” initiative challenges Program
    Managers to find specific ways to control the cost of what they are doing and expect to do. The
    objective is to eliminate non-value added overhead from program costs without trading away
    essential design and engineering activities. It reflects a concerted effort to lower costs where it
    makes sense to do so.
•   Improving milestone process effectiveness: New policies ensure that the Department reviews
    program requirements, schedule, content, and funding prior to releasing final Request for
    Proposals (RFP). By conducting the review at this point, the Department will ensure that the
    Department’s business arrangements, as specified in the RFP, are aligned with the approved
    program.
The Department also has implemented a number of initiatives designed to improve contract
management. These key initiatives include:
•   Continued use of “peer reviews” to improve the quality of contracting processes across the
    Department and facilitate cross-sharing of best practices and lessons learned.
•   Improved tradecraft in the acquisition of services by the creation of a senior manager (General
    Officer/Flag Officer/Senior Executive Service level) within each Military Department to govern,
    execute and manage service acquisitions and the adoption of a uniform taxonomy for different
    types of services to provide a standard approach for measuring productivity.
•   Developed the Automated Requirements Roadmap Tool (ARRT). The ARRT provides a
    structured approach for defining requirements and performance standards as well as how the
    results will be inspected. This process results in a draft of the Performance Work Statement
    (PWS) and Quality Assurance Surveillance Plan (QASP).
•   Published a comprehensive “Guidebook for the Acquisition of Services.”
•   Directed improvements in competition for the acquisition of services. Policy now requires
    contracting officers to take additional steps to secure competition in certain cases where only
    one offeror responds to a competitive solicitation.
•   Published the Joint Contingency Contracting Officer Representative (COR) Handbook to
    supplement official training and policy and serves as a handy pocket guide that provides CORs,
    who are supporting contingency operations with basic tools and knowledge.
In addition, the USD(AT&L)’s commitment to restoring affordability and productivity in Defense
spending includes other initiatives, such as leveraging real competition, involving dynamic small
business, improving audits, and protecting the technology base.

3. IG-Identified Challenge: Joint Warfighting and Readiness
3-1A. Joint Warfighting and Readiness                IG Summary of Challenge
The challenge of joint warfighting and readiness continues to be: Provide the right force, the right
personnel, and the right equipment and supplies in the right place, at the right time, and in the right
quantity, across the full range of military operations. The challenges facing the Department at this
moment in time have a greater sense of urgency. The responsible drawdown of forces from Iraq
and the ongoing counterinsurgency efforts in Afghanistan highlight the need to reset the personnel
and equipment of the armed forces. This reset must be balanced, though, by the need to maintain
a force able to address ongoing security commitments in Afghanistan and other areas, such as
supporting the North Atlantic Treaty Organization (NATO) operations. All of these challenges are


                                                                                        Addendum A
                                                 A-8
Department of Defense Agency Financial Report for FY 2011

set against a backdrop of a decreasing budget for the Department as the country comes to grips
with domestic and fiscal issues. The mission of maintaining readiness, resetting the force,
structuring the force to meet future threats, and taking care of the service members and their
families will require significant resources and continuous management attention. The completion of
the drawdown of troops in Iraq and the initial drawdown in Afghanistan will require continued
management visibility over assets and equipment. Management will have increased pressure to
ensure accountability, visibility, and redistribution of excess equipment and proper transfer, reset, or
disposal of assets in conjunction with the responsible drawdown of U.S. Forces. The ongoing
efforts in Afghanistan, fighting insurgents and training the Afghanistan National Security Forces,
and the realignment of forces in other geographical areas, such as the Pacific theater, present their
own set of challenges, including ensuring the Department can maintain its overall readiness posture
against the threats it faces.

3-1B. Joint Warfighting and Readiness                IG Assessment of Progress
The Department is making progress, but that progress must be monitored to ensure it continues.
The Department cannot afford to ignore new and, in some cases, recurring situations that will
require attention. For example, although the drawdown from Iraq is underway and the President
has outlined his plan for a gradual drawdown in Afghanistan, those actions must be monitored to
ensure all equipment and personnel are properly accounted for, and that only those items approved
for transfer are transferred and those approved for disposal are demilitarized and disposed of
correctly. With the increased fiscal constraints, resetting and modernization of equipment will be
more critical to ensure more funds are available for equipment that is adaptable, expansible,
interoperable, and protects the warfighter.
The Department has lacked adequate policies and procedures that address the use of DoD
inventory before entering into contractor logistics support and performance-based logistics
arrangements or contracts. The Department must ensure effective use of existing inventory, and
when procurement is warranted, it must ensure fair and reasonable prices are paid for the parts
procured.
While the Department has ensured that deployed units are trained, manned, and equipped to
accomplish missions, this deployment has impacted the readiness of the Reserve Components. As
Operation New Dawn (OND) and Operation Enduring Freedom (OEF) wind down, the Department
must ensure the reserve components have the equipment and training necessary to ensure
readiness and the ability to meet their various missions. The ongoing efforts to relocate service
members to Guam and other locations around the globe will enable the armed forces to better
shape and focus their force structure in a way that will provide greater flexibility in responding to
threats. The Government of Guam is experiencing shortcomings in several areas of their
infrastructure that fall outside of DoD funding authority, which could adversely impact the
realignment. The Department needs to ensure that interagency planning and execution occur, as
these concerns will need to be addressed with additional non-DoD funding.

3-1C. Joint Warfighting and Readiness                Department Response
Despite our consistently high operations tempo, the Department remains committed to ensuring
deployed forces around the globe are trained, equipped, and ready to perform their assigned
missions. Deploying capable and ready forces for current operations continues to impact the non-
deployed forces’ ability to prepare for full spectrum operations. Non-deployed forces are focusing
their available training time to prepare for their next mission in support of OEF or other named
operations, hedging against execution of other potential contingencies. The continued withdrawal
of forces from Iraq, combined with Presidential directives to reduce deployed numbers in
Afghanistan, is expected to reduce the stress on forces for the short term; however, the expected
fiscal constraints looming on the horizon that may result in tough decisions on materiel, manpower,
and infrastructure could negate the positive aspects expected from the reductions in operational
stress. The Department is continually developing and refining comprehensive plans for both

                                                                                         Addendum A
                                                 A-9
Department of Defense Agency Financial Report for FY 2011

resetting and rebalancing the total force, which includes all reserve component forces, in the most
effective and efficient manner possible. We recognize the most important part of maintaining joint
warfighting capability and readiness is caring for the all-volunteer force. Finding the proper balance
between maintaining readiness, force structure, modernization, fiscal realities, and future threats
remains the highest priority of the Department’s leadership.

4. IG-Identified Challenge: Information Assurance, Security, and Privacy
4-1A. Cyber Security                                IG Summary of Challenge
One of the major challenges the Department faces is in addressing cyber security and the threat
posed by computer network attacks. According to recent reports from the Department of Homeland
Security, Federal agencies suffered 41,776 cyber attacks in 2010. As reported in numerous reports
on cyber security, attacks come from a variety of sources, including criminal groups, hackers, other
nations, terrorists, and insiders. A variety of exploits used by these attackers to breach/impact DoD
networks include worms, war driving, intrusion tools, and denial of service. In fact, as previously
noted by the Commander, U.S. Cyber Command, DoD networks are probed approximately
250,000 times per hour. In today’s information assurance security environment, the Department
faces significant challenges in securing approximately 15,000 different computer networks across
4,000 military installations around the world.

4-1B. Cyber Security                                IG Assessment of Progress
It has been approximately one year since the Secretary of Defense directed the establishment of
the U.S. Cyber Command. The focus of the Cyber Command is to plan, coordinate, integrate,
synchronize, and conduct activities to lead the day-to-day defense and protection of DoD
information networks. While the Department has made progress in combating cyber attacks and
breaches, it still faces a challenge in recruiting and hiring cyber specialists. In addition, the
Department has made progress in implementing its host-based intrusion detection system (HIDS),
which is installed at the individual workstation/server level (host) and monitors systems for network-
based attacks and host-specific events. Phased implementation and evaluation of the Host-Based
Implementation System (DoD’s primary HIDS) is continuing and adjustments are being made.
While the Department has taken strides to improve its cyber security efforts, it must continue to be
ever diligent in preparing for the next threat. The DoD IG has several on-going audits looking at
DoD efforts to ensure the information/cyber security of its networks and data.

4-1C. Cyber Security                                Department Response
The Department continues to strengthen cyber security and address the threat posed by network
attacks. We have taken steps to effectively isolate the department's official-use networks from the
Internet using a variety of techniques, which include redesigning the addressing system for
increased security and searching for and removing web browsing malicious software and spam
from incoming email. We also have improved our defenses against blocking distributed denial-of-
service attacks at perimeter routers, and that, coupled with quarantine of suspicious and known bad
traffic and files, has resulted in increased security from Internet probes and attacks. Our internal
efforts include configuring every computer securely and keeping them that way. We do this by
using Defense Information Systems Agency and National Security Agency published security
guides, which are now being automated for ease of implementation, and applying Unified
Government Configuration Baseline operating system settings in accordance with OMB direction.
Additionally, we are procuring advanced automated vulnerability scanning and remediation tools for
our networks, and implementing a Department-wide enterprise Host-based Security System to
extend protections to the user's desktop level.
The Department has taken many steps to improve its cyber security efforts. Implementation of the
Host-based Security System is nearing global deployment on our unclassified and classified
systems. Cyber Command has made progress in recruiting and hiring cyber specialists. Operations

                                                                                       Addendum A
                                                A-10
Department of Defense Agency Financial Report for FY 2011

plans and directives have also been issued to strengthen the U.S. Cyber Command role in
defending, protecting, and operating the Department's vital classified and unclassified networks.

4-2A. Information Technology (IT) Acquisition
                                                     IG Summary of Challenge
System
Another challenge the Department faces is the development and implementation of a new
acquisition process for IT systems. Section 804 of the National Defense Authorization Act (NDAA)
for Fiscal Year 2006 requires the Secretary of Defense to develop and implement a new acquisition
process for information systems. The process was to be based on recommendations from the
March 2009 report of the Defense Science Board (DSB) Task Force on Department of Defense
Policies and Procedures for the Acquisition of Information Technology. This report concluded that
“the conventional DoD acquisition process is too long and too cumbersome to fit the needs of the
many systems that require continuous changes and upgrades...” In fact, an analysis conducted by
the Office of the Assistant Secretary of Defense for Networks and Information Integration
(OASD/NII)) calculated that the average time to deliver an initial program capability is 91 months.
The Department is challenged to respond more quickly to information technology’s rapid turn-over
and acquire new-age capabilities when available.

4-2B. IT Acquisition System                          IG Assessment of Progress
In November 2010, the Department issued its response to the requirements of Section 804 of the
FY 2010 NDAA. This report, entitled “A New Approach for Delivering Information Technology
Capabilities in the DoD,” provides an update on the progress for developing a new acquisition
process for information capabilities. The report identifies the establishment of an information
technology (IT) Acquisition Task Force, made up of stakeholders from the Department and industry,
to further refine the details of the new process, begin implementation, and provide transition
oversight; however, no milestones for implementation activities were provided. The Department
must continue to push forward on a new IT acquisition process in order to ensure success for its
mission and the individual warfighters.

4-2C. IT Acquisition System                          Department Response
The Department is committed to the implementation of IT Acquisition Reform and has achieved key
accomplishments, proposed short- and long-term milestones, and conducted risk assessments.
On June 23, 2011, a Directive-Type Memorandum (DTM) on Business Capability Lifecycle (BCL)
was signed by the USD(AT&L). The BCL provides a tailored acquisition process with alternative
requirements development processes for Defense business systems, a major step forward in
implementing more flexible and streamlined processes. Additionally, USD(AT&L) and the Joint
Requirements Oversight Council (JROC) have launched efforts to update the DoD Acquisition
Instruction and the Chairman of the Joint Chiefs of Staff Instruction to incorporate ongoing IT
acquisition reform efforts.
Finally, the Deputy Secretary of Defense soon will issue a memorandum that identifies existing
flexibilities within current regulations that Components can leverage to better posture IT projects for
upcoming acquisition reform policy changes.
The implementation of the new IT acquisition reform process will be executed in the following
phased approach:
•   Agreed upon IT acquisition reforms that do not require statutory change will be implemented as
    soon as possible.
•   Concurrently, the Department will maximize use of existing regulation flexibilities for
    streamlining its current IT acquisitions.
•   The IT reform initiatives that require further discussion but do not require statutory changes will

                                                                                        Addendum A
                                                A-11
Department of Defense Agency Financial Report for FY 2011

    be phased-in, beginning with business systems and IT infrastructure initiatives.
•   Finally, reform initiatives that require statutory change will be piloted, with lessons learned
    incorporated into proposed regulation and statutory changes.
The Defense Business System Management Committee (DBSMC) will serve as the decision-
making forum for IT reform initiatives.

5. IG-Identified Challenge: Health Care
5-1A. Medical Readiness                             IG Summary of Challenge
Keeping members of the Active Duty and the Reserves and National Guard medically ready to
deploy continues to challenge the DoD Military Health System (MHS). This challenge is
compounded by the frequency and duration of deployments. Caring for Active Duty family
members is part of the medical readiness challenge.
Increased numbers of returning service members with psychological health issues, along with a
shortage of uniformed and civilian mental health workers, will require examination of automated
screening tools and improved diagnostics to provide earlier detection and intervention. In addition,
addressing the psychological effects of deployment on family members and non-Active Duty
personnel will continue to be a challenge.

5-1B. Medical Readiness                             IG Assessment of Progress
The MHS is moving forward on improving medical readiness while attempting to control costs. The
MHS uses the Quadruple Aim Concept to shape its vision, identifying readiness, population health,
experience of care, and per capita cost as the four aims that set the strategic direction to improve
mission outcomes. The Quadruple Aim Concept is the military health care concept that focuses on
the encouragement of healthy behaviors, beneficiary satisfaction, maximizing force readiness, and
the successful management of per capita health costs. The MHS leadership adopted a dashboard
to monitor implementation of strategic imperatives and serve as an indicator of mission success.
Individual medical readiness rates for the Active Duty, Reserves, and National Guard continued to
improve from FY 2010 to FY 2011; however, while the Active Duty rate surpassed the overall MHS
target rate of 80 percent, the Reserves and National Guard rate, while improved, has not attained
the target rate. The MHS continues to meet all mission requirements despite very high operational
tempo. Data from the Joint Theater Trauma Registry reveal unprecedented outcomes, including
reduction in died-of-wounds rates and the lowest ever disease, non-battle injury rates.
The MHS management identified the family medical readiness strategic imperative, but the
applicable performance measure is in the concept phase. The need to improve the planning for
medical needs of family members was discussed in our report on the planning of Guam dental care
for Active Duty family members. In addition, the DoD IG is currently assessing the medical staffing
and specialty care requirements in Guam.
The MHS identified psychological health and resiliency as a strategic imperative, with performance
measures and goals established for Post-Traumatic Stress Disorder (PTSD) and depression
screening, referral, and engagement.




                                                                                       Addendum A
                                               A-12
Department of Defense Agency Financial Report for FY 2011

5-1C. Medical Readiness                              Department Response
Readiness is at the core of the Department’s Quadruple Aim concept, which focuses on
encouraging healthy behaviors and beneficiary satisfaction, maximizing force readiness, and
successfully managing per capita health costs. Every strategic initiative undertaken by the
Department is selected and evaluated based on its ability to create positive change in one or more
of these areas. Several initiatives are currently underway, including implementing the medical
home concept and optimizing the delivery of psychological healthcare, that directly impact the
readiness of the force and their families.
Through a wide variety of programs, including the Defense Centers of Excellence, the Department
is committed to the psychological wellbeing of our wounded warriors, active duty service members
and their families. As the conflicts wind down, the psychological effects of the deployments will
continue to be felt for many years.

5-2A. Cost Containment                               IG Summary of Challenge
The MHS must provide quality care for approximately 9.6 million eligible beneficiaries within fiscal
constraints while facing increased user demands, legislative imperatives, and inflation, which
makes cost control difficult in both the public and private sectors. During a hearing with the Senate
Appropriations Subcommittee on Defense, the Secretary of Defense stated that the escalating cost
of health care is a problem that must be addressed. The DoD budget for health care costs was
approximately $52.6 billion in FY 2011, an increase of approximately 70 percent since FY 2005.
Another part of the challenge in containing health care costs is combating fraud. Health care fraud
is among the top five categories of criminal investigations of the DoD IG's Defense Criminal
Investigative Service, representing 9.9 percent of the 1,856 open cases at the beginning of
FY 2011. Increasing health care benefits also provides additional pressure to manage and contain
costs.

5-2B. Cost Containment                               IG Assessment of Progress
The MHS is focusing on many areas to manage per capita health care costs. Two new TRICARE
contracts were awarded, and the request for proposal (RFP) for the remaining contract was issued
during FY 2011. Award protests resulted in staggered implementation of the two new contracts.
The contracts provide incentives for customer satisfaction and include the managed-care support
contractors as partners in support of medical readiness. The MHS has organized an internal study
group to examine the options for the next generation of TRICARE contracts for purchasing civilian
health care, which are anticipated to begin 2015. No similar internal review process has been used
to examine preceding generations of contracts. An unprecedented Federal budget environment,
punctuated by regular reports of the poor quality of U.S. health care relative to its cost, compelled a
fresh look at how the MHS purchases health care from the private sector. The guiding principle of
the study group is that high-quality, patient-centered care is also cost-efficient care.
Officials within the Office of the Assistant Secretary of Defense (Health Affairs) identified areas that
assist in managing costs, to include fraud management, and pharmaceuticals. Additionally, the
Quadruple Aim Concept is intended to simultaneously improve quality and reduce costs by focusing
on the elimination of unnecessary care, tests, and procedures, and by focusing on delivering health
care in the most appropriate setting. Additionally, the MHS identified optimization of the pharmacy
practices and implementation of the patient-centered medical home as strategic initiatives, both of
which are aimed at increasing the quality of health care services while reducing the cost of
providing high quality care.
Controls over Philippines medical claims continue to challenge MHS management. The DoD IG
found that the MHS needs additional oversight of the Philippine medical payment process.
Specifically, controls over procedures for certifying medical providers and for verifying beneficiaries’
addresses before issuing payments need improvement.


                                                                                         Addendum A
                                                A-13
Department of Defense Agency Financial Report for FY 2011

5-2C. Cost Containment                              Department Response
An unprecedented health care and Federal budget environment, punctuated by regular reports of
the poor quality of U.S. healthcare relative to its cost, compelled a fresh look at how the military
health system purchases healthcare from the private sector. This fresh look at the next generation
of TRICARE contracts (known as “T4”) for purchasing healthcare began in October 2010 with the
organization of the T4 Study Group. The guiding principle of the group is: High-quality, patient-
centered care is also cost efficient care, and those who serve and have served and their families
should have both.
The T4 Study Group is composed of 18 representatives from the Army, Navy, Air Force, Army
Reserves, Coast Guard, Uniformed Services University of the Health Sciences, Office of the
Secretary of Defense (Health Affairs), and the TRICARE Management Activity. At this time, the
group has narrowed the options to five potential courses of action based on the anticipated impact
and ability to create incentives that influence patient and provider behavior and support the
Quadruple Aim of readiness, population health, experience of care and per capita cost. The Group
currently is performing a detailed market analysis and will present their recommendations in the fall
of 2011. The group will then lead the effort to test the options within demonstration pilots and
develop the acquisition strategy needed to meet the timeline for deploying these new contracts by
2015.
On the horizon, the Department has two strategic initiatives that demonstrate significant potential
for transforming our healthcare delivery system and slowing, if not reversing, the cost trajectory:
Healthy Behaviors and Evidence-Based Health Care. Both of these strategic imperatives are key to
achieving the Quadruple Aim of Readiness, Population Health, Experience of Care, and Per Capita
Cost.
To reduce the healthcare cost burden in the long term and improve readiness and productivity in
the near term, the Department is focused on improving the general health of the force through
development of healthy behaviors. By reducing obesity and tobacco usage, for example, the long
term health implications of Diabetes and Chronic Obstructive Pulmonary Disease can be reduced
significantly. Preventable conditions such as these are expensive and long-term in nature.
Similar to the Healthy Behaviors imperative, Evidence-Based Health Care is a key driver to reduce
cost while improving the quality and outcomes. Using best practice care and technology to
enhance the availability of information, intelligent standardization of health care practices can
reduce variability in treatment, improve outcomes and reduce unnecessary utilization of medical
services.

5-3A. Population Health                             IG Summary of Challenge
Managing the overall health of this large population of approximately 9.6 million eligible
beneficiaries is a continuing challenge for the MHS. Identifying unhealthy behaviors and providing
appropriate interventions across the population is a challenge and one of the primary emphasis
areas of the MHS Quadruple Aim. By reducing obesity and tobacco usage, for example, the long-
term health implications of diabetes and chronic obstructive pulmonary disease can be reduced
significantly. Preventable conditions such as these are expensive and long term in nature.

5-3B. Population Health                             IG Assessment of Progress
The MHS is implementing the “medical home” concept throughout the direct care system. With the
medical home, the patient will have more direct access to a medical team that is equipped to
recognize potentially unhealthy behaviors and has the ability to intervene early. The MHS fully
supports the National Prevention Strategy to support better health behaviors and overall fitness.
Although the MHS goal was not attained, cigarette use among Active Duty forces decreased from
FY 2010 to FY 2011. The MHS has actively committed to supporting the National Partnership for
Patients initiative with the Department of Health and Human Services to improve care, transition,


                                                                                       Addendum A
                                               A-14
Department of Defense Agency Financial Report for FY 2011

and prevention of harm during treatment. The two goals of this partnership are “keeping patients
from getting injured or sicker” and “helping patients heal without complication.”

5-3C. Population Health                             Department Response
The Department’s two strategic initiatives, “Support the National Prevention Strategy to promote
healthy behaviors and total fitness” and “Partnership for Patients,” combined with the
implementation of the medical home throughout the system, are long-term programs designed to
promote population health while avoiding unnecessary health care costs.
The vision of the National Prevention Strategy is to promote and improve the health and wellbeing
of individuals, families, and communities by transitioning away from a focus on illness and disease
to a focus on prevention and wellness activities that support healthy behaviors, lifestyles, and
choices.
The Partnership for Patients initiative helps improve readiness and well-being through prevention,
population health management and patient activation, while positively impacting cost by reducing
uncoordinated care, repeated hospital readmissions and hospital-acquired conditions. As part of
the Quadruple Aim, the MHS works to provide safe, effective care to the entire beneficiary
population. The Partnership for Patients further supports this effort and will enable the MHS to
demonstrate measurable improvements in each aspect of the Quadruple Aim. For example,
reducing hospital-acquired conditions means that patients receive treatment only for the condition
they arrive at the hospital with, and are not caused by any additional (avoidable) harm. This
reduces per capita cost and improves population health as no extra treatments, procedures, or
medications are required, and patients spend minimal time in the hospital. Military readiness is
improved because patients in Military Treatment Facilities (MTFs) are part of the DoD workforce,
and lower rates of injury and infection help maintain a fit and ready workforce.

5-4A. Experience of Care                            IG Summary of Challenge
Strengthening comprehensive and integrated health care from accession through active service, to
rehabilitation and transition to the Department of Veterans Affairs (VA) care is a major challenge for
the MHS. The number of wounded warriors associated with Southwest Asia and other such
conflicts, particularly those affected with Traumatic Brain Injury and PTSD and those in need of
prosthetic services, requires diligent management of health care resources. In this respect, as a
result of a congressional request for assistance, DoD IG initiated a “Wounded Warriors Matters”
assessment program in the spring of 2010. This assessment determines whether DoD programs
for the care, management, and transition of recovering service members wounded during
deployment in Operation Iraqi Freedom (OIF)/Operation New Dawn (OND) or Operation Enduring
Freedom (OEF) are managed effectively and efficiently. Field work has been completed, with visits
to six Wounded Warrior Battalions. The first report, “Assessment of DoD Wounded Warrior Matters
– Fort Sam Houston” was published in March 2011. The remaining reports pertaining to these
visits are expected to be published in the 4th quarter, FY 2011, and 1st and 2nd quarters of
FY 2012. This series of assessments will result in a report that reviews systemic problems
identified in the DoD Wounded Warrior Programs.
Another challenge is oversight of post-deployment health needs, including identifying and managing
those requiring care, to maximize the service members’ experience of care. Although a number of
objectives have been identified by the Department and the VA and programs have been initiated,
the quality and oversight of these programs must be tightly managed. Transitioning wounded, ill, or
injured service members to post-deployment care will grow as a challenge while Operation New
Dawn (OND) and Operation Enduring Freedom (OEF), continue. The Department needs to
improve the medical care and benefits transition program to achieve a streamlined, transparent,
and timely process as wounded warriors move from the DoD system to the VA system.




                                                                                       Addendum A
                                               A-15
Department of Defense Agency Financial Report for FY 2011

5-4B. Experience of Care                             IG Assessment of Progress
The MHS strategic plan recognizes continuum of care as a strategic priority concerning the
experience of care. Disparities in the transition of health care and benefits have been identified, yet
actionable solutions are difficult to implement and monitor. The MHS is redesigning primary care
according to the Joint Principles of the Patient Centered Medical Home (PCMH) to improve the
health of the population, improve care coordination, improve beneficiary satisfaction, and reduce
growth in per capita cost. The MHS intends to build partnerships with beneficiaries in an integrated
health delivery system that encompasses military treatment facilities, private sector care, and other
federal health facilities, including the VA. Globally accessible health and business information
enables patient-centered, evidence-based processes that are both effective and efficient.

5-4C. Experience of Care                             Department Response
The Department is redesigning primary care in MTFs according to the Joint Principles of the Patient
Centered Medical Home to improve the health of the population, improve care coordination,
improve beneficiary satisfaction, and reduce growth in per capita cost. The Department is also
proposing demonstrations to encourage PCMH models of care in practices in the Private Sector
Care (PSC) to which TRICARE beneficiaries are enrolled and also to encourage TRICARE patients
in the network to seek primary care from PSC practices that are recognized as PCMHs by the
National Center for Quality Assurance (NCQA or equivalent.)
To address the transition issues for wounded warriors, beginning in November 2007, the
Departments of Defense (DoD) and Veterans Affairs (VA) integrated their disability evaluation
processes to create the Integrated Disability Evaluation System (IDES), enabling wounded, ill, and
injured (WII) Service members to receive both their DoD and VA disability compensation as soon
as possible after discharge from Military Service. While the IDES provides a significant
improvement over the separate Department legacy processes, in early 2011 then-Secretary Gates
and Secretary Shinseki recognized the need to continue to improve the IDES, particularly the
timeliness of the process, for disabled Service members and their families.
The Departments have been collaborating on the Remodeled IDES (rIDES) since March 2011,
developing streamlined methods for determining fitness for duty and disability ratings for WII
members. In June 2011, the Secretaries directed their Departments to begin testing the resulting
efficiencies at three locations by December 31, 2011: Fort Carson, Colorado; Camp Lejeune, North
Carolina; and Shaw Air Force Base, South Carolina. The rIDES proof of concept will run until
August 2012, and the Departments will evaluate the results to determine the viability of deploying
the lessons learned to improve the IDES.

5-5A. Electronic Health Records                      IG Summary of Challenge
Providing information to the right people so they can make informed decisions continues to be a
challenge in the health care community. Along with the benefits of expanding automation efforts
comes the increased risk to security and privacy of information. The transition from paper to
electronic patient records increases the exposure of sensitive patient information to inadvertent or
intentional compromise, highlighting the need for appropriate information assurance procedures.
Developing and maintaining information operations that ensure the protection and privacy of data
will continue to grow as a challenge.

5-5B. Electronic Health Records                      IG Assessment of Progress
The MHS Information Management/Information Technology Strategic Plan for 2010 to 2015
includes the electronic health record as a strategic goal. The goal over the next five years is to
focus on improving the electronic health record family of applications to create a comprehensive
and reliable system. Specific milestones were established to implement a personal health record
prototype and to expand bidirectional sharing of health information between DoD and the


                                                                                        Addendum A
                                                A-16
Department of Defense Agency Financial Report for FY 2011

Department of Veterans Affairs; however, DoD has encountered delays in establishing the
electronic health record. The Department of Defense continues to progress in sharing electronic
medical records with the Department of Veterans Affairs. The final report on the DoD and VA joint
assessment project recommended that the Departments pursue a common-services approach to
sharing inpatient records, which will allow them to build upon their existing information sharing
capabilities. It also will set the stage for the appropriate level of interoperability with other
government and private sector organizations.

5-5C. Electronic Health Records                      Department Response
The Electronic Health Record (EHR) and related decision support capabilities underpin all of the
Department’s strategic goals, imperatives and initiatives. The foundation of information is critical to
delivering the best care possible to our beneficiaries at the lowest cost. It will provide connected
care across all care settings and venues - theater, en-route care, garrison, and VA/Civilian facilities
and supports the Virtual Lifetime Electronic Record (VLER) – a seamless record for each service
member from enlistment through retirement.
The strategic imperatives of "Enabling Better Decisions," "Fostering Innovation," "Managing Health
Care Costs," and "Promoting Patient Centeredness" all rely on the accurate and timely flow of
information across DoD and with external partners (e.g., Department of Veterans Affairs, private
sector partners, etc.). The Department currently has two active strategic initiatives in support of the
EHR: The Joint DoD-VA Integrated EHR and Evidence Based Healthcare.

5-6A. Implementing BRAC                              IG Summary of Challenge
Implementing recommendations resulting from the 2005 Base Realignment and Closure (BRAC)
process will continue to be a challenge. In addition to improving the readiness and cost efficiency
associated with realigning base structure, a primary objective of the process was to examine and
implement opportunities for greater joint activity among the Military Departments. Recapitalization
of the physical infrastructure is a challenge. Military treatment facilities are aging and in need of
replacement.

5-6B. Implementing BRAC                              IG Assessment of Progress
The BRAC process addresses part of the aging infrastructure, but to fully address the challenge,
better standardized data on the condition of facilities is needed. The MHS has begun the multiyear
transition and acquisition process of improving capability and access to care in two major and
several minor markets. For example, the new Walter Reed National Military Medical Center at
Bethesda is expected to be completed in 2011.
By establishing more unity of purpose in each of the major markets, the market leaders should be
able to distribute resources across hospitals and clinics within a market to meet the needs of the
entire population of eligible beneficiaries. In addition, the increased span of control will enable
improved continuity of care and coordination of safety and quality programs. In the National Capital
Region, the Secretary of Defense established the Joint Task Force National Capital Region –
Medical to clarify command and control and implemented a single-manning document categorizing
civilian positions as Department of Defense rather than affiliated with any one Military Department.
A different joint leadership initiative was established for the San Antonio major market. Evaluating
the variety of governance models may provide innovative solutions that can be used across the
MHS. The Tri-Service Medical Education and Training Campus should improve the quality and
consistency of training for all enlisted personnel, contributing to a culture of jointness and
interoperability.
Several infrastructure issues are addressed through implementation of the American Recovery and
Reinvestment Act (ARRA) of 2009. We completed our review of planning for Phase I of the new
hospital being built at Fort Hood. Planning for the facility was adequate and met the ARRA’s goals


                                                                                        Addendum A
                                                A-17
Department of Defense Agency Financial Report for FY 2011

of transparency and accountability. The DoD IG is currently reviewing the new hospital project at
Camp Pendleton.

5-6C. Implementing BRAC                              Department Response
The BRAC recommendations for the Military Health System (MHS) were approved in 2005 with the
specific goals of promoting efficiency and joint-interoperability. These initiatives drove a historic
and necessary transformation of DoD clinical care, medical education and training, and biomedical
research and development (R&D) capabilities. The clinical portions of BRAC reorganized two of
the largest military medical markets (National Capital Region and San Antonio) into jointly staffed
and managed healthcare systems and downsized several small hospitals to clinics. Other medical
BRAC actions consolidated DoD-wide basic medical enlisted training in San Antonio and
consolidated the fragmented biomedical R&D technical base into centers of excellence.
BRAC Commission Recommendation 169 called for the realignment of Walter Reed Army Medical
Center (WRAMC), Washington, DC. This entailed construction of a new community hospital and a
dental clinic at Fort Belvoir and an expansion of the National Naval Medical Center (NNMC),
Bethesda, MD, which is re-named the Walter Reed National Military Medical Center (WRNMMC).
Implementation of this recommendation created a jointly staffed and managed healthcare system in
the National Capital Region, including a more robust hospital at Fort Belvoir, VA, which brings a
greater range of services closer to where most beneficiaries reside. Closure of WRAMC reduces
funding required to operate and maintain a large and rapidly aging physical plant and allows for the
elimination of both military and civilian positions.
BRAC Commission Recommendation 172 directed realignment of Lackland Air Force Base (AFB),
Texas, by relocating the inpatient medical function of the 59th Medical Wing (Wilford Hall Medical
Center) to the Brooke Army Medical Center (BAMC), Fort Sam Houston, Texas, establishing it as
the San Antonio Regional Military Medical Center, and converting Wilford Hall Medical Center into
an ambulatory care center. This required construction within the existing BAMC, alteration of
portions of WHMC, and construction of a new free-standing outpatient clinic at Fort Sam Houston.
Corollary actions within this recommendation included the Medical Enlisted Training Center (METC)
and U.S. Army Institute of Surgical Research on Fort Sam Houston.
BRAC Commission Recommendation 198 directed the co-location of the Medical Command
Headquarters. This action allowed for the lease of office space within the National Capital Region
in order to co-locate the Services' Medical Headquarters with OSD Health Affairs and the TRICARE
Management Activity. The on-going consolidation of governance within the various components of
the MHS is a high priority task that has wide ranging implications on the operations of the
Department. Between the 2006 call for consolidation and today, there have been examples of
successful joint operations, including the Medical Education and Training Command and the Joint
Task Force Capital Area Medical, both of which were facilitated by BRAC 2005. These entities'
activities are consistent with our framework of incremental steps to support principles of unity of
command and effort while creating a joint environment for the development of future MHS leaders.
The concept includes co-location of medical headquarters, maintenance of OUSD(Personnel and
Readiness) oversight of the Defense Health Program, and positions the MHS for further unification,
if warranted. The concept is too new to fully understand the implications of applying the
consolidation across all of the services.

6. IG-Identified Challenge: Equipping and Training Iraq and Afghan Security Forces
6-1A. Iraq National Security Forces                  IG Summary of Challenge
A major national security goal is the establishment of a sovereign, stable, and self-reliant Iraq that
contributes to the peace and security of the region and with whom the U.S. can forge a long-term
security partnership. Iraq Security Forces (ISF), capable of providing for internal security as well as
a foundational external defense capability, is essential to achieve these U.S. national objectives.


                                                                                        Addendum A
                                                A-18
Department of Defense Agency Financial Report for FY 2011

Over the next three months, U.S. policy and related DoD military strategy will encompass
withdrawing the remaining U.S. combat forces from Iraq by the end of 2011 while continuing to
train, equip, and mentor the ISF. To be able to continue supporting the development of the ISF, the
Department will transition management of all remaining training, equipping, and mentoring activities
from U.S. Forces-Iraq to the newly established Office of Security Cooperation - Iraq (OSC-I), under
the Department of State and Chief of Mission authority. The OSC-I, with continued DoD
assistance, will seek to establish the framework for a robust security assistance and Foreign
Military Sales (FMS) program that will endure after the last U.S. military forces leave in
December 2011.
The effective transition of DoD training, equipping, and mentoring assistance from U.S. Forces-Iraq
to the OSC-I before December 2011 is critical to sustain progress made thus far in developing an
independent ISF capability after the withdrawal of US combat forces. This objective is especially
timely given that there still are Iraqi Army and Police minimum essential capabilities that have not
been met, without which their security forces may not be prepared to counter internal or external
threats to the country’s stability. The OSC-I, functioning under Chief of Mission authority, will have
a key role to play in this regard, further building the independent capability of the Government of
Iraq’s security forces while creating the foundation for a longer-term security cooperation and
assistance relationship between our two countries.
It is imperative, therefore, that the political and legal framework and authorities necessary be
established in a timely manner in the second half of 2011 so that the new OSC-I and its personnel
can be in a strong position to operate effectively, safely, and with the necessary legal protections
before the withdrawal of the remainder of US combat forces. In addition, the transition of DoD
security cooperation and assistance functions to the Department of State authority must be
completed before the end of 2011 and the enhanced capabilities vested in the OSC-I operating
within the U.S. Mission fully organized and in place.

6-1B. Iraq National Security Forces                  IG Assessment of Progress
The ISF must be able to effectively conduct counter-terrorism operations, protect critical national
infrastructure, maintain civil order, and protect against external threats in order to minimize the
strategic risk to Iraq and provide a stable partner in the region in support of achieving U.S. national
security goals.
The ISF has made significant progress in developing these capabilities, and many of the security
functions performed by U.S./NATO forces have already transferred to the ISF. Nonetheless, the
ISF has not yet achieved certain minimum essential skills in the critical area of logistics sustainment
and in the development of other enabling force functional capabilities. In addition, the capacity of
the Government of Iraq and its Ministry of Defense to sufficiently plan, program, and budget the
resources necessary to sustain the readiness of its military forces is still maturing.
U.S. Forces – Iraq is conducting an expedited, intensive push to address the most significant ISF
sustainability deficiencies by December 31, 2011; however, to complete certain key aspects of this
ISF force build-up will require the continuing efforts of a robust OSC-I capability beginning in 2012.

6-1C. Iraq National Security Forces                  Department Response
The Department faces significant challenges in Iraq. The Department continues the training,
equipping, and mentoring of the ISF, including development of the ISF's logistics sustainment base,
while conducting a responsible drawdown of U.S. forces by December 31, 2011 in accordance with
the United States-Iraq Security Agreement. In addition, the Department is faced with transitioning
all remaining training, equipping, and mentoring activities to the OSC-I, as well as laying the
groundwork for a security assistance and security cooperation program that will endure after U.S.
forces leave in December 2011.




                                                                                        Addendum A
                                                A-19
Department of Defense Agency Financial Report for FY 2011

The Department has made considerable progress in achieving the goal of the establishment of a
sovereign, stable, and self-reliant Iraq that contributes to the peace and security of the region and
with whom the U.S. can forge a long-term security partnership. Additionally, DoD continues to
support the ISF as they develop the capabilities to provide for internal security and foundational
external defense. In addition, the Department continues to support the transition to a civilian-led
Iraq mission and to stand up the OSC-I, which will be the foundation of the long-term security
partnership.

6-2A. Afghan National Security Forces               IG Summary of Challenge
On June 28, 2011, the Government of the Islamic Republic of Afghanistan gained the support of the
international community to significantly expand the size of the Afghan National Security Forces
(ANSF) to 352,000 personnel to be able to conduct and sustain independent security operations
and provide for the future stability of the country. In addition to expanding the force, a significant
and sustained training, partnering and mentoring effort is required to professionalize the ANSF,
ensuring “quality, not just quantity.”
Between now and the end of 2014, U.S. policy and related DoD military strategy in the Afghanistan-
Pakistan region will be implemented by high-intensity, complex operations that emphasize:
•   Providing continued training, equipping, partnering and mentoring to enable the ANSF to
    assume a leading security operations role;
•   Building the size of the ANSF to 352,000, as agreed by the International Joint Coordination and
    Monitoring Board’s Security Standing Committee, June 28, 2011, and the Government of the
    Islamic Republic of Afghanistan;
•   Withdrawing 10,000 U.S. combat forces from Afghanistan before December 2011;
•   Withdrawing an additional 23,000 U.S. combat forces from Afghanistan in 2012;
•   Conducting a phased drawdown of U.S. combat forces in 2013 and 2014, and
•   Enabling the ANSF to assume lead responsibility for the security of the Afghan people and its
    government as ISAF forces withdraw.
The Department must continue its efforts to develop the capability of the Afghan Ministries of
Defense and Interior to logistically sustain the ANSF. These efforts include the capacity to plan,
program, budget, and execute the fiscal resources provided by the international community along
with revenue generated by its own government. In addition, there are still certain combat support
and service support functional capabilities of the ANSF that will need to be developed for them to
be able to assume independent security responsibilities.
A strategic challenge to mission accomplishment has been to mobilize sufficient institutional
trainers and mentors from NATO and coalition countries. The purpose of the mobilization is to keep
pace with current and anticipated ANSF expansion and the priority of increasing the professional
skills of the security forces.
The extremist force elements based in western Pakistan continue to pose a security threat to the
stability of Afghanistan; therefore, the Department will need to continue developing the capacity of
the Pakistan Security Forces to maintain internal security and eliminate extremist Taliban and
al-Qaeda forces in the Northwest Frontier safe haven.

6-2B. Afghan National Security Forces               IG Assessment of Progress
The size of the ANA and ANP already has grown at a very significant rate over the past two years,
and the International Security Assistance Force (ISAF) command is on track to meet or exceed its
growth targets set for this year. Moreover, the partnering of US and Coalition units and training



                                                                                       Addendum A
                                                A-20
Department of Defense Agency Financial Report for FY 2011

teams has enabled Afghan National Army (ANA) units to accelerate improvement in their
operational capability.
Increasing command focus on the need to have visibility and oversight over the myriad of
contractors supporting ISAF operations has led the NATO Training Mission –
Afghanistan/Combined Security Transition Command – Afghanistan (NTM-A/CSTC-A) to request
several hundred additional U.S. military personnel with specialized skills. A new training program
support office within NTM-A/CSTC-A is intended to provide an integrated contract support program.
In addition, ISAF Joint Command (IJC) has agreed to assume the additional responsibility of
extending the contract oversight capability of NTM-A/CSTC-A by providing Contracting Officer
Representatives when CSTC-A personnel are unable to do so. Finally, an initiative is underway
which, if authorized by the Department, would provide the ability to use military personnel from non-
U.S. coalition commands in a contract oversight role.
The success of the counterinsurgency campaign being conducted against Taliban and extremist
anti-government elements depends on how well the ANSF provides protection for the Afghan
people, establishes an environment of law and order, and gains the people’s trust. The
responsibility to protect the Afghan people falls most directly on the ANP, which operates at the
direct interface with the population in provinces and districts around the country.
In light of this reality, the NTM-A/CSTC-A is conducting an accelerated build-up of the ANP forces
and has achieved considerable progress in increasing its institutional training capacity to grow
these forces, to improve training quality, reduce attrition, and improve recruitment.
In addition, U.S./Coalition forces have implemented an extensive literacy and numeracy program
for army and police personnel. Along with pay reform, this has also improved morale as well as
personnel effectiveness. This program will become even more essential as security forces now are
entering into more specialized and technical training programs requiring a higher level of
comprehension.
For the first time, with the concurrence of the ISAF command and the Government of the Islamic
Republic of Afghanistan, several provinces and districts, along with the greater Kabul capitol area of
operation, were selected to take the lead in governance and security operations starting in
July 2011.

6-2C Afghan National Security Forces                Department Response
A key strategic focus remains on training, equipping, and partnering with the ANSF to enable the
transition of lead security responsibility to the Government of Afghanistan. Redeployments of U.S.
combat forces have already begun, with the ANSF to lead security responsibilities by 2015. The
North Atlantic Treaty Organization (NATO) and the Government of the Islamic Republic of
Afghanistan continue to grow both the quality and quantity of the ANSF. Both the ANA and the
ANP still need support from the international community – particularly in pledging institutional
trainers for the ANSF and Police Operational Mentoring and Liaison Teams – in order to train the
ANSF and provide mentors and partners in the field.
As of July 2011, both ANA and ANP force levels were on track to achieve target goals, at
approximately 170,000 and 131,000. The NATO Training Mission-Afghanistan has implemented
several positive changes in the ANSF training regime since November 2009, including increasing
the number of trainers, providing better marksmanship training, adding literacy training, and
opening branch schools for higher end training.




                                                                                       Addendum A
                                                A-21
Department of Defense Agency Financial Report for FY 2011

7. IG-Identified Challenge: The Nuclear Enterprise
7-1A. Prior Decline of Focus on the Nuclear
                                                   IG Summary of the Challenge
Enterprise
Prior to FY 2011, various reports from government and non-government entities detailed an
environment where the nuclear enterprise in the Department had experienced a marked but gradual
decline in focus upon the nuclear enterprise. That decline was characterized by nuclear forces
being subordinated to non-nuclear forces in military organizations and not receiving sufficient
staffing and funding to perform the nuclear mission according to past standards. Since the last
Management Challenge report, twelve reports were issued that commented on the current state of
the nuclear enterprise.
During the past fiscal year, the DoD IG issued a classified report detailing the current environment
of the nuclear enterprise. Although the specific findings and recommendations of that report are
classified, the report identified continuing weaknesses in maintenance, logistics, and technical
documentation for the employment of nuclear weapons. The organizations referenced in the report
responded positively to the findings and recommendations, using the report results as justification
for organizational and procedural changes.

7-1B. Prior Decline of Focus on the Nuclear
                                                   IG Assessment of Progress
Enterprise
DoD Focus on Sustainment Assessment. In the wake of the Minot and Taiwan incidents numerous
reports were issued by the Department and private consulting organizations concerning the current
state of the Nuclear Enterprise, reasons for the decline of the nuclear enterprise, and
recommendations to improve that enterprise. In September 2009, the DoD IG reported that the
Department is making significant progress in addressing concerns raised and recommendations
given by those reports.
The 2011 Defense Science Board Report from the Defense Science Board Permanent Task Force
on Nuclear Weapons Surety stated that the actions taken since have been “effective in correcting
many of the deficiencies in the operating forces.” At present, we are conducting a review to
measure progress subsequent to the FY 2009 DoD IG report.
During FY 2011, the DoD IG reviewed progress to follow-up on the audit from the 2002 report,
entitled “Physical Security of Nuclear Weapons Located in the Continental United States.” During
that audit, we noted that uneven progress was being made, but overall completion was slower than
the plan detailed in the roadmap. The U.S. Navy had made rapid progress on most areas identified
for improvement. The DoD IG currently is reviewing U.S. Air Force progress as well as reviewing
the status of the recommendations from several prior audits on the DoD nuclear enterprise.
The following reports were issued by either DoD, Nuclear Command and Control System Security
Staff, Department of Energy, the Defense Science Board, or the Government Accountability Office
since the last Management Challenge report:
•   Government Accountability Office Report 11-387 “DoD and NNSA Need to Better Manage
    Scope of Future Refurbishments and Risks” (May 2011).
•   Defense Science Board Permanent Task Force on Nuclear Weapons Surety, “Independent
    Assessment of the Air Force Nuclear Enterprise,” (April 2011).
•   “Exercise Vigilant Shield/Global Thunder Nuclear Weapons Accident Incident Exercise After
    Action Report,” (April 2011).
•   FY 2011-2017 Nuclear Weapon Stockpile Plan – (February 2011) DoD and Department of
    Energy.



                                                                                      Addendum A
                                               A-22
Department of Defense Agency Financial Report for FY 2011

•   NSS Assessment Report on “DOE/NNSA and DoD Mechanisms to Achieve the NSPD-28
    Access Denial Standard,” (August 2010).
•   2010 Joint Defense Science Board/Threat Reduction Advisory Committee Task Force:
    “Nuclear Weapons Effects National Enterprise” (June 2010).
•   “Nuclear Weapons Surety” (JSR-10-103) The JASONS, (May 2010).
•   Nuclear Command and Control System Security Staff Assessment report on “Lifecycle Security
    and Integrity of Code and Authentication Materials,” (May 2010).
•   Nuclear Command and Control System Security Staff Assessment Report on “Critical
    Equipment,” (March 2010).
•   FY 2010 Joint Surety Report
•   Joint Surety 2010 report on the “Nuclear Weapons Stockpile Assessment (ROSA).”
•   “FY 2012 Annual Update to the Report Specified in Section 1251 of the National Defense
    Authorization Act for FY 2010.”
Joint Chiefs of Staff. During FY 2010, the Chairman, Joint Chiefs of Staff, created the Command,
Control, and Nuclear Operations (J36) within the Operations Directorate. This sub-directorate is
headed by a Brigadier General who oversees all aspects of nuclear operations. Also during
FY 2010, a Deputy Director for Strategic Stability was added to the Joint Staff Strategic Plans and
Policy Directorate. This staff subsection oversees all aspects of nuclear weapons and other
weapons of mass destruction from a prevention and preparation perspective.
Department of the Air Force. The Air Force accomplished the following goals since the last
Management Challenge Report:
•   The Air Force Global Strike Command activated August 7, 2009, has completed a year of
    operations since declaring Full Operational Capability in September 2010. Command staff has
    grown from an initial permanent staff of 47 to a staff of over 800 personnel. The command is
    responsible for three Intercontinental Ballistic Missile (ICBM) wings, two B-52 wings, one B-2
    wing, and involves approximately 23,000 assigned personnel in locations around the world.
    Two of the three legs of the nuclear triad are now under one command. Global Strike
    Command is now the lead advocate for sustainment and recapitalization of nuclear related
    systems such as the development of a new manned/unmanned nuclear capable bomber, a
    follow-on cruise missile and replacement helicopter for missile field security.
•   The Air Force Nuclear Oversight Board, chaired by the Secretary of the Air Force and the Chief
    of Staff of the Air Force, started meeting in 2008. The Board continues to meet on a regular
    basis several times annually, attended by senior Air Force officers, to discuss critical issues in
    all phases of the Air Force nuclear enterprise.
•   The Air Force Assistant Chief of Staff for Strategic Deterrence and Nuclear Integration
    (HAF/A10) is a fully staffed and functional organization that provides oversight and guidance to
    all aspects of the Air Force Nuclear Enterprise, except for requirements, which have returned to
    Deputy Chief of Staff for Operations, Plans and Requirements (HAF/A3/5). Functional areas
    include Assessments, Capabilities, Executive Services, Force Development, Operations, and
    Planning Policy and Strategy.
•   The Air Force Nuclear Weapons Center continues to enhance capabilities to perform its primary
    sustainment and maintenance missions. Its organization contains a missile sustainment group
    for ICBM issues, a nuclear systems group for engineering and logistics issues, and a munitions
    maintenance group for storage and surety issues. As the nuclear mission continues to
    approach its Cold War competency, the Nuclear Weapons Center continues to be tasked to
    provide technical assistance and increased logistics support.



                                                                                       Addendum A
                                               A-23
Department of Defense Agency Financial Report for FY 2011

•   A decision to transfer CONUS Munitions Squadrons from the operational control of Air Force
    Materiel Command to Air Force Global Strike Command by April 2012. The Munitions
    Squadrons store, maintain, and prepare nuclear weapons for possible use during wartime. The
    units that deliver the weapons to missile and bomber wings are all under the command of Air
    Force Global Strike Command.
•   The Nuclear Weapons Related Materiel Positive Inventory Control Fusion Center provides
    nuclear enterprise users with a single source for enterprise tracking of NWRM and is designed
    to prevent a repeat of the Taiwan incident.
•   Inspection results now have an adjudication process to ensure there is one agreed-upon grade,
    which is approved by the Inspector General of the Air Force.
Department of the Navy. Prior reports on the U.S. Navy’s nuclear enterprise, including the
Schlesinger II report, recommended that the command of the Strategic Systems Program be
elevated to Vice-Admiral. While Navy did concur with the intent of the recommendation to put more
senior leader focus on the nuclear weapons enterprise issues, Navy did not concur with the notion
that the Director, Strategic Systems programs (DIRSSP) needed to be a Vice Admiral. The Chief of
Naval Operations corrected that deficiency by establishing the Navy’s Nuclear Weapons Oversight
Council and placing the Director of the Navy Staff in charge of all nuclear weapons management
related issues.
Issues identified in those reports include the following:
(1) Strategic Systems Programs continues its leadership in the maintenance of survivability of fleet
units, particularly regarding Electro-Magnetic Pulse vulnerability. Funding continues to be sufficient
to conduct further survivability studies.
(2) The current Ohio class submarines will remain in service although preliminary plans are
underway for a new class of nuclear armed submarines.
(3) The nuclear armed fleet is continuing to upgrade its in-port and at-sea security posture through
acquisition of new systems and continuous training of security force personnel.

7-1C. Prior Decline of Focus on the Nuclear
                                                      Department Response
Enterprise
The Department’s summary-level response to the IG’s challenge and its assessment of the
Department’s progress in the nuclear enterprise is reported in paragraph 7-2C of this section.

7-2A. Keys to Improvements in the DoD
                                                      IG Summary of Challenge
Nuclear Enterprise
The Department needs to sustain its focus on the nuclear enterprise. The following elements are
key to improvements within the DoD nuclear enterprise:
•   Create an environment that emphasizes the nuclear mission and a reliable, safe, secure, and
    credible nuclear deterrent that is essential to national security and is a high DoD priority.
•   Conduct detailed reviews and studies of all critical elements of the nuclear enterprise to identify
    key deficiencies and methods for improvement.
•   Develop corrective action plans that address the deficiencies and provide adequate funding
    and leadership to ensure implementation.
•   Ensure adequate funding and resources to effectively implement action plans.
•   Implement the corrective actions and conduct follow-up reviews to ensure that the action plans
    are correcting the deficiencies.



                                                                                        Addendum A
                                                 A-24
Department of Defense Agency Financial Report for FY 2011

7-2B. Keys to Improvements in the DoD
                                                      IG Assessment of Progress
Nuclear Enterprise
Air Force. Since the Taiwan and Minot incidents, the Air Force has refocused their efforts on
reinvigorating the management and everyday operations of their nuclear enterprise. The most
significant events were the creation of the Air Force Global Strike Command and the Assistant
Chief of Staff for Strategic Deterrence and Nuclear Integration (HAF/A10). Activated in 2009, the
Air Force Global Strike Command assumed operational and administrative control of all Air Force
ICBM and strategic bomber assets. With the full operation of that command, the various logistical,
intelligence, and security organizations inherent in a military organization of that size are functioning
properly. Within Headquarters Air Force, HAF/A10 is a fully staffed and functional organization,
which performs oversight and provides advice in the area of assessments, operations, planning,
policy, strategy, capabilities and force development. The Air Force maintains an application
accessed through the Air Force Portal that tracks nuclear enterprise action items, along with due
date and status. The DoD IG Intelligence and Special Programs Assessments staff was given
access to that AF website, so continuous follow-up is now available.
The nuclear inspection process has become more standardized; as a result, systemic issues can
be identified. The rate of failure on operational inspections has declined. According to the DSB
2011 report “the risk of an unauthorized transfer of a nuclear weapon is near zero.”
Navy. The Navy continues its use of the Navy Nuclear Weapon Senior Leaders Council involving
nuclear weapon systems. The lessons learned will be incorporated into the design of the new
submarine follow-on. The OPNAV Nuclear Weapons Council and Navy Nuclear Weapons Senior
Leader Oversight Council, established to coordinate all OPNAV staff responsibilities for nuclear
weapons activities, were consolidated into a single Navy Nuclear Weapons Oversight Council.
National Nuclear Security Administration. The Administration proposed $11.8 billion in new budget
authority for the National Nuclear Security Administration for FY 2012, a 5.1 percent increase over
the FY 2011 request. The budget request includes $7.6 billion for Weapons Activities, including the
B-61 Life Extension Program (LEP).
This action supports the recommendation made in the DoD IG report on B-61 Nuclear Weapon Use
Control, issued September 18, 2009. The LEP will significantly extend the life of the B-61 and allow
it to be mated with the F-35 Joint Strike Fighter. Also, with the approval of the New Strategic Arms
Reduction Treaty (START), the reduction of total warheads will increase the importance of the B-61
Life Extension Program and place more emphasis on infrastructure capability and responsiveness.
Continuing Concerns. The increased emphasis in the re-vitalization of the nuclear enterprise has
been joined by increased levels of spending for personnel, acquisitions, and maintenance
(personnel and materiel). Improvements cannot be sustained without the appropriate financial
commitment. If funding levels decline, the previous patterns will repeat: personnel paying less
primary attention to the nuclear endeavor, acquisition of spare parts and new weapons systems
either deferred or denied altogether, and shortages of skilled personnel in the critical technical
areas.
In April 2010, the Department issued the Nuclear Posture Review report, which establishes the
nuclear weapons policy, strategy, capabilities, and force protection for the next five to ten years;
however, it lacks direction for some of the other areas of the nuclear enterprise, including threat and
warning assessments as well as command and control direction. The Nuclear Posture Review
report is crucial for the establishment of national level requirements and funding priorities for the
entire nuclear enterprise, but limited itself to areas which were needed to successfully conclude the
New START treaty.
Systemic problems still exist within the Air Force nuclear enterprise. Although not as prevalent as
in the past, inspection failures continue to occur, resulting in the decertification of some systems
and personnel. During an FY 2010 DoD IG classified audit of weapons storage facilities, problems
were noted in funding levels for sustainment activities, and recommendations were made to the Air


                                                                                          Addendum A
                                                 A-25
Department of Defense Agency Financial Report for FY 2011

Force Nuclear Weapons Center to obtain additional supplemental funding. Recommendations also
were made to continue compatibility between storage systems and weapons upgrades, develop
spare parts inventory management systems, and to review and update Technical Orders. To date,
the Center has reported that additional funding was obtained, inventory management changes were
made, and they are in the process of upgrading Technical Orders.

7-2C. DoD Nuclear Enterprise                        Department Response
The Department has made significant progress in continuously improving the nuclear enterprise.
Specifically, new management structures, such as the Air Force Global Strike Command and the
Air Force Assistant Chief of Staff for Strategic Deterrence and Nuclear Integration, are gaining
momentum. Arguably, the clearest lines of accountability and responsibility have been established
since the end of the Cold War. While much work remains, the nuclear community’s interagency
team has provided continuous surveillance and oversight, along with robust inspection regimens
across the Services, thereby adding a layer of nuclear surety not seen in recent years. Additionally,
while facing unprecedented challenges, in a fiscally-constrained environment, the Department
remains committed to providing innovative solutions through sustainment and modernization
programs.




                                                                                       Addendum A
                                               A-26
Department of Defense Agency Financial Report for FY 2011

MANAGERS’ INTERNAL CONTROL PROGRAM
The OUSD(Comptroller) leads DoD’s Federal Managers’ Financial Integrity Act (FMFIA)
program, designated as the Managers’ Internal Control Program (MICP). The MICP holds
managers throughout the Department accountable for ensuring effective internal controls in
their areas of responsibility. All Components are required to conduct a robust programmatic
approach to establish and assess internal controls for all mission-essential operations.
Components that produce stand-alone financial statements also are required to include
assurances related to financial reporting and financial systems in their programs.

FINANCIAL STATEMENT MATERIAL WEAKNESSES
The following Table 1 lists the DoD IG’s identified 13 areas of material weakness in the
Department’s financial statement reporting.

 Table 1. Summary of Financial Statement Audit

 Audit Opinion: Disclaimer
 Restatement: Yes
                                          Beginning                                      Ending
        Areas of Material Weakness                       New   Resolved   Consolidated
                                           Balance                                       Balance
 1 Accounts Payable                          1                                             1
 2 Accounting Entries                        1                                             1
 3 Environmental Liabilities                 1                                             1
 4 Government Property in Possession of
                                             1                                             1
   Contractors
 5 Intragovernmental Eliminations            1                                             1
 6 Operating Materials and Supplies          1                                             1
 7 Reconciliation of Net Cost of
                                             1                                             1
   Operations to Budget
 8 Statement of Net Cost                     1                                             1
 9 Financial Management Systems              1                                             1
10 Fund Balance with Treasury                1                                             1
11 General Property, Plant & Equipment       1                                             1
12 Inventory                                 1                                             1
13 Accounts Receivable                       1                                             1
    Total Material Weaknesses                13           0       0            0           13




                                                                               Addendum A
                                                  A-27
Department of Defense Agency Financial Report for FY 2011

TYPES OF MATERIAL WEAKNESSES
The Department’s management-identified weaknesses are determined by assessments of
internal controls, as required by the FMFIA, the Federal Financial Management Improvement
Act (FFMIA), and OMB Circular No. A-123, and fall into three categories:
1. FMFIA Section 2, Financial Reporting Material Weaknesses (see Table 2a).
2. FMFIA Section 2, Operations Material Weaknesses (see Table 2b).
3. FMFIA Section 4, Financial System Nonconformance Weaknesses (see Table 2c).
Detail for each of the above three categories are explained below:
1. FMFIA Section 2, Financial Reporting Material Weaknesses. Under the oversight
of the DoD Financial Improvement Audit Readiness (FIAR) Governance Board, DoD’s
assessment of its financial reporting identified the following areas of material weakness,
listed in Table 2a. The column entitled "Ref Table 1" crosswalks the reported FMFIA
manager-identified areas of material weakness to similar areas of weakness identified by
the IG, which are listed in Table 1. The Department is reporting seven additional material
weaknesses in FY 2011 due to its decision to merge the Internal Control Over Financial
Reporting (ICOFR) and the Financial Improvement and Audit Readiness (FIAR) program
reporting, as well as an increase in the number of assessable units for which Components
are executing financial improvement and audit readiness efforts.




                                                                          Addendum A
                                          A-28
Department of Defense Agency Financial Report for FY 2011

    Table 2a. Effectiveness of Internal Control over Financial Reporting (FMFIA Section 2)
    Statement of Assurance: No assurance
     End-to-End        Areas of Material          Ref       Beginning                               1   Ending
                                                                        New   Resolved Reassessed
      Process             Weakness              Table 1      Balance                                    Balance

                    Appropriations Received                              1                                1
                    Fund Balance with
                                                   10            1                                        1
                    Treasury (FBWT)
Budget-to-Report Financial Reporting
                                                2, 7, & 8        1                                        1
                 Compilation
                    Intragovernmental
                                                   5             1                                        1
                    Eliminations
                    Health Care Liabilities                      1                                        1
Hire-to-Retire      Civilian Pay                                         1                                1
                    Military Pay                                         1                                1
    Order-to-Cash   Accounts Receivable            13            1                                        1
                    Contracts                      1                     1                                1
                    Accounts Payable               1             1                         (1)            0
                    MILSTRIP Orders                1                     1                                1
Procure-to-Pay
                    Reimbursable Work
                                                   1                     1                                1
                    Orders - Grantor
                    Transportation of
                                                   1                     1                                1
                    People
                    Military Equipment
                                                   11            1                                        1
                    Assets
                  General Purpose
Acquire-to-Retire Equipment                     4 & 11           1                                        1

                    Real Property Assets           11            1                                        1
                    Environmental Liabilities      3             1                                        1
                    Inventory                      12            1                                        1
Plan-to-Stock       Operating Materials &
                                                   6             1                                        1
                    Supplies
                    Total Financial
                    Reporting Material                           12      7       0         (1)            18
                    Weaknesses




1
 Reclassified to include Contracts, Reimbursable Work Orders – Guarantor, Military Standard Requisitioning
and Issuance Procedure Orders, and Transportation of People

                                                                                                 Addendum A
                                                          A-29
Department of Defense Agency Financial Report for FY 2011

Table 2a-1 provides the description and corrective action plan for each material weakness
related to internal control over financial reporting.

 Table 2a-1. FY 2011 Internal Control over Financial Reporting Material Weaknesses
                                                                                                  Target
                                 Year          DoD
     Material Weaknesses                                         Corrective Actions              Correction
                               Identified   Components
                                                                                                   Year
 1   Appropriations            FY 2011      Department-   The Components are implementing        FY 2013
     Received: The                          wide          regular controls over the
     Department’s                                         apportionment and allotment of
     processes and controls                               funds by identifying the entire
     to account for                                       transaction population and
     transactions and                                     reconciling the financial statement
     balances of budgetary                                amount to the general ledger, to
     authority are not                                    the detailed transactions, and to
     effective.                                           supporting authorizing documents
                                                          (e.g., public law, OMB
                                                          apportionments, funding
                                                          authorization documents).
                                                          Components are also working with
                                                          sub-allotees to document and
                                                          reconcile funds distributed to them.

 2   Fund Balance with         FY 2006      Army; Navy;   The Components are working             FY 2016
     Treasury: The                          DLA; DIA;     toward integrating general ledger
     Department does not                    NSA; SMA;     systems with feeder systems to
     have effective                         USSOCOM       maintain transaction-level
     processes and controls                               supporting documentation for
     to reconcile                                         disbursements and collections.
     transactions posted to                               The Components also are
     Fund Balance with                                    developing the processes and
     Treasury (FBwT)                                      controls to reconcile transaction-
     general ledger accounts                              level differences between DoD and
     with transactions                                    the Department of Treasury
     reported and posted to                               accounts in a timely, efficient
     the Department of the                                manner.
     Treasury’s accounts to
     support FBwT
     transactions with
     supporting documents.

 3   Financial Reporting       FY 2007      Department-   The Department continues to            FY 2017
     Compilation: Due to                    wide          improve business processes and
     inadequate internal                                  controls through the
     controls, the                                        implementation of enterprise
     Department is unable to                              resource planning systems (ERPs)
     prepare accurate                                     that produce accurate, timely, and
     financial statements                                 auditable financial reports.
     that are supported by                                Additional steps that will solidify
     general ledger balances                              correction of this weakness include
     and adequately                                       actions to clean up legacy
     documented and                                       balances, eliminate record data
     supported journal                                    types and routine general ledger tie
     entries.                                             point reconciliations, and other
                                                          processes.




                                                                                          Addendum A
                                                 A-30
Department of Defense Agency Financial Report for FY 2011

 Table 2a-1. FY 2011 Internal Control over Financial Reporting Material Weaknesses
                                                                                                     Target
                                  Year          DoD
     Material Weaknesses                                           Corrective Actions               Correction
                                Identified   Components
                                                                                                      Year
 4   Intragovernmental          FY 2008      Department-   The Department has developed             FY 2015
     Eliminations: The                       wide          standard business processes and
     Department is unable to                               data to capture trading partner
     collect, exchange, and                                information at the transaction level
     reconcile buyer and                                   and to support eliminations. The
     seller intragovernmental                              Department is implementing
     transactions, resulting                               replacement systems and a
     in unsupported                                        standard financial information
     adjustments.                                          structure, which will incorporate the
                                                           necessary elements to enable the
                                                           Department to correctly report,
                                                           reconcile, and eliminate
                                                           intragovernmental balances. The
                                                           Department is collaborating with
                                                           the Department of Treasury, OMB,
                                                           the Treasury’s Office of Financial
                                                           Innovation and Transformation, and
                                                           Federal partners to develop and
                                                           implement a government-wide
                                                           solution to capture the transaction
                                                           level detail needed to reconcile
                                                           intragovernmental transaction
                                                           activity.

 5   Health Care Liabilities:   FY 2003      MERHCF;       Medical Components are                   FY 2017
     The current military                    SMA           implementing procedures to
     health system financial                               improve coding and financial
     processes cannot                                      reconciliation for military treatment
     collect sufficient                                    facilities’ operations as well as
     transaction-level cost                                developing proposals to reimburse
     and performance                                       military treatment facilities on a per
     information for                                       capita basis. Such proposals will
     procedures performed                                  be similar to arrangements with
     in military treatment                                 managed-care providers.
     facilities to support                                 Implementation of SMA ERPs will
     financial reports.                                    improve overall financial reporting.

 6   Civilian Pay: The          FY 2011      Department-   The Components are addressing            FY 2017
     Department does not                     wide          the reliability and existence of
     have effective                                        supporting documentation in the
     processes and controls                                applicable ERPs. They are
     to account for                                        defining and prioritizing sub-
     transactions and                                      processes into assessable units.
     balances in the civilian
     pay process.

 7   Military Pay: The          FY 2011      Department-   The Components are developing            FY 2017
     Department’s                            wide          processes to reconcile supporting
     processes and controls                                documents to the general ledger on
     to account for                                        a repeatable basis in order to audit
     transactions and                                      around the numerous micro
     balances in the military                              applications used to transfer data
     pay process are not                                   from the Defense Joint Military Pay
     effective.                                            System to the general ledgers.




                                                                                              Addendum A
                                                  A-31
Department of Defense Agency Financial Report for FY 2011

 Table 2a-1. FY 2011 Internal Control over Financial Reporting Material Weaknesses
                                                                                                     Target
                                   Year          DoD
      Material Weaknesses                                           Corrective Actions              Correction
                                 Identified   Components
                                                                                                      Year
 8    Accounts Receivable:       FY 2003      Army; Air     The Components are continuing           FY 2017
      The Department is                       Force; DLA;   efforts to implement ERPs to
      unable to accurately                    MERHCF;       improve collection of payments and
      record, report, collect,                SMA           minimize manual processes.
      and reconcile                                         Improving reconciliations between
      intragovernmental                                     systems, to include identification of
      accounts receivable as                                aging accounts, is another key
      well as accounts                                      aspect of the Department’s efforts
      receivable due from the                               to resolve this weakness.
      public.
 9    Contracts: The             FY 2011      Department-   The Components are continuing           FY 2017
      Department does not                     wide          efforts to improve the ERPs’ use of
      have effective                                        data currently distributed from
      processes and controls                                contract writing systems to support
      to account for                                        timely and accurately recording of
      transactions and                                      obligations/deobligations of funds.
      balances supporting the                               The Components are developing
      Contracts procure-to-                                 processes to ensure timely contract
      pay process.                                          deobligation upon delivery or
                                                            completion and regular review of
                                                            obligation estimates.
 10   MILSTRIP Orders: The       FY 2011      Department-   The Components are identifying          FY 2017
      Department has                          wide          and testing key controls in the
      ineffective processes                                 requisition and issuance of material
      and controls to account                               as well as testing the interfacing
      for transactions and                                  data between logistics receipt
      balances in the                                       processing systems and the
      MILSTRIP Orders                                       financial systems. The
      procure-to-pay process.                               Components also are verifying
                                                            timely recording of accounts
                                                            payable to ensure that payment
                                                            does not occur prior to physical
                                                            receipt of material and returns are
                                                            properly authorized and recorded
                                                            to resolve this weakness.
 11   Reimbursable Work          FY 2011      Department-   The Components are identifying          FY 2017
      Orders (Grantor): The                   wide          and testing key controls related to
      Department does not                                   the process, to include orders
      have effective controls                               accepted; expenses; receivables
      over the processes and                                and collections; recorded manually
      controls to account for                               or automated; and those
      transactions and                                      organizational roles or systems
      balances supporting the                               performing these transactions.
      Reimbursable Work
      Orders – Grantor
      procure-to-pay process.




                                                                                             Addendum A
                                                   A-32
Department of Defense Agency Financial Report for FY 2011

 Table 2a-1. FY 2011 Internal Control over Financial Reporting Material Weaknesses
                                                                                                          Target
                                      Year          DoD
      Material Weaknesses                                               Corrective Actions               Correction
                                    Identified   Components
                                                                                                           Year
 12   Transportation of             FY 2011      Department-    The Components are developing            FY 2017
      People: The                                wide           plans to address ‘segregation of
      Department does not                                       duties’ internal control issues within
      have effective controls                                   the transaction system due to
      over the processes and                                    overlapping permission-level
      controls to account for                                   assignments, as well as
      transactions and                                          demonstrating effective information
      balances supporting the                                   technology general and application
      transportation of                                         controls.
      people.

 13   Military Equipment            FY 2003      Army; Navy;    The Components are following a           FY 2016
      Assets: The                                MDA ;          strategy to first validate the
      Department's financial                     USSOCOM        existence and completeness of
      systems do not support                                    mission-critical asset records in
      capturing and recording                                   logistics and accounting systems.
      the quantity and                                          The OUSD(C) presented a
      historical cost of military                               Business Case Analysis on
      equipment in                                              alternatives for valuing mission
      compliance with                                           critical assets. The recommended
      Federal accounting                                        alternative is to request the Federal
      standards.                                                Accounting Standards Advisory
                                                                Board to change the Federal
                                                                Accounting Standards to eliminate
                                                                balance sheet reporting by
                                                                expensing the cost of assets.
                                                                Assuming a standards change, the
                                                                Components will report Military
                                                                Equipment quantities as “Required
                                                                Supplementary Information” in the
                                                                financial statements.

 14   General Purpose               FY 2006      Army; Air      The Components are validating the        FY 2015
      Equipment: The                             Force; Navy;   existence and completeness of
      Department does not                        DLA; DIA;      general purpose equipment before
      meet Federal                               DSS; NGA;      moving forward to record the
      accounting standards                       USSOCOM;       valuation of such equipment. A
      for financial reporting of                 NSA; MDA       critical part of this effort is to
      general personal                                          identify property in the possession
      property, specifically in                                 of contractors and ensure
      the quantity and value                                    information in the property
      of general equipment.                                     management systems is accurately
                                                                reported.

 15   Real Property Assets:         FY 2003      Army; Air      The Components have                      FY 2017
      The Department does                        Force; Navy;   implemented real property
      not have adequate                          DLA; WHS       inventory requirements (RPIR) data
      internal controls in                                      standards. The Components are in
      place to provide                                          the process of implementing
      assurance that real                                       sustainable real property
      property asset                                            accountability and construction in
      quantities and values                                     progress (CIP) business processes
      reported in the financial                                 and management controls. The
      reports are accurate.                                     Components will also complete
                                                                reconciliation of real property
                                                                records to ensure assets exist and


                                                                                                  Addendum A
                                                      A-33
Department of Defense Agency Financial Report for FY 2011

 Table 2a-1. FY 2011 Internal Control over Financial Reporting Material Weaknesses
                                                                                                       Target
                                    Year          DoD
      Material Weaknesses                                            Corrective Actions               Correction
                                  Identified   Components
                                                                                                        Year
                                                             records are complete and assess
                                                             the effectiveness of management
                                                             controls. Additionally, the
                                                             Components will periodically
                                                             evaluate the quality of real property
                                                             data by comparing with physical
                                                             assets and annual reconciliation.
                                                             All stated steps will be validated by
                                                             OSD (I&E) to ensure completeness
                                                             of measures effectiveness.

 16   Environmental               FY 2001      Army; Air     The Components are implementing          FY 2015
      Liabilities: The                         Force;        systems, processes, and controls
      Department’s internal                    USACE         to ensure the accuracy of site-level
      controls for reporting                                 liability data to report environmental
      environmental liabilities                              liabilities. The Components are
      do not provide                                         updating guidance and training
      assurance that clean-up                                base level environmental personnel
      costs for all of its                                   on processes and cost to complete
      ongoing, closed, and                                   (CTC) estimating practices,
      disposal operations are                                standardizing cost estimating
      identified, consistently                               supporting documentation
      estimated, and                                         practices.
      appropriately reported.

 17   Inventory: The              FY 2005      Army; Navy;   The Components are developing            FY 2016
      Department is unable to                  Air Force;    physical inventory processes,
      accurately account for                   DLA           including the reconciliation of
      the quantity and value                                 quantities of inventory with data
      of inventory reported in                               recorded in the accounting
      its financial statements.                              systems. The ability to track
                                                             historical costs with the
                                                             implementation of ERPs is also an
                                                             important element. In addition, the
                                                             processes and controls related to
                                                             in-transit inventory is a key focus
                                                             area.

 18   Operating Material &        FY 2005      Army; Navy;   The Components are implementing          FY 2017
      Supplies (OM&S): The                     Air Force;    ERPs that will track OM&S
      Department cannot                        USSOCOM       purchases and issuances at a
      accurately account for                                 transaction level to address this
      the quantity and value                                 weakness. In addition,
      of operating material                                  Components are enhancing
      and supplies.                                          physical inventory processes to
                                                             ensure accurate reporting.


2. FMFIA Section 2, Operational Material Weaknesses.              The Department’s
Components utilize an entity-wide, risk-based, self-assessment approach to establish
and assess internal controls for mission-essential operations. Table 2b shows the
weaknesses resulting from this assessment.




                                                                                               Addendum A
                                                    A-34
Department of Defense Agency Financial Report for FY 2011

In the 2010 Agency Financial Report (AFR), the Department classified material
weaknesses into the following six categories:
(1) Personnel Resourcing, Qualifications and Training;
(2) Information Technology Management and Assurance;
(3) Personnel Security Investigations;
(4) Internal Controls over Contingency Contracting;
(5) Contracting for Services, and
(6) Certain Audits do not Meet Professional Standards.
In FY 2011, the Department realigned its reported material weaknesses into
15 categories, as outlined in the Department of Defense Instruction (DoDI)
Number 5010.40, “Managers Internal Control Program Procedures”, dated July 29, 2010.
Additional evaluation and analysis of the material weaknesses determined that prior year
reportable conditions were significant and should be reported as material weaknesses;
these material weaknesses are included in the “new” column in Table 2b, below, and
described in Table 2b-1. Material weaknesses reported in previous years that have been
corrected are not listed in Table 2b-1, and are listed only in Table 2b. In addition, we
reclassified material weaknesses as “reportable conditions,” because the actual
deficiency in test and evaluations did not meet the criteria for a material weakness as
described in the MICP Assessment Section in the Management Discussion and Analysis
section of this report.

 Table 2b. Effectiveness of Internal Control over Operations (FMFIA Section 2)
 Statement of Assurance: Qualified
          Area of Material        Beginning                                           Ending
                                                New       Resolved     Reassessed
            Weakness               Balance                                            Balance
 1 Major Systems Acquisition         1           1           (1)                        1
   Communications,
 2                                   3           3           (2)                        4
   Intelligence and/or Security
   Comptroller and/or
 3                                               2                                      2
   Resource Management
 4 Contract Administration           1                                                  1
 5 Force Readiness                   1           2                         (1)          2
   Personnel and/or
 6 Organizational                    2           1                                      3
   Management
 7 Property Management               1                                                  1
 8 Supply Operations                             1                                      1
 9 Information Technology            1                                     (1)
     Total Operational Material
                                     10          10          (3)           (2)          15
     Weaknesses




                                                                                 Addendum A
                                              A-35
Department of Defense Agency Financial Report for FY 2011

Table 2b-1 provides the description and corrective action plan for each material
weakness related to internal control over operations in Table 2b.

    Table 2b-1. FY 2011 Internal Control over Operations Material Weaknesses
                                                                                                             Target
                                            Year          DoD
            Material Weaknesses                                              Corrective Actions             Correction
                                          Identified   Components
                                                                                                              Year
    1       Major Systems
            Acquisition:
        a   The Department lacks          FY 2011      Department-   The Department is developing an        Reassessed
            efficient processes that                   wide          analytical approach to prioritize      annually
            ensure they maximize                                     capability needs. Empowering           based on
            the return on weapon                                     portfolio managers to prioritize       incremental
            system investments. In                                   needs, make decisions, and             improve-
            addition, the                                            allocate resources facilitates         ments
            Department must find                                     holding programs and individuals
            ways to deliver more                                     accountable for policy
            capability to the                                        implementation via milestone and
            warfighter for less than                                 funding decisions to include the
            it has cost in the past.                                 use of reporting metrics.
    2       Communications,
            Intelligence and/or
            Security:
        a   Controls related to           FY 2011      OSD; Navy     The Department is developing a PII     FY 2013
            safeguarding Personally                                  training module to update/remind
            Identifiable Information                                 employees of the need to
            (PII) are ineffective.                                   safeguard PII. An automated tool
            Department PII                                           is being developed to capture PII
            breaches are                                             breaches for further analysis.
            unacceptably high.
            Metrics demonstrate a
            need to strengthen the
            existing or develop new
            safeguarding policies.
            Information is not
            properly maintained in
            order to develop and
            execute comprehensive
            trend analyses.
        b   Processes are not in          FY 2011      Air Force     The Air Force is in the process of     FY 2012
            place to ensure that                                     developing and installing a training
            military, civilian, and                                  and certification system to track IA
            contractor personnel                                     personnel certifications.
            with Information
            Assurance (IA) duties
            have the proper
            certification in their
            computer network area
            of responsibility.
        c   Weaknesses exist in           FY 2006      Navy 2;       The Navy is establishing a             FY 2012
            the Department’s                           USAFRICOM 3   Communications Security Account
            management and                                           Manager position. In addition,
            assurance of the                                         USAFRICOM plans to assess its
            reliability and security of                              consolidated enterprise and to

2
    Previously classified as Information Technology Management and Assurance.
3
    Ibid.

                                                                                                     Addendum A
                                                            A-36
Department of Defense Agency Financial Report for FY 2011

 Table 2b-1. FY 2011 Internal Control over Operations Material Weaknesses
                                                                                                           Target
                                        Year          DoD
         Material Weaknesses                                             Corrective Actions               Correction
                                      Identified   Components
                                                                                                            Year
         the information                                         develop additional requirements;
         technology                                              engineer, implement, operate, and
         infrastructures.                                        maintain a joint enterprise network;
                                                                 and provide additional capabilities
                                                                 for the tactical local area network.
     d   Internal assessments         FY 2011      OSD; DSS;     The Department is implementing a         FY 2012
         have identified                           USAFRICOM     risk management program to
         weaknesses in the                                       evaluate the security state of
         Department’s Cyber                                      information systems and identify
         Security controls,                                      risks. Systems Security
         exposing systems to                                     Engineering programs are being
         potential information                                   developed to resist the forces to
         warfare attacks.                                        which they are subjected.
 3       Comptroller and/or
         Resource Management:
     a   The Department’s             FY 2011      Department-   The Department is in the process         FY 2017
         current processes,                        wide          of implementing ERPs and
         systems, and controls                                   improving standard operating
         do not provide reliable                                 procedures and controls related to
         and accurate financial                                  producing financial statements.
         statements.
     b   Weaknesses within the        FY 2011      OSD; Air      The Department is enhancing              FY 2014
         funds control processes                   Force;        systems for tracking funds in
         result in the inability to                USSOCOM       addition to publishing guidance and
         adequately track funds                                  scheduling training for personnel
         consistent with                                         related to funding activities. The
         regulations, policies,                                  Department requires Components
         existing laws, and use                                  to review and evaluate training
         fund execution                                          records to ensure personnel
         information to support                                  certifying and handling funds have
         budget requests. The                                    financial management and fiscal
         lack of adequate funds                                  law training.
         control has led to
         several Anti Deficiency
         Act violations.
 4       Contract Administration:
     a   The Department’s lack        FY 2006      Department-   The Department is revising               Reassessed
         of well-defined                           wide          guidance on contracting                  annually
         requirements, the use                                   operations, which includes               based on
         of ill-suited business                                  oversight, responsibilities, policy,     incremental
         arrangements, and the                                   and defining roles, as well as           improve-
         lack of an adequate                                     assessing the effectiveness of           ments
         number of trained                                       efforts to improve competition,
         acquisition and contract                                contracting arrangements, and
         oversight personnel                                     incentives. The Department
         contribute to unmet                                     intends to fully integrate operational
         expectations and place                                  contract support through education
         the department at risk                                  and pre-deployment training in
         of potentially paying                                   addition to establishing improved
         more than necessary.                                    processes and procedures.


 5       Force Readiness:



                                                                                                  Addendum A
                                                        A-37
Department of Defense Agency Financial Report for FY 2011

    Table 2b-1. FY 2011 Internal Control over Operations Material Weaknesses
                                                                                                               Target
                                         Year          DoD
            Material Weaknesses                                             Corrective Actions                Correction
                                       Identified   Components
                                                                                                                Year
        a   The Air Force has failed   FY 2011      Air Force       The Air Force is developing a             FY 2012
            to effectively implement                                weapons-of-mass-destruction
            a weapons-of-mass-                                      emergency response program,
            destruction emergency                                   which includes training personnel
            response program,                                       and ordering necessary equipment
            which includes plans,                                   to ensure appropriate inventory
            policy, and reporting                                   levels and standardized policies for
            requirements, in                                        reporting emergencies exist.
            addition to the
            management of
            equipment funds and
            inventory levels.
        b   The Air Force did not      FY 2011      Air Force       The Air Force has developed a             FY 2012
            properly report Unit                                    checklist for ensuring accurate
            Type Codes in the                                       transaction coding, as well as
            personnel system                                        evaluating and expanding
            leading to inaccurate                                   procedures for requesting,
            readiness assessments.                                  processing and obtaining
                                                                    Deployment Requirements
                                                                    Manning Documents.
    6       Personnel and/or
            Organizational
            Management:
        a   Audits have found that     FY 2009      DCAA 4          DCAA is developing policies and           FY 2012
            DCAA personnel lacked                                   procedures to ensure auditors
            sufficient professional                                 receive sufficient training, work
            judgment and quality to                                 force surveys and instituting peer
            properly plan, execute                                  reviews, in order to strengthen the
            and report findings due                                 quality of the workforce conducting
            to improper personnel                                   audits of contracts.
            qualifications and
            organizational
            mismanagement.
        b   The lack of quality        FY 2010      DCMA 5          DCMA is developing a formalized           FY 2014
            assurance training for                                  education, training, and certification
            the acquisition                                         program for all levels of employees.
            workforce, along with                                   The DCMA will review and evaluate
            the increasing                                          the results of a hiring initiative upon
            complexity of products                                  completion of a 24-month training
            purchased, inhibits the                                 and certification program. The
            agency’s ability to                                     DCMA is developing a robust data
            conduct necessary and                                   analysis and information
            critical reviews of                                     management tool to assist the
            contract documentation.                                 contract review process.
            From 2003 to 2009,
            there has been a 60%
            workforce reduction
            resulting in a
            requirement to absorb
            risk in cost monitoring
            activities.

4
    Previously classified as Certain Audits do not Meet Professional Standards.
5
    Previously classified as Personnel Resourcing, Qualifications, and Training.

                                                                                                      Addendum A
                                                         A-38
Department of Defense Agency Financial Report for FY 2011

 Table 2b-1. FY 2011 Internal Control over Operations Material Weaknesses
                                                                                                   Target
                                  Year          DoD
     Material Weaknesses                                          Corrective Actions              Correction
                                Identified   Components
                                                                                                    Year
 c   Domestic abuse has         FY 2011      Department-   The Department continues to            FY 2012
     increased throughout                    wide          comply with Section 543(b) of the
     the Department due to                                 FY 2011 National Defense
     limited or reduced                                    Authorization Act. This section
     effectiveness of the                                  requires the implementation and
     Family Advocacy                                       oversight of the Family Advocacy
     Program.                                              Program in addition to providing a
                                                           formal report to both House and
                                                           Senate Armed Services
                                                           Committees. A robust campaign to
                                                           ensure personnel are aware of the
                                                           program is underway. An
                                                           assessment tool will assist in
                                                           further monitoring the risk of
                                                           domestic abuse.
 7   Property Management:
 a   The Department has         FY 2011      Department-   The Department is establishing         Reassessed
     not properly trained                    wide          procedures and training personnel      annually
     staff or enabled                                      on property management policies.       based on
     sufficient tools to                                   The Components are to establish        incremental
     address the                                           accountable records that will          improve-
     accountability                                        identify property as Government        ments
     requirements in place to                              Furnished Property. OUSD(AT&L)
     adequately oversee and                                will validate accountable property
     execute personal                                      records and supporting
     property transactions.                                documentation through existence
                                                           and completeness testing.
 8   Supply Operations
 a   The Department lacks       FY 2011      Department-   Improving Supply Change                Reassessed
     management of supply                    wide          Management (SCM) operations            annually
     inventories and                                       through better demand forecasting,     based on
     responsiveness to                                     asset visibility, and distribution     incremental
     warfighters’                                          processes including: publishing a      improve-
     requirements, such as                                 DoD Logistics Strategic Plan,          ments
     shortages of critical                                 developing and implementing a
     items during the early                                comprehensive inventory
     years of operations in                                management plan, expanding
     Iraq.                                                 automated process to worldwide
                                                           inventory and linkages to
                                                           distribution, and executing materiel
                                                           distribution through stock
                                                           positioning.




                                                                                          Addendum A
                                                  A-39
Department of Defense Agency Financial Report for FY 2011

3.    FMFIA Section 4, Financial System Nonconformance Weaknesses:                 The
Department requires financial system conformance with federal requirements and reports.
The Department reported one weakness that includes a wide range of pervasive problems
related to financial systems. Table 2c shows the resulting weakness.

 Table 2c. Conformance with Financial Management System Requirements (FMFIA Section 4)
 Statement of Assurance: Systems do not conform to financial management system requirements
                                  Ref        Beginning                                           Ending
     Non-Conformances           Table 1       Balance
                                                           New        Resolved    Reassessed
                                                                                                 Balance

 1. Financial Management
                                   9            1                                                   1
 Systems
 Total System Conformance
                                   9            1                                                   1
 Material Weaknesses


Table 2c-1, below, provides the description and corrective action plan for the material
weakness related to internal control over financial systems.

 TABLE 2c-1. FY 2011 Internal Control over Financial Systems Material Weakness
                                                                                                Target
                                 Year          DoD
      Material Weaknesses                                        Corrective Actions            Correction
                               Identified   Components
                                                                                                 Year
 1   Financial Management      FY 2001      Department-   Most DoD Components have             FY 2017
     Systems: The                           wide          embarked on an effort to implement
     Department’s financial                               a compliant, end-to-end financial
     systems were originally                              management system, anchored by
     developed to meet the                                ERPs that provide the core
     requirements of                                      financial system as well as
     budgetary accounting                                 replacing many of the mixed
     and do not provide the                               (feeder) systems.
     capability to record
     costs and assets in
     compliance with current
     accounting standards.
     Improvements to the
     current systems
     environment are
     complicated by the use
     of and reliance upon
     many mixed systems
     that are not well
     integrated.



STATEMENT OF ASSURANCE OVER FINANCIAL REPORTING, OPERATIONS
AND FINANCIAL SYSTEMS PROCESS:
The revised OMB Circular A-123 requires an annual Statement of Assurance that
provides management’s assurances on the effectiveness of internal controls of overall
operations, financial reporting, and financial systems. The Department’s 33 Component
Heads are required to report their respective Component Statement of Assurance to the
Secretary of Defense.         The Components include the 3 Military Departments,
9 Combatant Commands, the Joint Staff, the Office of Secretary of Defense, the DoD

                                                                                        Addendum A
                                                 A-40
Department of Defense Agency Financial Report for FY 2011

Office of Inspector General, and 18 Department Agencies. Following the submission of
the Components’ Statements of Assurance, the Secretary of Defense produces an overall
Department Statement of Assurance that reports the Department’s pervasive material
weaknesses. Prior to creating an annual Statement of Assurance, each Component
flowcharts its key business processes that impact financial reporting and operations,
identify and assess risk within the processes, identify and test internal controls, establish
controls found to be deficient, and report on the results of these assessments and tests.
The Department asserts that all Components, as prescribed by DoD’s regulatory
guidelines, have reported their individual statements of assurance over internal controls
to the Secretary of Defense. More information concerning DoD’s process for developing
the Statement of Assurance is available at Office of the Under Secretary of Defense
(Comptroller).

FEDERAL FINANCIAL MANAGEMENT IMPROVEMENT ACT
The DoD IG and the audit agencies within the Military Services have reported on DoD’s
noncompliance with FFMIA. The DoD’s noncompliance is due to its reliance upon legacy
financial management systems by the various Components. These legacy financial
systems, for the most part, do not comply with the wide range of requirements for
systems compliance, in accordance with FFMIA and therefore do not provide the
necessary level of assurance that the core financial system data or the mixed systems
information can be traced to source transactional documentation. Table 3 reflects DoD’s
compliance with FFMIA.

 Table 3. Compliance with Federal Financial Management Improvement Act
                                                          Agency                 Auditor
 Overall Substantial Compliance                             No                     No
 1. System Requirements                                     No                     No
 2. Accounting Standards                                    No                     No
 3. U.S. Standard General Ledger at Transaction Level       No                     No




                                                                               Addendum A
                                                  A-41
Department of Defense Agency Financial Report for FY 2011

IMPROPER PAYMENT AND PAYMENT RECAPTURE PROGRAMS
The Improper Payments Information Act of 2002 (IPIA), as implemented by OMB
Circular No. A-123, Appendix C, “Requirements for Effective Measurement and
Remediation of Improper Payments,” requires federal agencies to review all programs
and activities annually and identify those that may be susceptible to significant
erroneous payments.        On November 20, 2009, the President issued Executive
Order 13520, “Reducing Improper Payments and Eliminating Waste in Federal
Programs,” adding several new reporting requirements for Federal agencies, such as
quarterly reporting of high-dollar improper payments to individuals and entities.
The Improper Payments Elimination and Recovery Act of 2010 (IPERA), which was
passed unanimously by both houses of Congress and signed into law on July 22, 2010, is
targeted at reducing wasteful spending by identifying and requiring corrective action
plans for government programs that are susceptible to significant improper payments.
The IPERA, which amends the IPIA, established new reporting thresholds based on
either the percentage of program outlays or the dollar amounts of annual improper
payments.
Based on the large volume of transactions and high dollar amounts, the Department
reports on the following programs:
(1) Military Health Benefits
(2) Military Pay
(3) Civilian Pay
(4) Military Retirement
(5) Travel Pay
(6) Commercial Pay
The Improper Payment Reduction Outlook table (Table 4), included at the end of this
section, presents improper payment estimates for these programs as well as future year
improper payment reduction targets.

DEFENSE FINANCE AND ACCOUNTING SERVICE (DFAS)
Risk Assessment
The Department also monitors changes in programs associated with the OMB-mandated
criteria (e.g., a large increase in annual outlays, regulatory changes, new programs) to
track troubling trends and implement corrective measures, as necessary. The DoD’s
improper payment percentages are extremely low, though the total improper payment
dollars are high. Numerous pre- and post-payment controls minimize and reduce
improper payments as well as improve DoD’s estimates of future improper payments
and the need for corrective actions.




                                                                           Addendum A
                                         A-42
Department of Defense Agency Financial Report for FY 2011

Statistical Sampling Process
The Department uses statistically valid, random sampling methods designed to meet or
exceed OMB’s requirements (90 percent confidence interval, plus or minus 2.5 percent)
for estimating and projecting the Department’s annual improper payments for five of the
six programs previously listed. The Department will begin statistical sampling of the
Commercial Pay program in FY 2012. For smaller reporting programs, such as the
Army-Korea travel payments or U.S. Army Corps of Engineers (USACE) Travel Pay, the
Department normally performs 100 percent post-payment reviews, or a full review of
payments above a certain dollar threshold with random sampling for lower-dollar
payments.
Military Health Benefits. TRICARE is a triple-option health benefit plan available for
Active Duty family members, retirees and their family members, and family members of
deceased service members. To estimate the annual amount of improper payments, the
Department uses a statistically valid method of sampling for the managed care support
services contracts and the Medicare dual eligibility contractor (TRICARE Dual Eligibility
Fiscal Intermediary Contract). The payment errors disclosed in the review of sampled
payments are projected to the universe of program payments.
The Department samples data records for claims processed by the managed care
support contractors and the Medicare dual eligible contractor. There are two kinds of
payment samples: one for “non-denied” claims, and one for “denied” claims. For the
managed-care support services contracts:
•   The “non-denied” payment sample is drawn from all records with government
    payments of $100 to $100,000. In addition, all records with a government payment
    over $100,000 are audited.
•   The “denied” payment sample is drawn from all records with a billed amount of $100
    to $100,000. In addition, all records with billed amounts over $100,000 are audited.
Both the “non-denied” and “denied” payment samples are stratified at multiple levels
within the $100 to $100,000 range. For the Medicare dual eligible contract:
•   The “non-denied” payment sample is drawn from all records with government
    payments of $1 to $25,000. All records with a government payment over $25,000
    are audited.
•   The “denied” payment sample is drawn from all records with a billed amount of
    $1 to $500,000. In addition, all records with billed amounts over $500,000 are
    audited.
The “non-denied” payment sample is stratified at multiple levels within the
$1 to $25,000 range; the “denied” payment sample is stratified at multiple levels within
the $1 to $500,000 range.
Military Pay. The Department samples Military Pay accounts for the Active Duty
(Army, Navy, Air Force, and Marine Corps) and Reserve Components (Army Reserve,
Army National Guard, Navy Reserve, Air Force Reserve, Air National Guard, and Marine


                                                                            Addendum A
                                          A-43
Department of Defense Agency Financial Report for FY 2011

Corps Reserve) on a monthly basis. The DFAS selects the accounts for each Component
to review and produce annual estimates of improper payments.
Civilian Pay. The DFAS randomly reviews Civilian Pay accounts from each of the
Components (Army, Air Force, Navy/Marine Corps, and Defense Agencies) on a monthly
basis. The DFAS processes the largest portion of DoD’s civilian payments; however,
both the Navy and Army independently process civilian payments for civilian mariners
and local national payrolls in foreign countries. These amounts are reported by
Components and included in total DoD-wide figures.
Military Retirement. The monthly random sampling universe of Military Retirement
payments includes both the retired and annuitant pay accounts. In FY 2011, the
Department expanded reporting to include complete population extracts of deceased
retirees and annuitants. The scope of the retired and annuitant pay reviews also include
periodic special reviews of Combat Related Special Compensation, Concurrent Receipt of
Disability Payment, Daily Payroll accounts, and other targeted reviews.
Travel Pay. The DFAS reports the largest portion of DoD’s travel payments made by
both the Defense Travel System (DTS) and Windows Integrated Automated Travel
System (WinIATS) for the Department of the Army and select Defense Agencies. The
Department’s total travel payments include travel payments computed, paid, and
reported independently by the Military Services and other Defense Agencies. Table 4,
included at the end of this section, represents the combined results of the review of
DFAS-disbursed travel payments as well as non-DFAS-disbursed travel payments (Army-
Europe, Army-Korea, Air Force, Navy, and USACE. Both Temporary Duty Travel (TDY)
and Permanent Change of Station travel (PCS) vouchers are included in the post-
payment reviews.

Root Causes of Error and Corrective Actions
Military Health Benefits.       This program reports total improper payments of
$30.2 million (.24 percent), comprised of $21.2 million in overpayments and $9 million
in underpayments. The amounts reported are actual – not estimated – improper
payments identified in FY 2010. Military Health Benefits reports improper payments one
year in arrears to accommodate its 100% post-payment review.
The Department’s contracts have had payment performance standards for Military
Health Benefit claims processing in place for many years. Overpayments found in the
annual audit process are projected to the audit universe, and the managed care support
contractor is liable for the total amount. The 2 percent improper payment threshold is
based on the contract performance standard. This contractual design, combined with
numerous pre-payment and post-payment controls, effectively reduces improper
payments and ensures that the Government’s risk for improper payments in military
health benefits is minimized.
Root Causes. The primary reasons for payment errors in the Military Health Benefits
program include:
•   Incorrect pricing of medical procedures and equipment;


                                                                           Addendum A
                                         A-44
Department of Defense Agency Financial Report for FY 2011

•   Cost-share/deductible miscalculations; and
•   Other Health Insurance/government pay miscalculations.
Corrective Actions.    TRICARE's third-party contractors are monetarily incentivized
through contractual performance standards to reduce and eliminate improper payments.
The fewer improper payments the contractors make, the less money is deducted from
their contractual reimbursements.
Military Pay. As reflected in Table 4, the Department projects a total of $474.3 million
(0.49 percent of total gross pay) in Military Pay improper payments based on reviews
and estimates for the period October 2010 through September 2011. Approximately
$281.7 million (59 percent) of the total improper payments occurred within the
Reserve/Guard Components.
Underpayments account for $265.2 million (56 percent) of the $474.3 million in
improper payments. Most of these underpayments occurred within the Army Reserve
and Army National Guard ($176.2 million) and represent unpaid leave the member did
not use before discharge or de-activation from Active Duty to Reserve status.
Root Causes for Underpayments. The primary reasons for $265.2 million in underpayments,
identified through random reviews as administrative and documentation errors, include:
•   Leave Accountability/Lump Sum Leave (80 percent)                resulting    from   un-
    reconciled/unpaid leave balances for Reservists/Guardsmen;
•   Basic Allowance for Housing (4 percent) resulting from incorrect reporting of the
    entitlement;
•   Family Separation Allowance (5 percent) resulting from incorrect reporting of the
    entitlement; and
•   Other miscellaneous causes (11 percent) account for the remainder of underpayments.
Overpayments account for $209.1 million (44 percent) of the $474.3 million in improper
payments. Nearly 100 percent of the $209.1 million in overpayments either were
recovered or have an action in place to recover the overpayment. Collections for
overpayments from current service members amounted to $143.4 million (30.2 percent)
of the $474.3 million total improper payments.
Most of the overpayments to the Service member involved payroll adjustments, when
the member’s duty or personal status changed and the pay system was not updated in a
timely or accurate manner. Most improper payments identified from random reviews as
well as from debt collection are attributable to untimely or inaccurate data entry into the
pay systems.
Corrective Actions. The Department, primarily through DFAS, continues to work with
the Military Services to advise them of the results of payment reviews and the
associated reasons for the errors. Of specific interest, the DFAS provides the Military
Service financial managers with monthly reports on the results of random reviews,
reasons for and dollar value of errors, and year-to-date trends.



                                                                                Addendum A
                                           A-45
Department of Defense Agency Financial Report for FY 2011

Civilian Pay. The Department projects $90.9 million (0.16 percent of total gross pay)
in total Civilian Pay improper payments for FY 2011, $90.8 million in overpayments and
$0.1 million in underpayments. Nearly 100 percent of the overpayments were identified
through review of the Accounts Receivable due from current civilian employees.
Because the employees remain employed with the Department, there is an action in
place to recover the overpayment, generally through payroll offset.         Civilian Pay
overpayment errors of $90.8 million are attributed to time and attendance
($41.3 million); overseas and other allowances ($31.0 million); and late personnel
actions ($18.5 million).
Root Causes. The primary causes of Civilian Pay improper payments are untimely or
inaccurate entry of information into the pay systems. Because most government payroll
systems base their time and attendance submissions on anticipated versus actual hours
worked, the Department must correct overpayments and underpayments in a
subsequent pay period.
Collections of overpayments in the overseas Civilian Pay accounts often are attributed to
repayment of overseas pay allowances that continued after the individual returned to
the United States. These improper payments often result from inaccurate personnel
actions generated by human resources offices. Corrections subsequently are generated
by human resource offices and transmitted to the civilian payroll system. These
corrections result in re-computing pay and allowances and create a collection (Accounts
Receivable) action to offset the overpayment and correct the improper payment. The
initial improper payments are discovered through various sources, such as agency
reviews, bi-weekly exception reports, and employee or supervisor notification.
Corrective Actions. The Department, primarily through DFAS, continues to advise
Components on the results of payment reviews and the associated reasons for errors
that result in improper payments to civilian employees. The DFAS advises Components
on best business practices to prevent improper payments in the future. DFAS also
participates at various conferences to instruct personnel on how to correctly submit
information, such as changes to entitlements and travel vouchers.
Military Retirement. Prior to FY 2011, improper payments for deceased accounts
reflected the total amount of monies paid after the date of death of a Retiree. This
practice caused the Agency to overstate the amount of the improper payment, as
payments to the Retiree stop on the date of death and credits for partial months were
not considered to reduce the reported overpayment. Beginning in FY 2011, the Agency
calculated offsets to overpayments based on the estimated amounts, considering partial
month’s entitlement, due to the Retirees next of kin or estate.
Based on FY 2011 reviews, the Department projected approximately $18.9 million
(0.04 percent) in improper payments for the Military Retirement program, with almost
the entire amount caused by payments to deceased retirees and annuitants. Eligibility
for military retired pay ends on the date of death of the retiree. Prompt reporting of a
deceased retiree's death can help avoid delay and possible financial hardship to
surviving beneficiaries, family members or executors, who are required to return any
unearned payments of the decedent's military retired pay.


                                                                            Addendum A
                                          A-46
Department of Defense Agency Financial Report for FY 2011

Root Causes The delay in notifying the Payroll Activity of the death of a Military Retiree
results in unavoidable overpayments to deceased retirees. Our review of confirmed
overpayments to deceased retirees in FY 2011 disclosed that the Department recovered
approximately 96 percent of the overpayments within 60 days, demonstrating the
effectiveness of controls within the retired pay system once the Department is notified of
a retiree’s death (refer to Table 9).
Corrective Actions. The Department’s control processes to prevent, identify, and reduce
overpayments to deceased retiree) and annuitants include:
•   Validating existence of retiree and/or annuitant, if living outside the United States;
•   Annual certification of existence for all annuitants;
•   Periodic random certifications for retirees over a certain age; and
•   Validating Military Retiree existence if payments are returned and/or if account was
    suspended for several months due to bad check/correspondence address.
Acceptable proof of death for suspending a Military Retiree’s account includes:
•   Funeral Director’s Report;
•   VA Cemetery Files;
•   Notification from the Defense Enrollment Eligibility Reporting System; and
•   Social Security reports or other forms of notification that can be confirmed as coming
    from an authoritative source.
The notification of death is considered official when DFAS receives a certified death
certificate or a message from a Military Service-connected hospital; Naval Military
Personnel Command (NMPC); Air Force Personnel Center (AFPC); Marine Corps Casualty
Branch (MRC); Casualty Operations Division (Army); a phone call from an immediate
family member (i.e., spouse, son, daughter).
Early detection and data mining efforts, along with partnerships with other Federal and
State entities, also are used. The Department takes a proactive approach to ensure the
accuracy of Military Retiree payments, routinely comparing retired and annuitant payroll
master file databases with the Social Security Administration’s deceased records and
periodically comparing records with the Office of Personnel Management’s deceased
files, Department of Veterans Affairs’ database, and with individual States with sizable
retiree and annuitant populations (e.g., Texas, California, and Florida). Payments for
Military Retirees identified as deceased are suspended pending validation of death or
validation of continued eligibility. The DoD's expanded definition of "acceptable source
documents for notice of death" has allowed DFAS to initiate reclamation actions earlier,
thereby increasing recovery of funds paid after date of death.
Travel Pay. Total improper payments for travel include the two DFAS payment systems
(Defense Travel System (DTS) and Interagency Travel System for windows (WinIATS),
as well as additional travel payments made outside of DFAS for the Army, Navy, Air
Force, and certain Defense components. The Department projects FY 2011 cumulative
improper travel payments of $286.6 million, $238.2 million in overpayments and

                                                                               Addendum A
                                            A-47
Department of Defense Agency Financial Report for FY 2011

$48.4 million in underpayments. The overall error for this area is 3.28 percent. (The
Army Corps of Engineers travel payments are reported separately in Table 4.) The
FY 2011 improper payment estimates include random reviews of DTS trip records for the
Military Services, random monthly reviews of WinIATS TDY, and military and civilian PCS
vouchers computed and disbursed by DFAS.
Errors in the traveler’s request for reimbursement and Approving Official (AO) lack of
proper review and approval of such requests resulted in nearly all of the errors detected
during the random reviews of travel payments.
DTS Root Causes. The primary reasons for DTS improper payments include:
•   Reimbursable Expense (36 percent): The Department incorrectly paid airfare, paid
    non-travel related expenses, and/or failed to reimburse registration/conference fees
    correctly.
•   Per Diem (33 percent): The Department paid lodging incorrectly, reimbursed the
    traveler for lodging expenses not validated by receipts, and/or paid meals at an
    incorrect rate.
•   Missing Documentation (31 percent): The Department reimbursed lodging, airfare or
    rental car expenses without a receipt
DTS Corrective Actions. On a quarterly basis, DFAS provides the Defense Travel
Management Office and DoD Components with error trend reports. The DFAS post-
payment review personnel give presentations at various DTS training sessions and
conferences and also brief Senior Service Executives on these post-payment review
statistics, trends, and input errors. In addition, any improper payments identified are
forwarded to the appropriate Debt Management Monitor for establishment and recovery
of overpayments.
WinIATS Root Causes. The primary reasons for WinIATS improper payments:
•   Per Diem (68 percent): Per Diem/Meals & Incidental Expenses (M&IE) and lodging
    paid at the incorrect rate or not paid at all.
•   Administrative (22 percent): Required signatures or dates were missing or the travel
    order was missing or invalid.
•   Reimbursable Expenses (8 percent): Rental car expenses and mileage reimbursed
    incorrectly or not reimbursed at all.
•   Miscellaneous (2 percent).
In FY 2011, civilian PCS claims were included in the random review process. The
Department attributes the majority of improper payments to processing errors, either by
the traveler or technician input errors. Initial results reflect the following primary causes
of errors:
•   PCS and TDY lodging or quarters subsistence expenses paid incorrectly (48 percent);
•   Reimbursable Expenses paid incorrectly (31 percent);
•   Per diem paid incorrectly (14 percent); and

                                                                               Addendum A
                                           A-48
Department of Defense Agency Financial Report for FY 2011

•   Miscellaneous causes account for the remaining 7 percent.
WinIATS Corrective Actions. The DFAS has established an extensive set of preventative
and monitoring actions to prevent improper payments, including:
•   Post-payment reviewers meet monthly with travel pay operations personnel to
    discuss findings and preventative measures;
•   Pre-payment accuracy rates are reported to the DFAS post-payment review team by
    travel pay operations and monitored daily;
•   Travel Pay examiner training programs, based on post-payment review findings and
    recommendations, have been implemented;
•   Pre- and post-payment checklists are linked to identify and prevent improper
    payments.
•   Pre-payment validations and cross checks have been implemented to ensure the
    traveler was not previously reimbursed for the same trip, therefore avoiding a
    duplicate payment.
DFAS Commercial Pay. The amount of DFAS commercial pay improper payments is
$224.6 million (0.06 percent) of the total commercial pay outlays for the period
August 1, 2010 through July 31, 2011.       Of the $224.6 million, approximately
$91.1 million (41.1 percent) in overpayments and $133.5 million (59.4 percent) in
underpayments.
Root Causes. The majority of improper payment errors in Commercial Pay are caused
by input errors into the payment entitlement systems.
Corrective Actions. The ongoing corrective actions include:
•   Business Activity Monitoring (BAM) refinements that reduce payments to the wrong
    vendor, which is the cause for approximately 30 percent of overall commercial pay
    improper payments;
•   Continued analysis of DoD’s legacy systems Wide Area Work Flow (WAWF) rejections
    that identify corrective actions to increase electronic commerce and minimize manual
    intervention;
•   Movement to a central processing hub, Global Exchange to gain efficiencies in
    posting contractual documents into the legacy entitlement systems and provide
    additional training to technicians; and
•   Continue to work with Contracting Officers to simplify contract terms and eliminate
    the need for manual calculations.
Other initiatives to reduce improper payments include outreach to reduce vendor billing
errors caused by duplicate manual and electronic submission of invoices. In addition,
the Department conducts manual reviews to ensure it meets all Certifying Officer
Legislation requirements prior to certifying payment, such as ensuring proper
documentation, correct payment amounts, and payment type before disbursement.



                                                                           Addendum A
                                         A-49
Department of Defense Agency Financial Report for FY 2011

The DFAS uses the pre-payment BAM tool, initially deployed in August 2008, to identify
and prevent improper payments in DoD’s four largest commercial payment systems:
Mechanization of Contract Administrative Services (MOCAS); Computerized Accounts
Payable System-Windows (CAPS-Windows); Integrated Accounts Payable System
(IAPS); and One Pay. These systems account for 86 percent of all DoD commercial
payments. These types of preventative program activities consistently prove to be the
most cost effective.
To further ensure proper identification and recovery of improper commercial payments,
the Department uses various post-payment initiatives, including periodic duplicate
payment reviews performed by the DFAS Internal Review (IR) Directorate for the four
major commercial payment systems. The DFAS IR auditors analyze monthly extracts of
invoice and disbursing data for payments made through these systems and perform
quality control checks to ensure the data is consistent and reasonable. The DFAS IR
auditors identify what they believe to be duplicate payments and refer these to DFAS
Accounts Payable staff for final determination. Further, DFAS captures these improper
payments in either the Contract Debt System (CDS) or Improper Payment On-Line
Database (IPOD) to identify, track, recover, and analyze to determine the root cause(s)
of the improper payment.

U. S. ARMY CORPS OF ENGINEERS (USACE)
Risk Assessment
The USACE assessments for travel and contract payments risk address the effectiveness
of internal controls in place to prevent improper payments (such as pre-payment
reviews), as well as system weaknesses identified internally or by outside audit
activities. While USACE improper payment percentages are extremely low, numerous
pre- and post-payment controls further minimize and eliminate improper payments.

Statistical Sampling Process
Travel Pay. The USACE processes travel payments using the Corps of Engineers
Financial Management System (CEFMS) and WinIATS.         The total travel payment
population includes TDY and PCS payments made by the USACE Finance Center.
Random sampling is used to review all TDY travel payments less than $2,500. All PCS
and TDY vouchers payments over $2,500 are reviewed.
Commercial (Contract) Payments.            The USACE utilizes pre-payment internal
controls, post-payment contract audits and data mining to prevent and identify improper
payments. The audits are conducted using a random sample of payments taken over
the entire contract payment population.




                                                                          Addendum A
                                         A-50
Department of Defense Agency Financial Report for FY 2011

Root Causes of Errors and Corrective Actions
Travel Pay. The total projected improper payments for Travel Pay for FY 2011 is
$2.1 million, comprised of $2.0 million in overpayments and $100 thousand in
underpayments.
Root causes of errors in Travel Pay normally result from travelers inadvertently omitting
information or items overlooked by approving officials. The primary corrective action
was to require training for all new travelers and Approving Officials as well as refresher
training for seasoned travelers and approving officials. This corrective action was
completed during FY 2011.
Commercial (Contract) Payments. Total improper commercial payments for USACE
Commercial (Contract) payments total $11.9 million (0.04 percent error rate), all of
which are comprised of overpayments. The main cause of the overpayments is due to
the real estate community not documenting transfers in ownership. In these instances,
staff has been counseled to immediately notify the appropriate individuals once it is
known that ownership has changed. In addition, due to changes in prices or rates
during a contract, some overpayments and underpayments are identified during contract
close-out. If an overpayment is identified, the amount either is offset against a current
invoice or an accounts receivable is established with a demand letter sent to recover the
amount.

Payment Reviews and Recoveries Reporting
The USACE utilizes data mining as part of the post-payment/recovery audit program.
The USACE data-mining tool utilizes the power of Oracle programming to search CEFMS
and identify potential errors, such as duplicate, missing, or suspicious invoices as well as
specific types of reoccurring payments. The use of a data-mining tool complements the
pre-payment safeguards already built into CEFMS. These safeguards include edits that
require a matching of the receiving report with an invoice and which prevent use of
duplicate invoice numbers for the same obligation (see Table 9).

Program Improper Payment Reporting
Table 4 summarizes DoD’s improper payment reduction outlook and total program
outlays (payments) from FY 2010 through FY 2014.




                                                                              Addendum A
                                           A-51
Department of Defense Agency Financial Report for FY 2011

                                                              Table 4. Improper Payment Reduction Outlook
                                 FY 2010                                         FY 2011                           FY 2012 Estimate           FY 2013 Estimate             FY 2014 Estimate
                                   IP       IP        IP                           IP        IP         IP
               Outlays     IP                                  Outlays    IP                                    Outlays     IP      IP      Outlays     IP      IP      Outlays     IP       IP
                                  Over     Under     Total                        Over      Under      Total
                ($B)      (%)                                   ($B)     (%)                                     ($B)      (%)     ($M)      ($B)      (%)     ($M)      ($B)      (%)      ($M)
 Program                          ($M)     ($M)      ($M)                         ($M)      ($M)       ($M)
Military
Health           $11.7    0.42    $35.1     $14.0     $49.1     $12.6    0.24     $21.2       $9.0      $30.2     $16.4    2.00   $321.0      $17.5    2.00   $328.0      $19.0     2.00   $380.0
Benefits1
Military
                 $82.5    0.61   $167.1    $338.8    $505.9     $96.0    0.49    $209.1     $265.2    $474.3      $96.0    0.48   $460.8      $95.0    0.47   $446.5      $94.0     0.46   $432.4
Pay6
Civilian
                 $34.0    0.27    $79.4      $1.6     $81.0     $58.7    0.16     $90.8       $0.1      $90.9     $58.0    0.16    $92.8      $57.5    0.16    $92.0      $57.0     0.16    $91.2
Pay2,6
Military
                 $43.2    0.14    $58.2      $0.3     $58.5     $42.2    0.04     $18.8       $0.1      $18.9     $42.5    0.04    $17.0      $42.9    0.04    $17.2      $43.5     0.04    $17.4
Retirement
Travel
                  $9.3    1.91   $145.7     $28.9    $174.6       $8.7   3.28    $238.2      $48.4    $286.6       $8.5    3.27   $278.0       $8.5    3.26   $277.1       $8.5     3.25   $276.3
Pay3,4,6
DFAS
Commercial      $384.1    0.18   $358.2    $329.9    $688.1    $368.5    0.06     $91.1     $133.5    $224.6     $364.5    0.06   $200.5     $360.9    0.05   $180.5     $357.3     0.05   $160.8
Pay5
USACE
Travel             NA     NA         NA       NA        NA     $0.212    1.00       $2.0      $0.1       $2.1    $0.212    1.00      $2.1    $0.212    1.00     $2.1     $0.212     1.00     $2.1
Pay6,7,8
USACE
Commercial          $26.7 0.02        $4.1        $-0-     $4.1       $30.5 0.04          $11.9     $-0-     $11.9      $31.0 0.04        $12.4       $31.0 0.04  $12.4    $31.0     0.04    $12.4
Pay
Note 1: Out-year error rates are shown at 2% which is the contract performance standard. However, this program has reported less than a 1% error rate since FY 2007.
Note 2: Civilian Pay represents data from DFAS, Army, and Navy
Note 3: Travel Pay: DFAS Travel Pay represents travel vouchers settled from July 2010 through March 2011. The review of civilian permanent change of station (PCS) vouchers did not begin until
        October 2010, and therefore, only includes results for October 2010 through June 2011.
Note 4: Travel Pay also includes travel data from Army, Navy, and Air Force for vouchers paid outside of DTS.
Note 5: DFAS commercial improper payments are now identified by date paid rather than date identified; in addition, underpayments are now included in the total improper payments figure. This
        data line also includes Overseas Army Vendor Pay.
Note 6: Out-year projections for Travel, Civilian Pay, and Military Pay represent input from DFAS only. However, USACE computed its own out-year projections.
Note 7: Prior to FY 2011 reporting, USACE travel and commercial pay were included in the DFAS figures.
Note 8: All travel vouchers > $2500 are reviewed; travel vouchers < $2500 are subjected to statistical sampling (95 percent +/- 2 percentage points).




                                                                                                                                                                           Addendum A
                                                                                           A-52
Department of Defense Agency Financial Report for FY 2011

The Department currently does not utilize external payment recapture auditors to
identify and recover outstanding overpayments; therefore, the table entitled “Payment
Recapture Audit Reporting,” identified in OMB Circular A-136, is not included in this
report. The Department’s recoveries are shown in Table 8.
Table 5 reflects the dollar amount and percentages of overpayments the Department
recovered during FY 2011. As reflected in Table 5, the Department has exceeded the
OMB-established FY 2013 threshold to recover 85 percent of overpayments.

                                   Table 5. Payment Recapture Audit Targets
                                                                    CY
                                                                Recovery
                                                                                     CY +1              CY +2                   CY +3
                              CY               CY                  Rate
  Type of                                                                           Recovery           Recovery                Recovery
                            Amount           Amount              (Amount
  Payment                                                                             Rate               Rate                    Rate
                            Identify        Recovered          Recovered/
                                                                                     Target             Target                  Target
                                                                 Amount
                                                               Indentified)
 DoD-Wide                   $408.3M            $377.2M               92.4%               93.0%               93.0%                  93.0%
           2,3
   DFAS                     $395.2M            $364.3M               92.2%               92.5%               92.5%                  92.5%
              4
   USACE                     $13.1M             $12.9M               98.5%               99.0%               99.0%                  99.0%
 “M” represents millions.
 Note 1: The figures shown in this table are not strictly speaking payment recapture targets, as DoD does not currently employ payment
         recapture auditors. A more appropriate term would be collection targets, but they are listed here to ensure inclusion for
         government-wide reporting.
 Note 2: The DFAS commercial improper payments are now captured by date paid rather than date discovered.
 Note 3: The DFAS figures include Military Pay, Civilian Pay, Military Retirement and Annuitant Pay, Travel Pay, and Commercial Pay
         amounts.
 Note 4: The USACE figures includes Travel Pay and Commercial Pay amounts.
 Note 5: See Table 8 for Tricare Management Agency (TMA) health benefit recoveries. The TMA third party payer contracts require
 reimbursement to the Government of an extrapolated sampling amount, and therefore, are not deemed collections against a debt.

Table 6 depicts the                       dollar      amount          of     overpayments             outstanding              as    of
September 20, 2011.

                                  Table 6. Aging of Outstanding Overpayments
                                             CY Amount                         CY Amount                           CY Amount
             Type of
                                            Outstanding                        Outstanding                        Outstanding
             Payment
                                           (0 – 6 months)                  (6 months to 1 year)                   (Over 1 year)
             Amount                             $11.4M                             $11.6M                                 $0
 “M” represents millions.
 Note 1:     Dollars represent DFAS commercial collections only.
 Note 2:     The aging schedule is based on overpayments identified and paid from August 1, 2010 through July 31, 2011.




                                                                                                                          Addendum A
                                                               A-53
Department of Defense Agency Financial Report for FY 2011

Table 7 illustrates that virtually all recovered FY 2011 funds were returned to the original
appropriation and/or used for the original purpose.

                                         Table 7. Disposition of Recaptured Funds
                          Agency                                      Financial
                                                Payment                                                             Office of
   Type of              Expenses to                                 Management               Original                                   Returned to
                                               Recapture                                                           Inspector
   Payment               Administer                                 Improvement              Purpose                                     Treasury
                                              Auditor Fees                                                          General
                        the Program                                   Activities
   Amount                      $0                  $0                     $0               $386.6M1                    $0                    $0
 “M” represents millions.
 Note 1: This dollar amount represents the sum of Column 3 from Table 8 (Amount Recovered (CY)).

The Department does not currently utilize external payment recapture auditors to
identify and recovery outstanding overpayments. The Department’s collections are show
in Table 8.

            Table 8. Overpayments Recaptured Outside of Payment Recapture Audits
                                                                                                                  Cumulative            Cumulative
                             Amount            Amount                  Amount                Amount
    Agency                                                                                                          Amount                Amount
                            Identified        Recovered               Identified            Recovered
    Source                                                                                                         Identified           Recovered
                               (CY)             (CY)                     (PY)                  (PY)
                                                                                                                   (CY+PYs)              (CY+PYs)
 DFAS
 Commercial                   $91.1M               $68.0M                  $1.3B                  $1.2B                  $1.4B                 $1.3B
 Pay4
 Military Pay1               $143.4M             $143.4M                $181.7M               $159.3M                $325.1M               $302.7M
 Civilian   Pay1              $90.8M               $90.8M               $159.5M               $159.5M                $250.3M               $250.3.M
 Military R&A2                $67.6M               $62.0M               $107.7M               $101.5M                $175.3M               $163.5M
                                                                                   6                    6
 Travel   Pay3,5                $1.6M               $0.1M                      NA                   NA                  $1.6M                  $0.1M
 USACE
                                $1.1M               $1.1M                      NA6                  NA6                 $1.1M                $1.09M
 Travel Pay7
 USACE
 Commercial                   $11.9M               $11.8M                $38.9M                 $38.4M                $53.0M                 $52.3M
 Pay
 TRICARE
 Management
 Activity (TMA)
                                $9.5M               $9.4M                $47.5M                 $31.8M                $57.0M                 $41.2M
 Health
 Benefits
 Contracts8
 “K” represents thousands. “M” represents millions. “B” represents billions.
 Note 1: “In-Service” collection dollars are considered as recovery amounts. Actual results from random sample overpayments are negligible.
 Note 2: FY 2011 amounts identified and recovered are based on 100 percent review of deceased retiree and annuitant accounts. FY 2011
           recoveries will not be completed until December 31, 2011, as they are tracked for 120 days.
 Note 3: Amounts for Current Year (CY) only include overpayments identified in the sampling of travel vouchers settled July 2010 through March 2011, as
           DFAS allows 120 days for the Service and Defense Components to resolve improper travel payments. In addition, the amount includes $670K
           in duplicate payments from FY 2009 and 2010 in addition to the statistical sampling amount identified; however, the total excludes $298K in
           improper payments to foreign military students and amounts of $10 or less, both of which are non-recoverable pursuant to Regulation.
 Note 4: Methodology for identification of Commercial Pay improper payments is now based on date of payment rather than discovery date. The Prior
           Year (PY) data shown remains unchanged as these figures were reported to the OMB MAX database and previously published. Going forward,
           prior year amounts may require revision based on this change in methodology..
 Note 5: Travel Pay also includes travel data from Army, Navy, and Air Force for vouchers paid outside of DTS. The period of review for DFAS travel pay
           is July 1, 2010 through June 30, 2011.
 Note 6: FY 2011 is the first year that Travel Pay recoveries are being tracked and reported in the Agency Financial Report.
 Note 7: FY 2011 is the first time USACE Travel is being reported separately from DFAS and other DoD travel.
 Note 8: TMA contract improper payments and recoveries are reported 12 months in arrears to accommodate its 100 percent post-payment review.



                                                                                                                                      Addendum A
                                                                      A-54
Department of Defense Agency Financial Report for FY 2011

The Department does not have a Payment Recapture Audit plan that utilizes private
companies to identify and recover overpayments; however, the Department performs
internal collection activities that account for the cumulative recovery rate of
92.4 percent for FY 2004 – 2011.
When the Recovery Auditing Act was passed in 2002, the Department awarded several
contracts to identify and recover improper payments. Recovery auditors would be paid
only on a contingency basis and only after funds were actually recovered.
Unfortunately, in nearly every instance, the private sector firms were not able to
establish an adequate profit margin; consequently, these firms asked that the contracts
be terminated. Based on our historical experience with the use of contingency contracts
to recover outstanding overpayments, the Department determined this type of effort
was not cost-effective.
The Department is working diligently toward auditability of its financial statements, an
essential part of which is ensuring that recorded transactions can be traced to source
documents. Because our transactions and processes are neither standard nor sound in
all cases, it would still be very difficult for private sector firms to run any type of post-
payment review to identify potential overpayments. Once our financial statements reach
auditability, the Department will be in a position to consider the use of outside
contractors to perform this type of payment review.

Accountability
Certifying Officer legislation holds Certifying and Disbursing Officers accountable for
government funds. In accordance with 10 U.S.C. 2773a, pecuniary liability attaches
automatically when there is a fiscal irregularity, i.e., (1) a physical loss of cash,
vouchers, negotiable instruments, or supporting documents, or (2) an improper
payment. These requirements are further codified in DoD FMR, Volume 5, Chapter 33,
“Certifying Officers, Accountable Officials, and Review Officials.” Efforts to recover
overpayments from a recipient must be undertaken in accordance with the debt
collection procedures outlined in the DoD FMR, Volume 5, Chapter 28, “Management and
Collection of Individual Debt,” and DoD FMR, Volume 10, Chapter 18, “Contractor Debt”.

Agency Information Systems and Other Infrastructure
The Department has much of the information and infrastructure needed to reduce
improper payments in each of its six improper payment programs. The DoD uses the
BAM tool to identify potential improper commercial payments prior to disbursement.
With the additional requirements for tracking and reporting payment errors that were
issued during FY 2010, such as Executive Order 13520, “Reducing Improper Payments
and Eliminating Waste in Federal Programs,” the enactment of the IPERA, the Payment
Recapture Audit memorandum, and the “Do Not Pay” List, the Department will need to
continuously reevaluate and prioritize its resource allocations to ensure maximum
compliance.
The Department’s ongoing migration from the legacy systems to ERPs systems presents
a number of challenges for prevention and detection of improper payments, as well as


                                                                                   Addendum A
                                           A-55
Department of Defense Agency Financial Report for FY 2011

debt collection for recapturing overpayments. These issues are being addressed by
stakeholders, but initially these modern systems will add some additional complexity to
processes.

Barriers
There are no current legislative barriers that hinder the Department from complying with
legislative or regulatory requirements for improper payment identification, recovery, and
reporting, other than the due process statutes.

Additional Comments
Because the Department currently does not have an auditable Statement of Budgetary
Resources (SBR), it is not possible for the Department to reconcile outlays to the
quarterly or annual gross outlays reported in the SBR to ensure all required payments
for reporting purposes are captured. The Department is aggressively working to
improve its business and financial processes, controls, and systems to achieve financial
statement audit readiness by September 30, 2017, as required by Congress. In
October 2011, the Secretary of Defense directed the USD(C)/CFO to provide a revised
plan to achieve audit readiness for the Statement of Budgetary Resources by the end of
2014. The Department is committed to meeting this goal by 2014.




                                                                               Addendum A
                                          A-56
                              U
                              UNITED STATES DEPARTMENT OF DEFENSE




Agency Financcial Report
November 2011

Addendum B


OFFICE OF THE UNDER SECRETARY OF
                               F DEFENSE (COMPTROLLER) / CFO
Department of Defense Agency Financial Report for FY 2011

The following Defense Security Cooperation Agency financial statements include these
programs executed on behalf of Executive Office of the President (EOP). The Department
continues to report activity resulting from EOP allocation transfers within the DoD financial
statements.

 Consolidated Balance Sheet
 Security Assistance                                                             Dollars in Thousands
                                                                   2011               2010
                                                                Consolidated       Consolidated
 ASSETS (Note 2)
 Intragovernmental:
   Fund Balance with Treasury (Note 3)                           $ 21,093,874         $ 20,121,055
   Other Assets (Note 6)                                                     0                  670
   Total Intragovernmental Assets                                $ 21,093,874         $ 20,121,725
 Cash and Other Monetary Assets (Note 7)                            18,160,143           18,647,997
 Accounts Receivable, Net (Note 5)                                      51,430               42,609
 Loans Receivable (Note 8)                                             983,831            1,075,587
 Other Assets (Note 6)                                              25,231,799           20,504,441
 TOTAL ASSETS                                                     $ 65,521,077         $ 60,392,359

 LIABILITIES (Note 11)
 Intragovernmental:
   Accounts Payable (Note 12)                                          334,081              189,675
   Debt (Note 13)                                                      340,909              462,989
   Other Liabilities (Note 15 and 16)                                  661,264              630,948
   Total Intragovernmental Liabilities                            $ 1,336,254          $ 1,283,612
 Accounts Payable (Note 12)                                            285,823              330,940
 Employment Benefits (Note 17)                                             487                  486
 Other Liabilities (Note 15 and 16)                                 58,607,803           53,914,931
 TOTAL LIABILITIES                                                $ 60,230,367         $ 55,529,969

 NET POSITION
 Unexpended Appropriations - Other Funds                             2,615,107            2,524,190
 Cumulative Results of Operations - Other Funds                      2,675,603            2,338,200
 TOTAL NET POSITION                                                $ 5,290,710          $ 4,862,390

 TOTAL LIABILITIES AND NET POSITION                                $65,521,077          $60,392,359




ADDENDUM B                                              Unaudited Financial Statements – DSCA
                                                  B-1
Department of Defense Agency Financial Report for FY 2011

Consolidated Statement of Net Cost
Security Assistance                                                                Dollars in Thousands
                                                                    2011                2010
                                                                 Consolidated        Consolidated
 Program Costs
  Gross Costs                                                       $24,687,441           $23,517,323
  (Less: Earned Revenue)                                                (34,341)            (134,858)
  Net Cost before Losses (Gains) from Actuarial Assumption
                                                                    $24,653,100           $23,382,465
  Changes for Military Retirement Benefits
 Net Cost of Operations                                             $24,653,100           $23,382,465




ADDENDUM B                                               Unaudited Financial Statements – DSCA
                                                B-2
Department of Defense Agency Financial Report for FY 2011

Consolidated Statement of Changes in Net Position
Security Assistance                                                                                                                                                                                              Dollars in Thousands

                                                         2011               2011                     2011                  2011                 2010               2010                       2010                  2010
                                                    Earmarked Funds   All Other Funds            Eliminations           Consolidated       Earmarked Funds   All Other Funds              Eliminations           Consolidated

 CUMULATIVE RESULTS OF OPERATIONS
  Beginning Balances                                 $           0     $        2,338,200        $              0   $        2,338,200      $           0     $        1,501,113      $                  0   $          1,501,113
  Beginning balances, as adjusted                    $           0     $        2,338,200        $              0   $        2,338,200      $           0     $        1,501,113      $                  0   $          1,501,113

  Budgetary Financing Sources:
    Appropriations used                                          0              5,391,067                       0            5,391,067                  0              5,423,865                         0              5,423,865
    Nonexchange revenue                                          0             19,599,436                       0           19,599,436                  0             18,795,687                         0             18,795,687
  Total Financing Sources                            $           0     $       24,990,503    $                  0   $       24,990,503      $           0     $       24,219,552      $                  0   $         24,219,552
  Net Cost of Operations (+/-)                                   0             24,653,100                       0           24,653,100                  0             23,382,465                         0             23,382,465
  Net Change                                         $           0     $          337,403    $                  0   $          337,403      $           0     $          837,087      $                  0   $            837,087
  Cumulative Results of Operations                   $           0     $        2,675,603    $                  0   $        2,675,603      $           0     $        2,338,200      $                  0   $          2,338,200

  UNEXPENDED APPROPRIATIONS
  Beginning Balances                                             0              2,524,190                       0            2,524,190                  0              3,530,529                         0              3,530,529
  Beginning balances, as adjusted                    $           0     $        2,524,190    $                  0   $        2,524,190      $           0     $        3,530,529      $                  0   $          3,530,529
  Budgetary Financing Sources:
    Appropriations received                                      0              5,485,905                       0            5,485,905                  0              4,411,706                         0              4,411,706
    Appropriations transferred (in/out)                          0                      0                       0                      0                0                  9,500                         0                  9,500
    Other adjustments (rescissions, etc)                         0                 (3,921)                      0               (3,921)                 0                 (3,680)                        0                 (3,680)
    Appropriations used                                          0             (5,391,067)                      0           (5,391,067)                 0             (5,423,865)                        0            (5,423,865)
  Total Budgetary Financing Sources                  $           0         $       90,917    $                  0   $           90,917      $           0      $      (1,006,339)     $                  0   $        (1,006,339)
  Unexpended Appropriations                          $           0         $    2,615,107    $                  0   $        2,615,107      $           0         $    2,524,190      $                  0   $          2,524,190
  Net Position                                       $           0         $    5,290,710    $                  0   $        5,290,710      $           0         $    4,862,390      $                  0   $          4,862,390




ADDENDUM B                                                                                                                                                                          Unaudited Financial Statements - DSCA

                                            B-3
Department of Defense Agency Financial Report for FY 2011

Combined Statement Of Budgetary Resources               Budgetary                     Nonbudgetary
Security Assistance                                 Financing Accounts             Financing Accounts
                                                     2011        2010               2011        2010
Dollars in Thousands                               Combined Combined              Combined Combined
Budgetary Resources
Unobligated balance, brought forward,
                                                    $     128,339 $ 1,316,139 $          7,110   $    11,433
October 1
Recoveries of prior year unpaid obligations                21,967       23,609              0             0
Budget authority
 Appropriation                                          29,432,784   28,422,462              0             0
 Borrowing authority                                             0            0          6,144         4,650
 Contract authority                                     28,163,552   27,267,781              0             0
 Spending authority from offsetting collections
   Earned
   Collected                                                 96           50           158,739       290,551
   Subtotal                                        $ 57,596,432 $ 55,690,293 $         164,883   $   295,201
Nonexpenditure transfers, net, anticipated
                                                                0        9,500              0             0
and actual
Permanently not available                          (23,950,800) (24,014,438) $ (169,679) $ (294,069)
Total Budgetary Resources                          $ 33,795,938 $ 33,025,103 $     2,314 $    12,565
Obligations incurred:
Direct                                               33,769,145   32,896,764             2,287         5,455
  Subtotal                                         $ 33,769,145 $ 32,896,764      $      2,287   $     5,455
Unobligated balance:
Apportioned                                                4,829      106,845                0       (3,556)
 Subtotal                                          $       4,829 $    106,845     $          0   $   (3,556)
Unobligated balance not available                         21,964       21,494               27       10,666
Total status of budgetary resources                 $ 33,795,938 $ 33,025,103      $     2,314   $   12,565




ADDENDUM B                                                   Unaudited Financial Statements – DSCA
                                                  B-4
Department of Defense Agency Financial Report for FY 2011

Combined Statement Of Budgetary Resources                        Budgetary                    Nonbudgetary
Security Assistance                                          Financing Accounts            Financing Accounts
                                                              2011       2010               2011        2010
Dollars in Thousands                                        Combined Combined             Combined Combined
Change in Obligated Balance:
Obligated balance, net
 Unpaid obligations, brought forward, October 1              91,701,933    87,898,916       2,462,224     2,587,278
 Total unpaid obligated balance                              91,701,933    87,898,916       2,462,224     2,587,278
Obligations incurred net (+/-)                               33,769,145    32,896,764           2,287        5,455
Less: Gross outlays                                         (28,456,093) (29,070,137)         (2,287)     (130,509)
Less: Recoveries of prior year unpaid obligations, actual       (21,967)     (23,609)               0            0
Obligated balance, net, end of period
 Total, Unpaid obligations balance, net, end of period       96,993,018    91,701,934       2,462,224     2,462,224
 Total, unpaid obligated balance, net, end of period        $ 96,993,018 $ 91,701,934 $     2,462,224 $   2,462,224
Net Outlays
Net Outlays:
 Gross outlays                                               28,456,093    29,070,137           2,287      130,509
 Less: Offsetting collections                                       (96)         (50)       (158,739)     (290,551)
 Less: Distributed Offsetting receipts                      (23,946,831) (24,010,756)               0            0
 Net Outlays                                                $ 4,509,166 $ 5,059,331 $       (156,452) $   (160,042)

NOTE 1. SIGNIFICANT ACCOUNTING POLICIES
1.A. Basis of Presentation
These financial statements have been prepared, in accordance with Chief Financial Officers
Act of 1990 (CFO), to report the financial position and results of operations of the Foreign
Military Sales (FMS) Trust Fund and its accounts, as identified in the President’s Budget
Request, the Foreign Operations (International Affairs) appropriated accounts. The FMS
Trust Fund accounts for U.S. government funds appropriated for security assistance and for
funds deposited by foreign countries and international organizations, or by others for their
use. The FMS Trust Fund and other accounts for funds appropriated for security assistance
are managed by the Defense Security Cooperation Agency (DSCA) on behalf of the
Department of Defense (DoD), in accordance with the authority of the Executive Office of
the President (EOP) and the requirements of the CFO Act of 1990, as expanded by the
Government Management Reform Act of 1994, and other applicable laws and regulations.
The financial statements were prepared from accounting records that are maintained by the
Military Departments, Other Defense Organizations (ODO), and the Defense Finance and
Accounting Service (DFAS) in accordance with, and to the extent possible, U.S. generally
accepted accounting principles (USGAAP) promulgated by the Federal Accounting Standards
Advisory Board (FASAB); the Office of Management and Budget (OMB) Circular No. A-136,
Financial Reporting Requirements; and the DoD Financial Management Regulation (FMR).

The accompanying financial statement information accounts for all FMS Trust Fund
resources and the accounts for funds appropriated for security assistance, unless otherwise
noted. Information relative to classified assets, programs, and operations is excluded from

ADDENDUM B                                                         Unaudited Financial Statements – DSCA
                                                         B-5
Department of Defense Agency Financial Report for FY 2011

the statements or otherwise aggregated and reported in such a manner that it is not
discernable.

The FMS Trust Fund accounting systems, including its subaccounts and the accounts for
funds appropriated for security assistance, are unable to fully implement all elements of
USGAAP and OMB Circular No. A-136 due to limitations of financial management processes,
financial systems, and nonfinancial systems and processes that support the financial
statements. Many of the accounts derive their reported values and other information for
major asset and liability categories largely from nonfinancial systems, such as the Military
Departments’ inventory and logistic systems. Such legacy systems were designed to
support reporting requirements for maintaining asset accountability and reporting the status
of federal appropriations rather than preparing financial statements consistent with
USGAAP. There are ongoing efforts to implement process and system improvements
addressing these limitations.
The Department currently has 13 auditor identified material weaknesses. Of these, the FMS
Trust Fund and the accounts for funds appropriated for security assistance may include:
(1) Financial Management Systems, (2) Intergovernmental Eliminations, (3) Fund Balance
with Treasury, (4) Statement of Net Cost, (5) Other Accounting Entries, (6) Reconciliation of
Net Cost of Operations to Budget, (7) Accounts Payable, and (8) Accounts Receivable.

1.B. Mission of the Reporting Entity
The DSCA mission is to lead, direct, and manage security cooperation programs and
resources to support the U.S. national security objectives.            Such programs build
relationships with foreign countries and international organizations that promote the U.S.
interests, develop allied and partner capacities for self-defense and coalition participation in
overseas contingency operations, and promote peacetime and contingency access for U.S.
forces. The DSCA accomplishes its responsibilities for security cooperation in concert with
the Department of State (DOS), Military Departments, other U.S. Government
organizations, U.S. industry, and non-governmental organizations. Together we provide
financial and technical assistance, Foreign Military Financing (FMF) for defense articles and
services, including training, provided through the FMS program, as well as training provided
and funded under International Military Education and Training (IMET) authorities.

1.C. Appropriations and Funds
The FMS Trust Fund is a U.S. Treasury account (Treasury Account Symbol (TAS) 8242)
which contains deposits from FMS foreign country and international organization customers,
as well as funds transferred into the account from U.S. Government appropriations, for use
in carrying out specific purposes or programs in accordance with the Arms Export and
Control Act (AECA), as amended (22 U.S.C. § 2751 et seq.), the Foreign Assistance Act of
1961 (FAA), as amended, (22 U.S.C. § 2151 et seq.), and other legal authorities. The
monies in the FMS Trust Fund are subject to U.S. Treasury account system controls from
the date of receipt to the date of expenditure or refund. At the country or customer level,
there are separate subaccounts used by the Department through DSCA and DFAS to
separately and individually account for each FMS customer’s deposits, other collections or
deposits, payments of bills, refunds, and adjustments. At the U.S. Treasury level, the

ADDENDUM B                                            Unaudited Financial Statements – DSCA
                                              B-6
Department of Defense Agency Financial Report for FY 2011

corpus of the FMS Trust Fund represents the total aggregations of balances (receipts minus
disbursements) for all activities and programs.

The Department utilizes separate U.S. Treasury Accounts for the general fund Foreign
Operations (International Affairs) appropriations. These accounts are:

•   International Military Education and Training (TAS 1081)

•   Foreign Military Financing Program Account (TAS 1082)

•   Foreign Military Loan Liquidating Account (TAS 4121)

•   Foreign Military Financing Direct Loan Financing Account (TAS 4122)

•   Military Debt Reduction Financing Account (TAS 4174)

The DSCA receives funds for the FMS Trust Fund and the accounts for funds appropriated
for security assistance as general, special, and trust funds.  The DSCA uses these
appropriations and funds to execute its missions and subsequently reports on resource
usage.

General and special appropriations transferred into the FMS Trust Fund are used for financial
transactions, including personnel, operations and maintenance of security assistance
functions, and financing of FMS, which may include sales of defense articles and services
from stock or through procurement, and the sale of foreign military construction.
The FMS Trust Fund accounts for receipts and expenditures of funds held in trust by the
U.S. government for use in carrying out specific purposes or programs in accordance with
applicable laws, regulations, and agreements.

The DSCA receives allocation transfers from certain fund(s) that meet the OMB exception,
and all related activity is included in DSCA financial statements, which are reported
separately from the DoD financial statements, for: International Military Education and
Training, Foreign Military Financing Program Account, Foreign Military Loan Liquidating
Account, Foreign Military Financing Direct Loan Financing Account, Military Debt Reduction
Financing Account, and the FMS Trust Fund. An allocation transfer is an entity’s legal
delegation of authority to obligate budget authority and outlay funds on its behalf.
Generally, all financial activity related to allocation transfers are reported in the financial
statements of the parent entity. Exceptions to this general rule will apply to specific funds
for which OMB has directed that all activity will be reported in the financial statements of
the child to the transfer. Exceptions include all U.S. Treasury-Managed Trust Funds, EOP,
and all other funds specifically designated by OMB.

1.D. Basis of Accounting
The legacy financial management systems utilized for the FMS Trust Fund and the accounts
for funds appropriated for security assistance are unable to meet full accrual accounting.
Many of the DSCA, Military Departments, and ODO financial and nonfinancial feeder systems
and processes were designed and implemented prior to the issuance of USGAAP guidance.
These legacy systems were not designed to collect and record financial information on a full
accrual accounting basis as required by USGAAP. Most of DSCA, Military Departments, and


ADDENDUM B                                           Unaudited Financial Statements – DSCA
                                             B-7
Department of Defense Agency Financial Report for FY 2011

ODO financial and nonfinancial legacy systems were designed to record information on a
budgetary basis.

The FMS Trust Fund and the accounts for funds appropriated for security assistance financial
statements and supporting trial balances are compiled from the underlying financial data
and trial balances of the Military Departments, ODOs, and their sub-entities. The underlying
data is largely derived from budgetary transactions (obligations, disbursements, and
collections), from nonfinancial feeder systems, and accruals made for major items such as
payroll expenses and accounts payable. Some of the lower level trial balances may reflect
known abnormal balances resulting largely from business and system processes. At the
consolidated Military Service and Defense Agency level, these abnormal balances may not
be evident. Disclosures of abnormal balances are made in the applicable footnotes, but only
to the extent that the abnormal balances are evident at the consolidated level.

The DSCA, with Military Departments and ODOs, is determining the actions required to
bring its financial and nonfinancial feeder systems and processes into compliance with
USGAAP.      One such action is the current revision of accounting systems to record
transactions based on the U.S. Standard General Ledger (USSGL). Until all DSCA, Military
Departments, and ODO systems and related processes have been updated to collect and
report financial information as required by USGAAP, reported financial data is based on
budgetary transactions data from nonfinancial feeder systems, and accruals.

1.E. Revenues and Other Financing Sources
As authorized by legislation, payments for the sales of defense articles and services are
deposited into the FMS Trust Fund. Appropriations provided on an annual or multiyear basis
for security assistance are a financing source and are transferred into the FMS Trust Fund,
or deposited into the accounts for funds appropriated for security assistance. Pricing for
defense articles and services, including training, is established to recover costs as required
by the AECA, the FAA, and OMB Circular A-25, User Charges. The FMS Trust Fund and the
accounts for funds appropriated for security assistance recognize revenue when earned
within the constraints of current system capabilities.

The DSCA does not include nonmonetary support provided by friendly foreign countries and
international organizations in amounts reported in the Statement of Net Cost and the
Note 21, Reconciliation of Net Cost of Operations to Budget.

The DSCA participates in assistance in kind agreements in its overseas presence. The
assistance in kind provided in support of security cooperation programs includes the use of
facilities and personnel (guards and drivers) at a small number of Security Cooperation
Offices worldwide.

1.F. Recognition of Expenses
DoD policy requires the recognition of operating expenses in the period incurred. Current
financial and nonfinancial feeder systems for the FMS Trust Fund and the accounts for funds
appropriated for security assistance were not designed to collect and record transactions on
an accrual accounting basis. Estimates are made for major items such as payroll expenses,
accounts payable, and unbilled revenue.

ADDENDUM B                                           Unaudited Financial Statements – DSCA
                                             B-8
Department of Defense Agency Financial Report for FY 2011

1.G. Accounting for Intragovernmental Activities
Accounting standards require that an entity eliminates intraentity activity and balances from
consolidated financial statements in order to prevent overstatement for business with itself.
However, DSCA cannot accurately identify most of its intragovernmental transactions
because Military Department’s systems do not track buyer and seller data needed to match
related transactions. In most cases, the buyer-side records are adjusted to agree with DoD
seller-side balances and are then eliminated. The Department is implementing replacement
systems and a standard financial information structure that will incorporate the necessary
elements that will enable DoD to correctly report, reconcile, and eliminate
intragovernmental balances.
The U.S. Treasury’s Federal Intragovernmental Transactions Accounting Policy Guide and
U.S. Treasury Financial Manual, Part 2 Chapter 4700, Agency Reporting Requirements for
the Financial Report of the United States Government provide guidance for reporting and
reconciling intragovernmental balances. The FMS Trust Fund and the accounts for funds
appropriated for security assistance are unable to fully reconcile intragovernmental
transactions with all federal agencies; however, the FMS Trust Fund is able to reconcile
balances pertaining to borrowing from the U.S. Treasury and the Federal Financing Bank,
Federal Employees’ Compensation Act (FECA) transactions with the Department of Labor,
and benefit program transactions with the Office of Personnel Management.

The DoD’s proportionate share of public debt and related expenses to the Federal
Government is not included. The Federal Government does not apportion debt and its
related costs to federal agencies. The DoD’s financial statements do not report any public
debt, interest, or source of public financing whether from issuance of debt or tax revenues.

1.H. Transactions with Foreign Governments and International
Organizations
Each year, the FMS Trust Fund and the accounts for funds appropriated for security
assistance sells defense articles and services to foreign governments and international
organizations under the provisions of the AECA. Under the provisions of the Act, the
Department has authority to sell defense articles and services to foreign countries and
international organizations generally at no profit or loss to the Federal Government.
Payment in U.S. dollars is required in advance.

1.I. Funds with the U.S. Treasury
The FMS Trust Fund monies are held in U.S. Treasury accounts and the Federal Reserve
Bank in individual accounts established by the U.S. for foreign countries. Funds held in the
Federal Reserve Bank are transferred to the FMS Trust Fund account to be disbursed for
FMS purposes.

For monetary financial resources maintained in U.S. Treasury accounts, the disbursing
offices of DFAS, the Military Departments, the U.S. Army Corps of Engineers (USACE), and
the DOS’s financial service centers process the majority of the FMS Trust Fund and the
accounts for funds appropriated for security assistance cash collections, disbursements, and


ADDENDUM B                                          Unaudited Financial Statements – DSCA
                                            B-9
Department of Defense Agency Financial Report for FY 2011

adjustments worldwide. Each disbursing station prepares monthly reports that provide
information to the U.S. Treasury on checks issued, electronic fund transfers, interagency
transfers, and deposits.

In addition, DFAS sites and USACE Finance Center submit reports to the U.S. Treasury, by
appropriation, on interagency transfers, collections received, and disbursements issued.
The U.S. Treasury records this information to the applicable Fund Balance with Treasury
(FBWT) account.     On a monthly basis, FMS Trust Fund and the accounts for funds
appropriated for security assistance FBWT is adjusted to agree with the U.S. Treasury
accounts.

1.J. Cash and Other Monetary Assets
The FMS Trust Fund only accepts U.S. dollars for payment of defense articles and services
per DoD 5015.38M Security Assistance Management Manual; Chapter 5; Foreign Military
Sales Case Development. All payments and collections are in U.S. dollars.

1.K. Accounts Receivable
The FMS Trust Fund and the accounts for funds appropriated for security assistance
accounts receivable from other federal entities or the public include accounts receivable,
claims receivable, and refunds receivable. Allowances for uncollectible accounts due from
the public are based upon analysis of collection experience by fund type. The Department
does not recognize an allowance for estimated uncollectible amounts from other federal
agencies. Claims against other federal agencies are to be resolved between the agencies in
accordance with dispute resolution procedures defined in the Intragovernmental Business
Rules published in the Treasury Financial Manual.

1.L. Direct Loans and Loan Guarantees
The DSCA administers the Foreign Military Financing program on behalf of the EOP. Direct
loans and loan guarantees are authorized by sections 23 and 24 of the AECA (P.L. 90-269,
as amended) and other specific legislation. These loans and guarantees assist friendly
foreign countries and international organizations in purchasing U.S. defense articles and
services.

1.M. Inventories and Related Property
The FMS Trust Fund and the accounts for funds appropriated for security assistance do not
maintain inventory. The defense articles are provided to the FMS customer from the U.S.
Government or the contractor pursuant to a contract with the U.S. Government. Defense
articles sold from the Department or the U.S. Coast Guard are assets of the providing
component until title is transferred to foreign customer.

1.N. Investments in U.S. Treasury Securities
Not applicable.




ADDENDUM B                                         Unaudited Financial Statements – DSCA
                                          B-10
Department of Defense Agency Financial Report for FY 2011

1.O. General Property, Plant and Equipment
Not applicable.

1.P. Advances and Prepayments
When advances are permitted by law, legislative action, or presidential authorization, DoD’s
policy is to record advances and prepayments in accordance with USGAAP. As such,
payments made in advance of the receipt of goods and services are reported as an asset on
the Balance Sheet. The DoD’s policy is to expense and/or properly classify assets when the
related goods and services are received. Not all military services who execute on behalf
DSCA have implemented this policy primarily due to system limitations.

1.Q. Leases
Lease payments for the rental of DSCA operating facilities are contracted for and classified
as operating leases. The DSCA, as the lessee, receives the use and possession of leased
property, for example real estate, from a lessor in exchange for payment of funds. An
operating lease does not substantially transfer all the benefits and risk of ownership.
Payments for operating leases are charged to expenses over the lease terms as it becomes
payable.

Office space and leases are funded by the FMS Trust Fund. These costs were gathered from
existing operating leases and General Services Administration bills, and interservice support
agreements. Future year projections use the Consumer Price Index. The FMS Trust Fund
and the accounts for funds appropriated for security assistance do not have capital leases.

1.R. Other Assets
Other assets includes civil service employee pay advances, travel advances, and certain
contract financing payments that are not reported elsewhere on the FMS Trust Fund and the
accounts for funds appropriated for security assistance Balance Sheet.

The FMS Trust Fund and the accounts for funds appropriated for security assistance conduct
business with commercial contractors using two primary types of contracts: fixed price and
cost reimbursable. Contract financing payments are defined in the Federal Acquisition
Regulations, Part 32, as authorized disbursements to a contractor prior to acceptance of
supplies or services by the Government. These payments are designed to alleviate the
potential financial burden on contractors performing on certain long-term contracts and
facilitate competition for defense contracts. Contract financing payments clauses are
incorporated in the contract terms and conditions and may include advance payments,
performance-based payments, commercial advance and interim payments, progress
payments based on cost, and interim payments under certain cost-reimbursement
contracts. It is DoD policy to record certain contract financing payments as other assets.

Contract financing payments do not include invoice payments, payments for partial
deliveries, lease and rental payments, or progress payments based on a percentage or
stage of completion. The Defense Federal Acquisitions Regulation Supplement authorizes
progress payments based on a percentage or stage of completion only for construction of


ADDENDUM B                                          Unaudited Financial Statements – DSCA
                                            B-11
Department of Defense Agency Financial Report for FY 2011

real property, shipbuilding, and ship conversion, alteration, or repair. Progress payments
based on percentage or stage of completion are reported as Construction in Progress.

1.S. Contingencies and Other Liabilities
The Statement of Federal Financial Accounting Standards (SFFAS) No. 5, Accounting for
Liabilities of the Federal Government, as amended by SFFAS No. 12, Recognition of
Contingent Liabilities Arising from Litigation, defines a contingency as an existing condition,
situation, or set of circumstances that involves an uncertainty as to possible gain or loss.
The uncertainty will be resolved when one or more future events occur or fail to occur. The
FMS Trust Fund and the accounts for funds appropriated for security assistance recognize
contingent liabilities when past events or exchange transactions occur, a future loss is
probable, and the loss amount can be reasonably estimated.
Financial statement reporting is limited to disclosure when conditions for liability recognition
do not exist but there is at least a reasonable possibility of incurring a loss or additional
losses. The FMS Trust Fund and the accounts for funds appropriated for security assistance
risk of loss due to contingencies arise as a result of pending or threatened litigation or
claims and assessments due to events such as aircraft, ship, and vehicle accidents; medical
malpractice; property or environmental damages; and contract disputes.

1.T. Accrued Leave
The FMS Trust Fund reports liabilities for military leave and accrued compensatory and
annual leave for civilians. Sick leave for civilians is expensed as taken. The liabilities are
based on current pay rates.

1.U. Net Position
Net Position consists of unexpended appropriations and cumulative results of operations.
Unexpended Appropriations represent the amounts of budget authority that are unobligated
and have not been rescinded or withdrawn. Unexpended Appropriations also represent
amounts obligated for which legal liabilities for payments have not been incurred.
Cumulative Results of Operations represent the net difference between expenses and losses
and financing sources (including appropriations, revenue, and gains) since inception. The
Cumulative results of operations also include donations and transfer in and out of assets
that were not reimbursed.

1.V. Treaties for Use of Foreign Bases
Not applicable.

1.W. Undistributed Disbursements and Collections
The FMS Trust Fund and accounts for funds appropriated for security assistance follow DoD
policy, which is to allocate supported undistributed disbursements and collections between
federal and nonfederal categories based on the percentage of federal and nonfederal
accounts payable and accounts receivable. Supported undistributed disbursements and
collections are then applied to reduce accounts payable and receivable accordingly.


ADDENDUM B                                            Unaudited Financial Statements – DSCA
                                             B-12
Department of Defense Agency Financial Report for FY 2011

Unsupported undistributed disbursements are recorded as disbursements in transit and
reduce nonfederal accounts payable. Unsupported undistributed collections are recorded in
nonfederal other liabilities.

Undistributed disbursements and collections represent the difference between
disbursements and collections matched at the transaction level to a specific obligation,
payable, or receivable in the source systems and those reported by the U.S. Treasury.
Supported disbursements and collections are evidenced by collaborating documentation.
Unsupported disbursements and collections do not have supporting documentation for the
transaction and most likely would not meet audit scrutiny.

1.X. Fiduciary Activities
Not applicable.

1.Y. Military Retirement and Other Federal Employment Benefits
Not applicable.

1.Z. Significant Events
Not applicable.

NOTE 2. NONENTITY ASSETS
 Nonentity Assets                                                                Dollars in Thousands

 As of September 30                                       2011                      2010
 Intragovernmental Assets
      Fund Balance with Treasury                    $         15,121,753     $           14,688,827
      Other Assets                                                      0                        671
      Total Intragovernmental Assets                $         15,121,753     $           14,689,498
 Nonfederal Assets
      Cash and Other Monetary Assets                $         18,160,143     $           18,647,997
      Accounts Receivable                                         712,582                   673,437
      Other Assets                                            25,223,804                 20,500,847
      Total Nonfederal Assets                       $         44,096,529     $           39,822,281
 Total Nonentity Assets                             $         59,218,282     $           54,511,779
 Total Entity Assets                                             6,302,795                 5,880,580
 Total Assets                                       $         65,521,077     $          60,392,359

Nonentity Assets are assets for which the Foreign Military Sales (FMS) Trust Fund and the
accounts for funds appropriated for security assistance maintains stewardship accountability
and reporting responsibility, but are not available for the agency’s operations.

Fund Balance with Treasury and Cash and Other Monetary Assets consist of advance
deposits from friendly countries and international organizations to facilitate the purchase of
U.S. defense articles and services based on future requirement forecasts.


ADDENDUM B                                              Unaudited Financial Statements – DSCA
                                            B-13
Department of Defense Agency Financial Report for FY 2011

Accounts Receivable consist of amounts for interest, fines, and penalties due on debt from
loans and nonfederal funds owed to the FMS Trust Fund country accounts that are in
litigation at Department of Justice or collection status at Defense Finance Accounting
Service.     Some portion of these uncollected funds may be payable to the FMS
Administrative Surcharge account, but are not discernable prior to collection.
Intragovernmental and Nonfederal Other Assets consist primarily of advances paid for
undelivered defense articles and services intended for future delivery to the FMS customer.

NOTE 3. FUND BALANCE WITH TREASURY
 Fund Balance with Treasury                                                     Dollars in Thousands

 As of September 30                                          2011                     2010
 Fund Balance
    Appropriated Funds                            $            2,632,921    $            2,568,679
    Trust Funds                                               15,121,753                14,688,827
    Other Fund Types                                           3,339,200                 2,863,549
    Total Fund Balance                            $           21,093,874    $           20,121,055
 Fund Balance Per Treasury Versus Agency
    Fund Balance per Treasury                     $           21,093,874    $           20,121,055
    Fund Balance per Agency                                   21,093,874                20,121,055
 Reconciling Amount                               $                     0   $                     0


The $3.3 billion reported as Fund Balances, Other Fund Types consists of funds on deposit
for the management of Foreign Military Sales (FMS) Administration, Contract Administrative
Services, Transportation, Attrition and General Services Administration Packing, Crating and
Handling.

 Status of Fund Balance with Treasury                                           Dollars in Thousands

 As of September 30                                         2011                     2010
 Unobligated Balances
    Available                                     $                 4,829   $              103,289
    Unavailable                                                    21,992                    32,159
 Obligated Balance not yet Disbursed                         99,455,241                 94,164,157
 Nonbudgetary FBWT                                           23,946,837                 24,010,761
 NonFBWT Budgetary Accounts                                (102,335,025)              (98,189,311)
 Total Fund Balance                               $          21,093,874     $           20,121,055


The Status of Fund Balance with Treasury (FBWT) reflects the budgetary resources to
support FBWT and is a reconciliation between budgetary and proprietary accounts. It
primarily consists of unobligated and obligated balances.       The balances reflect the
budgetary authority remaining for disbursement against current or future obligations.
Unobligated Balance is classified as available or unavailable and represents the cumulative
amount of budgetary authority that has not been set aside to cover outstanding obligations.

ADDENDUM B                                            Unaudited Financial Statements – DSCA
                                           B-14
Department of Defense Agency Financial Report for FY 2011

The unavailable balance consists primarily of funds invested in U.S. Treasury securities that
are temporarily precluded from obligation by law.          Certain unobligated balances are
restricted for future use and are not apportioned for current use. Unobligated balances for
trust fund accounts are restricted for use by the public law that established the funds.

Obligated Balance not yet Disbursed represents funds that have been obligated for goods
and services not received and those received but not paid.

Nonbudgetary FBWT includes accounts that do not have budgetary authority, such as
deposit funds, unavailable receipt account, clearing accounts and nonentity FBWT. The
Nonbudgetary FBWT consists of Contingency Operations provided to Department of Defense
in supplemental appropriations, and Contingency Operations funding transferred from
Department of State (DOS), which DOS received in supplemental appropriations.
Obligations are incurred using contract authority and liquidated with these appropriations.

NonFBWT Budgetary Accounts reduces the Status of FBWT. The NonFBWT Budgetary
Accounts primarily consists of nonentity cash deposited in the Federal Reserve Bank and
contract authority.
Unobligated balances are segregated to show available and unavailable amounts in the note
schedule. Certain unobligated balances are restricted to future use and are not apportioned
for current use. The unobligated balance is restricted for use for specific purposes and time.

NOTE 5. ACCOUNTS RECEIVABLE
 Accounts Receivable                                                            Dollars in Thousands

                                                            2011
                                                        Allowance For
                                                                                 Accounts
                                   Gross Amount Due       Estimated
                                                                               Receivable, Net
 As of September 30                                     Uncollectibles

   Intragovernmental Receivables      $           0                      N/A     $                0

   Nonfederal Receivables
                                              51,436                     (6)                51,436
   (From the Public)

 Total Accounts Receivable            $       51,436          $          (6)     $          51,430


Accounts Receivable                                                             Dollars in Thousands

                                                            2010
                                                        Allowance For
                                                                                 Accounts
                                   Gross Amount Due       Estimated
                                                                               Receivable, Net
 As of September 30                                     Uncollectibles

   Intragovernmental Receivables      $           0                      N/A      $                0

   Nonfederal Receivables
                                              42,609                       0                 42,609
   (From the Public)

Total Accounts Receivable             $       42,609          $            0      $          42,609



ADDENDUM B                                             Unaudited Financial Statements – DSCA
                                              B-15
Department of Defense Agency Financial Report for FY 2011

The accounts receivable represents the Foreign Military Sales (FMS) Trust Fund claim for
payment from other entities. The FMS Trust Fund only recognizes an allowance for
uncollectible amounts from the public. Claims with other federal agencies are resolved in
accordance with the Intragovernmental Business Rules.

NOTE 6. OTHER ASSETS
 Other Assets                                                                          Dollars in Thousands

 As of September 30                                                  2011                    2010
 Intragovernmental Other Assets
    Advances and Prepayments                                    $             0    $                   670
    Other Assets                                                              0                          0
    Total Intragovernmental Other Assets                        $             0    $                   670
    Nonfederal Other Assets
    Outstanding Contract Financing Payments                     $      2,657,874   $            1,833,123
    Advances and Prepayments                                          22,573,925              18,671,318
    Total Nonfederal Other Assets                               $     25,231,799   $           20,504,441
 Total Other Assets                                             $     25,231,799   $           20,505,111


Contract terms and conditions for certain types of contract financing payments convey
certain rights to the Foreign Military Sales (FMS) Trust Fund that protect the contract work
from state or local taxation, liens or attachment by the contractor's creditors, transfer of
property, or disposition in bankruptcy. However, these rights should not be misconstrued to
mean that ownership of the contractor’s work has transferred to the Government. The
Government does not have the right to take the work, except as provided in contract
clauses related to termination or acceptance, and the FMS Trust Fund is not obligated to
make payment to the contractor until delivery and acceptance of a satisfactory product.
The balance of Outstanding Contract Financing Payments includes $2.2 billion in contract
financing payments and an additional $500 million in estimated future payments to
contractors upon delivery and government acceptance of a satisfactory product. (See
additional discussion in Note 15, Other Liabilities).

NOTE 7. CASH AND OTHER MONETARY ASSETS
 Cash and Other Monetary Assets                                                        Dollars in Thousands

 As of September 30                                                  2011                    2010
 Cash                                                           $    18,160,143        $       18,647,997
 Total Cash, Foreign Currency, and Other Monetary Assets        $    18,160,143        $       18,647,997


Restricted cash of $18.2 billion includes advance deposits from foreign nations in the
Federal Reserve Bank which have not been transferred to the Foreign Military Sales Trust
Fund and are not available for agency use (nonentity cash).




ADDENDUM B                                                 Unaudited Financial Statements – DSCA
                                                B-16
Department of Defense Agency Financial Report for FY 2011

NOTE 8. DIRECT LOAN AND LOAN GUARANTEES
Direct Loan and Loan Guarantee Programs
The Defense Security Cooperation Agency (DSCA) operates the following direct loans and/or
loan guarantee programs:

The Arms Export Control Act, as amended, authorizes funds to be appropriated to the
President for financing the sales of defense articles and defense services to eligible foreign
countries. Each loan is reviewed in the light of the purchasing country’s financial condition,
its need for credit, U.S. economic or military assistance programs in the country and region,
and other proposed arms purchases by the country. The President delegates the Secretary
of Defense the authority to issue and guaranty loans through the designated administering
agency, DSCA. The loans are issued to friendly and less economically developed countries.
Pursuant to the authority contained in the Act, DSCA operates the four funds, known as: For
pre-1992 loans (1) Foreign Military Loan Liquidating Account (FMLLA). For post-1991 loans
(2&3) the Foreign Military Direct Loan Program and Financing Accounts for post-1991 loans,
and (4) the Military Debt Reduction Financing Account (MDRFA) for reducing loan
receivables for eligible countries.

The FMLLA is a liquidating account that includes all assets, liabilities, and equities for loan
balances recorded prior to FY 1992. No new loan disbursements are made from this
account. Certain collections made into this account are made available for default claim
payments. The Federal Credit Reform Act (FCRA) provides permanent indefinite authority
to cover obligations for default payments in the event the funds in the liquidating account
are otherwise insufficient.

Foreign Military Financing Direct Loan Program Account (FMFDLPA) is a program account
that was established pursuant to FCRA to provide the funds necessary for the subsidy
element of loans. Expenditures from this account finance the subsidy element of direct loan
disbursements and are transferred into the Foreign Military Financing Direct Loan Financing
Account (FMFDLFA) to make required loan disbursements for approved Foreign Military
Sales or commercial sales.

The FMFDLFA account is a financing account that is used to make disbursements of Foreign
Military Loan funds for approved procurements and for subsequent collections for the loans
after September 30, 1991. The account uses permanent borrowing authority from the U.S.
Treasury combined with transfers of appropriated funds from FMFDLPA account to make the
required disbursements to loan recipient country borrowers for approved procurements.
Receipts of debt service collections from borrowers are used to repay borrowings from U.S.
Treasury.

MDRFA is a financing account that was established for the debt relief of certain countries as
established by Public Law 103-87. The MDRFA buys the portfolio of loans from the FMLLA,
thus transferring the loans from the FMLLA to the MDRFA. The Paris Club negotiates the
debt forgiveness with Highly Indebted Poor Countries (HIPC).

The Paris Club has nineteen member countries that negotiate rescheduling or refinancing of
debt for HIPC. The Paris Club provides debt reduction initially on payments coming due


ADDENDUM B                                           Unaudited Financial Statements – DSCA
                                             B-17
Department of Defense Agency Financial Report for FY 2011

over a specific period corresponding to the length of an International Monetary Fund (IMF)
supported economic reform program. Reduction then is staged, with each successive stage
contingent upon debtor country compliance with its IMF-support program. Under Naples
Terms, stock of debt reduction is provided after three years of good performance with
respect to IMF reform programs and payments to Paris Club creditors. The United States
incurs the budget cost of the eventual stock of debt reduction when it agrees to the initial
“maturities” reduction of payments coming due, since bilateral agreements commit us to
stock reduction once the Paris Club agrees to provide them.

The FCRA governs all amended direct loan obligations and loan guarantee commitments
made after FY 1991 resulting in direct loans or loan guarantees.

Direct loans are reported at the net present value of the following projected cash flows: (1)
loan disbursements, (2) repayments of principal, and (3) payments of interest and other
payments over the life of the loan after adjusting for estimated defaults, prepayments, fees,
penalties, and other recoveries.

 Summary of Direct Loans and Loan Guarantees                                    Dollars in Thousands

 As of September 30                                        2011                      2010
 Loans Receivable
 Direct Loans:
    Foreign Military Loan Liquidating Account     $               958,462   $             1,052,375
    Foreign Military Financing Account                             11,259                    10,651
    Military Debt Reduction Financing Account                      14,110                    12,561
 Total Loans Receivable                           $               983,831   $             1,075,587




ADDENDUM B                                             Unaudited Financial Statements – DSCA
                                                B-18
Department of Defense Agency Financial Report for FY 2011

 Direct Loans Obligated                                                           Dollars in Thousands

 As of September 30                                           2011                      2010
 Direct Loans Obligated After FY 1992
 (Allowance for Loss Method):
 Foreign Military Loan Liquidating Account:
    Loans Receivable Gross                           $             735,510    $                873,975
    Interest Receivable                                          1,573,671                  1,455,012
    Allowance for Loan Losses                                   (1,350,719)               (1,276,612)
    Value of Assets Related to Direct Loans          $             958,462    $             1,052,375
Direct Loans Obligated After FY 1991
(Present Value Method):
 Foreign Military Financing Account:
    Allowance for Subsidy Cost (Present Value)       $               11,259   $                 10,651
    Value of Assets Related to Direct Loans          $               11,259   $                 10,651
 Military Debt Reduction Financing Account:
    Loans Receivable Gross                           $             190,745    $                190,745
    Interest Receivable                                              70,182                     56,738
    Allowance for Subsidy Cost (Present Value)                   (246,817)                  (234,922)
    Value of Assets Related to Direct Loans, Net                     14,110                     12,561
    Total Direct Loans Receivable                    $             983,831    $             1,075,587



OTHER DISCLOSURES:
The DSCA bills the countries every six months for loan repayments. Applying terms of the
loans with the countries, accrued interest receivable is calculated using the simple interest
method. Interest accrued on unpaid balances use the same interest rate plus 4 percent for
loans owed to the Federal Financing Bank.

The allowance for credit subsidy account for the FMFDLFA account is calculated taking into
consideration three transactions: (1) transfers of subsidy from the program account to the
financing account; (the subsidy is the difference between the expected cash outlays from
the U.S. Government and the present value of the expected collections); (2) interest
payments from the U.S. Treasury to the financing fund; and (3) upward adjustments due to
reestimates as U.S. Treasury borrowing rates change over time from the loan repayment
rate and an increase in estimated defaults on the loan.
The abnormal debit balance for the allowance of $11.3 million in the FMFDLF is the
unamortized portion of the subsidy that results from a credit balance reflecting the cost of
the loan to the U.S. Government. A debit balance results from: (1) interest expense paid
on U.S. Treasury borrowings and (2) downward adjustments due to reestimates when the
loan repayment rate exceeds the U.S. Treasury borrowing rate, and a decrease in estimated
defaults. The loans in the FMFDLF account are categorized as moderate to medium risk and
were expected to have an increasing amount of defaults over the years. This was built into
the subsidy amount. As the loan matured, none of the loans defaulted and the U.S.


ADDENDUM B                                                Unaudited Financial Statements – DSCA
                                                   B-19
Department of Defense Agency Financial Report for FY 2011

Treasury borrowing rates fell below some of the loan interest rates. This resulted in
downward reestimates and a negative subsidy rate for the loans, which resulted in a debit
balance in the allowance for subsidy. This unexpected debit balance has occurred for
several years due to the downward reestimates due to zero defaults.

 Total Amount of Direct Loans Disbursed                                             Dollars in Thousands

 As of September 30                                                2011                  2010
 Direct Loan Programs
    Foreign Military Financing Account                        $                0     $          125,054
    Total                                                     $                0     $          125,054


 Schedule for Reconciling Subsidy Cost Allowance Balances
 for Post FY1991 Direct Loans                                                       Dollars in Thousands

 As of September 30                                                2011                  2010
 Beginning Balance, Changes, and Ending Balance:
 Beginning Balance of the Subsidy Cost Allowance          $               224,271        $      216,696
 Adjustments
   Loans Written Off                                                           0                  (160)
   Subsidy Allowance Amortization                                          11,287                 7,735
 Total of the above Adjustment Components                 $                11,287        $        7,575
 Ending Balance of the Subsidy Cost Allowance before
                                                          $               235,558        $      224,271
 Reestimate
 Add or Subtract Subsidy Reestimate by Component
    Interest Rate Reestimate                                                   0                      0
 Total of the above Reestimate Components                                      0                      0
 Ending Balance of the Subsidy Cost Allowance             $               235,558        $      224,271

Administrative Expenses
Administrative expenses for loans are not funded in the loan program account. The Office
of Management and Budget made the decision to fund administration of loans in the Foreign
Military Financing Grant account (11*1082) since the dollar amount was so low.




ADDENDUM B                                                    Unaudited Financial Statements – DSCA
                                                   B-20
Department of Defense Agency Financial Report for FY 2011

NOTE 11. LIABILITIES NOT COVERED BY BUDGETARY RESOURCES
 Liabilities Not Covered by Budgetary Resources                                                       Dollars in Thousands

 As of September 30                                                          2011                            2010
 Intragovernmental Liabilities
      Accounts Payable                                                $                  1   $                              0
      Debt                                                            $                  0   $                              0
      Other                                                                         111                               120
      Total Intragovernmental Liabilities                             $             112      $                        120
 Nonfederal Liabilities
      Military Retirement and Other Federal Employment Benefits                     487                               486
      Total Nonfederal Liabilities                                    $             487      $                        486
 Total Liabilities Not Covered by Budgetary Resources                 $             599      $                        606
 Total Liabilities Covered by Budgetary Resources                     $      60,229,768      $                55,529,363
 Total Liabilities                                                    $      60,230,367      $                55,529,969


The Liabilities Not Covered by Budgetary Resources includes liabilities for which
congressional action is needed before budgetary resources can be provided. These liabilities
are categorized as not covered because there is no current or immediate appropriation
available for liquidation.
Military Retirement and Other Federal Employment Benefits consists of Federal Employee
Compensation Act (FECA) actuarial liabilities of $487.4 thousand that is not due and payable
during the current fiscal year. Refer to Note 17, Military Retirement and Other Federal
Employment Benefits, for additional details and disclosures.
Intragovernmental Liabilities Other, represents the amount payable to Department of Labor
for FECA liabilities.

NOTE 12. ACCOUNTS PAYABLE
 Accounts Payable                                                                                    Dollars in Thousands

                                                                          2011
                                                                  Interest, Penalties,
                                       Accounts Payable           and Administrative                     Total
 As of September 30                                                      Fees
 Intragovernmental Payables            $             334,081                        N/A          $               334,081
 Nonfederal Payables
 (To the Public)                                     285,823                         0                           285,823
 Total Accounts Payable                $             619,904      $                   0          $               619,904




ADDENDUM B                                                        Unaudited Financial Statements – DSCA
                                                     B-21
Department of Defense Agency Financial Report for FY 2011

 Accounts Payable                                                                     Dollars in Thousands

                                                                2010
                                                      Interest, Penalties,
                                  Accounts Payable    and Administrative                  Total
 As of September 30                                          Fees
 Intragovernmental Payables       $         189,675                        N/A    $             189,675
 Nonfederal Payables
 (To the Public)                            330,940                          0                  330,940
 Total Accounts Payable           $         520,615   $                      0    $             520,615


Accounts Payable includes amounts owed to federal and nonfederal entities for goods and
services received by Foreign Military Sales (FMS) Trust Fund and the accounts for funds
appropriated for security assistance.

The systems utilized by the FMS Trust Fund and the accounts for funds appropriated for
security assistance do not track intragovernmental transactions by customer at the
transaction level. The FMS therefore cannot reconcile accounts payable with other federal
entities. Buyer-side accounts payable are adjusted to agree with interagency seller-side
accounts receivable.

NOTE 13. DEBT
 Debt                                                                                 Dollars in Thousands

                                                              2011
 As of September 30           Beginning Balance       Net Borrowing              Ending Balance
Agency Debt
(Intragovernmental)
    Debt to the Treasury           $       41,442         $             2,158     $                43,600
    Debt to the Federal
                                          421,547                    (124,238)                    297,309
    Financing Bank
Total Debt                         $      462,989         $          (122,080)    $               340,909


 Debt                                                                                 Dollars in Thousands

                                                              2010
 As of September 30           Beginning Balance       Net Borrowing              Ending Balance
Agency Debt
(Intragovernmental)
    Debt to the Treasury           $       37,819         $             3,623     $                41,442
    Debt to the Federal
                                          581,743                    (160,196)                    421,547
    Financing Bank
Total Debt                         $      619,562         $          (156,573)    $               462,989




ADDENDUM B                                            Unaudited Financial Statements – DSCA
                                            B-22
Department of Defense Agency Financial Report for FY 2011

The Federal Credit Reform Act (FCRA) of 1990 provides financing accounts with indefinite
authority to borrow from the U.S. Treasury to fund disbursements of loans made to
sovereign nations for security assistance. This debt to the U.S. Treasury is reflected in the
Foreign Military Financing Direct Loan Financing account and the Military Debt Reduction
account.
Beginning in January 1975, the Defense Security Cooperation Act (DSCA) and the Federal
Financing Bank (FFB), acting under section 24 of the Arms Export Control Act, as amended,
entered into an agreement whereby the FFB would make loan agreements with friendly
nations and acquire promissory notes guaranteed by DSCA. The promissory notes are
considered DSCA borrowings from the FFB. The promissory notes still owed to the FFB are
reflected in the Foreign Military Loan Liquidating account.
The majority of the debt represents direct and guaranteed loans to foreign countries for
pre-1992 and post-1991 loans. The FCRA governs all direct loan obligations and loan
guarantee commitments made after FY 1991. Before 1992, funds were borrowed from the
FFB to either directly loan the funds to foreign countries or to reimburse guaranteed loans
defaulted. Beginning in 1992, based on the FCRA, the security assistance program began
borrowing the funds from the U.S. Treasury.
The DSCA must pay the debt if the foreign country borrower defaults on the loan. For loan
defaults, DSCA must pay the outstanding principal amounts guaranteed.

NOTE 15. OTHER LIABILITIES
Other Liabilities                                                                        Dollars in Thousands

                                                                        2011
                                                                      Noncurrent
                                              Current Liability                                Total
As of September 30                                                     Liability
Intragovernmental
  FECA Reimbursement to the
                                               $              52       $           59      $             111
  Department of Labor
  Custodial Liabilities                                           0            661,153              661,153
  Total Intragovernmental Other Liabilities    $              52       $       661,212     $        661,264
Nonfederal
  Accrued Funded Payroll and Benefits          $            157        $            0      $             157
  Advances from Others                                55,899,255           2,657,874             58,557,129
  Contract Holdbacks                                      50,517                    0                50,517
  Contingent Liabilities                                          0                 0                      0
   Total Nonfederal Other Liabilities          $      55,949,929       $   2,657,874       $     58,607,803
Total Other Liabilities                        $      55,949,981       $   3,319,086       $     59,269,067




ADDENDUM B                                                 Unaudited Financial Statements – DSCA
                                                   B-23
Department of Defense Agency Financial Report for FY 2011

Other Liabilities                                                                         Dollars in Thousands

                                                                         2010
                                                                       Noncurrent
                                               Current Liability                                Total
As of September 30                                                      Liability
Intragovernmental
   FECA Reimbursement to the
                                                $              54       $           66      $             120
   Department of Labor
   Custodial Liabilities                                           0            630,828              630,828
   Total Intragovernmental Other Liabilities    $              54       $       630,894     $        630,948
Nonfederal
   Accrued Funded Payroll and Benefits          $             416       $            0      $             416
   Advances from Others                                52,047,828           1,833,123             53,880,951
   Contract Holdbacks                                      33,564                    0                33,564
   Contingent Liabilities                                          0                 0                      0
   Total Nonfederal Other Liabilities           $      52,081,808       $   1,833,123       $     53,914,931
Total Other Liabilities                         $      52,081,862       $   2,464,017       $     54,545,879



Other Liabilities
Advances from Others includes $2.7 billion related to contracts authorizing progress
payments based on cost as defined in the Federal Acquisition Regulation (FAR). In
accordance with contract terms, specific rights to the contractors’ work vest with the Federal
Government when a specific type of contract financing payment is made. This action
protects taxpayer funds in the event of contract nonperformance. These rights should not
be misconstrued as rights of ownership. The Department is under no obligation to pay
contractors for amounts greater than the amounts authorized in contracts until delivery and
government acceptance. Due to the probability the contractors will complete their efforts
and deliver satisfactory products, and because the amount of potential future payments are
estimable, the Department has recognized a contingent liability for estimated future
payments which are conditional pending delivery and government acceptance.

Total Advances from Others for progress payments based on cost represent the difference
between the estimated costs incurred to date by contractors and amounts authorized to be
paid under progress payments based on cost provisions within the FAR.           Estimated
contractor-incurred costs are calculated by dividing the cumulative unliquidated progress
payments based on cost by the contract-authorized progress payment rate. The balance of
unliquidated Progress Payments Based on Cost is deducted from the estimated total
contractor-incurred costs to determine the contingency amount.

NOTE 16. COMMITMENTS AND CONTINGENCIES
Claims may be presented and/or the U.S. Government may be a party in various
administrative proceedings or court litigations, but it is highly unlikely that any can implicate
the Foreign Military Sales Trust Fund. The U.S. funds appropriated for security assistance
generally are not legally available for paying claims.



ADDENDUM B                                                  Unaudited Financial Statements – DSCA
                                                    B-24
Department of Defense Agency Financial Report for FY 2011

NOTE 17. MILITARY RETIREMENT AND OTHER FEDERAL EMPLOYMENT
BENEFITS
 Military Retirement and Other Federal Employment Benefits                              Dollars in Thousands

                                                                  2011
                                                   Assumed          (Less: Assets
                                                                                            Unfunded
                                 Liabilities     Interest Rate     Available to Pay
                                                                                            Liabilities
 As of September 30                                   (%)             Benefits)
Pension and Health Actuarial
Benefits
   FECA                          $         487              0.0          $        0.0       $             487
   Total Military Retirement
   and Other Federal             $         487              0.0          $        0.0       $             487
   Employment Benefits


 Military Retirement and Other Federal Employment Benefits                              Dollars in Thousands

                                                                  2010
                                                   Assumed          (Less: Assets
                                                                                            Unfunded
                                 Liabilities     Interest Rate     Available to Pay
                                                                                            Liabilities
 As of September 30                                   (%)             Benefits)
Pension and Health Actuarial
Benefits
   FECA                          $         486              0.0          $        0.0       $             486
   Total Military Retirement
   and Other Federal             $         486              0.0          $        0.0       $             486
   Employment Benefits


FEDERAL EMPLOYEES’ COMPENSATION ACT
Actuarial Cost Method Used and Assumptions:
The Defense Security Cooperation Agency Foreign Military Sales (FMS) Trust Fund actuarial
liability for workers’ compensation benefits is developed by the Department of Labor and
provided to the FMS Trust Fund at the end of each fiscal year. The liability for future
workers’ compensation benefits includes the expected liability for death, disability, medical,
and miscellaneous costs for approved compensation cases, plus a component for incurred
but not reported claims. The liability is determined using a method that utilizes historical
benefit payment patterns related to a specific incurred period to predict the ultimate
payments related to that period. Consistent with past practice, these projected annual
benefit payments have been discounted to present value using OMB’S economic
assumptions for 10-year Treasury notes and bonds. Interest rate assumptions utilized for
discounting were as follows:

        Discount Rates

        3.54 percent in Year 1

        4.03 percent in Year 2 and thereafter


ADDENDUM B                                                Unaudited Financial Statements – DSCA
                                                 B-25
Department of Defense Agency Financial Report for FY 2011

To provide more specifically for the effects of inflation on the liability for future workers’
compensation benefits, wage inflation factors (cost of living adjustments or COLAs) and
medical inflation factors (consumer price index medical or CPIMs) were applied to the
calculation of projected future benefits. The actual rates for these factors for the charge
back year (CBY) 2011 were also used to adjust the methodology’s historical payments to
current year constant dollars.

The compensation COLAs and CPIMs used in the projections for various CBYs were as
follows:

                           Federal Employees — Compensation Act (FECA)
                 CBY                              COLA                             CPIM
                 2012                              2.10%                           3.07%
                 2013                              2.53%                           3.62%
                 2014                              1.83%                           3.66%
                 2015                              1.93%                           3.73%
                 2016+                             2.00%                           3.73%

The model’s resulting projections were analyzed to ensure that the estimates were reliable.
The analysis was based on four tests: (1) a sensitive analysis of the model to economic
assumptions; (2) a comparison of the percentage change in the liability amount to the
percentage change in the actual incremental payments; (3) a comparison of the incremental
paid losses per case (a measure of case-severity) in CBY 2011 to the average pattern
observed during the most current three CBYs; (4) a comparison of the estimated liability per
case in the CBY 2011 projection to the average pattern for the projections of the most
recent three years.

NOTE 18. GENERAL DISCLOSURES RELATED TO THE STATEMENT OF NET
COST
 Costs and Exchange Revenue                                                            Dollars in Thousands

 As of September 30                                                 2011                     2010
Operations, Readiness & Support
1. Gross Cost
      A. Intragovernmental Cost                             $        3,416,436     $            1,814,121
      B. Nonfederal Cost                                    $       21,271,005     $           21,703,202
      C. Total Cost                                         $       24,687,441     $           23,517,323
2. Earned Revenue
      A. Intragovernmental Revenue                          $              (738)   $                (3,940)
      B. Nonfederal Revenue                                 $         (33,603)     $            (130,918)
      C. Total Revenue                                      $         (34,341)     $            (134,858)
3. Losses/(Gains) from Actuarial Assumption Changes for
Military Retirement Benefits                                $                      $
Total Net Cost                                              $       24,653,100     $           23,382,465




ADDENDUM B                                                 Unaudited Financial Statements – DSCA
                                                   B-26
Department of Defense Agency Financial Report for FY 2011

 Costs and Exchange Revenue                                                           Dollars in Thousands

 As of September 30                                                2011                     2010
Consolidated
1. Gross Cost
      A. Intragovernmental Cost                            $        3,416,436     $            1,814,121
      B. Nonfederal Cost                                   $       21,271,005     $          21,703,202
      C. Total Cost                                        $       24,687,441     $           23,517,323
2. Earned Revenue
      A. Intragovernmental Revenue                         $              (738)   $                (3,940)
      B. Nonfederal Revenue                                $         (33,603)     $            (130,918)
      C. Total Revenue                                     $         (34,341)     $            (134,858)
3. Losses/(Gains) from Actuarial Assumption Changes for
Military Retirement Benefits                               $                      $                     0
4. Costs Not Assigned to Programs
5. (Less: Earned Revenues) Not Attributed to Programs      $                      $
Total Net Cost                                             $       24,653,100     $           23,382,465


Intragovernmental costs and revenue are related to transactions made between two
reporting entities within the Federal Government.

The Statement of Net Cost (SNC) represents the net cost of programs and organizations of
the Federal Government supported by appropriations or other means. The intent of the
SNC is to provide gross and net cost information related to the amount of output or
outcome for a given program or organization administered by a responsible reporting entity.
The Department’s current processes and systems do not capture and report accumulated
costs for major programs based upon the performance measures as required by the
Government Performance and Results Act. The Department is in the process of reviewing
available data and developing a cost reporting methodology as required by the Statement of
Federal Financial Accounting Standards (SFFAS) No. 4, “Managerial Cost Accounting
Concepts and Standards for the Federal Government”, as amended by SFFAS No. 30, “Inter-
entity Cost Implementation.”

Intragovernmental costs and revenue represent transactions made between two reporting
entities within the Federal Government.

Public costs and revenues are exchange transactions made between the reporting entity and
a nonfederal entity.

The systems utilized by Defense Security Cooperation Agency for the Foreign Military Sales
(FMS) Trust Fund and the accounts for funds appropriated for security assistance do not
track intragovernmental transactions by customer at the transaction level. In 3rd quarter
2010, the FMS Trust Fund incorporated the DoD trading partner process. The FMS Trust
Fund adjusted expenses by reclassifying amounts between federal and nonfederal expenses
and accruing additional payables and expenses. Intradepartment revenues and expenses
are then eliminated.



ADDENDUM B                                                Unaudited Financial Statements – DSCA
                                                   B-27
Department of Defense Agency Financial Report for FY 2011

The DSCA does not meet accounting standards.          Information presented is based on
budgetary obligations, disbursements, and collections transactions, as well as nonfinancial
feeder systems adjusted to record known accruals for major items such as payroll expenses
and accounts payable.

NOTE 19. DISCLOSURES RELATED TO THE STATEMENT OF CHANGES IN NET
POSITION
The Appropriations Received on the Statement of Budgetary Resources do not agree with
Appropriations on the Statement of Changes in Net Position. The difference of $24 billion is
due to the Foreign Military Sales Trust Fund receipts from foreign governments that
liquidate contract authority, but are not recorded as appropriations on the Statement of
Changes in Net Position. These receipts are transferred from the receipt account to cover
disbursements as they occur, similar to the receipt of appropriations.

NOTE 20. DISCLOSURES RELATED TO THE STATEMENT OF BUDGETARY
RESOURCES
 Disclosures Related to the Statement of Budgetary Resources                               Dollars in Thousands

 As of September 30                                                           2011                2010
 Net Amount of Budgetary Resources Obligated for Undelivered Orders at
                                                                         $   121,409,053     $   112,315,078
 the End of the Period.


On the Statement of Budgetary Resources (SBR), obligations incurred of $33.8 billion are
direct and exempt from apportionment.

The SBR includes intraentity transactions because the statements are presented combined.

Borrowings from the U.S. Treasury are required to be repaid once a year at the end of the
fiscal year. The financing sources for the repayments on borrowings are loan repayments
from the countries or permanent indefinite appropriations through subsidy reestimates.

The portions of the Foreign Military Sales (FMS) Trust Fund receipts collected in the current
fiscal year that exceed current outlays are temporarily precluded from obligation by law.
These receipts, however, are available for obligation as needed in the future.
The Federal Credit Reform Act of 1990 (FCRA) provides permanent indefinite appropriations
to fund upward subsidy reestimates that fund repayments of principal and interest of U.S.
Treasury borrowings with the Foreign Military Financing Direct Loan Program and the
Military Debt Reduction Financing Account. The FCRA also provides permanent indefinite
appropriations to fund loan defaults with the Federal Financing Bank in the Foreign Military
Loan Liquidating Account.
The Appropriations on the SBR do not agree with Appropriations Received on the Statement
of Changes in Net Position. The difference of $24 billion is due to the FMS Trust Fund
contract authority not being reported as appropriation received on the Statement of
Changes in Net Position.
Legal limitations and time restriction on the use of unobligated appropriation balances are
provided under Public Law.

ADDENDUM B                                                    Unaudited Financial Statements – DSCA
                                                    B-28
Department of Defense Agency Financial Report for FY 2011

Unobligated Balances Apportioned includes an abnormal balance of $22.9 million in USSGL
account 4510 (Apportionments). This was systematically created to reverse funding in
order to keep the trial balance and reconciliation in balance.

NOTE 21. RECONCILIATION OF NET COST OF OPERATIONS TO BUDGET
    Reconciliation of Net Cost of Operations to Budget                                                Dollars in Thousands

    As of September 30                                                                  2011                    2010
    Resources Used to Finance Activities:
    Budgetary Resources Obligated:
       Obligations incurred                                                        $    33,771,432          $    32,902,219
       Less: Spending authority from offsetting collections and recoveries (-)           (180,802)                (314,210)
       Obligations net of offsetting collections and recoveries                    $    33,590,630          $    32,588,009
       Less: Offsetting receipts (-)                                                   (23,946,831)             (24,010,756)
       Net Budgetary Resources Obligated                                           $     9,643,799          $     8,577,253
    Total resources used to finance activities                                     $     9,643,799          $     8,577,253
    Resources Used to Finance Items not Part of the Net Cost of Operations
    Change in budgetary resources obligated for goods, services and
    benefits ordered but not yet provided:
       Undelivered Orders (-)                                                      $    9,093,975)      $        9,279,409)
       Resources that fund expenses recognized in prior Periods                                 (8)                       0
    Budgetary offsetting collections and receipts that do not affect Net Cost of
                                                                                        24,105,570               24,301,304
    Operations
    Resources that finance the acquisition of assets (-)                                    (2,287)               (130,507)
    Total resources used to finance items not part of the Net Cost of
                                                                                   $    15,009,300      $        14,891,388
    Operations
    Total resources used to finance the Net Cost of Operations                     $    24,653,099      $        23,468,641
    Components of the Net Cost of Operations that will not Require or Generate Resources
    in the Current Period
    Components Requiring or Generating Resources in Future Period:
       Other (+/-)                                                                 $             1      $                71
    Total components of Net Cost of Operations that will Require or
                                                                                   $             1      $                71
    Generate Resources in future periods
    Components not Requiring or Generating Resources:
       Revaluation of assets or liabilities                                        $             0      $           (86,247)
    Total components of Net Cost of Operations that
                                                                                   $             1      $           (86,176)
    will not Require or Generate Resources in the current period
    Net Cost of Operations                                                         $    24,653,100      $        23,382,465


The following Reconciliation of Net Cost of Operations to Budget lines are presented as
combined instead of consolidated due to intraagency budgetary transactions not being
eliminated:
•      Obligations Incurred

•      Less: Spending Authority from Offsetting Collections and Recoveries

ADDENDUM B                                                             Unaudited Financial Statements – DSCA
                                                            B-29
Department of Defense Agency Financial Report for FY 2011

•   Obligations Net of Offsetting Collections and Recoveries
•   Less: Offsetting Receipts

•   Net Obligations
•   Undelivered Orders

•   Unfilled Customer Orders
Components Requiring or Generating Resources in Future Period, Other represents the FECA
liabilities and the related actuarial liabilities not requiring current year budget authority.
Due to the Foreign Military Sales Trust Fund system limitations, budgetary data is not in
agreement with proprietary expenses and assets capitalized. The difference between
budgetary and proprietary data is a previously identified deficiency.




ADDENDUM B                                           Unaudited Financial Statements – DSCA
                                            B-30
 


Contributors to the
Fiscal Year 2011 Agency Financial Report

In addition to the significant contributions of the individuals listed below, many
other individuals in the Office of the Secretary of Defense and the Military Services
contributed to the development of this Agency Financial Report.




    Crystal D. Allen         Bonnie M. Hammersley           Paula J. Rebar
    Colonel Mark E. Allen    John T. Hastings               Ginger Bressler Rice
    Lyndi Balven             Galen M. Heflin                Jean M. Rice
    William Beasley          John J. Hunter                 Sandra V. Richardson
    Sally C. Beecroft        Patty Issler                   Terry L. Roberts
    Debora Brand             Robert T. Jennings             Angela M. Rogers
    Steven Bringle           Joseph M. Jones                John P. Roth
    Javier Castro            Bryan Kitchens                 John F. Ruoff
    Nina Chun                Robert J. Koss                 Kathy Sherrill
    Victoria A. Crouse       Gregory P. Kuechler            Thomas F. Simoes
    Gerald Davenport         Joseph Leonard                 Dr. Robert Francis Smith
    Thomas P. Dee            Lt. Col. Vincent R. Littrell   Justin Sweetman
    M. Scott Deutsch         Mark S. Loepker                Stephen Tabone
    Monique Dilworth         Joseph W. Lontos, Jr.          Steve Tkac
    Dr. Michael Dinneen      Jerome S. Macken               Steve Weidenkopf
    Mark E. Easton           Faafiti Malufau                Keith Welk
    Colonel John S. Fant     Michael J. Metzger             Brent White
    Daniel Folliard          CAPT Reece D. Morgan           Anthony A. Wisdom
    Linda J. Gileau          Marianne Petty                 Peter Wright
    Sandra A. Gregory        Carol S. Phillips              James R. Wroten
    David R. Gross           Joseph O. Quinn                Dwight Young
    Robert F. Hale           Robert G. Ravas                Jennifer N. Zakriski
       WELCOMEE TO THE
    DEPARTMENT
             T OF DEFENSE

          We are interested in your feedback
         regarding the conttent of this report.

      Please feel free to sen
                            nd your comments to

                  DoDAFR@
                        @osd.mil

                          or

          United States Depa
                           artment of Defense
Office of the Under Secretarry of Defense (Comptroller)
                 1100 Defens
                           se Pentagon
              Washington,
                     g    D 20301‐1100
                          DC

        You may also view this document at:
   http://comptroller.defen
                          nse.gov/afr/fy2011.html




  KNOW YOU
         UR BUSINESS
   CONTROL YOUR
              R FUTURE
